No. 21-

IN THE

pìéêÉãÉ `çìêí çÑ íÜÉ råáíÉÇ pí~íÉë
_______________
DAKOTA ACCESS, LLC,
Petitioner,
v.
STANDING ROCK SIOUX TRIBE, ET AL.,
Respondents.
_______________
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The District Of Columbia Circuit
_______________
APPENDIX TO PETITION
FOR A WRIT OF CERTIORARI
VOLUME II OF III
_______________
MIGUEL A. ESTRADA
Counsel of Record
WILLIAM S. SCHERMAN
DAVID DEBOLD
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
(202) 955-8500
mestrada@gibsondunn.com
Counsel for Dakota Access, LLC

i
TABLE OF APPENDICES
Page
VOLUME I
APPENDIX A:
Opinion of the U.S. Court of Appeals for
the District of Columbia Circuit, 985
F.3d 1032 (Jan. 26, 2021) .............................. 1a
APPENDIX B:
U.S. Army Corps of Engineers,
Environmental Assessment – Dakota
Access Pipeline Project Crossings for
Flowage Easements and Federal Lands
(July 2016) ................................................... 41a
APPENDIX C:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Remanding Environmental
Assessment, 255 F. Supp. 3d 101 (June
14, 2017) ..................................................... 359a
VOLUME II
APPENDIX D:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Ordering Remaind Without
Vacatur, 282 F. Supp. 3d 91 (Oct. 11,
2017) ........................................................... 466a
APPENDIX E:
U.S. Army Corps of Engineers,
Memorandum
for
Record
on
Consideration of Issues Remanded (Aug.
31, 2018) ..................................................... 500a

ii
APPENDIX F:
U.S. Army Corps of Engineers, Review
and Analysis of Tribes’ Submissions
(Aug. 31, 2018) (Redacted) ........................ 503a
APPENDIX G:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Granting Summary Judgment
in Favor of Plaintiffs, 440 F. Supp. 3d 1
(Mar. 25, 2020) ........................................... 776a
APPENDIX H:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Ordering Vacatur, 471 F.
Supp. 3d 71 (July 6, 2020) ......................... 826a
APPENDIX I:
Per Curiam Order of the U.S. Court of
Appeals for the District of Columbia
Circuit Granting in Part and Denying in
Part Defendants’ Motions for a Stay
Pending Appeal (Aug. 5, 2020) .................. 855a
APPENDIX J:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Denying Plaintiffs’ Motion for
Clarification
and
a
Permanent
Injunction, -- F. Supp. 3d -- (May 21,
2021) ........................................................... 858a
APPENDIX K:
Order of the U.S. Court of Appeals for
the District of Columbia Circuit Denying
Rehearing En Banc (Apr. 23, 2021) .......... 895a

iii
APPENDIX L:
Statutory Provisions and Regulations
Involved ...................................................... 897a
5 U.S.C. § 702 ....................................... 897a
5 U.S.C. § 706 ....................................... 898a
30 U.S.C. § 185 (a), (b), (f), (h) ............. 899a
42 U.S.C. § 4332(2)(C).......................... 901a
33 C.F.R. pt. 325, App. B (2019) .......... 903a
40 C.F.R. § 1501.4 (2019) ..................... 908a
40 C.F.R. § 1508.28 (2019) ................... 910a
VOLUME III (SEALED)
APPENDIX M:
U.S. Army Corp of Engineers, Analysis of
the Issues Remanded (Aug. 31, 2018) ....... 913a

466a
____________________
APPENDIX D
____________________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
STANDING ROCK SIOUX
TRIBE,
Plaintiff,
and
CHEYENNE RIVER SIOUX
TRIBE,
Plaintiff-Intervenor,
v.
U.S. ARMY CORPS OF
ENGINEERS,

Civil Action No.
16-1534 (JEB)
(and Consolidated Case Nos.
16-1769 and 16267)

Defendant,
and
DAKOTA ACCESS, LLC,
Defendant-Intervenor
and Cross-Claimant.
MEMORANDUM OPINION
The dispute over the Dakota Access Pipeline has
now taken nearly as many twists and turns as the
1,200-mile pipeline itself. On June 14, 2017, in its
third Opinion on the case, this Court held that the
U.S. Army Corps of Engineers had failed to fully follow the National Environmental Protection Act when

467a
it determined that the pipeline would not have a significant environmental impact. Although the Court
found that the agency had “substantially complied”
with the statute, the Opinion identified three discrete
deficiencies in the Corps’ analysis and remanded the
matter to the agency for further evaluation. In doing
so, the Court asked the parties to submit further briefing on the question such an action raised: what is the
proper remedy during this remand period? Specifically, the Court must determine whether or not to vacate the Corps’ environmental assessment, as well as
the easement granted to Dakota Access in reliance on
that determination. Without such an easement, the
oil cannot flow through the pipeline.
The propriety of vacatur during remand is determined by a two-prong test that requires the Court to
consider (1) the seriousness of the deficiencies in the
agency action and (2) the disruptive consequences of
vacating that prior approval. As to the first, the Court
ultimately concludes that the three errors identified
in the prior Opinion are not fundamental or incurable
flaws in the Corps’ original analysis; rather, the
agency has a significant possibility of justifying its
prior determinations on remand. Although the Court
finds that the equities of disruption do not tip sharply
in Defendants’ favor on the second factor, prevailing
on the first is enough here for them to avoid vacatur.
I.

Procedural History

The lengthy factual history of this case is set forth
in this Court’s prior Opinion, Standing Rock Sioux
Tribe v. U.S. Army Corps of Engineers (Standing Rock
III), 255 F.Supp.3d 101, 2017 WL 2573994 (D.D.C.
June 14, 2017), and need not be repeated here. Suffice

468a
it to say that Plaintiffs, the Standing Rock and Cheyenne River Sioux Tribes (and other intervenors and
consolidated Plaintiffs), strongly oppose the current
route of the Dakota Access Pipeline (DAPL), a nearly
1,200-mile domestic pipeline running from North Dakota to Illinois. In particular, the Tribes protest
DAPL’s crossing at Lake Oahe, a federally regulated
body of water that borders their reservations. Created
by the Corps in 1958 via a dam constructed on the
Missouri River, the Lake is a primary source of water
for the Tribes, and it is considered sacred to their spiritual practices. Id. at *3.
A. History of Litigation
For the past fourteen months, the Tribes have attempted to prevent oil from flowing under Lake Oahe.
The instant case began on July 25, 2016, when Standing Rock filed its Complaint against the Corps for declaratory and injunctive relief pursuant to the National Historic Preservation Act, National Environmental Policy Act, Clean Water Act, and the River and
Harbors Act. See ECF No. 1 (SRST Complaint),
¶¶ 128-212. The following month, Dakota Access LLC
successfully moved to intervene in support of the
Corps, see ECF No. 7, and the Cheyenne River Sioux
Tribe intervened as a Plaintiff, subsequently filing its
own Complaint. See ECF No. 11-12 (CRST Complaint). The Tribes’ first pass at preventing the pipeline was a motion for a preliminary injunction based
solely on the NHPA, asserting that the ongoing clearing and grading of the land along DAPL’s route disrupted sacred Tribal sites. See Standing Rock Sioux
Tribe v. U.S. Army Corps of Engineers (Standing Rock
I), 205 F.Supp.3d 4, 8-9 (D.D.C. 2016). On September

469a
9, 2016, the Court denied emergency relief, and construction proceeded. Id. at 37.
On February 8, 2017, the Corps finally granted
Dakota Access an easement pursuant to the Mineral
Leasing Act, authorizing it to cross federal lands at
Lake Oahe and complete the pipeline. See ECF No.
172-11 (Easement). The next day, Cheyenne River
filed a motion for preliminary injunction and an application for a temporary restraining order, this time alleging violations of RFRA. See ECF Nos. 98, 99;
Standing Rock Sioux Tribe v. U.S. Army Corps of Engineers (Standing Rock II), 239 F.Supp.3d 77, 81
(D.D.C. 2017), appeal dismissed, No. 17-5043, 2017
WL 4071136 (D.C. Cir. May 15, 2017). Believing these
religious-freedom claims unlikely to succeed, the
Court issued a second Opinion denying the preliminary injunction. See Standing Rock II, 239 F.Supp.3d
at 80.
B. Motions for Summary Judgment
As these emergency motions were ongoing, the
parties filed cross-motions for summary judgment.
See ECF Nos. 117 (SRST MSJ); 131 (CRST MSJ); 172
(Corps MSJ); 185 (DA MSJ). Now focusing on their
environmental claims, the Tribes challenged the
Corps’ decision to issue the easement on the basis of
its July 25, 2016, Environmental Assessment (EA)
and Mitigated Finding of No Significant Impact
(FONSI), asserting that the agency had violated
NEPA by failing to complete an Environmental Impact Statement (EIS). NEPA requires that federal
agencies evaluate the environmental effects of major
government actions, but it does not “mandate particular results.” Robertson v. Methow Valley Citizens

470a
Council, 490 U.S. 332, 350 (1989). Instead, the statute
“imposes only procedural requirements.” Dep’t of
Transp. v. Public Citizen, 541 U.S. 752, 756 (2004). If
a project will “significantly” affect the “quality of the
human environment,” NEPA requires that the agency
complete a detailed EIS. See 42 U.S.C. § 4332(C). To
determine whether or not there will be such significant effects, however, the agency first prepares a
shorter EA. This “concise public document” discusses
the need for the proposal, the alternatives, the environmental impacts of the proposed action, and the
agencies and persons consulted. See 40 C.F.R.
§ 1508.9(b). If the EA concludes that there will be no
significant environmental impact, the agency may
forgo completing a full EIS.
This was the route chosen by the Corps in this
case. See ECF Nos. 172-1, 172-2 (EA and FONSI).
The agency’s EA and FONSI explained that, given the
proposed mitigation measures and Defendants’ assessment of DAPL’s “anticipated environmental, economic, cultural . . . social[, and] cumulative effects,”
the pipeline’s crossing at Lake Oahe would not “significantly affect the quality of the human environment.” FONSI at 6. The Tribes argued in their briefing that “[t]he Corps’ conclusion that the Oahe crossing was not significant enough to warrant an EIS” was
“arbitrary, capricious, and contrary to law.” SRST
MSJ at 17.
C. Prior Opinion and Remand
On June 14, 2017, two weeks after DAPL became
fully operational, the Court granted in part and denied in part the parties’ motions and remanded certain issues to the Corps. See Standing Rock III, 2017

471a
WL 2573994, at *40. It rejected Plaintiffs’ motion
with respect to their claims under the Clean Water
Act and the Mineral Leasing Act, and it also upheld
the majority of the Corps’ determinations under
NEPA—including the agency’s “top-line conclusion”
that the risk of an oil spill was sufficiently low so as
to not require an EIS. Id. at *12, 16. It granted the
Tribes’ motion, however, with respect to three discrete
flaws in the Corps’ environmental analysis. The
Court held that the Corps had insufficiently addressed: (1) the degree to which the project’s effects
are likely to be highly controversial; (2) the consequences of a spill for the Tribes’ fishing and hunting
rights; and (3) the environmental-justice impacts of
the project. Id. at *1. Although the Court remanded
these issues to the Corps for further analysis, it did
not decide whether the easement should be vacated
pending such remand. Instead, it ordered the parties
to submit briefing on “whether remand with or without vacatur is appropriate in light of the deficiencies
herein identified and any disruptive consequences
that would result given the current stage of the pipeline’s operation.” Id. at *29.
This briefing is now complete, and the Court must
determine whether or not oil may continue to flow under Lake Oahe. Although the parties dispute what,
precisely, vacatur would entail, see ECF Nos. 277 (DA
Reply) at 1 n.1; 276 (Corps Reply) at 9; 280 (Tribes
Sur-reply) at 1, the prior Opinion clearly stated that
vacatur would require that DAPL “cease operations”
during remand. Standing Rock III, at *28. The Court
therefore assumes at this stage that such a remedy
would vacate the Corps’ prior EA and FONSI, as well

472a
as the easement it granted to Dakota Access in reliance on these determinations. Without this authorization, DAPL cannot lawfully continue to operate the
pipeline on federal land.
II. Legal Standard
Under the caselaw of this Circuit, “vacating a rule
or action promulgated in violation of NEPA is the
standard remedy.” Humane Soc. of U.S. v. Johanns,
520 F.Supp.2d 8, 37 (D.D.C. 2007) (citing Am. Bioscience, Inc. v. Thompson, 269 F.3d 1077, 1084 (D.C. Cir.
2001)); see Reed v. Salazar, 744 F.Supp.2d 98, 118-20
(D.D.C. 2010) (finding NEPA violation and ordering
vacatur); Sierra Club v. Van Antwerp, 719 F.Supp.2d
77, 78-80 (D.D.C. 2010) (finding NEPA violation and
ordering remand with partial vacatur); Greater Yellowstone Coal. v. Kempthorne, 577 F.Supp.2d 183,
204-05, 210 (D.D.C. 2008) (finding NEPA violation
and ordering vacatur). Yet, although vacatur is the
“presumptively appropriate remedy,” it is not the only
option. See Sierra Club, 719 F.Supp.2d at 78. Instead, as equity requires, the reviewing court has discretion leave the agency action in place. See, e.g., Advocates for Hwy. & Auto Safety v. Fed. Motor Carrier
Safety Admin., 429 F.3d 1136, 1151 (D.C. Cir. 2005)
(remanding without vacatur); Int’l Union, United
Mine Workers of Am. v. Fed. Mine Safety & Health
Admin., 920 F.2d 960, 966-67 (D.C. Cir. 1990) (same).
The test for whether or not a court should vacate
a deficient agency action during remand comes from
this Circuit’s decision in Allied-Signal v. U.S. Nuclear
Regulatory Commission, 988 F.2d 146, 150-51 (D.C.
Cir. 1993). As Allied-Signal explained, “[T]he decision
whether to vacate depends on the seriousness of the

473a
order’s deficiencies (and thus the extent of doubt
whether the agency chose correctly) and the disruptive consequences of an interim change that may itself
be changed.” Id. at 150-151 (internal citation omitted). Put otherwise, this Court must determine
whether there is “at least a serious possibility that the
[agency] will be able to substantiate its decision on remand,” and whether vacatur will lead to impermissibly disruptive consequences in the interim. See Nat’l
Parks Conservation Ass’n v. Jewell, 62 F.Supp.3d 7,
20 (D.D.C. 2014); Williston Basin Interstate Pipeline
Co. v. FERC, 519 F.3d 497, 504 (D.C. Cir. 2008) (declining to vacate when “significant possibility that the
[agency] may find an adequate explanation for its actions”). The question for the Court today is thus
whether this is the “type of case that merits departure
from the presumptive remedy of vacatur.” Pub. Employees for Envtl. Responsibility v. United States Fish
& Wildlife Serv., 189 F.Supp.3d 1, 2-3 (D.D.C. 2016),
appeal dismissed, No. 16-5224, 2016 WL 6915561
(D.C. Cir. Oct. 31, 2016). It therefore examines the
two prongs of Allied-Signal separately below, bearing
in mind that “[t]here is no rule requiring either the
proponent or opponent of vacatur to prevail on both
factors.” Shands Jacksonville Med. Ctr. v. Burwell,
139 F.Supp.3d 240, 270 (D.D.C. 2015).
III. Analysis
A. Seriousness of Deficiencies
The first prong of the Allied-Signal test requires
the Court to determine the “seriousness” of the deficiencies in the underlying agency action. Here, Defendants argue that the three inadequacies identified

474a
by the Court—namely, the Corps’ failure to adequately address the degree to which the project’s effects are likely to be highly controversial, the impacts
of a spill on fish or game, and the environmental-justice impacts of a spill—are not significant deficiencies
in the agency’s prior analysis. See ECF No. 258
(Corps Brief). Noting that the Court previously rejected the majority of Plaintiffs’ challenges, Defendants contend that there are “only a few remaining
tasks for the Corps to complete on remand” in order to
substantiate the prior EA. See ECF No. 260 (DA
Brief) at 19. Plaintiffs, unsurprisingly, cast the
Court’s Opinion in quite a different light. The Tribes
assert that the Court granted their motion for summary judgment on “three grounds that go to the heart
of this dispute, and that are fundamental to the Tribes
and their treaty rights.” ECF No. 272 (Tribes Brief)
at 1. These issues, the Tribes contend, cast “considerable doubt” upon the Corps’ decision to forgo a full
EIS. See Tribes’ Sur-reply at 10.
Under Allied-Signal, the severity of an agency’s
errors below turns on “the extent of doubt whether [it]
chose correctly.” 988 F.2d at 150-51. The Court therefore must assess the likelihood that, on remand, the
Corps will be able to justify its prior decision to issue
an EA and FONSI, rather than preparing a full EIS.
Such assessment looks at each issue in turn.
1. Highly Controversial
The prior Opinion found that the Corps had failed
to fully consider “the degree to which [DAPL’s] effects
on the quality of the human environment are likely to
be highly controversial.” Standing Rock III, 2017 WL
2573994, at *13 (citing 40 C.F.R. § 1508.27(b)(4)).

475a
This factor must be addressed in “cases where a substantial dispute exists as to the size, nature, or effect
of the major federal action rather than to the existence
of opposition to a use.” Town of Cave Creek, Arizona
v. FAA, 325 F.3d 320, 331 (D.C. Cir. 2003). Here, the
Court found that certain of the Tribes’ expert reports
submitted after July 24, 2016, created such a controversy and thus directed the Corps to address those
“scientific critiques.” Standing Rock III, 2017 WL
2573994, at *14. Plaintiffs contend that doing so on
remand will require Defendants to “explicitly . . .
find[ ] meritless each of the many technical criticisms
and supporting data” in the expert reports. See Tribes
Brief at 19. They therefore assert that the Court’s
holding reflects not an “easily explained oversight,”
but a “substantial legal flaw.” Id. at 20. Defendants
feel differently. The Corps argues that, as noted in
the prior Opinion, the record after remand may
demonstrate that Defendants “reasonably” determined that the Tribes’ reports had “material flaws.”
Corps Brief at 10; Standing Rock III, 2017 WL
2573994, at *14. The agency asserts, moreover, that
there is a serious possibility that the 36 conditions on
the existing easement already address any of the experts’ legitimate concerns. See Corps Brief at 10-11.
The Court recognizes that the “lack of a reasoned
explanation is a serious failing in an agency’s decision,
because it leaves the Court in doubt as to whether the
agency chose correctly in making its decision.” AARP
v. United States Equal Employment Opportunity
Comm’n, 2017 WL 3614430, at *16 (D.D.C. Aug. 22,
2017) (internal citation omitted). The question with
respect to vacatur, however, is the extent of that
doubt. See Allied-Signal, 988 F.2d at 150. In this

476a
case, the Court did not find that the expert reports
submitted after July 25, 2016, presented an insurmountable obstacle to justifying the Corps’ prior EA.
Rather, the Opinion stated that “[i]t may well be the
case that the Corps reasonably concluded that these
expert reports were flawed or unreliable and thus did
not actually create any substantial evidence of controversial effects.” Standing Rock III, 2017 WL 2573994,
at *14. What was missing, the Court found, was that
the Corps “never said as much.” Id.
Correcting this flaw does not require that Defendants begin anew, but only that they better articulate
their reasoning below. Courts have declined to grant
vacatur in similar circumstances, finding that agencies should instead be “afford[ed] a reasonable opportunity to . . . provide a reasoned explanation” of their
choices. See Am. Radio Relay League, Inc. v. FCC, 524
F.3d 227, 242 (D.C. Cir. 2008); Heartland Reg’l Med.
Ctr. v. Sebelius, 566 F.3d 193, 198 (D.C. Cir. 2009)
(“When an agency may be able readily to cure a defect
in its explanation of a decision, the first factor in Allied-Signal counsels remand without vacatur.”); Black
Oak Energy, LLC v. F.E.R.C., 725 F.3d 230, 244 (D.C.
Cir. 2013) (declining to vacate agency action when
“plausible that [agency] can redress its failure of explanation on remand while reaching the same result”); Williston Basin, 519 F.3d at 504 (declining to
vacate when “significant possibility that the [agency]
may find an adequate explanation for its actions”).
This Court agrees. Although the Corps must give
careful consideration to the expert critiques, it is well
positioned to provide such explanation on remand. Indeed, addressing the degree to which the project is
likely to be highly controversial fits squarely within

477a
the realm of those “factual disputes” committed to
agency expertise. See Wis. Valley Improvement Co. v.
FERC, 236 F.3d 738, 746 (D.C. Cir. 2001) (citation
omitted); FBME Bank Ltd. v. Lew, 209 F.Supp.3d 299,
342 (D.D.C. 2016) (finding that the “fair likelihood
that the agency will be able to make use of its expertise to justify its reliance on data and information”
counsels in favor of remand without vacatur). On remand, the Corps must exercise its judgment in analyzing Plaintiffs’ expert critiques. The Court finds a
serious possibility that, in doing so, it will be able to
substantiate the prior EA.
2. Fishing and Hunting
The second deficiency identified in the prior Opinion was the Corps’ neglecting to properly assess the
impact of an oil spill on fish and game—two resources
protected by the Tribes’ treaty rights. Standing Rock
III, 2017 WL 2573994, at *16-17. As with the first issue, Plaintiffs assert that remedying this error will
necessitate in-depth analysis through an EIS. See
Tribes Brief at 21. Defendants counter that, given the
minimal risk of an oil spill, there is a substantial possibility that DAPL will have “no significant impacts”
on the Tribes’ hunting and fishing rights. See Corps
Brief at 11. They therefore maintain that the Corps
will likely substantiate that DAPL’s effects on fishing
and hunting, if any, do not require an EIS.
On this issue, Defendants’ task on remand is a
narrow one. As the Court previously noted, the
agency did not “wholly ignore the consequences of a
possible oil spill” on the Tribes’ treaty rights. Standing Rock III, 2017 WL 2573994, at *16. The Corps’
analysis fell short, however, when it “stat[ed] simply

478a
that ‘[t]he primary issue related to impacts on the
aquatic environment from operation of [DAPL] would
be related to a release from the pipeline,’” without explaining “what those effects would be.” Id. at *17.
Likewise, although the agency addressed the effects of
pipeline construction on wildlife, it failed to consider
the consequences of a spill. Id. These two gaps in the
Corps’ analysis were improper under NEPA, but they
are far from incurable. Although the Tribes assert
that the record on remand will support the need for an
EIS because it “is replete with evidence of the significance of these rights to the Tribe[s],” Tribes Brief at
20, the Court already held that NEPA does not require
any such “existential-scope analysis.” Standing Rock
III, 2017 WL 2573994, at *15. While the Tribes now
reiterate that they place a “high importance . . . on
hunting and fishing,” Tribes Brief at 21, the Corps on
remand must take a “hard look” at the impact of
DAPL on only the resources themselves.
Here, the record shows that the agency is well situated to conduct such an inquiry. It has already gathered information regarding Lake Oahe’s fish and wildlife, and it has conducted a lengthy analysis of the possible toxicity arising from various spill scenarios. See
Standing Rock III, 2017 WL 2573994, at *17; ECF No.
172-1 at 58-59 (discussing wildlife near Lake Oahe);
104 (same); 101 (discussing exposure of Lake Oahe
fish to oil spill); 47-48 (same); 45-46 (discussing potential toxic effects of spill). On remand, the Corps must
simply connect the dots. This, then, is not a case in
which the agency “must redo its analysis from the
ground up.” North Carolina v. EPA, 531 F.3d 896, 929
(D.C. Cir. 2008). The agency already has the data it
needs to determine the impact of a spill on fish and

479a
game—indeed, it has already concluded that “under
no spill scenario would the acute toxicity threshold for
aquatic organisms be exceeded.” Standing Rock III,
2017 WL 2573994, at *17. The Corps, moreover, will
assess the significance of any consequences on fish
and game in light of its prior determination that the
risk of rupture under Lake Oahe is low. See New York
v. NRC, 681 F.3d 471, 478-79 (D.C. Cir. 2012) (holding
that agency “may find no significant impact if . . . the
combination of probability and harm is sufficiently
minimal”). The record suggests, therefore, that the
Corps “may be able readily to cure a defect in its explanation of [the prior] decision.” Heartland Reg’l
Med. Ctr. v. Sebelius, 566 F.3d 193, 198 (D.C. Cir.
2009). Although the agency may ultimately conclude
that this issue nonetheless requires a full EIS, the
Court finds that there is a strong likelihood that it will
instead substantiate its prior decision to issue an EA.
3. Environmental Justice
The last issue concerns the environmental-justice
impacts of the Lake Oahe crossing. The Tribes challenged the selection of that site over an alternative location upstream of Bismarck, North Dakota, arguing
that the Corps had failed to properly analyze whether
the current placement of the pipeline could disproportionately affect low-income, minority communities.
See ECF 117-19 (SRST MSJ). The Court agreed. It
held that the Corps’ “cursory” analysis did not “reasonably support the conclusion that the [Standing
Rock Sioux] Tribe will not be disproportionately affected by an oil spill in terms of adverse human health
or environmental effects.” Standing Rock III, 2017
WL 2573994, at *23. In particular, the Court cast
doubt upon the Corps’ decision to use census tracts

480a
upstream from the Lake Oahe site—when oil spills
flow downstream—and to consider the communities
within only a half-mile radius of the crossing, given
that the Standing Rock Reservation is located .55
miles downstream. Id. at *20-21. In light of these
flaws and the “minimal” discussion of environmental
justice in the EA, the Court concluded that the agency
“did not properly consider the environmental-justice
implications of the project.” Id. at *23.
Characterizing the Corps’ environmental-justice
assessment as “fatally flawed,” Tribes Brief at 22,
Plaintiffs contend that a valid analysis would “inevitably conclude” that the pipeline disproportionately
affects Native American and low-income populations,
and thus would “yield a different outcome on the core
question of whether an EIS is required.” Id. at 23.
Defendants, of course, disagree, rejoining that “given
the low risk of an oil spill, it is unlikely that . . . a different buffer and environmental justice analysis” will
yield a new result on remand. See Corps Brief at 10.
Although it is a closer call than the first two issues, the Court concludes that the flaws in the Corps’
environmental-justice analysis do not support vacatur. The agency’s action was not, in this case, so lacking as to cast serious doubt on its decision to issue an
EA. The prior Opinion explicitly stated that the Corps
“need not necessarily have addressed” each concern
raised by the Tribes, but only that it must “offer more
than a bare-bones conclusion that Standing Rock
would not be disproportionately harmed by a spill.”
Standing Rock III, 2017 WL 2573994, at *23; see Sierra Club v. FERC, 867 F.3d 1357, 1370 (D.C. Cir.
2017) (holding that the “goal of an environmental-justice analysis is satisfied if an agency recognizes and

481a
discusses a project’s impacts on predominantly-minority communities”); Latin Americans for Soc. & Econ.
Dev. v. Adm’r of Fed. Highway Admin., 756 F.3d 447,
477 (6th Cir. 2014) (noting that “[e]nvironmental impacts and environmental justice issues are a consideration in agency decision making, but are not controlling”). Although the Corps must provide a more robust analysis on remand, there is reason to think that,
in doing so, it has a substantial possibility of validating its prior conclusion.
Indeed, contrary to the Tribes’ statement that a
finding of a disproportionate impact would necessitate
an EIS, the relevant agency guidance expressly contemplates the use of an EA to address such concerns.
See ECF No. 117-19 (CEQ, Environmental Justice
Guidance Under the National Environmental Policy
Act, Dec. 10, 1997) at 15 (“Where a potential environmental justice issue has been identified by an agency,
the agency should state clearly in the EIS or EA
whether, in light of all the facts and circumstances, a
disproportionately high and adverse human health or
environmental impact on . . . Indian tribe[s] is likely
to result from the proposed action.”) (emphasis
added). As a result, even if Defendants did conclude
on remand that a crossing at the Lake Oahe site may
disproportionately affect minority or tribal populations, such an outcome would not compel the Corps to
alter its prior decision to issue an EA and FONSI.
Additionally, multiple aspects of the record suggest that the Corps is likely to justify issuing an EA,
rather than completing an EIS. First, as with the
hunting-and-fishing analysis, the minimal risk of an
oil spill under Lake Oahe reduces the likelihood that

482a
the project will have a significant impact on the surrounding communities. See Sierra Club, 867 F.3d at
1369 (upholding environmental-justice analysis when
agency concluded, in part, that “the project would not
have a ‘high and adverse’ impact on any population,
meaning, in the agency’s view, that it could not have
a ‘disproportionately high and adverse’ impact on any
population, marginalized or otherwise”); Allen v. Nat’l
Institutes of Health, 974 F.Supp.2d 18, 47 (D. Mass.
2013) (upholding environmental-justice analysis
when project was located in area with larger low-income and minority populations, but agency concluded
that “the likelihood of [adverse effects] is extremely
low”).
Second, the impact of any such spill, if it were to
occur, is in part mitigated by the relocation of the
Standing Rock water-intake structure. The new
structure is situated approximately 50 miles further
downstream from the Lake Oahe crossing than the old
site, and it is outside even the furthest radius suggested by Standing Rock as appropriate for evaluating
the environmental-justice impacts of the pipeline. See
Standing Rock III, 2017 WL 2573994, at *19; ECF No.
117-24 (Memorandum from David Cooper, Chief
Counsel, Corps, Oct. 20, 2016) at 19. Plaintiffs assert
that the old intake structure is still in operation, see
ECF No. 272-3 (Third Decl. of Dave Archambault, II),
¶ 10, but they cannot dispute that the new site will
mitigate at least some of their concerns regarding the
relative impact of a spill on the Tribes’ drinking water.
Finally, the Corps’ already-conducted assessment
of the alternative pipeline route through Bismarck increases the likelihood that the agency will find that
DAPL’s environmental-justice impacts do not require

483a
an EIS. Under NEPA, the consideration of such alternative routes is relevant to the Corps’ environmentaljustice review on remand, as the statute requires only
that the agency “grapple[ ] with the disparate impacts
of the various possible pipeline routes.” Sierra Club,
867 F.3d at 1369. As the CEQ guidance states, “The
identification of a disproportionately high and adverse
human health or environmental effect on a[n] . . . Indian tribe does not preclude a proposed agency action
from going forward, nor does it necessarily compel a
conclusion that a proposed action is environmentally
unsatisfactory.” CEQ at 10. “Rather, the identification of such an effect should,” inter alia, “heighten
agency attention to alternatives (including alternative sites).” Id.
As the prior Opinion discussed, the alternative
Bismarck crossing would pass much closer to a drinking-water intake than the Lake Oahe location does.
See Standing Rock III, 2017 WL 2573994, at *18-19;
ECF No. 209-16 at 5 (Memorandum from Tom Siguaw, Dakota Access, & Steve Rove, HDR Engineering,
Apr. 12, 2016). The two water intakes downstream
from the Bismarck site serve 84,504 people, while
those downstream from the Oahe intakes serve 8,037.
See Standing Rock III, 2017 WL 2573994, at *18-19.
Risks presented to this tenfold increase in population
must, of course, be considered when the Corps evaluates the environmental-justice impacts, if any, of the
Lake Oahe crossing. See Sierra Club, 867 F.3d at
1371 (noting that, in conducting its environmentaljustice analysis, agency “also considered four route alternatives . . . but rejected them all, mainly on the
ground that they would have had a greater overall im-

484a
pact on residences and populated areas”); Latin Americans for Soc. & Econ. Dev., 756 F.3d at 477 (finding
that agency took requisite hard look at environmental-justice issues when it considered alternatives to
avoid or minimize disproportionately high adverse impacts and “reasonably determined its priorities based
on all the comparative information available”). Under
NEPA, an agency is “not required to select the course
of action that best serves environmental justice, only
to take a ‘hard look’ at environmental justice issues.”
Sierra Club, 867 F.3d at 1368; see Latin Americans
for Soc. & Econ. Dev., 756 F.3d at 476 (“Just as the
[agency] is not required to select an alternative with
the least environmental impact under NEPA, the
[agency] is not required to select an alternative with
the least environmental justice impact.”). The Court
finds that there is a substantial possibility that the
Corps will meet this standard on remand and will substantiate its prior decision to proceed with the Lake
Oahe crossing without an EIS.
In reaching this decision, however, the Court does
not seek to minimize the importance of the Tribes’ environmental-justice concerns. The purpose of this
analysis under NEPA is to ensure that the government properly accounts for the “interrelated cultural,
social, occupational, historical, or economic factors
that may amplify the natural and physical environmental effects” of agency actions. See CEQ Guidance
at 9. There is no doubt that our nation’s history is
replete with examples of Native American tribes bearing the brunt of government action. See ECF No. 2701 (Brief of Amici Curiae Great Plains Tribal Chairmen’s Association, et al.) at 6-8. And Chairman
Archambault is eloquent on why the Tribes believe

485a
that this pipeline embodies another transgression.
See Archambault Decl., ¶¶ 12-20. Yet the Court’s role
here is not to determine the wisdom of agency action
or to opine on its substantive effects. See Robertson,
490 U.S. at 351 (holding that “NEPA merely prohibits
uninformed—rather than unwise—agency action”).
Instead, it must consider only the Corps’ likelihood on
remand of fulfilling NEPA’s procedural environmental-justice requirements and justifying its prior decision.
*

*

*

In cases in which the agency’s reasoning is “so
crippled as to be unlawful,” vacatur is generally the
appropriate remedy. See Radio-Television News Directors Ass’n v. FCC, 184 F.3d 872, 888 (D.C. Cir.
1999). If, however, the action is “potentially lawful
but insufficiently or inappropriately explained,” remand without vacatur may instead be imposed. Id.
As is evident from the discussion above, this case falls
within the latter category. Here, the Corps’ decision
to produce only an EA, rather than an EIS, is “potentially lawful.” The errors below were substantial, but
they do not present fundamental flaws in Defendants’
reasoning. Although Plaintiffs contend that the issues on remand go to the “heart” of their opposition to
this project, see Tribes Brief at 1, the question for vacatur is not the importance of the issue, but the extent
of the error. Here, the Court cannot say that the deficiencies in the prior EA and FONSI are “crippling”
flaws in the Corps’ analysis. The Court previously
found that the Corps “largely complied” with NEPA’s
requirements, and it granted remand on only a narrow subset of the Tribes’ NEPA claims. See Standing

486a
Rock III, 2017 WL 2573994, at *28. The lengthy procedural history of this case shows, moreover, that
there has been nothing hasty about the Corps’ decisionmaking thus far. There is no reason to think that
it will be any less thorough in analyzing the three deficiencies on remand. In light of the agency’s substantial compliance with NEPA, the Court finds that the
Corps has a significant likelihood of being able to substantiate its prior conclusions and determines that
the first prong of the Allied-Signal framework thus
counsels in favor of remand without vacatur.
B. Disruptive Consequences
The second consideration in determining whether
to remand without vacatur is “the disruptive consequences of an interim change that may itself be
changed.” Allied-Signal, 988 F.2d at 150-51; see Conservation Law Found. v. Pritzker, 37 F.Supp.3d 254,
271 (D.D.C. 2014). On this issue, the parties have
much to say about the disruption, or lack thereof, that
will result if the Court vacates the Corps’ prior decisions. As discussed below, the Court concludes that
this factor weighs only slightly in favor of remand
without vacatur.
1. Direct Disruption
Defendants and their amici spend much of their
briefing spelling out what they believe are potentially
dire economic consequences of vacatur. Dakota Access, for example, asserts that if the pipeline is
paused, North Dakota’s oil producers will face severe
costs and delays. See DA Brief at 14; ECF No. 279
(Amici Curiae Brief of American Fuel and Petrochemical Manufacturers) at 6 (stating that “direct financial

487a
impact” of taking DAPL out of service “would be staggering”). The company contends that other pipelines,
refineries, and downstream users of the oil currently
transported in DAPL would also “suffer greatly” and
would be forced into “emergency arrangements” to
compensate for the shutdown. See DA Brief at 14.
The impact of vacatur, Dakota Access posits, would
place in peril the jobs of all those currently involved
in DAPL’s operations and would prevent Dakota Access from being able to perform the contracts it has
entered into with producers. Id. at 18. Defendants
assert that such a halt in pipeline operations would
also deprive state and local governments of millions of
dollars in tax revenue and would undermine new industries that support DAPL operations. See Brief of
American Fuel Manufacturers, et al. at 8, 10. Finally,
Defendants argue that these effects would be passed
on to consumers, claiming that the disruptive market
effects of vacatur would have “significant ripple effects.” DA Brief at 15. In total, Dakota Access declares that issuing vacatur in this case would incur
costs of hundreds of millions of dollars. Id. at 18.
The Tribes contest both the accuracy and the relevance of Defendants’ economic concerns. As to the
former, Plaintiffs have submitted declarations asserting that “DAPL revenues” are likely “substantially
less than indicated” by Defendants and stating that a
DAPL shutdown “will not result in the severe disruptions claimed by the Corps and Dakota Access.” ECF
No. 272-5 (Declaration of Ian Goodman), ¶¶ 41, 43.
They therefore argue that the company’s claims “regarding loss of revenues and other potential impacts
of a DAPL shutdown should not be relied upon to determine the likely impacts” of vacatur. Id., ¶ 41. As

488a
to the latter, the Tribes question whether “financial
impacts” carry “much or even any weight” when evaluating the second Allied-Signal factor in NEPA cases.
See Tribes’ Brief at 25.
As an initial matter, the Court rejects Plaintiffs’
suggestion that it should wholly disregard the potential for financial disruption. Although this perspective has been suggested in at least one district court
decision, see Ctr. for Food Safety v. Vilsack, 734
F.Supp.2d 948, 953 (N.D. Cal. 2010), it is clear that
courts in this Circuit have repeatedly considered the
economic implications of vacatur—including in cases
addressing environmental harms. See Am. Water
Works Ass’n v. EPA, 40 F.3d 1266, 1273 (D.C. Cir.
1994) (declining to vacate rule addressing lead in
drinking water in part because “vacatur would be unnecessarily disruptive to the [affected] industries”);
Sierra Club v. U.S. Dep’t of Agric., Rural Utilities
Serv., 841 F.Supp.2d 349, 363 (D.D.C. 2012) (NEPA
decision considering potential “substantial financial
loss if the Court were to vacate” under second AlliedSignal prong); Friends of the Capital Crescent Trail v.
Fed. Transit Admin., 218 F.Supp.3d 53, 60 (D.D.C.
2016) (acknowledging that “delay in [agency] project
could impose significant financial costs”); see also California Communities Against Toxics v. U.S. EPA, 688
F.3d 989, 993-94 (9th Cir. 2012) (declining to vacate
in part because stopping construction of power plant
would be “economically disastrous”).
That the Court will consider Defendant’s allegations of financial harm does not, however, mean that
it will necessarily give determinative effect to such
claims. Defendants’ cri de coeur over lost profits and
industrial inconvenience is not fully convincing. Such

489a
is the nature of doing business, especially in an area
fraught with bureaucracy and litigation. Dakota Access began pumping oil into the pipeline with full
knowledge that Plaintiffs were contesting the easement allowing them to do so. By nonetheless proceeding with its venture, the company assumed some risk
of economic disruption. See ECF No. 259-2 (Declaration of David Murk), ¶ 8 (stating that impact of vacatur would not have been severe “had DAPL not begun
operations in June 2017”).
There is, moreover, some cause for skepticism regarding Dakota Access’s predictions of economic devastation. This is not the first time the company has
staked out this position—it previously claimed that
delays in the pipeline would have disastrous economic
effects. During the first preliminary-injunction briefing, the company warned that contracts for DAPL
could be canceled if it was not able to start delivering
oil by January 1, 2017. See ECF No. 22-1 (Declaration
of Joey Mahmoud, Aug. 18, 2016), ¶¶ 69-70. Yet the
pipeline did not come on line until June, and no apparent calamity ensued. See ECF 277-12 (Second
Declaration of Lee Hanse), ¶ 4 (stating that “no contracts have been renegotiated or terminated”). The
Court thus cannot conclude that, in the case of a halt
in DAPL operations, the company would have no alternative option.
The empirical basis for Defendants’ assertion that
vacatur would have catastrophic economic effects is,
additionally, sharply contested by the Tribes. See
Goodman Decl., ¶¶ 43-48, 75 (asserting that impacts
to energy systems and market due to vacatur would
likely be “small to very small”). Indeed, it is unclear
from the current record how much oil is even flowing

490a
through the pipeline at this time. Compare id., ¶¶ 1925 (stating that DAPL appears to be operating at partial capacity) with DA Brief at 13 (claiming that DAPL
carries equivalent of 500,000 barrels per day) with DA
Reply at 6 (citing figure of 300,000 barrels per day).
The parties ask the Court to wade into this war of the
crude-oil experts. Yet, because it declines to rely
heavily on economic impact as a justification for issuing vacatur, the Court need not resolve this factual
dispute. See Pub. Employees for Envtl. Responsibility, 189 F.Supp.3d at 3 (stating that “absent a strong
showing . . . that vacatur will unduly harm economic
interests . . . [,] the Court is reluctant to rely on economic disruption” in denying vacatur).
Beyond the data, there are broader concerns with
Defendants’ economic claims. Dakota Access and its
amici focus almost exclusively on the financial and industrial implications of a temporary DAPL shutdown.
In doing so, they address the “potentially disruptive
effects of vacatur as if they occur in a vacuum,” thus
giving short shrift to the “potentially disruptive effects that could flow from remand without vacatur.”
Friends of the Capital Crescent Trail v. Fed. Transit
Admin., 218 F.Supp.3d 53, 60 (D.D.C. 2016). Here,
there is no doubt that allowing oil to flow through the
pipeline during remand risks the potentially disruptive effect about which the Tribes are most concerned—a spill under Lake Oahe. The likelihood of
any such rupture may be low, but pausing the operation of the pipeline would mitigate even this small
risk. By emphasizing the financial impacts of vacatur,
Defendants ignore the “devastating” consequences

491a
that the Tribes allege could result from remand without such a remedy in place. See Archambault Decl.,
¶ 10-11.
This economic myopia ignores the fact that the
possible effects of an oil spill on the Tribes’ treaty
rights and communities were at the center of this
Court’s prior Opinion. See Standing Rock III, 2017
WL 2573994, at *10. Defendants unfairly downplay
these concerns. Indeed, the Corps alleges that “loss of
life is notably absent from Plaintiffs’ discussion of potential worse-case spills.” Corps Reply at 8. Yet one
need only refer to the Tribes’ declarations to see that
they do, in fact, assert that such drastic harms could
flow from a spill under Lake Oahe. See ECF Nos. 11716 (Declaration of Jeff Kelly), ¶¶ 5-9 (stating that
many Tribal members rely on hunting and fishing to
survive); 272-3, Exh. B (Letter from Dave Archambault to Acting Assistant Sec. Lamont and Colonel
Henderson) at 4 (discussing serious, life-threatening
health and safety consequences of potential oil spill);
131-4 (Declaration of Harold Frazier) (stating that
water shortage on reservation previously caused
“death of four children in a house fire” due to insufficient water supply for firefighting). Although the
Court acknowledges the potential for economic disruption, these interests do not inherently trump the
risk of environmental disruption if vacatur is withheld. See Pub. Employees for Envtl. Responsibility,
189 F.Supp.3d at 3 (stating that it is “not clear that
economic concerns are as relevant in an environmental case”) (emphasis added).
The Court notes, moreover, that denying vacatur
on the basis of alleged economic harm risks creating
undesirable incentives for future agency actions. If

492a
projections of financial distress are sufficient to prevent vacatur, the Court fears that agencies and third
parties may choose to devote as many resources as
early as possible to a challenged project—and then
claim disruption in light of such investments. Such a
strategy is contrary to the purpose of NEPA, which
seeks to ensure that the government “looks before it
leaps.” ECF No. 269-1 (Brief of Amici Curiae of Law
Professors and Practitioners) at 5. Finding that vacatur’s alleged financial harms are dispositive under the
second prong of Allied-Signal may encourage agencies
to instead act first and ask later. In sum, although
the Court concludes that there is likely to be some economic disruption from vacatur, this factor does not
weigh heavily in Defendants’ favor under the AlliedSignal test.
2. Alternative Transport
In addition to asserting that vacatur would have
devastating economic effects, Defendants also argue
that such a remedy would not, in fact, ameliorate
Plaintiffs’ concerns during the remand period. Dakota
Access contends that, if vacatur is granted, the oil currently flowing through the pipeline will be re-routed
onto trains. See DA Brief at 15-16. The company
states that this form of transport involves a greater
risk of accidents and thus argues that vacatur would
put the Tribes in more environmental peril than the
current status quo. Id. Plaintiffs dispute both the
facts and the premise of this position. The Tribes contend that there is little data supporting the proposition that train transport would be used in lieu of
DAPL. They point instead to expert reports stating
that, if DAPL were shut down, “much of” the crude
currently flowing under Lake Oahe would “shift back

493a
to . . . other pipelines, rather than to rail.” Goodman
Decl., ¶ 62. The Tribes also contest the relative safety
of the two modes of transport, referring to their expert’s conclusion that it is “incorrect to state that pipelines are ‘undeniably safer’ than rail,” and that pipelines such as DAPL are “capable of releasing substantially more oil than trains.” Id., ¶¶ 87-88. Examining
the respective routes and capacities of train lines and
DAPL, the report concludes that, for the Tribes,
“DAPL has [a] . . . much greater risk than does crude
by rail.” Id., ¶ 114. Finally, the Tribes contend that
Defendants miss the mark by relying upon the overall
risks presented by train transport versus pipelines.
Instead, Plaintiffs contend that the Court should concern itself solely with the risk to the Tribes from
DAPL and its current crossing at Lake Oahe. See
Tribes’ Sur-reply at 15.
In considering the transport question, both parties acknowledge that this Circuit has “previously remanded without vacatur . . . if vacating ‘would at least
temporarily defeat . . . the enhanced protection of the
environmental values covered by [the statute at issue].’” Ctr. for Biological Diversity v. Envtl. Prot.
Agency, 861 F.3d 174, 188 (D.C. Cir. 2017). In Davis
Cty. Solid Waste Mgmt. v. U.S. E.P.A., 108 F.3d 1454
(D.C. Cir. 1997), for instance, this Circuit found emissions guidelines to be legally inadequate, but declined
to vacate them during the remand process because
“greater pollution emissions would occur” without
leaving the guidelines in place. Id. at 1459-60. Similarly, in American Farm Bureau Federation v. EPA,
559 F.3d 512 (D.C. Cir. 2009), the court remanded but
did not vacate a deficient agency standard governing

494a
air pollutants, reasoning that “vacating a standard because it may be insufficiently protective would . . .
mak[e] the best an enemy of the good.” Id. at 528. Put
otherwise, this Circuit has recognized that, at times,
a flawed agency action is better than no action at all.
Yet this is not such a case. On this record, Defendants have failed to persuade the Court that
transport by train is significantly more dangerous
than allowing oil to continue to flow beneath Lake
Oahe. The record contains no concrete figures or substantiated studies regarding the risks presented by
rail transportation versus DAPL’s Lake Oahe crossing. Instead, the Court is left with vague projections
such as Defendants’ assertion that vacatur “could result in at least some portion” of the oil being moved
via train and their broad claim that rail transport
“poses a higher accident risk” than the use of pipelines. See Corps Brief at 13 (emphasis added). These
forecasts do little to assure the Court that vacatur
would in fact put the environment in any greater peril.
See Pub. Employees for Envtl. Responsibility, 189
F.Supp.3d at 3-4 (granting vacatur when agency’s
forecasted harms were imprecise or speculative).
Plaintiffs and one amicus for Defendants, moreover,
cast doubt on whether the oil currently flowing
through the pipeline would, in fact, be re-routed onto
rail. See Brief of Am. Fuel Manufacturers, et al. at 10;
Goodman Decl., ¶ 62 (stating that most oil would be
transferred to other pipelines). Given that it is not
“guaranteed that . . . producers or shippers would
choose in the near term to ship oil on transportation
modes other than DAPL,” Defendant’s argument is
speculative at best. See Brief of Am. Fuel Manufacturers, et al. at 10.

495a
What is clear is that accidents and spills, however
they may occur, have the potential to wreak havoc on
nearby communities and ecosystems. The effects that
concern the Court today are not general environmental ones throughout the Midwest, but those that may
result from this pipeline in this location at Lake Oahe.
Those are the impacts that the Court found were insufficiently addressed by the Corps, and those are the
impacts that Plaintiffs fear during the remand period.
For this reason, and because the Court does not find
that alternative modes of transport required by vacatur, if any, will necessarily increase the risk of an oil
spill, it rejects this argument against vacatur.
3. Other Considerations
The Corps also attempts to argue that vacatur
here would “have greater disruptive consequences
than in the typical NEPA case” because the pipeline
has already been completed. See Corps Brief at 12.
The agency contends that vacatur is the standard
remedy in NEPA cases only when it would affect the
“prospective application of rules or agency actions,”
rather than situations in which the challenged outcome has already gone into effect. Id. Plaintiffs counter that this distinction finds little footing in the facts
of the case. See Tribes Sur-reply at 5-6.
The Tribes have the better of this dispute. Although construction is complete and oil is flowing,
Plaintiffs are not asking for the pipeline itself, or for
any existing infrastructure, to be dismantled. Id. at
2. Instead, their concerns in this case, and the deficiencies identified in the prior Opinion, involve the
risks presented by the continued passage of oil under
the Lake. This is clearly an ongoing, and prospective,

496a
event. This is thus not a case in which “[t]he egg has
been scrambled and there is no apparent way to restore the status quo ante.” Sugar Cane Growers Coop.
v. Veneman, 289 F.3d 89, 97 (D.C. Cir. 2002) (remanding in lieu of vacating agency action where agency had
already administered program disbursing large quantities of sugar to farmers who had already plowed under their crops). The oil may currently be flowing, but
Defendants do not dispute that it could be stopped.
Although courts have declined to vacate improper
agency actions when doing so would be an “invitation
to chaos,” id. at 97, in this case vacatur would be, at
most, an invitation to substantial inconvenience.
Contracts may have to be renegotiated and alternative modes of transportation found, but there is no indication in the record that Defendants’ actions under
the improper EA cannot be undone.
Finally, the Corps’ assertions regarding the timing of the remand process are also relevant to analyzing the disruption in this case. The agency now states
that it anticipates completing its independent review
and analysis of the remand issues by April 2018,
which is several months after its initial estimate. See
ECF No. 281 (Notice of Revised Schedule); Corps Brief
at 1. This timeline aids both parties’ positions with
respect to the impact of vacatur. On one hand, the
multiple-month period of review increases the risk
that a spill will occur prior to the new analysis and
thus strengthens the Tribes’ assertion that such an incident could occur during the remand process. On the
other hand, this timing also supports Defendants’ position that vacatur would have severe disruptive effects. To vacate the easement during the remand process would stop oil from flowing under Lake Oahe for

497a
at least six months—an interruption that could cause
significant harms to numerous people and entities.
The remand period thus supports both sides’ arguments regarding the real-world impact of the Court’s
choice today, but does not dictate the outcome either
way.
*

*

*

The second prong of Allied-Signal, consequently,
does not counsel strongly in favor of remand without
vacatur. It is undeniable that stopping the flow of oil
beneath Lake Oahe will have some disruptive effect,
but all the considerations on this prong tip only narrowly in favor of Defendants. Because the Court has
concluded that the Corps’ errors are likely to be cured
under the first prong, it need not define the precise
scale of the potential disruption. This is because in
circumstances in which the first prong of Allied-Signal
supports remand without vacatur, the second prong
“is only barely relevant.” Fox Television Stations, Inc.
v. FCC, 280 F.3d 1027, 1049 (D.C. Cir. 2002), opinion
modified on reh’g, 293 F.3d 537 (D.C. Cir. 2002). In
those instances, “though the disruptive consequences
of vacatur might not be great, the probability that the
[agency] will be able to justify retaining [its prior decision] is sufficiently high that vacatur . . . is not appropriate.” Id. This is such a case. The Court therefore need not rely upon disruption in deciding that vacatur is not the appropriate outcome.
C. Other Relief
In their briefing the Tribes request that, if the
Court declines to vacate, it instead impose a series of
conditions on the continued operation of DAPL under

498a
Lake Oahe. Defendants, in their response, do not address the merits of these proposed remedies; rather,
they assert only that the Court lacks jurisdiction to
enter such an order. See Corps Brief at 4. This is not
so. A reviewing court may craft relief as equity requires. W. Oil & Gas Ass’n v. EPA, 633 F.2d 803, 813
(9th Cir. 1980) (“[A] reviewing court has discretion to
shape an equitable remedy.”); Montana Wilderness
Ass’n v. Fry, 408 F.Supp.2d 1032, 1034 (D. Mont.
2006) (“The district court’s equitable powers are
broad, and it is within the court’s authority to fashion
a remedy that fits the particular facts of the case before it.”); Sierra Forest Legacy v. Sherman, 951
F.Supp.2d 1100, 1106 (E.D. Cal. 2013) (“Vacatur is
clearly a form of equitable relief that the Court may
award, withhold, and craft to fit the circumstances of
the case before it.”) (emphasis added); Conservation
Cong. v. United States Forest Serv., 2017 U.S. Dist.
LEXIS 82440, at *9 (E.D. Cal. May 26, 2017) (finding
NEPA violation, declining to vacate agency decision,
but enjoining Defendants from “removing any trees
with 20 inches [diameter at breast height] or greater
in implementing the Project”).
Because Defendants should have an opportunity
to express their views on the substance of Plaintiffs’
requests, the Court will permit abbreviated further
briefing on this issue.
IV. Conclusion
In light of the “serious possibility” that the Corps
will be able to substantiate its prior conclusions, the
Court finds that vacatur is not the appropriate remedy in this case. That determination does not, how-

499a
ever, excuse Defendants from giving serious consideration to the errors identified in this Court’s prior
Opinion. Compliance with NEPA cannot be reduced
to a bureaucratic formality, and the Court expects the
Corps not to treat remand as an exercise in filling out
the proper paperwork post hoc. After the agency’s further work on remand, the parties may well disagree
over the sufficiency of its conclusion. If and when such
a dispute arises, they will again have the opportunity
to address whether Defendants have in fact fulfilled
their statutory obligations.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: October 11, 2017

500a
____________________
APPENDIX E
____________________
DEPARTMENT OF THE ARMY
CORPS OF ENGINEERS, OMAHA DISTRICT
1616 CAPITOL AVENUE
OMAHA NE 68102-4901
REPLY TO
ATTENTION
CENWO-OC

31 August 2018

MEMORANDUM FOR RECORD
SUBJECT: Consideration of the Issues Remanded by
the U.S. District Court for the District of Columbia related to the Dakota Access Pipeline Crossing at Lake
Oahe, North Dakota
1. The purpose of this memorandum and enclosure is to respond to the issues remanded back to the
U.S. Army Corps of Engineers for additional analysis
by the U.S. District Court for the District of Columbia.
See Standing Rock Sioux Tribe v. U.S. Army Corps of
Eng’rs, No. 16-1534, Memorandum Opinion (D. D.C.
June 14, 2017)(ECF No. 239). On remand, the Corps
was directed to “consider the impacts of an oil spill on
fishing rights, hunting rights, or environmental justice, or the degree to which the pipeline’s effects are
likely to be highly controversial.” Memorandum Opinion at 2.
2. To address these three issues, the Corps
sought input from Energy Transfer Partners, the
Standing Rock Sioux Tribe, the Cheyenne River Sioux

501a
Tribe, the Oglala Sioux Tribe, and the Yankton Sioux
Tribe. In addition, the Corps conducted its own analysis of available information and considered materials
in the administrative record and has fully considered
the impacts of an oil spill on fishing rights, hunting
rights, or environmental justice, or the degree to
which the pipeline’s effects are likely to be highly controversial.” The Corps’ review on remand did not reveal “significant new circumstance[s] or information
relevant to environmental concerns.” 40 C.F.R. §
1502.9(c). Therefore, the Corps concludes that a formal reconsideration of the July 2016 Final Environmental Assessment and Finding of No Significant Impact or the preparation of supplemental National Environmental Policy Act documentation is not required.
With respect to each of the remand issues, the Corps
finds:
a. The Corps’ review on remand of the potential impacts of an oil spill to hunting and fishing resources did not reveal any significant impacts because
the risk of an incident is low and any impacts to hunting and fishing resource will be of limited scope and
duration.
b. With respect to Environmental Justice,
the Corps finds that granting Section 408 permission
and conveying a right-of-way to Energy Transfer Partners to construct and operate a portion of the DAPL
under federally-owned Corps-managed land does not
result in disproportionately high and adverse human
health or environmental effects on minority populations, including Tribes, and low-income populations.
Further NEPA analysis or any new mitigation beyond
the EA/FONSI and the February 8, 2017 Easement
conditions is not required.

502a
c. The Corps considered the comments and
concerns expressed by the Tribes regarding the data
and methodologies used by the Corps. While the
Tribes opposed the Corps’ authorizations for the pipeline’s Lake Oahe crossing, they did not provide information that demonstrated that a substantial dispute
exists as to the size, nature, or effect of the federal action. Accordingly, the Corps finds that the effects of
the federal action here are not “likely to be highly controversial.” 40 C.F.R. § 1508.27(b)(4).
3. The Corps has outlined the rationale supporting these findings in the enclosed document and in the
Administrative Record.

Encl
as

JOHN L. HUDSON, P.E.
Colonel, EN
Commanding

503a
____________________
APPENDIX F
____________________
Review and Analysis of Tribes’ Submissions
August 31, 2018
The Corps reviewed the Tribal documents expressing issues of concern. The Corps characterizes
the comments and presents the issues raised within
each of the documents as comment excerpts (hereafter
referred to as “comments”). The letter identifies the
document in accordance with the ID column in Table
III-1. The number following the letter is the comment
number. The number following the period is the page
number of the document. For example, A1.3 represents the first characterized comment from the EarthFax Letter, which can be found on page 3 of the EarthFax Letter. The Corps’ responses to comments with
similar subject matter were grouped together to reduce redundancy in the response process. For comments with similar subject matter, the Corps provided
a comprehensive response the first time the issue is
addressed and the related comments are identified in
association with the first Comment ID for that comment topic.

504a

505a

506a

507a

508a
Document A: Review of the Dakota Access
Pipeline Project
Letter to President John Yellow Bird Steele
and Members of the Tribal Council Oglala
Sioux Tribe, Richard White, PE; Earthfax
Engineering Group
A1.3 “[T]he EA should have considered spill volumes well in excess of 100 bbl as a reasonable incident
scenario rather than implying that a 4 bbl spill is the
norm.”
RESPONSE: EarthFax estimates the total volume of oil available for release in the event of a pipeline rupture at the 24” pipeline crossing of the Missouri River, and the 30” crossing of Lake Oahe. EarthFax desktop estimation methodology started by determining the volume of oil that would pass a given point
per unit of time based on the pipelines proposed
570,000 barrels/day (bbls/day) capacity. EarthFax
then used estimates for average releases in the United
States to assume a 3-minute response time to a release on the DAPL line. EarthFax then added to that
quantity the volume of oil contained in a 24” or 30”
diameter cylinder, respectively, that spans the length
of the water body from estimated valve to valve. The
second column of Table Al shows the EarthFax results
as compared to the results of the initial DAPL spill
modeling as reported in the May 2016 North Dakota
Lake Oahe Crossing Spill Model Discussion (“Lake
Oahe Crossing Report”).

510a
preparation of the Facility Response Plan (FRP). Accordingly, ETP performed modeling in order to develop the theoretical worst-case release volumes so
that the response equipment and response team can
be sized accordingly in compliance with 49 CFR §
194.105.
The predicted spills generated by the model take
a very conservative approach. Lake Oahe Crossing
Report at 13. Using this approach, the predicted
spills are larger and therefore overestimate the majority of spills seen in actual releases. This is due to
a number of factors such as:


Most releases are not caused by full ruptures
of the pipeline.
 Due to anti-siphoning effects, a full gravity
drain-down rarely occurs
 The spill model assumes the pipeline is lying
directly on top of the ground. In reality, the
compacted back-fill over a buried pipeline restricts the volume that could be released during a spill and restricts the affected area.
 At water crossings, the spill model assumes
that the pipeline is lying directly on top of
the water. Because of the Horizontal Directionally Drilled (HDD) crossing of the waterway, the overburden over the installed pipeline at least 92 feet below the lake restricts
the spill volume that could be released and
restricts the affected area.
To summarize, the Corps considered spill volumes
well in excess of 100 bbls in the EA, consistent with
EarthFax’s suggestion. ETP calculated a worst-case
scenario specific to Lake Oahe following guidance in
49 CFR § 194.105. Final EA at 91. ETP estimated

511a
potential release volumes that are
% larger for the
Lake Oahe crossing than the 4,620 bbls for a 30” pipe
with a 3-minute response time that Earthfax indicated was realistic. Spill Model Report at iii.
Furthermore, some commenters asserted that a
lack of specific information in publicly available documents about the calculation of the worst-case release
values means that the estimates of potential spill volumes used for spill planning were unrealistically low.
The calculation of the worst-case release values have
been available to the Tribes and their experts as part
of the administrative record in the district court proceeding. USACE DAPL72253.
As detailed above, the Corps considered the appropriate diameter of the pipeline in accordance with
EarthFax’s comment. Therefore, this comment does
not show that substantial dispute exists as to the size,
nature, or effect of the major federal action because
the comment does not show flaws in the methods or
data the Corps actually relied on here.
See also A6, B8, B9, E13, F3, F4, F18, G4, G10,
J18, Li, L7, L9, L13, L23, L26, L46, L30, L42, L61
A2. 4 “[T]he effects of dilution in the water were
based on average annual discharge rates of the Missouri River at nearby gaging stations rather than relying on conservatively lower discharge rates. At a minimum, the lowest mean daily discharge rates for the
periods of record at the nearby gaging stations should
have been used in the analysis . . . . Using these more
conservative discharge rates, the estimated benzene
concentrations provided in Table 3-7 of the EA would
have been substantially higher at each crossing than

512a
indicated (up to approximately twice as high as presented for the Missouri River crossing).”
RESPONSE: EarthFax asserts that using more conservative river-flow rates would result in substantially
higher estimated benzene concentrations at each crossing. But EarthFax did not provide any scientific evidence or studies specific to discharge rates and benzene
concentrations that would cause the Corps to doubt its
previous methodologies and data supporting the Corps’
reliance on ETP’s low-flow discharge rates instead of the
lowest mean daily discharge rate for the periods of record. Therefore, this comment does not show that a substantial dispute exists as to the size, nature, or effect of
the major Federal action.
For further explanation, the lowest mean daily discharge rates for the period of record is the discharge rate
for the one where the average flow rate was the lowest
among all days considered. Even if the Corps used the
lowest mean daily discharge rates in the calculations,
the individual cells with exceedances for the individual
categories within Table 3-7 of the EA would not have
changed. Therefore, the use of lowest mean daily discharge rates would have no material impact on the assessment based on Table 3-7. Low flow rates are the appropriate unit of measurement instead of the lowest
mean daily discharge rates for the period of record because the lowest mean daily discharge rates for the period of record is an absolute lowest value and may be an
extreme outlier and not genuinely representative of conditions.
ETP performed additional spill modeling that includes low flow rates for Lake Oahe. In the Spill Model
Report, the low flow condition was defined as being the
5 percentile daily flow rate for the 50-year period of recffi

513a
ord. Spill Model Report at 69. This provided for a statistical low flow over a wide range of flow rates without
potentially introducing extreme outliers. The results
are presented in the Spill Model Report. Spill Model Report at70-73.
See also A6, B8, B9, E13, Kl, L26, L61
A3.5 “[T]he EA should have acknowledged that focusing on benzene would not necessarily provide the
most conservative impact scenario. Quantitative assessments of individual crude-oil constituents should have
also been performed to ensure that benzene was the appropriate compound on which to focus.”
RESPONSE- The EA evaluated benzene as the appropriate water quality constituent because “based on
the combination of toxicity, solubility, and bioavailability, benzene is commonly considered to pose the greatest
toxicity threat from crude oil spills.” Final EA at 46. According to ETP, although hydrocarbon components of
crude oil have relatively limited solubility in water, the
more water-soluble hydrocarbon components of crude oil
are the BTEX compounds (benzene, toluene, ethylbenzene, and xylenes). Spill Model Report at 43. A study
that compared the calculated dissolved-phase concentrations of 69 crude oils found that benzene was the only
aromatic or PAH compound tested that is capable of exceeding groundwater protection values for drinking water (O’Reilly et al. 2001). It also has the lowest concentration criteria of the four BTEX class categories in the
North Dakota Administrative Code. N.D. Admin. Code §
33-1602.1
The Corps recognizes that benzene is volatile and
that other hydrocarbon components are present and responsible for impacts beyond benzene. To further address this comment, ETP performed additional spill

514a
modeling using a pseudo component approach. Spill
Model Report at 25. Under the pseudo component approach, the bulk hydrocarbon was broken into several
groups and effects were determined based upon the
chemical composition of the Bakken crude in its entirety.
Spill Model Report at 76-79. The companion Downstream Receptor Report discusses the results relative to
the drinking water standards. Downstream Receptor
Report at 80-91.
EarthFax generally commented that a quantitative assessment of individual crude-oil constituents
was appropriate but did not identify a particular assessment or the particular factors, criteria, or technique to perform the quantitative assessment. Earthfax did not provide any scientific evidence or even studies specific to Lake Oahe that would cause the Corps to
doubt its previous methodologies and data supporting
the Corps’ conclusion to rely on benzene as the appropriate compound. Therefore, this comment does not
show that substantial dispute exists as to the size, nature, or effect of the major federal action.
See also A6, D10, Kl, L61
A4.5-6 “[T]he spill impact assessment was based on
comparisons with two concentration limits for benzene:



A drinking water maximum contaminant level of
0.005 mg/L and



An aquatic organism acute toxicity level of 7.4
mg/L

Neither of these is the appropriate point of comparison for benzene for this project. Regulations contained in Section 33-16-02.1 of the North Dakota Administrative Code establish a benzene limit of 2.2 ug/L
(0.0022 mg/L) for Class I waters . . . . The EA states

515a
that the value of 7.4 mg/L used for ecological impacts
was the ‘lowest acute toxicity threshold for aquatic organisms’ listed in EPA’s ECOTOX database . . . . An
LC50 value is not usually the appropriate standard
against which comparisons should be made when
evaluating ecological impacts. The standard approach
for an ecological risk assessment is to use a concentration known as the No Observed Adverse Effect Level
(“NOAEL”) . . . Based on the above summary, it is
clear that the reference values used in the EA are inappropriate. Assuming that benzene is the appropriate contaminant of concern, more appropriate comparative limits are:


Drinking water: 2.2 ug/L (based on the North Dakota surface water statute)



Aquatic organisms: 46 ug/L (based on the Los
Alamos NOAEL, the Savanah River screening
value, and the NOAA chronic concentration) . . . .
the comparative concentrations provided above do
not account for the effects of water temperature
on ecological risk . . . . spills during winter
months may reduce the concentration at which
impacts occur to aquatic organisms.

Since drinking water intakes occur downstream
from the Missouri River and Oahe Reservoir crossings, the critical standard against which potential impacts should be compared is the lower of the above
concentrations (i.e., 2.2 ug/L). Assuming that the
results presented in Table 3-7 of the EA are correct,
this concentration would result from a crude oil spill
of approximately 12 to 13 bbl.”
RESPONSE: The North Dakota Administrative
Code, defines the “chronic standard” to mean the

516a
“four-day average concentration does not exceed the
listed concentration more than once every three
years.” N.D. Admin Code § 33-16-02.1-04. ETP determined the 5.0 ug/L level is the appropriate unit of
measurement for the worst-cases spill analysis.
Chronic toxicity levels are inappropriate for comparison to concentrations based on an accidental onetime release of a worst-case discharge. Rather, the
chronic toxicity levels are more appropriate units of
measurement for longer term exposures. Under
chronic concentration conditions, fish may suffer
growth, reproductive, or other long-term consequences. Even if the 2.2 ug/L surface water criteria
was utilized in the EA, the results of an analysis utilizing the 2.2 ug/L level versus the 5.0 ug/L level the
conclusion would not be different since a 100 bbl spill
event would result in an exceedance of either standard. The Spill Model Report shows that a one-time
event might lead to concentrations exceeding chronic
limits in the water column for a period or hours, or
at most days, at one location along the river but
these concentrations would not persistently exceed
the four-day average concentration more than once
every three years.
ETP performed computational modeling under
various scenarios (including winter low flow conditions) to evaluate the potential fate and transport
of a release of crude oil into Lake Oahe. The Spill
Model Report does not predict exceedances of
drinking water standards for the location and
depth of the former Fort Yates intake. Spill Model
Report at 172-177; see also Tom Thompson, US Bureau of Reclamation email to Larry Janis, USACE
Omaha District (December 12, 2017)(stating that

517a
the Fort Yates intake is now off-line and scheduled
for demolition). By the time the oil reached the location of the former Fort Yates drinking water intake (26.8 miles downstream of the crossing and
taken off-line), the maximum concentration of dissolved hydrocarbons is predicted to be 145 ug/L in
the top 5 meters of the water column. The maximum concentration of dissolved hydrocarbons is
predicted to be 74 ug/L at 5-10 meters of depth below the surface. The maximum concentration of
dissolved hydrocarbons is predicted to be 0 ug/L below 10 meters to the bottom of the river. The former Fort Yates drinking water intake was at a
depth below 10 meters.
The Spill Model Report predicts further reduced
concentrations in the upper layers at the SRST Replacement Intake, located 75.41 miles downstream
of the Lake Oahe crossing. Downstream Receptor
Report at 87; Spill Model Report at 175. Reduced
concentrations may result due to dilution, volatilization from the dissolved phase to the atmosphere, adsorption to suspended particulate material and sedimentation, stranding on the shoreline or aquatic
plants, or degradation. Spill Model Report at 175.
The depth of the SRST Replacement Intake is 60-80
feet below the surface (19.1 to 25.5 meters) depending on water surface elevation; therefore, the concentration of dissolved hydrocarbons is also predicted to be 0 ug/L at the Tribal drinking water intake. Spill Model Report at 175. The Spill Model
Report does not predict affects from the modeled hypothetical releases to the replacement water intakes
for the SRST, or the water intakes for the CRST (ap-

518a
proximately 156 miles downstream of the DAPL crossing), or OST (approximately 206 miles downstream of
the DAPL crossing).
The minimum water depth recorded for Lake
Oahe for the entire period of record was 1570.2 feet
M.S.L. The discharge pipes for the dam are at an elevation of 1425 feet M.S.L -- 46 meters (142.5 feet) below the lowest ever water depth. Thus, any released
hydrocarbons that reach the dam would need to mix
within the water column to at least that depth. The
Spill Model Report predicts near zero values of hydrocarbons at depths greater than 10 meters.
The modeling shows that concentrations of total
and dissolved hydrocarbons would typically be present for less than four days in any particular location with peak concentrations present for only one
to two days. Benzene would likely volatize and not
be present in elevated concentrations downstream.
Spill Model Report at 76-79. To reach the 5 lig/L
drinking water standard for benzene would require
a dissolved hydrocarbon concentration of 22.5 pg/L.
This is a conservative assumption, as benzene is
more soluble and volatile than the aromatic group
as a whole.
Because of this, benzene would dissolve and
evaporate more quickly than other compounds in
the oil. By using the more persistent dissolved hydrocarbon compounds that are less soluble and volatile than benzene, this estimation of benzene from
dissolved hydrocarbon compounds would tend to
conservatively over-estimate the potential presence
of benzene. Spill Model Report at 76-79.

519a
The Corps considered EarthFax’s recommendation to rely on a different concentration limit for benzene and determined, based on the above, it is not a
more reliable concentration limit than the concentration limit relied on by ETP. Therefore, this comment
does not show that substantial dispute exists as to the
size, nature, or effect of the major federal action because the comment does not show flaws in the methods or data the Corps actually relied on here.
See also A6, D13, G15, G16, J3, J6, J7, J12, L46
A5.7 “Section 3.2.2.2 of the EA minimizes the potential impacts of a spill by indicating that ‘the most
probable spill volume (4 barrels or less) does not
yield benzene concentrations that exceed the drinking water criteria even with the ultra-conservative
mixing assumptions.’ Even though this statement is
correct, the calculated benzene concentrations provided in Table 3-7 of the EA for spills with a magnitude of 100 bbl and larger are substantially higher
than the drinking water maximum contaminant
level for benzene. This obvious conclusion is ignored
in the EA narrative.”
RESPONSE - Drinking water intakes could be
at risk if there was a release that reached the vicinity of the intake structures. Final EA at 38, and 42.
ETP completed additional spill modeling and the
analysis does not predict drinking water exceedances. Spill Model Report at 172-177. The concentrations shown in Table 3-7 of the EA are based on
a one hour event releasing 4, 100, 1000, and 10,000
bbls. The spill and mixing events outlined by the
assumptions are beyond physical actualities, making this a conservative model scenario. Final EA at

520a
46-47. The EA assumed a 1-hour release period for
the entire spill volume and applied the following additional conservative assumptions were developed to
estimate potential spill effects for planning purposes:


The entire volume of a crude oil spill was released
due to a catastrophic failure of the pipeline and
reached the water body;



Complete, instantaneous mixing occurred;



The entire benzene content of the crude oil was
solubilized into the water column; and



The receptor is located at the immediate site of
the crude oil spill and there is no loss due to evaporation or degradation. Final EA at 46.

Furthermore, the theoretical one-time release of
100 bbl would lead to only a single exceedance at the
location of the discharge. Because it would be a single
event and of short duration, based on the analysis performed, ETP stated that the one-time release would
not be classified as “an impairment” to the surface water beneficial use for drinking water at the location of
the release. Per the North Dakota Administrative
Code, “a water body does not meet its water quality
standard if the numeric targets for the acute or
chronic water quality criteria are exceeded more than
once every three years.” N.D. Admin. Code § 33-1602.1. In order for a surface water beneficial use to be
considered impaired, the criteria would need to be exceeded more than once in a 3-year period.
The Spill Model Report predicts downstream
drinking water intakes would not likely be affected by
the modeled releases. This is because the maximum
predicted concentrations of hydrocarbons in the water

521a
column were in the surface 0-5 meters (0 to 16.4 ft)
with decreasing concentrations within the water column as depth increases until near zero values were
predicted at depths greater than 10 m (32.8 ft). Spill
Model Report at 172-177.
See also A6, D13, J2
A6.7 “[T]he conservative assessment indicated
that unacceptable impacts could occur under reasonable impact scenarios . . . . a more detailed evaluation
should have been conducted and/or detailed plans
should have been presented to provide a greater assurance that impacts would be mitigated. Neither the
more detailed evaluation nor the detailed mitigation
plans was provided in the EA.”
RESPONSE: Earthfax did not specifically identify an alternative evaluation or plans that were more
appropriate for the evaluation. Nor did EarthFax submit its preferred detailed evaluation and detailed
plans for the Corps to consider and compare against
the evaluation and plans prepared by ETP. EarthFax
generally commented that a more detailed evaluation
should have been conducted and/or detailed plans
should have been presented but does not identify a
particular evaluation or the particular factors, criteria, or technique to perform the quantitative evaluation. Therefore, this comment does not show that a
substantial dispute exists as to the size, nature, or effect of the major Federal action because a general
statement that the EA should have presented a more
detailed evaluation and detailed mitigation plans does
not show flaws in the methods or data the Corps relied
on.

522a
While the potential risk for a worst-case release is
low such a spill would result in high consequences. Final EA at 91.
The EA describes the design and operation
measures ETP will implement to protect downstream intake users. Final EA at 42; 88-94. ETP’s
Spill Prevention Control and Countermeasure Plan
(SPCC Plan) describes cleanup procedures and remediation activities during construction. Final EA,
Appendix A. ETP prepared a FRP that complies
with the applicable requirements of the Oil Pollution Act of 1990 (OPA), and has been prepared in
accordance with the National Oil and Hazardous
Substances Pollution Contingency Plan (NCP) and
the Mid-Missouri Sub-Area Contingency Plan
(SACP). Final EA, Appendix L.
Following PHMSA modeling guidance, ETP prepared a spill model specific to the Lake Oahe crossing.
ETP used the hypothetical worst-case scenario volume to design a location-specific Geographic Response
Plan (GRP) for the crossing. ETP’s GRP describes
cleanup procedures and remediation activities during
operations. ETP provided the GRP to the Corps,
SRST, and CRST for review. ETP incorporated comments from the Corps, SRST, and CRST into revised
versions of the GRP.
Furthermore, Corps easement conditions 8, 9, and
10 require ETP to coordinate its emergency response
planning documents with the Corps.
See also All, A23, B9, C4, C10, C31, 134
A7.7-8 “The EA further states that ‘pockets of oil
naturally contained by the ice can be drilled to and

523a
removed using vacuum trucks.’ This is an oversimplification of oil recovery operations beneath ice . . . a
winter spill likely represents the worst-case scenario .
. . . the EA should have presented a more serious,
quantitative evaluation of the winter spill scenario to
ensure that the adverse impacts of a spill under on
those conditions were properly evaluated.”
RESPONSE: The Corps agrees with EarthFax
that the recovery of oil under ice is difficult. The
Corps considered spill response during sub-freezing
temperatures and icy conditions in the EA. Final EA
at 39. The Corps also considered impacts to groundwater during sub-freezing temperatures and icy conditions. Final EA at 47-48. To further address this
concern, the Corps mandated full-scale winter/ice exercises at Lake Sakakwea and Lake Oahe as a condition to the easement. See Easement Condition 34.
ETP tentatively scheduled winter exercises at Lake
Oahe for February of 2019. Further, the Spill Model
Report includes an assessment of the winter spill scenario of oil movement under the ice at Lake Oahe.
Spill Model Report at 102-133.
EarthFax did not specifically identify an alternative methodology that was more appropriate for the
evaluation. EarthFax generally commented that a
more serious, quantitative evaluation was appropriate but fails to identify a particular evaluation or the
factors, criteria, or technique to perform the quantitative evaluation. EarthFax did not provide the results from its preferred quantitative evaluation to
the Corps to consider and compare against ETP’s
winter spill scenarios. As a result, this comment
does not show that a substantial dispute exists as to
the size, nature, or effect of the major Federal action

524a
because a general statement that the EA should
have presented a more serious, quantitative evaluation of the winter spill scenario does not show flaws in
the methods or data the Corps relied on.
See also A8
A8.7 “Section 3.2.1.2 acknowledges that subfreezing temperatures during winter months will affect
emergency response conditions during cleanup of a
spill . . . . workers require more breaks and move
slower due to the bundling of clothing that is protective of both cold temperatures and pollutants, daylight hours are shorter, slip-trip-fall risk increases
significantly, etc. The EA should have quantified the
effect of these factors on response time and the subsequent impacts to human health and the environment.”
RESPONSE: The Spill Model Report predicts
that ice cover retards the movement of oil downstream
by trapping the hydrocarbons in the vicinity of the release location. Spill Model Report at 102-133. ETP
anticipates that the difficult winter conditions will be
counterbalanced by the slower movement of the oil beneath the ice.
A9.9 “The EA minimizes the risk of system integrity threats by stating that procedures will be implemented to minimize those threats . . . . a quantitative
analysis of the risk associated with failure of system
components should have been provided in the EA.”
RESPONSE: ETP asserts that quantitative risk
assessments are not required by regulation, nor industry standard for the design of crude oil pipelines

525a
within the United States. ETP explained that prescriptive measures are nonetheless required that
serve the purpose of providing independent protection
layers for the applicable threats.
Specifically, during the design process, ETP evaluated the potential for incorrect operation and/or
equipment failure at the terminals, pump stations,
mainline valves, and pig launcher/receivers. The control design is established to safeguard against incorrect operation using alarms and shutdowns to operate
the pipeline within the guidelines of 49 CFR § 195.
The Corps considered numerous measures ETP would
implement to minimize the risk of a pipeline leak and
protect the users of downstream intakes. Final EA at
91-94. The design reports and risk planning documents associated with construction and operation of
DAPL are described below.
The risk evaluation process for Lake Oahe involved the following:


Risk Analysis: Based on the Sunoco Logistics
Risk Algorithm Document (January 27, 2015),
ETP generated qualitative risk results for the
pre-operational Lake Oahe segment to evaluate
the relative risk. ETP presented the results in
a risk matrix and provided recommendations
for potential risk reduction measures. Final
Report, R-ETP-20160510: Dakota Access Pipeline Project Lake Oahe HDD Crossing Risk
Analysis (“HDD Crossing Risk Analysis”) (May
10, 2016).



Integrity Management Plan: ETP provided the
SXL - Pipeline Integrity Management Plan,

526a
ENGR-PR-0015 (“Pipeline Integrity Management Plan”) (June 2015), and the SXL Risk Algorithm Document (January 27, 2015) to the
Corps on May 9, 2016. The latter describes the
methods and results of the Risk Assessment.
ETP used this same algorithm was used in the
SXL - Integrity Management Plan.


Threat and Consequence Assessment: ETP
hosted a threat and consequence assessment
workshop with subject matter experts to gain
an understanding of the applicable threats to
the integrity of the pipeline and consequences of
a release at the Lake Oahe and Missouri River
Crossing sections. The threat assessment approach was based on the American Society of
Mechanical Engineers (ASME) standard ASME
B31.8S, Managing S:vstein Integrity of Gas
Pipelines. ETP employed this standard due to
the comprehensive list of threats prescribed in
Appendix A of that standard that are applicable
to both liquid and gas pipelines. ETP’s analysis
of the hypothetical worst-case spill data indicated that the risk for the Lake Oahe crossing
is not considered to be high; the risk ranking is
between 2 and 3 (out of a possible 10, with 10
being the worst). Upon evaluation of the threat
and consequence potentials, ETP identified the
primary risk-drivers and a provided the Corps
with a summary of recommended mitigation
measures to minimin the risk associated with
the pipeline operation at the two Horizontal Directional Drill (HDD) locations. Dakota Access
Pipeline Project Threat Assessment Report:
Missouri River and Lake Oahe HDD River

528a
August 31 Memorandum for the Record and Table B14 in that
Memorandum to illustrate the PHMSA data present in the two reports. Figure III-1 is identical to
Figure 6 of the PHMSA reports and Table 111-4 is
identical to Table 7 of those reports.
Figure III-1 Historic Incident Cause, Onshore
Crude Oil Mainland Pipe, Diameters 16-Inch and
Larger
Keystone XL pipeline project

Representation of Figure 6 from PHMSA Hazardous Liquid Pipeline Incident Data 2002-July 2012, and PHMSA Liquid Annual
Pipeline Data 2011.

529a
Table 111-4 Historic Incident Summary, Onshore
Crude Oil Pipeline System, Tanks
Item
January 2002. — July 2012
Total Incidents
Pipeline Mileage
Incident Rate per Mile Year
Equipment exposure
Incident Rate per equipmentyear
Maximum Incident Volume
Reported
Median Incident Volume Reported
Average Incident Volume Reported
0-50 barrels

Value
10.58
93
537,29
5
0.0001
7
18,937
0.0049
49,000

Unit
Years of data
Reported incidents
Mile-Years
Reported incident
per mile-year
Tank-years
Incident per tankyear
Barrels

38

Barrels

1,720

Barrels

51%

50-1000 barrels

30%

100-20,000 barrels

17%

Percentage of incidents
Percentage of incidents
Percentage of incidents

Source: PHMSA Hazarduous Liquid Pipeline Incident Data
2002-July 2012, and PHMSA Liquid Annual Pipeline Data 20042011

By omitting PHMSA’s Table 7 (“Historic Incident
Summary, Onshore Crude Oil Pipeline System,
Tanks”), ETP claims that EarthFax left out important
context relevant to the frequency of occurrence.
EarthFax acknowledges the 71 incidents cover 10
years of record (or 7.1 incidents per year). Based on
PHMSA’s Table 7, the 71 incidents is a subset of the
93 total incidents reported for 537,295 miles of onshore pipeline. This calculates to an incident rate of
0.00017 per mile-year as referenced in the table. This

530a
equates to the equivalent of one incident every 5,882
years for any 1-mile segment. Therefore, while it is
true that Third Party Damage, Internal Corrosion,
External Corrosion, and Manufacturing defects represented substantial percentages of the universe of reported incidents, because that universe is itself so
small ETP disagrees with EarthFax’s conclusion that
these percentages require rating the level of risk as
something other than low.
In addition, the PHMSA annual report for hazardous liquids dataset (PHMSA, 2017) establishes
that the majority of actual pipeline spills are relatively small in volume. Fifty percent of the spills consist of 4 bbls or less. In 84 percent of them, the spill
volume was 100 bbls or less. In 95 percent of them,
spill volumes were less than 1,000 bbls. Oil spills of
10,000 bbls or more occurred in only 0.5 percent of
cases. These data demonstrate that most pipeline
spills are small and that releases of 10,000 bbls or
more are extremely uncommon.
Furthermore, ETP notes that the calculated incident frequency referenced above includes releases
from older pipelines, regardless of the standards in
place at the time of construction. As indicated by Mr.
Nezafati, “aging pipeline, much of it built of wrought
iron and bare steel, is especially vulnerable to the elements. About 45 percent of all crude oil pipeline in
the United States—more than 30,000 miles—was installed before 1970. About 7,000 miles are made of
pipe that was laid before World War II.” Nezafati Report at 5.

531a
ETP reports that PHMSA is actively working with
pipeline operators to decrease the risk of releases. According to ETP, new pipelines benefit from improvements in design, construction, operation, and inspection. ETP anticipates that the actual number of incidents per mile for new pipelines constructed in accordance with current PHMSA standards would be substantially lower than predicted values based on an
analysis that includes older pipelines.
Pipelines installed via HDD—the installation
method used at the Lake Oahe crossing—appear to
experience lower risk of release. Based upon a review
of the PHMSA Reportable Incident Data for Hazardous Liquid and Gas Transmission Pipelines (2010Present), the likelihood of a failure at an HDD crossing is extremely low. Of the 3,368 reportable incidents
that occurred over the past 8.5 years, only three were
reported as involving an HDD crossing (0.09%). One
was due to internal corrosion of a natural gas pipeline
installed in 1957. One was due to an exposed natural
gas pipeline. One resulted in a 1.7 bbl release with
subsequent 0.9 bbl recovery.
In conclusion, EarthFax generally commented
that a quantitative analysis of the risk associated
with failure of system components was appropriate.
While the Corps agrees that operational failure prevention is an important component in the design of
a modern pipeline, ETP demonstrated that it took
steps during the planning and the design of the
DAPL to define and reduce the risk of failure. EarthFax has not presented data or an alternative methodology that causes the Corps to doubt its reliance on
ETP’s risk analysis and preventive design measures.
The Corps considered numerous measures ETP would

532a
implement to minimize the risk of a pipeline leak and
protect the users of downstream intakes, including
the HDD Crossing Risk Analysis, Pipeline Integrity
Management Plan, and Threat Assessment Report.
Final EA at 9194. The Corps reviewed PHMSA datasets to gauge the likelihood of a spill from the portion of the pipeline that cross Lake Oahe via HDD.
The Corps also imposed several conditions on the
easement concerning the maintenance and operation
of the valves, leak detection, and notification systems.
See Easement Conditions 21, 22, and 23.
EarthFax does not identify a particular risk analysis or the particular factors, criteria, or technique to
perform the risk analysis. Nor did EarthFax provide
the results from its preferred quantitative risk analysis to the Corps to consider and compare against
ETP’s risk analysis. Therefore, this comment does not
show that substantial dispute exists as to the size, nature, or effect of the major federal action because a
general statement that the EA should have provided
a quantitative analysis of the risk associated with system component failure does not show flaws in the
methods or data the Corps relied on.
See also Bl, B12, B18, C3, C9, C17, C20, E9, E10,
Fl, F3, G4, G12, J13, J14, J18, L23, L31, L34, L46,
L47, L48, M6, M10, M14, M23
A10.9 “Section 3.11of the EA also states that the
impact of a release will be minimized through the use
of ‘motor operated isolation and/or check valves installed on either side of the Missouri River above Lake
Sakakawea and Lake Oahe which can be actuated to
close as soon as a leak is detected.’ It is inappropriate

533a
for the EA to imply that these valves will close immediately.”
RESPONSE: ETP explained that the phrase “actuated to close” means that the process has been initiated, not that “these valves will close immediately” as
asserted by EarthFax. The EA stated, “These valves
have a closure time of no greater than three (3)
minutes.” Final EA at 90. This conservative estimate
is six times what EarthFax estimated is a more realistic closure time for the valves on the DAPL segments
valuated in the EA (24 - 30 seconds). ETP based the
closure times on the Emergency Flow Restricting Device (EFRD) valves on the DAPL Pipeline Surge Analysis Report. Furthermore, the closure times are a
function of the size of the valves and the electrical requirements, and electrical availability.
Valve Locations:
As noted in the response above to comment Al,
ETP performed a worst-case release scenario specific
to Lake Oahe in accordance with PHMSA guidance in
49 CFR § 194.105 in order to determine the largest
possible release volume specific to the segment of the
pipeline that would cross under Lake Oahe. The spill
model utilized in the Lake Oahe Crossing Report assumed the pipe was resting above ground and at
grade, which allows for the model to predict the largest possible volume release. Lake Oahe Crossing Report, at 10. ETP then used OILMAPLand software to
model a release every 200 feet along the pipeline centerline at DAPLs highest flow rate. The total volume
modeled at each point (every 200 feet) is a combination of the volume of oil released under pressure be-

534a
fore ETP shuts the pumps off and the volume of residual oil in the pipeline between the nearest main line
valves (MLV) that could drain out. ETP then used
OILMAPLand to see where the predicted quantities of
oil would travel if released from the pipeline at ground
level. ETP applied a risk score to each modeled spill
scenario based on the total volume available to release, total predicted acreage impacted, and the number of HCAs the oil might interact with. ETP adjusted
the location of the DAPL valves to minimize the risk
scores.
According to ETP, the valve locations on the
banks of Lake Oahe reduce the total volume of oil
that could be released in the event of a spill. MLVND-380 sits approximately 0.5 miles from the west
bank of the river at the nearest location outside of
the floodplain that also has road access and power.
Further to the west the terrain continues to slope
upward away from the low-lying Lake Oahe. Without MLV-ND-380 there would be an additional 0.3
miles of pipe that could drain out into the Lake
Oahe basin in the event of a release; therefore,
MLV-ND-380 reduces the total available crude inventory by approximately 1,380 bbls. The scenario
for the east bank of Lake Oahe is similar, with the
terrain moving uphill from the bank of the river for
approximately 4.8 miles. MLV-ND-390 protects
the east bank of the river. MLV-ND-390 is approximately 0.5 miles from the edge of Lake Oahe.
Therefore, the valve protects the lake from 4.3
miles of pipe that would otherwise have the potential to drain into the Oahe basin in the unlikely
event of a release. MLV-ND-390 reduces the total

535a
available crude inventory by approximately 19,780
bbls.
Emergency Isolation Valve (EIV)/ Emergency Flow
Restricting Device (EFRD) valves:

According to ETP, all pipeline MLVs are shutdown/isolation valves and qualify as EFRD valves
which are remotely operated through a central control
system. As such, an EFRD valve is located on each
side of the Lake Oahe crossing.
All MLVs, and therefore all EFRD Valves, have
been sized and specified to meet the industry standard
API Specification 6D for the design, manufacturing,
testing and documentation of such valves. These
valves also meet ETP and Sunoco Logistics Valve
Specifications. ETP selected the valve supplier based
on consideration of experience and their performance
in similar installations, their technical support, and
part replacement availability.
ETP procured the 30-inch diameter valves, with
Full Port internal passage, in accordance with the following specifications:
 ASME B16.47 Series A
 ANSI 600 Class Flanges (1,480 psi rating)
 Body are A350LF2 CS, (-20°F TO 300 °F)
 A350LF2 CS Ball and 17-4 PH SS STEM
 Trim and Seats are A350 LF2, lmil, VITON
GLT /A151 4140 1 mil ENP
 Block and Bleed

536a
 Trunnion Mounted, Full Port Ball
 Manufactured by Valvitalia-Delta Valve Europe, Model Delta T55
 Valves were fitted with an Emerson Horizontal Electric motor driven actuator Model Series M2CP, 240 VAC /1/60 Hz, Signal Input 24
DC with explosion proof electrical protection,
HP 1, 16.0A, along with manual override hand
wheel
 Valve and Actuator were assembled in Ponca
City, OK and Channelview, TX
ETP developed the EFRD Inspection and Test
Plans (ITPs) to verify purchase, manufacture, assembly, and performance. These test plans are followed
by the manufacturers and the assemblers and were
verified by Third Party Inspectors. Third Party Inspectors were present at all assembly facilities and
they witnessed all tests to ensure that the ITP was
followed. All valves were hydrostatically tested in the
fully-open, fully- closed and partially- stroked positions at the assembly facility. Through the above testing protocol, the MLVs were documented for compliance with the ITP. All valves are also hydrostatically
tested for a second time in the field for a full 8-hr period in the partially-stroked position after the EFRD
final installation.
The closure times on the EFRD valves were based
on the DAPL Pipeline Surge Analysis Report and are
a function of the size of the valves and the electrical
requirements, and electrical availability.

537a
ETP considers any unanticipated release of
crude oil as a leak. ETP does not tolerate operational failures. Leaks are not acceptable, and no
minimum amount of release is acceptable for operations. The isolation provided by the EFRDs on each
side of the river reduces the worst-case crude
amount that could be released.
All MLVs, and therefore all EFRD valves, on the
DAPL system are equipped with electric-motor operated actuators. To reduce the potential for systematic faults within the controls, the actuators are
supplied with heaters, surge arrestors on the power
supply in the local enclosures, and power failure
alarms. Each valve is monitored and controlled (via
remote control) at the central pipeline control center. In the event of an electrical power failure at an
EFRD valve site, the valve will remain in its last
position (i.e. “fail-safe” position). If required, the
valve actuator can be operated manually via the integrated hand wheel. The controls for the EFRDs
are located in local enclosures with air conditioning
and heating to protect them from the elements.
ETP provided design temperature specifications
to the steel mills, pipe and fitting manufacturers, as
well as all pump, valve, and instrumentation manufacturers to ensure that both high- and low-temperature concerns would be considered in the manufacturing of those materials and equipment. The
valves and settings are designed to meet operating
temperatures ranging from - 20 degrees to 150 degrees Fahrenheit, even though the product in the
pipeline and thus the pipe itself is not anticipated to
drop below 60 degrees Fahrenheit, even in the coldest North Dakota winters.

538a

A
description of the functional testing procedure for
all EFRDs is per Original Equipment Manufacturer
(OEM) recommended procedure and test frequency
defined as per 49 CFR §195. Precautions to reduce
the potential for systematic faults within the EFRD

539a
valve control is per OEM recommended Valve Preventive Maintenance Procedure and Valve Preventive Maintenance Schedule. ETP incorporated High
Integrity Safety Interlocks into the DAPL system.
Surge Relief Valves (SRVs):
As required by regulation, DAPL pressure relief
consists of pressure controls, thermal relief valves,
and surge relief valves at select Pump Stations. The
design of these systems is dependent on a complex
range of factors. Systems where pressure is contained
must have some type of pressure relief to reduce the
risk of overpressure.
Pressure control for the DAPL pump stations
systems is regulated by an integrated pressure control loop. Each pump station is equipped with redundant high pressure shutdown instrumentation,
which includes the integrated pressure control loop
which has an independent High pressure-Pressure
Switch and Pressure Transmitter, which will override the control loop to shut down the pipeline before
over- pressuring could occur.
To determine if there is a risk of surge during
normal operations and to determine the design of
the pressure relief system, transient flow simulation, steady-state, and normal operation flow models were developed. Given the importance of river
crossing pipeline segments and the provision for
EFRD closure, transient flow analysis was carried
out for the purpose of sizing surge relief systems.
The sizing recommendation for the SRVs was developed and issued through the DAPL Pipeline Surge
Analysis Report. An SRV is located at the Redfield
Pump Station in South Dakota. This SRV is a

540a
Danflo which was supplied by SPX Corporation and
sizing details were validated through both SPX and
third-party engineering services. The equipment
manufacturer provided ETP with technical documentation for the installation and in-service testing
of the SRV.
The DAPL Pump Stations are located near Johnsons Corner ND, Redfield, SD and Cambridge, IA.
Each station was positioned based on the transient
and steady-state surge analysis recommendations
and is equipped with a series of process instrumentation to monitor and mitigate overpressure and
surge conditions. The original equipment manufacturer provided ETP with technical documentation for
the installation and in-service testing of the SRV’s.
Each SRV contains an actuated relief valve that allows for in-service field test verification.
As part of the pressure relief system, thermal relief valves are used for protection during static conditions in accordance with DAPL systems engineering
standards and applicable code requirements.
Finally, the operation of the valves system including automatic valve shutdown is addressed in Easement Condition 21.
Therefore, the EA did not rely on the premise
that emergency block valves would close immediately upon leak detection, but instead based its
worst-case scenario release model time on a conservative estimate of no greater than three minutes.
EarthFax’s comment is therefore flawed and it does
not actually create any substantial evidence of controversial effects.

541a
See also F8, G7, L7, L30, M28
A11.10 “[T]he EA does not present a discussion
of the ‘protection and mitigation measures’ that are
planned. Since the Finding of No Significant Impact is preceded by the word ‘Mitigated’, these mitigation plans should have been detailed in the EA .
. . . it is important that plans be developed and mitigation measures be in place to protect water intakes before the DA Pipeline is operated.”
RESPONSE: Topic is addressed in the response
to Comment A6.
Al2.10 “[T]he EA states that ‘in the event of a leak,
Dakota Access would work aggressively to isolate the
source through the use of remote-controlled shut-off
valves, initiate cleanup activities, and contact appropriate federal and state authorities to coordinate leak
containment and cleanup.’ These actions are necessary but are not sufficient to mitigate impacts.”
RESPONSE: EarthFax does not identify the
specific actions that it believes are necessary to mitigate the impacts from an oil spill in addition to
what the Corps already considered in the EA. The
EA describes the design and operation measures
ETP will implement to protect downstream intake
users. Final EA at 42; 88-94. ETP’s SPCC Plan describes cleanup procedures and remediation activities during construction. EA, Appendix A. ETP prepared a FRP that complies with the applicable requirements of the OPA, and has been prepared in
accordance with the NCP and the Mid-Missouri
SACP. Final EA, Appendix L. The EA also describes ETP’s proposed remediation plans for impacts to groundwater resources. Final EA at 45-49.

542a
In the event of a spill, ETP will consider alternative water supply sources as part of the contingency
planning. Final EA at 38. ETP identified drinking
water intakes and incorporated the intakes into the
updated spill model and companion report. ETP also
incorporated the identified drinking water intakes
into the site-specific GRP. ETP will also evaluate
shutting down certain intakes and utilizing others or
utilizing different drinking water sources or bottled
water as part of this process. The Federal On-Scene
Incident Commander would be responsible for assimilating and approving the response actions under
the Unified Command. ETP coordinated its emergency response planning documents with the Corps as
required by USACE Easement Conditions 8, 9a, and
10.
Under the OPA, the owner or operator, as defined by 33 U.S.C. § 2701, is liable for the costs associated with the containment, cleanup, and damages resulting from a spill. ETP maintains financial
responsibility for the duration of the response actions. If the responsible party cannot pay, funds
from the Oil Spill Liability Trust Fund are used to
cover the cost of removal or damages. The Fund is
paid for through a five-cents per barrel fee on imported and domestic oil and also any fines or civil
penalties collected from other operators.
See also A22, B9, C9, C25, C32, D4, J3, J25, G13,
M23, M24
A13.11 “No mention is made of erosion control
practices that will be implemented where the ground

543a
slope is less than 25%. With the pipeline buried generally at a depth of 36 inches, erosion could be a significant factor in exposure of the pipeline.”
RESPONSE: The Corps gave special attention to
areas where slopes are greater than 25% because
these areas are subject to higher erosion. However,
the Corps also considered areas less than 25% slope.
ETP utilized temporary erosion control devices
(ECDs) throughout construction and permanent restoration and re-vegetation in areas that may be
prone to surficial erosion processes. Final EA, Appendix A and G. Additionally, ETP installed temporary and permanent slope breakers as necessary diagonally across the ROW on slopes to control erosion
by reducing and shortening the velocity, length and
concentration of runoff on slopes as little as 5%. Id.
Furthermore, the Corps required ETP to address
temporary sediment control measures under Easement Condition 5. Easement Conditions 4 and 24 require compliance with the Stormwater Pollution Prevention Plan (SWPPP) and the Environmental Construction Plan (ECP).
A14.11 “Section 3.1.3.1 provides a discussion of
landslide potential in the area of concern. This potential is qualitatively described as ranging from moderate to high. The probable depth of the landslide failure surface relative to the depth of the pipeline is also
not discussed. Without this information, the potential
impact of landslides on the pipeline cannot be
properly quantified and assessed.”
RESPONSE: Expert geologists assessed the potential impact of landslides through a review of detailed aerial imagery, geologic maps, subsurface

544a
maps, as well as site-specific boring data. ETP engineering experts reviewed the detailed aerial imagery, geologic maps, subsurface maps, and site-specific borings across the entire drill area during the
planning and design stages for the HDD. Results of
the geotechnical borings across the entire drill area
are included in Appendix D of the EA. The assessment revealed no evidence of deep-seated landslides
in the vicinity and the risk of landslide is low.
EarthFax’s comments regarding landslide susceptibility in the vicinity of Lake Oahe appear to be based
in part on the digital landslide incidence/landslide
susceptibility map data compiled by Godt (1997). This
mapping is very generalized because it identifies an
entire area as “High Susceptibility” even though it includes Lake Oahe and surrounding upland areas that
are predominantly flat to gently inclined (gradients
less than 15 percent). Therefore, this geologic hazard
mapping is too generalized and lacks an adequate resolution scale to draw meaningful conclusions. Every
inch on that map represents approximately 60 miles
(1:3,750,000 scale).
Figures A14(a) through A14(d) illustrate steep
slope geohazard mapping of the proposed route and
crossing at Lake Oahe and west to the Canonball
River watershed divide. The ground surface along
the majority of the pipeline alignment in the vicinity
of the lake is relatively flat with gradients less than
15 percent. Ground surface gradients along other
portions of the pipeline alignment range from 15 to
30 percent where the alignment crosses existing
drainage networks. Existing ground surface slope
inclinations within the entry (east side) and exit
(west side) workspaces and the stringing area are

545a
relatively flat with gradients generally less than 15
percent. USGS22 and NDGS33 mapped the Fox Hills
Formation (late Cretaceous, about 99.6 million to
65.5 million years ago) as outcropping to the east
and west of the Lake Oahe crossing site. At the location of the western Lake Oahe HDD insertion
point, the quaternary alluvium and glacial deposits
are present as surficial deposits within the Missouri
River valley. At the location of the eastern Lake
Oahe HDD exit point, quaternary sand, silt and
gravel deposits with a veneer of glacial derived loess
deposits are present, with the Fox Hills and Hell
Creek formations outcropping approximately 0.5 to
1 mile to the east.4
ETP reviewed data from geotechnical borings
across the entire drill area including two borings
over 200 feet into alluvium and glacial deposits and
possibly the Fox Hills Formation or top of the Pierre
formation. This material is not conducive to deepseated landslides. At the location of the steep bluff
on the west side of Lake Oahe, the depth of the drill
profile is 100 to 120 feet below the ground surface
and 90 to 115 feet below the mud line of the river,
and therefore not at risk for landslide. Data from
the borings on the west side of Lake Oahe indicate
2

U.S. Geological Survey, 1980. Ground-Water Resources of
Morton County, North Dakota, County Ground-Water Studies 27
– Part III, North Dakota State Water Commission, Bulletin 72 –
Part III, North Dakota Geological Survey.
3

North Dakota Geological Survey, 1984. Geology of Emmons
County, North Dakota, Bulletin 66 – Part I, County Groundwater Studies 23 – Part I; Plate 1.
4

NDGS, 1984

546a
that alluvium and glacial deposits in this area predominately consists of medium dense to very dense
sand with variable silt and clay content. These subsurface conditions are not conducive to landslide activity in areas with ground surface gradients less
than 30 percent. The top of the alluvium and glacial
deposits are younger deposits that may exhibit
some land creep but not the massive landslide
break-away conditions that would be of concern relative to pipeline integrity. In addition, aerial imagery does not indicate a high incidence of landslide
activity within several miles of Lake Oahe.
ETP designed the crossing location and HDD installation method to minimize risks associated with
geologic hazards. The geotechnical analysis facilitated engineering and design, including selection of
appropriate materials and construction methods to
limit environmental impacts attributable to landslides. The pipeline passes through material that is
not conducive to landslide activity at this location.
ETP addressed areas that may be prone to surficial
erosion processes through temporary ECDs throughout construction and permanent restoration and revegetation as outlined in the SWPPP and the ECP.
Final EA, Appendices A and G.
See also A18, A19, B2, B3, B4, C8, C16, C20,
C26, El 1, F14, Ii, J20, L56, L71, M16, M17, M31

551a
A15.11 “Since a 500-year discharge event was
used for the scour analyses, the potential extent of
scour at this location should have been evaluated assuming that the dam is breached.”
RESPONSE: ETP designed the HDD profile
under Lake Oahe to provide 92 feet of cover below
the bottom of the lake. The pipeline below Lake
Oahe is at low risk of river scour at the proposed
Lake Oahe crossing due to the ponded condition of
the lake at this location. Additionally, based on the
borings at the location of the crossing, the depth of
the pipeline is over 70 feet below the estimated
depth of the free-flowing Missouri River prior to the
construction of the dam. Therefore, if the dam was
removed/breached, the pipeline would be below the
depth of the river even if it was allowed to scour
down to its pre-dam levels. GeoEngineers performed a scour analysis in order to evaluate the
scour risk to the proposed pipeline during 100- and
500-year discharge events for the Lake Oahe crossing. Final EA at 16. ETP coordinated with the
North Dakota Office of the State Engineer who performed an independent review of the calculations
as part of the Sovereign Lands Permitting Process
to verify adequate depths for the pipe to be buried
relative to geomorphological movements for the
Lake Oahe crossing. The North Dakota Office of
the State Engineer issued ETP a Sovereign Lands
Permit. Final EA, Appendix M.
EarthFax asserts that the conclusions drawn in
the EA are only true if the reservoir dam functions
properly and generally recommends that the scour
analysis should have incorporated the assumption
that the dam is breached. EarthFax did not provide

552a
the results from any scour analysis containing their
preferred assumption. Also, EarthFax did not provide any scientific evidence or studies specific to
Lake Oahe that would cause the Corps doubt its
previous methodologies and data supporting the
Corps’ reliance on ETP’s scour analysis. Therefore,
this comment does not show that substantial dispute exists as to the size, nature, or effect of the
major Federal action.
A16.11 “The potential for this scour scenario
(bend plus contraction scour occurring at the crossing) was quantified by comparing the results of multiple calculation methods and arriving at a factor of
safety against exposure of 1.4 to 2.3 . . . . it is unknown if this approach was appropriate or if these
calculations took into account the relative errors of
the various equations, which errors would affect the
interpretation of the results. Given the potential
depth of scour versus the planned depth of pipeline
installation, the calculations should have been presented to allow independent review of the risk by the
Corps of Engineers.”
RESPONSE: Comment is addressed in response
to Comment A15.
A17.11 “No mention is made of pipe bedding...”
RESPONSE: According to ETP, pipe bedding is by
nature only applicable to the sections of pipe installed
by trench and therefore not the sections installed by
HDD at Lake Oahe between the insertion and exit
points. Nevertheless, ETP’s contractor used padding
machines over the entire length of the pipeline, not
just at the Oahe crossing, such that all pipe has bedding material underneath and on top of the pipeline.

553a
After backfill was completed, ETP required the contractor to conduct a water based hydro test. On March
24, 2017, Enduro Pipeline Services, Inc. checked pipe
ovality using caliper tools over the entire length of the
pipeline to ensure the hydro test did not deform any
of the pipe and to locate any potential dents. The Caliper Survey Field Report shows that DAPL had zero
findings and zero repairs related to the Lake Oahe
crossing.
For the portions of the pipe installed within a
trench, prior to lowering-in, DAPL construction specifications required bedding material be added if the
bottom of the trench is rocky. The following excerpts
from the DAPL construction specifications are applicable:
Section 5.9 Backfilling: After lowering-in has
been completed, but before bacifilling, the trench shall
be inspected by Contractor to verily the ditch is dry
and shall be inspected to ensure that no skids, brush,
stumps, trees, timber mats, boulders or debris are in
the ditch. No such materials or debris shall be backfilled into the ditch... Rock, larger than one inch in
diameter, or like materials shall not be backfilled directly onto the pipe. if proper rock shield is provided,
tip to two inch diameter rocks are permitted. Where
such materials are encountered, contractor shall haul,
4f necessary, sklicient earth or sand to be backfilled
around and over the pipe to form a protective padding
or cushion ... Large rock or boulders shall not be backfilled into the ditch shall be disposed (f properly.
Section 5.8.3 Dirt Padding: Soil conditions
change from site to site, therefore the Construction
Manager, in consultation with the Field Engineer

554a
and the Project Manager, has the responsibility to
monitor soil conditions and verify that contractor
deploys the correct method cf bacifilling that will
assure protection (f the coating and pipe. if padding
is required, the Construction Manager shall communicate with the contractor to determine the
proper screen sizing and backfill application, for
the existing conditions. The Construction Manager
shall then communicate to the inspection staff the
proper backfill method and the inspector will verify
that the contractor adheres to the agreed to backfill
method... if required, dirt padding shall be installed in the bottom (f the ditch to a minimum
depth (f 8 inches, prior to lowering-in the pipeline,
if other acceptable support for protecting the bottom (f the pipe is not utilized. A minimum (f 8
inches (f dirt padding shall be installed as cover on
top (f the line as protection prior to bacifilling...
5.7 Holiday Detection: Contractor shall ensure
that coating inspection, both visible inspection and
electronic holiday detection shall be performed by
Contractor both immediately prior to and/or immediately upon completion of the lowering-in operation
as conditions require. The entire coated surface
shall be inspected for holidays. Additional excavation may be required to utilize electronic holiday detection after completion of lowering in for tie-ins
etc…[Note for the reader: Holidays are discontinuities in a coating, such as pinholes cracks, gaps, or
other flaws, that allow areas of the base metal to be
exposed to any corrosive environment that contacts
the coating surface. A Jeep (Holiday detector) is an
electrical device used to detect abnormalities/holidays in pipeline coating].

555a
A18.12 “As part of a discussion about erosion control methods to be implemented, Section 3.1.3.2 of the
EA indicates that ‘construction and operation of the
Proposed Action facilities . . . would not be expected to
increase the potential for significant landslide or slip
events’. The implication of this statement is that the
control of surface erosion will also control landslides.
This is an inappropriate conclusion.”
RESPONSE: The Corps did not intend to imply
that controlling surface erosion will also control landslides. Landslide risk is addressed in the response to
Comment A14.
A19.12 “Section 3.1.3.2 of the EA also states that
‘the strength and ductility of a properly designed pipeline would allow it to span a considerable distance
without compromising its integrity in the event of a
landslide or other ground movement, such as subsidence.’ This statement is true only if the pipeline was
designed for such a span. Friction from adjacent soil
can place substantial added forces on a pipeline during a landslide, whether those forces are caused by abrupt movements or slow movements.”
RESPONSE: As part of the Section 408 review,
the Corps required an HDD plan. The Corps’ geologist
and geotechnical engineers reviewed ETP’s HDD plan
and deemed it sufficient. EarthFax did not provide
any scientific evidence or studies specific to the Lake
Oahe HDD plan that would cause the Corps to doubt
its previous methodologies and data supporting the
Corps’ reliance on ETP’s HDD Plan. As noted in the
response to Comment A14, there is no evidence of
deep-seated landslides in the vicinity of the Lake

556a
Oahe crossing. EarthFax did not provide any scientific evidence or studies specific to the Lake Oahe
HDD plan that would cause the Corps to doubt its previous methodologies and data supporting the Corps’
conclusion on the risk of landslides in the vicinity of
the Lake Oahe crossing. Therefore, this comment
does not show that a substantial dispute exists as to
the size, nature, or effect of the major Federal action.
A20.12 “In order to properly revegetate the disturbed area and minimize long-term erosion, it is critical that surficial soil be segregated and replaced
throughout the length of the pipeline disturbance,
whether the area has agricultural significance or not.”
RESPONSE: Topsoil segregation is by nature
only applicable to the sections of pipe installed by
trench and therefore not the sections installed by
HDD at Lake Oahe between the insertion and exit
points. For portions of the pipe installed by trench,
ETP performed topsoil segregation in accordance with
landowner agreements and North Dakota Public Service Commission (PSC) conditions under various site
condition scenarios. Final EA, Appendix C. The PSC
conducted oversight and inspection of topsoil segregation. In May 2017, the ND PSC opened an investigation to look into possible siting violations discovered
by a third-party construction inspector hired by the
PSC. The third-party inspection reports noted inadequate subsoil and topsoil segregation. On September
20, 2017, PSC and ETP entered into a settlement
agreement whereby ETP will inspect, with the participation of Commission staff, any areas of concern
raised by landowners and will investigate and address
any issues identified. ND Public Service Commission,
Dakota Access, LLC, Dakota Access Pipeline Project

557a
Siting Application, Case No. PU-14-842, Settlement
Agreement (Sept. 20, 2017). ETP addressed avoidance and minimization of soil impacts in the SPCC,
SWPPP, and ECP. Furthermore, Easement Condition
24 requires avoidance and minimization of soil impacts.
A21.12 “[N]o mention is made of [hydrostatic]
testing after the pipeline is installed . . . . it would be
appropriate to hydrostatically test the pipeline after it
is installed and before it is put into operation.”
RESPONSE: There are several references
within the EA related to hydrostatic testing. Final
EA, at 18, 48, 88, and 93. ETP conducted hydrostatic tests on the portion of the pipeline installed
under Lake Oahe to a minimum pressure of 1,880
psig. The first test was the pre-in-service hydrostatic test at a minimum of 1.25 times maximum
operating pressure (MOP) for eight continuous
hours, which was performed prior to pulling the
pipe under the Lake on February 28, 2017. The
second test was performed under the same conditions after the pipe was pulled under the Lake and
completed on March 24, 2017. ETP reported that
both tests were successful. Furthermore, the Corps
required post-construction hydrostatic testing as
Easement Condition 15.
See also E4, E5
A22.12 “Section 3.2.2.2 of the EA states that ‘dispersion, evaporation, dissolution, sorption, photodegradation, biodegradation, and natural attenuation
ultimately would allow a return to preexisting conditions in both soil and groundwater’ if a spill occurs
and no active groundwater remediation occurs . . . .

558a
relying solely on these natural attenuation factors to
remediate groundwater that is contaminated with a
crude-oil spill would be inappropriate under most
conditions.
RESPONSE: EarthFax’s assertion is incorrect
that natural attenuation will be utilized in the remedy
without consideration of additional measures. As described in the response to Comment Al2, ETP will consider multiple measures to remediate impacts to soil
and groundwater. Final EA at 48.
A23.12-13 “Section 4.2 of the EA states that operational spill-related impacts ‘would be avoided or
greatly reduced by requiring immediate cleanup
should a spill or leak occur.’ This statement oversimplifies efforts and minimizes the impacts that a spill
could occur . . . . the EA should have provided a more
comprehensive quantitative evaluation of spill impacts rather than implying that a goal of “immediate
cleanup” should be sufficient to resolve those concerns.”
RESPONSE: While the potential risk for a
worst-case release is low such a spill would result
in high consequences. Final EA at 91. The EA describes the design and operation measures ETP will
implement to protect downstream intake users. Final EA at 42; 88-94. ETP’s Spill Prevention Control
and Countermeasure Plan (SPCC Plan) describes
cleanup procedures and remediation activities during construction. Final EA, Appendix A. ETP prepared a FRP that complies with the applicable requirements of the Oil Pollution Act of 1990 (OPA
90), the National Oil and Hazardous Substances

559a
Pollution Contingency Plan, and the Mid-Missouri
Sub-Area Contingency Plan. Final EA, Appendix L.
Following PHMSA modeling guidance, ETP prepared a spill model specific to the Lake Oahe crossing.
ETP used the hypothetical worst-case scenario volume to design a location-specific GRP for the crossing.
ETP’s GRP describes cleanup procedures and remediation activities during operations. ETP provided the
GRP to the Corps, SRST, and CRST for review. ETP
incorporated comments from the Corps, SRST, and
CRST into revised versions of the GRP.
Furthermore, ETP coordinated its emergency response planning documents with the Corps in accordance with easement conditions 8, 9, and 10.
Earthfax did not specifically identify an alternative methodology that was more appropriate for the
evaluation. Earthfax generally commented that a
more comprehensive quantitative evaluation was appropriate but does not identify a particular evaluation
or the particular factors, criteria, or technique to perform the quantitative evaluation. Earthfax did not
provide any scientific evidence or even studies specific
to Lake Oahe that would cause the Corps to doubt its
previous methodologies and data supporting the
Corps’ conclusion to rely on ETP’s clean-up methods
and spill impacts. Nor did EarthFax provide the results from its preferred quantitative evaluation to the
Corps to consider. Therefore, this comment does not
show that a substantial dispute exists as to the size,
nature, or effect of the major Federal action.

560a
Document B: Accufacts Review of the U.S.
Army Corps of Engineers (USACE)
Environmental Assessment (EA) for the Dakota
Access Pipeline (“DAPL”)
Memorandum to Jan Hasselman, Earthjustice,
Richard Kuprewicz
B1.2 “USACE does not provide appropriate detailed analysis as to the oil spill risks to these sensitive waters, either from the specific crossings or from
other sections of the pipeline that could release oil
that could reach these High Consequence Areas, or
HCAs (e.g., unusually sensitive areas, or USAs). For
the DAPL segments that could affect these HCAs, the
EA fails to provide sufficient detail to support the finding of low risk with the proposed mitigations. The
sources of risks are not prudently explained, and information is not provided in enough detail to permit
an independent confirmation of USACE findings.”
RESPONSE: This topic is addressed in the response to comment A10. The Corps considered HCAs
in the evaluation of DAPL. Final EA at 94. ETP used
output spill pathways in geospatial data formats to
consider potential interactions with HCAs, USAs, and
other areas as defined by PHMSA. Lake Oahe Crossing Report at 11-18; See also Spill Model Report at
164-177. The spill models follow PHMSA modeling
guidance and include information on hypothetical
worst-case release volumes, intake locations and an
analysis of the flow distance and the time that it
would take for the first oil from an unabated release
to travel downstream and reach water intakes.

561a
The spill models account for the presences of
HCAs. Lake Oahe Crossing Report at 16 and Appendix 3. ETP designed the pipeline and developed operational parameters to reduce the risk (probability and
consequence) of a release at HCAs in accordance with
PHMSA requirements. The table presented on page
16 of that document illustrates the downstream distances from the pipeline crossing and locations where
the simulated oil plumes are predicted to interact with
the HCAs.
ETP considered HCAs along the two alternative
alignments in accordance with 49 CFR § 195.452. The
impacts to mapped HCA’s at the proposed crossing are
similar to, or less than, those for the Alternate Route
Crossing North of Bismarck. Final EA at 9-10. According to ETP, there are no known code or industry
accepted procedures that state that the HCAs cannot
be used as one measure to assess relative risk between
points along the alignment during that evaluation.
In the “DAPL — Route Comparison and Environmental Justice Considerations” memorandum, ETP
provided the Corps with data showing that the former
Fort Yates municipal drinking water intake, which at
that time was the first known Tribal-related drinking
water (i.e., human consumption) intake downstream
of the Lake Oahe crossing, is approximately 27 miles
downstream of the Lake Oahe crossing. Any release
at the Lake Oahe segment would have to go unmitigated for long enough to reach the off-line community
intake at Fort Yates. However, this risk is further reduced since the Fort Yates water intake was replaced
with a new intake structure located approximately 75
miles south of the pipeline crossing.

562a
Furthermore, Corps Easement Conditions 34 and
35 require ETP to take measures to protect HCAs.
See also B8, B14, C9, C17, C29, E8, E13, F2, Gl,
G10, G14, J14, L47, L48
B2.3 “[T]he EA mentions nearby areas of the pipeline route that are highly susceptible or have high incidence of landslide. While some of this landslide discussion is related to construction site locations for the
water crossings, there appear to be other areas of the
pipeline located in high landslide risk areas. The
North Dakota Geological Survey has noted for the
DAPL ‘High concentrations of landslides have been
mapped in many regions along the proposed route centerline shown in Figure 1 of your document.”
RESPONSE: Topic is addressed in the response
to Comment A14.
B3.3 “Further analysis and information as to the
pipeline’s location in [nearby high-risk] landslide areas and its potential impacts to the federal crossings
and sensitive waterways, should the pipeline fail,
must be clearly incorporated into the EA. The EA
specifically states, ‘This strength and ductility effectively mitigates the effects of fault movement, landslides, and subsidence. Therefore, by implementing
the mitigation measures presented here, impacts on
the pipeline from geologic hazards are expected to be
minimal.’ But this conclusory statement is insufficient . . . . Statements/inferences in the EA that pipe
design/steel/weld properties can mitigate the risks of
landslide threat are very misleading, if not downright false. Landslide activity that could place such
severe abnormal loading on pipeline segments where
a release could affect the easements, especially the

563a
sensitive waterways, needs to be clearly delineated
by threat type, prudently evaluated, and risk determinations communicated to permit an independent
evaluation of such assertions to assure they are not
biased. None of this was done in the EA.”
RESPONSE: As noted in the response to Comment A14, there is no evidence of deep-seated landslides in the vicinity of the Lake Oahe crossing.
B4.4 “A more complete and detailed analysis may
determine that the current federal easement crossings and pipeline route entering/leaving these federal
easements are inappropriate because of potential impacts from off easement locations that could have a
much greater impact on the sensitive waterways. For
example, since no pipeline can be designed to withstand massive landslide forces, if such a threat exists,
the pipeline should be routed out of the landslide
threat area.”
RESPONSE: ETP demonstrated it avoided areas
of high landslide risk during the design of the pipeline
route. See the response to Comment A14. A review of
the site-specific data indicates that the pipeline is already located away from a landslide threat area. This
information includes aerial imagery, geologic maps,
subsurface maps, and site-specific borings across the
entire drill area as described in the response to Comment A14. Results of the geotechnical borings across
the entire drill area are included in Appendix D of the
EA.
See also E7, Ell, F14, H2, I1
B5.5 “A study performed in 2012 reported that
for hazardous liquid pipelines that utilized CPM

564a
and SCADA leak detections, ‘The pipeline controller/control room identified a release occurred
around 17% of the time.’ This low success rate for
control room remote identification of pipeline release, even ruptures, is consistent with Accufacts’
many liquid pipeline failure investigations spanning more than 40 years, especially more recent investigations. Remotely determining pipeline releases, even ruptures, particularly with respect to
large rate releases, is difficult for various reasons.
This is especially true if the remote monitoring is
generating a large number of false release alarms
that tend to train control room operators to ignore
a true release alarm.”
RESPONSE: ETP pipeline controllers are
trained to shutdown pipelines and investigate when
there is any doubt regarding the alarming of the possible presence of a release/leak. Based on Accufacts
reference to the investigations it has conducted over
40 years, ETP infers that Accufacts is investigating
older pipeline systems/technologies. ETP asserts
that a comparison to data from 40 years ago, and
from older pipelines installed prior to modern pipeline standards, overstates the risk of this modern
pipeline.
According to ETP, it installed state-of-the-art
pipeline monitoring tools and features that provide
real-time transient modeling that includes data from
various field instruments every 6 seconds and updated model calculations every 30 seconds. There
are numerous pressure transmitters installed on the
DAPL pipeline at regular intervals, including both
sides of the Lake Oahe. The effects of a pipeline rupture would cause pressure waves to travel at the

565a
speed of sound through the pipeline and would be detected as pressure drops within seconds of the rupture occurring.
ETP installed the LeakWarn system in accordance with PHMSA requirements and API-RP-1130
guidance (API Recommended Practice 1130 — Computational Pipeline Monitoring for Liquid Pipelines).
ETP will evaluate the effectiveness of the leak detection system following the guidelines set forth in APIRP-1130, which include simulated leak tests, actual
leak tests, or the analysis of confirmed releases.
ETP may perform the simulated leak tests by electronically overriding the computers to simulate a
leak condition, whereas the actual leak tests are performed by removing product from the pipe. ETP
evaluates the results of each of these tests, and the
response to actual releases, to optimize the system
capabilities, refine the product release tolerances,
validate the response times, and train the control
room operators. Instrument and custody grade
measurement equipment have been included as part
of the pipeline design, and will provide data for the
leak detection system. ETP uses this data to refine
the detection system response during transient and
steady state conditions.
Furthermore, the maintenance and operation of
the valves, leak detection, and notification systems
are required in Easement Conditions 21, 22, and 23.
See also C23, F8, G7, J15, L5, L23, L31, M22,
M25
B6.5 “I recommend that if remote detection via
SCADA is incorporated, such detection and response
should be primarily directed on rupture detection.

566a
Leak detection, the smaller rate releases, may be warranted on selective segments of the pipeline, but such
efforts complicate the efforts (i.e., generate excessive
false alarms) to reliable remotely indicate pipeline release to control room operators. Such a release approach should also clearly identify the measurement
equipment, its precision and placement, and important transient analysis (i.e., changes in pipeline
operating parameters such as crude oil variations and
pump start up and shutdown impacts on parameters
being monitored by the release detection system) that
would indicate a rupture has most likely occurred.
Pressure loss is not the most likely timely indicator of
pipeline rupture for the pipeline segment(s) that could
impact the sensitive watersheds . . . . I find that the
EA has failed to provide sufficient information that
would support response time claims in the EA. I also
place little confidence in efforts attempting to allow
for further study for such remote rupture detection as
the science and dynamics of such releases should be
easy to verify.”
RESPONSE: ETP is utilizing Leak Warn, which
according to ETP is a leading Computational Pipeline
Monitoring (CPM) system software program for monitoring pipelines, to monitor the pipeline for leaks.
ETP modeled, configured and tuned the Leak Warn
CPM system specific to the DAPL installation facilities including elevation profiles and pipeline MOP in
accordance with PHMSA requirements and API-RP1130 guidance.
According to ETP, this LeakWarn CPM system is
capable of detecting leaks down to 1 percent or better
of the pipeline flow rate within a time span of approx-

567a
imately 1 hour or less and capable of providing rupture detection within 1 to 3 minutes. Once Leak Warn
detects a leak, its interface to the SCADA system will
trigger an audible alarm in the SCADA system, which
will alert the ETP pipeline controller. The maintenance and operation of the valves, leak detection, and
notification systems are required in Easement Conditions 21, 22, and 23.
Based on ETP’s responses to Accufacts comments,
the Accufacts comments do not show that a substantial dispute exists as to the size, nature, or effect of the
major federal action as it relates to leak detection.
See also B7, F4, G13, J15, L5, L7, L8, L40, M25
B7.6 “Additional information and analysis is
needed that would permit an independent verification that the rapid identification mentioned in the
EA is even possible for the particular pipeline segments that could release into the unusually sensitive
areas. Even if the claimed release detection parameters are true, which is highly unlikely given the
lack of more detailed information in the EA, a large
volume of oil would still be released before the control room were to take appropriate action. Overstatement of remote response timing in an oil spill understates the risks associated with the pipeline.”
RESPONSE: As indicated in the response to
Comment B6, the LeakWarn CPM system is capable
of detecting leaks down to 1 percent or less of the
pipeline flow rate within a time span of approximately 1 hour or less and capable of providing rupture detection within 1 to 3 minutes. In the event of
a slow leak, even if pressure measurements do not

568a
show a significant drop in pressure, a detectable meter imbalance will develop over a period of time resulting in an alarm to the Control Center. While the
alarm threshold may be 1%, the SCADA and
LeakWarn systems are sensitive to smaller changes
in flow rate and pressure. DAPL Pipeline controllers
are trained to shutdown pipelines and investigate
when there is any doubt regarding the alarming of
the possible presence of a release/leak.
Accufacts asserts that the additional information that is needed to perform its preferred analysis is described in Section IV of its comments. However, neither Section IV, nor anywhere else in the
comments, specifically identifies the additional information and analysis that was more appropriate
for the evaluation. Accufacts generally commented
that more detailed information is required but did
not provide any scientific evidence that would cause
the Corps to doubt its previous methodologies and
data supporting the Corps’ reliance of ETP’s description of the LeakWarn CPM system. Therefore, this
comment does not show that a substantial dispute
exists as to the size, nature, or effect of the major
Federal action. Furthermore, the maintenance and
operation of the valves, leak detection, and notification systems are required in Easement Conditions
21, 22, and 23.
See also E13, L8
B8.6 “The lack of specific information in the EA
strongly suggests deficiencies in the worst case discharge determination that could affect the unusually
sensitive areas, and related oil spill response planning
. . . . Information concerning the worst case discharge

569a
barrels is not verifiable because the value that could
reach or impact the federal easements and unusually
sensitive areas has not been provided in the public
documents associated with the EA.”
RESPONSE: Worst-case release determination is
addressed in the responses to Comments Al and A2.
High consequence areas are addressed in the response
to Comment Bl. Accufacts does not specifically identify any deficient data or methodology that supported
the worst case discharge determination.
B9.6 “[T]he water intake mitigation measures in
the EA . . . do not provide sufficient information to
validate any possible worst case values, or the associated oil spill response plan’s effectiveness.”
RESPONSE: Water intake protection and mitigation measures are addressed in the response to Comment Al2. Worst-case scenario volumes are addressed
in the responses to Comments Al and A2. The response plan is addressed in the response to Comment
A6.
B10.7 “Corrosion threats should be based on actual measured in the field readings verifying ILI runs
and not based on assumed ‘conservative’ corrosion
rates.”
RESPONSE: The Corps agrees with the Accufacts comment that corrosion rates may vary considerably and industry averages may not accurately reflect a particular pipeline’s operations. ETP cannot
calculate a pipeline-specific corrosion rate until the
pipeline is in service; therefore, ETP provided the
Corps with “conservative” corrosion rate to support

570a
the EA analysis. Corrosion management is a dynamic process that ETP continuously evaluates to
insure optimal protection of all Dakota Access assets. Per the pipeline integrity management regulations for hazardous liquid pipelines (49 CFR §
195.452) and according to the Sunoco Integrity management plan, the DAPL is subject to robust integrity testing.
Additionally, as per Easement Condition 32, ETP
must run cleaning pigs twice in the first year. ETP
collects and samples liquids from these pigs to determine if liquid water is present. If water is present
then ETP samples and analyzes it, and then develops
internal corrosion mitigation plans based upon lab
test results. Thus far, ETP has run cleaning pigs
every quarter, exceeding the frequency stated in Condition 32. According to ETP, to date, liquid build up
has not been an issue and there has not even been
enough water collected to provide analysis.
ETP stated that the DAPL was designed with internal corrosion coupons that give approximated
worst-case corrosion rates. ETP will examine the internal corrosion coupons at least twice each calendar
year, but with intervals not exceeding 7.5 months per
49 CFR § 195.579. Per ETP internal procedure, corrosion coupons are pulled every six months in exceedance of this requirement. The DAPL has an internal
corrosion control coupon located at the pig receiver to
the east of Lake Oahe. According to ETP, a third
party review of the corrosion coupon results indicates
that they were below the acceptable rate (per procedure) of 1 mil per year (above 1 mil per year, treatment may be required).

571a
Easement Condition 28 requires ETP to complete corrosion surveys for the pipeline segment
within six months of placing the cathodic protection
service into operation to ensure adequate external
corrosion protection. ETP conducted a Close Interval Survey (CIS) in June 2017 to obtain cathodic protection potential readings at the rectifiers and CP
test stations from MLV 380 to MLV 390. A thirdparty review of the cathodic protection records
showed that the pipeline’s cathodic protection system is performing in accordance with the pipeline
safety regulations and the Operator’s Operations
and Maintenance Manual. ETP will perform another CIS for the entire pipeline within two years of
the pipeline being placed in service in accordance
with PHMSA regulations and Operator procedures.
ETP will also run an in-line inspection device within
two years of the pipeline being in service to discern
any metal loss on the pipeline. ETP will test for wall
thickness with each running of a metal loss in-line
inspection device. The Operator performs a CIS
every 5 to 7 years in conjunction with in-line inspection per procedures.
ETP explained that the Accufacts comment that
corrosion threats should be based on actual measured
in the field readings is flawed because ETP cannot calculate a pipeline-specific corrosion rate until the pipeline is in service; therefore, ETP used a “conservative”
corrosion rate to support the EA analysis. Based on
the foregoing, this comment does not show that a substantial dispute exists as to the size, nature, or effect
of the major federal action.
B11.7 “ILI cannot identify all construction and
transportation (i.e. cracking) defects that can survive

572a
a 1.25 MAOP hydrotest. Given the nature of the product anticipated to be moved on the system, the operator should provide evidence that transportation cracking threats are not introduced that might survive a
hydrotest but grow with time because of pressure cycling that may be associated with the crude oil operation.”
RESPONSE: ETP utilized the highest quality fusion bond epoxy (FBE) as an external pipe coatings to
reduce the risk of corrosion and stress corrosion cracking. Final EA at 42. According to ETP, external coating was used in accordance with DOT 195, Subpart H,
Corrosion Control, ASME B31.4, and Dakota Access’s construction specifications. ETP utilized modern, high-performance FBE and Abrasion-Resistant
Overcoat (ARO) on both the Dakota Access Pipeline
mainline pipe and on the joints. ETP coated the exterior of the line pipe with a 14-16 mil thick single
layer of FBE, and applied an additional 40 mil layer
of ARO over the FBE coating for bores and horizontal
directional drills. These measures reduce the risk of
potential threats.
To address the transportation fatigue cracking
threat, DAPL states that it took a “preventive” approach with the extensive use of the transportation
specifications API RP 5L1 (Railroad), API RP 5LW
(Marine), and API RP 5LT (Truck) to avoid inducing
transportation fatigue cracks. According to ETP,
NTSB investigations indicate transportation fatigue
cracking is an issue for large diameter, thin wall pipe
when it is shipped/transported while setting on its
seam.

573a
It is ETP ‘s understanding that all known cases
of transportation fatigue crack failures that have occurred on liquid pipelines have involved large diameter pipe with Diameter/Wall Thickness (D/t) ratios
greater than 100 making it extremely susceptible if
not transported appropriately. DAPL has thick wall
(0.625-inch) for the 30-inch pipeline. This results in
a D/t ratio of 48 (significantly less than the D/t ratio
of 100).
Accufacts did not specifically provide any scientific evidence that would cause the Corps to doubt its
reliance on ETP data regarding transportation fatigue
crack failures. Therefore, this comment does not show
that a substantial dispute exists as to the size, nature,
or effect of the major Federal action.
Furthermore, coating requirements are addressed
under Easement Conditions 17-20. See also C7, E5
B12.7 “Insufficient design detail has been provided in the EA to permit an evaluation as to the risks
associated with incorrect operation and/or equipment
failure on the segments that could affect the sensitive
water crossings.”
RESPONSE: Topic is addressed in the response
to Comment A9.
B13.7 “Additional information is needed concerning the type of fusion bonded epoxy, or FBE, coating
and whether it is of the more recent generation or type
that permits CP current pass-through should the FBE
disbond (separate from the pipe wall). This threat potential should be an easy issue to resolve.”
RESPONSE: ETP utilized the highest quality
FBE as an external pipe coating. Final EA at 42.

574a
According to ETP, the latest technology coatings allow for cathodic protection to protect the pipe steel
even under failed or disbonded coating to reduce the
risk of corrosion and eliminate the potential for
stress corrosion cracking. ETP pipeline utilized 3M
Scotchkote 6233 FBE external pipe coating and SPC2888 (field applied epoxy) as a joint coating. These
are industry accepted high performance epoxy coatings that provide excellent adhesion and resistance
to cathodic disbondment. Coating requirements are
addressed under Easement Conditions 17-20.
See also L57
B14.8 “The risk analysis is missing critical details
to permit an independent evaluation of risk for the
project that could affect the sensitive waterways including Lake Oahe.”
RESPONSE: Topic is addressed in the response
to Comment Bl.
B15.8 “Non- destructive testing of 100 percent of
girth welds should be clearly defined to mean radiological inspection (i.e., x-ray, gamma ray) of all girth
welds that could impact the two crossings . . . I do not
see such a clear requirement in the EA and API 1104
(a referenced industry standard providing guidance in
pipeline welding) which affords too much room for
misapplication . . . . despite many attempts over the
decades to develop and advance ILI technology, current ILI capabilities cannot accurately determine the
quality of girth welds, especially as it relates to girth
weld cracking.”
RESPONSE: ETP committed to inspecting welds
via radiographic testing. Final EA at 18 and 88-94.

575a
ETP completed radiographic testing. Furthermore,
ETP committed to 100% girth weld radiography. Final EA at 93. According to ETP, this commitment exceeds the 49 CFR § 195 requirements which require
nondestructive testing for just 10% of girth welds
made by each welder per day (49 CFR § 195.234).
B16.9-10 “Any analysis should include the following information to provide assurances that the pipeline route/design/operation/ maintenance activities
are complete to avoid failure, the risk analysis appropriate, and more importantly, that an oil spill response plan would likely be effective if ever needed.
As too many oil spills have recently demonstrated,
claims of complying with federal regulation 49 CFR §
194 (Response Plans for Onshore Oil Pipelines) do not
assure that such plans will be effective in the event of
an oil release. . . .
a) the pipeline elevation profile (approximate elevation vs milepost for the pipeline segments between the nearest upstream and downstream
pump stations) spanning the sensitive easements,
b) on the elevation profile, a line indicating the Maximum Operating Pressure, or MOP,
c) on the elevation profile, a hydraulic profile at the
design rate case (various additional rates may be
included as well for large elevation changes),
d) location of mainline valves and their type of operation (e.g., manual, remote, automatic), as well as
specific safety design if warranted,

576a
e) general location/type of critical leak detection
monitoring devices by milepost,
f) identification by milepost range of High Consequence Areas, and
g) given the numerous pipeline failures following
ILI tool runs, further requirements are warranted
on the type of ILI tool to be run, its frequency,
and tool limitations for the segments that could
threaten and affect the federal waters.
Without such information an EA for a specific pipeline is incomplete.”
RESPONSE: Dynamic Systems, third party engineers, conducted the risk analysis for DAPL. According to ETP, Dynamic Systems considered the items
recommended by Accufacts during their preparation
of the risk analysis of the Lake Oahe crossing. Dynamic Systems, considered the following factors during their preparation of the risk analysis of the Lake
Oahe and Missouri River crossings:
a) Elevations of the Lake Oahe and Missouri River
crossings including elevations of the upstream
and downstream isolating valves on either side of
the HDD crossings of Lake Oahe and Missouri
River, along with locations and type of operation,
and the time to detect and isolate a leak.
b) The Design Basis Memorandum including the
Project MOP values at the locations of the two
HDD crossings.

577a
c) A hydraulic profile for the design rate case and elevations which account for elevation changes.
d) The location of mainline valves and the type of
operation (e.g., manual, remote, automatic) with
all excess flow restriction design analysis (EFRD)
as design safety measures.
e) Information on critical leak detection monitoring
devices associated with the Leak Warn System
consisting of pressure transmitters and ultrasonic flow meters by milepost location.
f) Identification of High Consequence Areas by milepost location at the locations of the two HDD
crossings.
Regarding Accufacts 7th item, ETP stated that
the determination of protocol for the ILI tool run is
based on more than just the results of the preliminary
risk assessment. In particular, the protocol for the ILI
tool run is determined post-construction in conjunction with the results of the as-built survey, the close
interval survey, 3rd party construction risks, other
identified threats, and the preliminary risk assessment. Thus, the information needed to justify “further requirements” for ETP to run in this area was not
available when the Corps finalized the EA.
ETP provided the Corps with information on the
risk analysis in the HDD Crossing Risk Analysis.
These reports summarize risk analysis results and
identify actions that would reduce the calculated likelihood of failure. The Reports concluded that the combined threat/combined consequence risk score of the

578a
Lake Oahe Crossing is 1.27 (with 100 being the highest). It therefore falls into the low risk portion of the
risk matrix.
Furthermore, the Corps acknowledged the importance of the ILI process by incorporating the inspection as a requirement in Easement Conditions 29
and 31.
The Accufacts comment is flawed. As outlined
above, the DAPL risk analysis did consider the factors
identified by Accufacts. Therefore, this comment does
not show that a substantial dispute exists as to the
size, nature, or effect of the major federal action because the comment does not show flaws in the methods or data the Corps actually relied on here.
See also Gl, L48
B17.11 (Attachment 1 page 1) “Complying with
federal minimum pipeline safety regulations concerning Cathodic Protection does not insure that such systems will be effective in preventing pipeline release
from corrosion.”
RESPONSE: According to ETP, DAPL exceeds
the minimum pipeline safety regulations concerning
Cathodic Protection. As indicated in the Pipeline Integrity Management Plan, the pipeline integrity
management includes a combination of information
assessment and analysis of elements. With regard
to metal loss due to inadequate cathodic protection,
the Corps required in-line inspection as part of Easement Condition 29. The in-line inspection is designed to assess the physical condition of the pipeline including the detection of any metal loss— pos-

579a
sibly caused by external corrosion or other mechanisms. ETP will investigate and mitigate any anomalies as appropriate.
See also L57
B18.12 (Attachment 1 page 2) “No appropriate
conclusions can be derived from the FRP at this time,
as relevant pipeline system information important to
the federal crossings has not been provided in the EA.”
RESPONSE: The Corps reviewed the FRP and
relevant pipeline system information prior to the decision on the EA. This topic is addressed in response
to comment A9.
See also B19, B20, Cl, E10, J11
B19.12 (Attachment 1 page 2) “Critical pipeline
system information that can affect the federal crossings is missing, and this missing information will not
permit the USACE to prudently evaluate the effectiveness of the various cited Manuals, Plans, and
Models.”
RESPONSE- Topic is addressed in the response to
Comment B18.
B20.12 (Attachment 1 page 3) “Training exercises
cannot compensate for failures to install or evaluate
proper equipment, operation and/or maintenance procedures, especially on pipeline systems that can affect
sensitive areas. Key information is missing from the
EA or is redacted to prevent a prudent evaluation of
the proposal that could affect the federal crossings.”
RESPONSE: The Corps agrees with Accufacts
that training exercises cannot compensate for failures
to install or evaluate proper equipment, operation

580a
and/or maintenance procedures. The training exercises incorporated into the Easement Conditions are
added layers of protection and are not intended to substitute for improper installation or equipment maintenance. Topic is addressed in the response to Comment
B18.
Document C: Technical Engineering and
Safety Assessment: Routing, Construction and
Operation of the Dakota Access Pipeline in
North Dakota ENVY Enerji ve Cevre
Yatirimlari A.S. Attachment A-7 of Declaration
of Rollie E. Wilson
C1.3-4 “The documents withheld and specifically
referenced by the USACE in their December 4, 2016
memorandum are:
(a) North Dakota Lake Oahe Crossing Spill Model
Discussion, prepared by the Wood Group Mustang Engineering;
(b) Lake Oahe HDD Risk Analysis Report; and
(c) DAPL Route Comparison and Environmental
Justice Considerations. . . .
It is not possible to complete and compile a comprehensive technical and cost review without these key withheld documents. As the technical experts, we, therefore,
recommend their release to allow for their review and
analysis.”

RESPONSE: Topic is addressed in the response
to Comment B18 and C22.
C2.8 “The references found reveals that there
are no similar applications to what DAPL

581a
have proposed involving crude oil as the product fluid in a low HDD bore in a lame diameter/volume pipeline application underneath a
wide freshwater waterbody similar to Lake
Oahe . . . . Given that the HDD of Lake Oahe is
perhaps the longest and largest diameter HDD efforts under a freshwater body, the USACE should
incorporate a detailed and rigorous risk analysis in
the proposed EIS.”
RESPONSE: ETP hired GeoEngineers to design,
and hired Michels Drilling to perform, the Lake Oahe
HDD. The Corps reviewed the HDD plan submitted
by ETP and met with representatives of GeoEngineers and Michels Drilling in order to obtain a better
understanding of the design and installation procedures.
ETP provided applicable examples of large diameter/long bore HDDs. According to GeoEngineers, there is virtually no difference with the design and construction of a large diameter/long bore
HDD whether the pipeline is transporting natural
gas or crude oil, or whether it is located under freshwater or saltwater. Final EA, Appendix B. Therefore, all of the referenced HDD’s provided by ENVY
are applicable regardless of pipeline product or type
of water body. Michels Drilling has several examples of very long large-diameter crude oil HDD bores
under freshwater bodies, two of them are referenced
by ENVY. Four other examples provided by Michels
include:
 Mississippi River HDD, Quincy IL/M0 - Installation of 36-inch x 9,040 feet steel pipeline beneath Mississippi River and levees

582a
 Lake Sakakawea HDD, North New Town, ND
- Installation of 16-inch x 11,229 feet steel
pipeline beneath Lake Sakakawea
 Mississippi River HDD, Sandusky, IA & Nauvoo, IL - Installation of 30-inch x 7,282 feet
steel pipeline beneath Mississippi River
 Athabasca River HDD, Fort McMurray, AB,
CA - Installation of 42-inch x 7,205 feet steel
pipeline
See also C15, C20, C30, J14, L58
C3.11 “Why was the EA/FONSI devoid of a more
robust and comparative assessment of the engineering design and safety risks that exist from HDD construction for either the 5,966-ft (1.13 mi) crossing
north of Bismarck or the 7,800-ft. (1.47 mi) southern
crossing that places the pipeline 92 f below the
lakebed of Lake Oahe. The technical risk of crossing
a freshwater lake that exceeds one mile is substantially bigger than a 100-200 ft crossing . . . . Why was
an engineering design and safety risk assessment not
conducted as part of DAPL’s fatal flaw analysis?”
RESPONSE: According to ETP, both the Lake
Oahe and the Alternative Route crossing north of Bismarck included HDDs of over one mile so the technical
risk based on crossing lengths would have been similar. Even with the longer crossing at Lake Oahe, the
risk of a spill was categorized as low due to the engineering design and proposed installation methodology.
ENVY did not specifically identify an alternative methodology that was more appropriate for the

583a
assessment. ENVY generally commented that the
technical risk of crossing a freshwater lake that exceeds one mile is substantially bigger than a 100200 foot crossing but does not identify a particular
assessment or the particular factors, criteria, or
technique to perform the comparative assessment.
ENVY did not provide any scientific evidence or
studies specific to the Lake Oahe crossing or the alternative crossing north of Bismarck that would
cause the Corps to doubt its previous methodologies
and data supporting the Corps’ reliance on ETP’s
risk analysis. Therefore, this comment does not
show that a substantial dispute exists as to the size,
nature, or effect of the major Federal action.
Additional detail regarding the risk evaluation
process is provided in the response to Comment A9.
See also J23, M8
C4.11 “What specific design and safety response
features will DAPL incorporate in the river crossings
that demonstrate maximum protection against potentially significant leaks and spills. If DAPL contends
they are using “state-of-the-art” technologies, they
should disclose and specify what those technologies
are to allow the USACE to more rigorously evaluate
potential environmental impacts and risks in the
EIS.”
RESPONSE: Topic is addressed in the response to
Comment A6.
C5.11 “In order to lay a pipeline below Lake Oahe,
the construction contractor must drill a horizontal lateral that is about 1.5 miles long and then pull a 30inch diameter, 0.625-inch thick pre- manufactured

584a
pipe all the way through the bore hole . . . . A 0.625inch thick pipe is a very thick-walled metal pipe that
is extremely heavy and would be hard to pull over a
7,800 ft long bore hole. In addition, metal pipe is subject to additional stresses by having to go around the
two corners . . . . stresses on the pipeline sections and
the pipeline as a whole increase as each welded section goes under ground into the lateral.”
RESPONSE: According to ETP, stress analysis in
the detailed design report indicated that the installation stress combined by bending and tensile stress is
47,800 pounds per square inch which is 68% of the
maximum allowable stress and below 90% of maximum allowable stress limited by American Associations of Mechanical Engineers Section 402.3.2 of
ASME B31.4.
ETP reports that the DAPL pipeline was installed
without incident and the recorded pull forces and
stresses were within acceptable limits. Additional information is provided in the response to Comment
C15.
C6.12 “[Actual welds on aboveground sections along the already-constructed sections Gf
DAPL have been reported to have been ,spot inspected by independent inspectors, and found
to be out Gf compliance with pipeline standards . . . . Actual weld reinforcement variations observed were two times higher for both the top and
bottom welds as noted in the required specs above.
Significant undercut was also observed. These conditions translate to a stress-riser along the pipe.”
RESPONSE: The Corps Design Branch Mechanical Section Chief, Michael T. Smith, reviewed the

585a
methods ETP proposed to use for welding various sections of the pipeline and concurred that the methods
are compliant with applicable standards. USACE
DAPL0075565 and
USACE DAPL0073915. ETP reports that all
welds have been, and will be, subjected to x-ray and
have been, or will be, evaluated based on acceptance
criteria (e.g., API 1104).
Representatives from the Corps, SRST, ETP and
various subject matter experts for the parties discussed this issue at the December 2, 2016 technical
meeting. ETP believes that an unauthorized thirdparty conducted the October 23, 2016 “spot inspection” of the Dakota Access pipeline above-ground
welds. ETP asserts that a photograph of a weld from
the unauthorized spot inspection attempts to show
that welds were not performed in accordance with
pipeline welding specification API 1104. On December 2, 2016, Mr. Eric Amundsen, Integrity Management and Engineering Specifications Lead for Dakota
Access, demonstrated that the photograph of the weld
in question was of a stick weld and not a robotically
controlled weld for which the pipeline welding specification API 1104 applies. Stick welds are not subject
to API 1104. The technical expert for ETP described
how the weld shown in the photograph appeared to be
within compliance with the pipeline standard for the
type of weld and if the unauthorized third-party was
looking at the correct standard they would have likely
concluded that the weld was in compliance. ETP
states that the robotic weld is a more controlled process than what can be accomplished with the human
hand. The robotic weld provides more repeatability
and less standard deviation than would be observed

586a
for a hand weld. Although both types of welds meet
PHMSA requirements for safety, each has their own
standard commensurate with their method of application.
Furthermore, the Corps required nondestructive
tests of all girth welds under Easement Condition
14. Although ENVY prefers the Finite Element
Analysis as the appropriate methodology for predicting how a product reacts to real-world forces, vibration, heat, fluid flow, and other physical effects,
ENVY did not provide any scientific evidence or
even studies specific to Lake Oahe that would cause
the Corps to doubt its previous methodologies and
data supporting the conclusions of Corps’ Design
Branch Mechanical Section Chief, Michael T. Smith.
Therefore, this comment does not show that a substantial dispute exists as to the size, nature, or effect of the major federal action.
C7.13 “Even with a pipeline pig inspection, it is
not possible to detect all external wall damage or
many internal pipe-wall damages due to stresses from
construction. It is inevitable that some of these HDD
construction risks will likely result in pipeline damage and that damaged pipe will be installed in the
borehole.”
RESPONSE: Topic is addressed in the response
to Comment B11.
C8.13 “Undetectable underground leaks pose as
some of the most significant environmental pollution
risks throughout the life of the pipeline and potential
risks increase over time through corrosion, landslide
movement or other disruptive forces.”

587a
RESPONSE: The risk of an undetectable underground leak is low. ENVY did not specifically identify
the significant environmental pollution risks or provide any scientific evidence or even studies specific to
the Lake Oahe HDD that would cause the Corps doubt
its previous methodologies and data supporting the
Corps’ reliance on ETP’ risk analysis or the Corps’ conclusions on landslide and corrosion risks. Therefore,
this comment does not show that a substantial dispute
exists as to the size, nature, or effect of the major Federal action.
As noted in the response to Comment A14, the
risk of landslide in the area is low. Leak detection is
discussed in the response to Comment D13.
See also D1
C9.13 “The risks of damage to the pipe due to construction risks are not insignificant; once the pipeline
is placed in the bore hole under Lake Oahe, there is
little opportunity to remedy major problems that
would require replacement of sections.”
RESPONSE: The Corps considered construction
risks and this topic is addressed in response to Comment F22. Groundwater remediation techniques
are addressed in response to Comment Al2. Final
EA at 48. According to ETP, depending on the specific location of the leak, one or more of the remediation activities could be utilized according to the actual circumstances present. The proposed groundwater remediation system would be designed to
treat the impacted groundwater by removing the released oil, converting it into harmless products,
monitoring natural attenuation, etc. For example,

588a
it may be possible to recover released oil by installing a recovery well either within the damaged
pipeline or adjacent to the pipeline. Released product can also be removed from groundwater by applying various chemical methodologies including ozone
and oxygen gas injection, surfactant enhanced recovery, and biological treatment techniques (including bioventing and bioaugmentation).
The majority of these techniques typically involve
the installation of a vertical well, however, in some
cases a horizontal well can be utilized. The same horizontal directional drilling methods that are used to
install pipelines have been utilized for environmental
and engineering applications since the late 1980’s.
Since then, HDD wells have been installed for a wide
variety of environmental remediation activities including:
 Environmental soil sampling
 Extraction of soil vapor, ground water and free
phase non-aqueous phase liquid (NAPL) contaminants
 Injection of water based substrates, air and
various other fluids
 Thermal remediation of volatile contaminants
 Recirculating systems for groundwater
cleanup
According to ETP, these horizontal wells have
been successfully utilized for the collection of soil samples underneath rivers and ponds and for the remediation of underground storage tanks and dry cleaning
fluid wastes under buildings as well as horizontal remediation wells for landfill waste, mine tailings and
coal ash impoundments. There is a pump and treat
horizontal well system of over 2,800 feet installed at

589a
Vandenburg Air Force Base. Directed Technologies
Drilling, one of the horizontal well installation providers, has performed over 10 HDD remediation wells for
pipeline companies since 2013.
For groundwater remediation purposes, horizontal wells allow a well screen to be placed horizontally
which is an advantage over vertical wells when there
is a thin aquifer permeable layer to be targeted. Directed Technologies Drilling has recently installed
horizontal remediation wells for one pipeline release
site near Athens, Georgia that included two approximately 2,500 foot remediation wells at depth with
1,000 feet of screen on each well.
ETP will coordinate any proposed ground water
treatment remediation plan with the North Dakota
Department of Health and other responsible governmental authorities and may utilize a combination of
technologies. The Corps recognized that a spill could
be a high consequence event even though the likelihood is low. However, there is no evidence that drinking water aquifers are at risk even if there were to be
a release from the pipeline segment associated with
the Lake Oahe USACE Action Area. The boring logs
under the river crossing show that the proposed pipeline intersects clayey sand, silty sand, and clay. This
indicates that the alluvium and glacial deposits may
be directly overlying the Pierre Shale (an aquitard).
Therefore, if a release occurs in the pipeline segment
beneath the Lake, when that release is discovered and
the pipeline is shut down (preventing further release)
it is likely that the released oil would have accumulated solely in these confining layers surrounding the
pipeline resulting in a local area of oil contamination.
Migration of the oil from a release under Lake Oahe

590a
would be retarded by clay, clayey sand, and silty sand
overlying the pipeline as well as the low permeability
sediments that have accumulated at the bottom of the
lake.
The surface bedrock in the area is the Hell Creek
formation, which consists of sands and shales. The
Hell Creek is underlain by the Fox Hills formation,
which is distinguished by a general coarser sand with
greenish tint and glauconitic. The Fox Hills formation
is an outcropping in Sioux and Emmons Counties,
where it comes to the surface.
The Hell Creek and Fox Hills formations are the
major aquifers in the state and many residents depend on these formations for their water usage. One
commenter asserted that the Fox Hills formation extends underneath Lake Oahe.5 However, detailed localized U.S. Geological Survey mapping shows that
the Fox Hills formation outcrops approximately one
mile to the west of the western Lake Oahe5 HDD insertion point as shown on Figure C9(a). The Hell
Creek formation outcrops even further to the west. At
the location of the western Lake Oahe HDD insertion
point6, the quaternary alluvium and glacial deposits
are present as surficial deposits within the Missouri
River valley. At the location of the eastern Lake Oahe
HDD exit point, quaternary sand, silt and gravel deposits with a veneer of glacial derived loess deposits
5

Rovenko, Ronald J. 2017. Report by Ronald J. Rovenko, Evaluation of Proposed DAPL Crossing of Lake Oahe, presented as
Attachment 8 to the Rollie Wilson Declaration, Pages 175-179.
Filed February 2, 2017.
6

USGS, 1980

591a
are present, with the Fox Hills and Hells Creek formations outcropping approximately 0.5 to 1 mile to
the east7[Figure C9(c) & (d)].
Underlying the quaternary alluvium and glacial
deposits is the Pierre Formation or Hell Creek formation. NDGS8 describes the Hell Creek formation as
poorly consolidated sand-stone, siltstone, claystone,
and carbonaceous and bentonitic shales of a generally
brown and brownish-gray hue. ETP boring logs indicate dark gray clay at depth and some shale, which
indicates that the Pierre formation may be present.
This is further supported by contours of the top of the
Pierre formation in the area of the western Lake Oahe
HDD insertion point at elevations of approximately
1,500 feet9, which places the Pierre formation above
the base of the borings completed as part of pre-construction planning. Additionally, NDGS 1984 states:
“It [The Upper Cretaceous Pierre Formation] subcrops
directly beneath the glacial material in places where
preglacial and interglacial (glacial diversion) valleys
have been eroded through the overlying Fox Hills formation.” Regardless of the formation, the grey clays
encountered in the boreholes are considered an aquitard due to low hydraulic conductivity properties. Final EA, Appendix B.
ETP completed boreholes across the proposed
river crossing in April 2015. The boreholes show
7

North Dakota Geological Survey (“NDGS”), 1984.

8

North Dakota Geological Survey, 1983. Geology of Morton
County, North Dakota, Bulletin 72 – Part I, County Groundwater Studies 23 – Part I; Plate 1.
9

USGS, 1980

592a
clays, clayey sand, silt, sand and some gravel that is
consistent with alluvium and glacial deposits shown
on Figure C9(a). Final EA, Appendix B. The boring
logs, under the river crossing, show that the proposed
pipeline intersects clayey sand and silty sand at an
elevation of 1,490 feet. The top of the Pierre Formation has been mapped at an elevation of 1,500 feet
in the area of the river crossing (Figure C9(b)). Boring logs (LO-B-1, LO-B-2 and LO-B-7) on either side
of the river crossing show dark gray clay at elevations of 1,600 to 1,550 and documentation of a shale
lens in LO-B-2 at an elevation of 1,500 feet. Boring
logs underlying the river also show alluvium and glacial deposits overlying varying thicknesses of dark
gray clay. This indicates that the alluvium and glacial deposits may be directly overlying the Pierre
Shale and that both the Fox Hills and the Hell Creek
formations may have been eroded away and not present under the river. Based on observations during
construction, ETP states that the cuttings generated
downhole were consistent with the units described on
the boring logs.
The Corps considered local geological information
in order to evaluate the potential for a release from
the pipeline associated with the Lake Oahe Corps Action Area to contaminate the Hell Creek and Fox Hills
formations. The Corps determined that a release from
the pipeline under Lake Oahe would not likely impact
the Hell Creek and Fox Hills formations. First, there
is no evidence of the Fox Hills formation or the Hell
Creek formation underlying the alluvium and glacial
deposits in the boring logs under the river (just the
Pierre formation). Second, even if the Fox Hills unit

593a
is present (and not just the Pierre formation) underlying the river below the depth of the borings, the Corps
considered the possibility for a release from the pipeline buried over 90 feet below Lake Oahe to seep
downwards into what would be component of the Fox
Hills aquifer system. To determine this potential,
ETP used the parameters in Table C9 used to calculate the seepage velocity using the conservative assumption that an oil leak would result in oil moving
downward or downgradient.
Using Darcy’s law to calculate the seepage velocity from the variables in Table C9 yields a downward
velocity of 0.03 feet per day or 0.9 feet per month for
fine sand. Performing the same calculation for seepage velocity through clay yields a downward velocity
of 0.0003 feet per day or 0.009 feet per month. The
seepage velocity is the rate at which a conservative
fluid would travel vertically through the alluvium and
glacial deposits beneath the river. Although this oil
may move slowly through the immediate saturated alluvium and glacial deposits (primarily consisting of
clays and silty/fme sand), migration downward to
reach the hypothetical aquifer is not likely as oil is less
dense than groundwater. Therefore, most likely a release from the pipeline underlying the river would result in a local area of oil contamination rather than
traveling downward into an underlying aquifer.

595a
1,629 feet. The Missouri River at the proposed crossing has a stage of approximately 1,610 feet. This results in a shallow groundwater gradient (0.0014 ft/ft)
generally west to east. Additionally, the seepage velocity for an underground leak adjacent to the river,
within silty sand, would result in a travel rate of
0.0008 feet per day or 0.024 feet per month. Therefore,
an underground release at or near the insertion point
(adjacent or underlying the river) would generally
travel very slowly (0.3 feet per year) and would not
travel laterally west or southwest away from the Missouri River/ Lake Oahe and enter the Fox Hills groundwater system or the Hell Creek formations.
Therefore, a release associated with the Lake Oahe
USACE Action Area would not likely impact the Hell
Creek and Fox Hills formations and their associated municipal or private wells.
See also C11, C21, C22, J16, J19, J22, L26, L55,
L61, L64

596a

597a

598a

599a

600a
C10.14 “[T]he EA does not specify mitigation
measures or specific pre-construction and construction prevention actions that would be implemented in
a Spill Prevention, Countermeasure and Control
(SPCC) Plan in the event of a leak in the HDD bore.”
RESPONSE: Topic is addressed in the response
to Comment A6.
C11.14 “[T]he EA did not adequately address how
contaminants would travel up and through naturallyoccurring geological cracks in the Hall Creek and Fox
Hill formations; thereby, allowing shallow fluids to intermingle in the 92 ft wide zone between the lake and
the horizontal HDD bore area.”
RESPONSE: Topic is addressed in the response
to Comment C9.
C12.14 “Actual observed results have shown the
HDD borehole centerline to move vertically and horizontally by as much as 20-30’ before the directional
driller is even made aware that the drill bit has
strayed from the intended tracking and correction is
made to bring it back.”
RESPONSE: According to ETP, the Lake Oahe
HDD pilot hole was drilled within the tolerance of 5
feet of left or right, 2 feet above and 10 feet below the
designed path. Pilot hole survey data acquired during
construction confirmed that the pilot hole was completed within the specified geometrical tolerances.
Following the completion of the pilot hole, reaming
tools were used to smooth out the pathway as they enlarge the hole.
See also C13, C14

1
4
.

601a
C13.15 “We also assume that DAPL will incorporate centerline stabilizers installed on the pipeline so
that the pipeline will stay near the centerline of the
borehole and not drag on the sides (top, bottom or
sides) of the bore hole.”
RESPONSE: ETP installed the pipeline within
specified geometrical tolerances as noted in the response to Comment C12. The incidental contact between the pipeline and the borehole is a known construction risk. ETP used reaming tools to smooth
out the pathway as they enlarged the hole prior to
pulling through the prefabricated segment of pipe.
Additionally, an ARO used as a sacrificial coating
over the top of the FBE. At the Lake Oahe HDD location, the exterior of the pipe was coated with a 1416 mil thick layer of FBE with an additional 40 mil
layer of ARO.
See also L57, M20
C14.15 “[T]he pipeline will also drag along some
of the bore-hole surfaces during installation. Stabilizers and the pipeline itself may actually scrape the
open bore-hole causing further damage to both the
pipeline and bore-hole during construction.”
RESPONSE: Topic is addressed in the response
to Comment C12.
C15.15 “While it is possible to eventually get
the pipeline moving again, the initial forces to
break the pipeline free will be another incredible force that cannot be accurately calculated and modeled to ensure a safe pipeline
design. This is one Gf the most significant construction risks with the potential to leave the

602a
pipeline unsuitable for use, even though the
pipeline is eventually freed and completed.”
RESPONSE: The HDD design engineer, Michel
Drilling, calculated the pull force during various
phases. Detailed design calculations prior to the
HDD installation demonstrated that a conservative
calculated pull force would be well below the safe
pull force. Stress analysis in the detailed design report indicated that the installation stress combined
by bending and tensile stress is 47,800 pounds per
square inch which is 68% of the maximum allowable
stress and below 90% of maximum allowable stress
limited by American Associations of Mechanical Engineers section 402.3.2 of ASME B31.4. Additionally, based on Michel’s experience with HDD construction as listed in Comment C2, the actual installation pull force is typically even lower than the design calculated pull force. According to ETP, during
installation the on-site engineer constantly monitored the pressure gauge on the drill rig’s console
that illustrates the actual pull force applied anytime
during pullback operation to the pullhead attached
to the leading end of the pipe. Based on GeoEngineers’ analysis of the installation loads and the fact
that Michels planned to utilize buoyancy control
within the product pipe, GeoEngineers anticipated
that the pullback force during installation of the 30inch-diameter product pipe may have been as high
as approximately 690,000 pounds depending on the
weight of the drilling fluid in the hole at the time of
pullback. Given the cross-sectional area of the steel
within the product pipe (57.68 square inches), the
axial stress induced in the pipe resulting from
690,000 pounds of axial load is approximately
11,960 pounds per square inch (psi). Based on a

603a
yield stress of 70,000 psi, GeoEngineers estimated
an axial stress of approximately 17 percent of the
yield stress during installation, which is well within
acceptable limits. The calculated safe pull force for
this installation (which includes combined axial,
bending, and hoop stresses) is in excess of 2,000,000
pounds when buoyancy control is used.
According to ETP, pullback operations were
completed on March 20, 2017 without incident. The
maximum recorded pull force was approximately
516,000 pounds, in general agreement with the calculated installation forces and well below the safe
pull force calculated for this installation. The axial
stress induced in the pipe resulting from the maximum recorded axial load was approximately 8,945
psi or approximately 13 percent of the yield stress
which was well within acceptable limits.
See also C5, M20
C16.15 “[W]e believe that DAPL and its principal,
Energy Transfer Partners (ETP), have not fully and
sufficiently evaluated the range of geologic and subsurface hazards factors that would likely preclude the
proposed Lake Oahe crossing in favor of using a less
risky route alternative.”
RESPONSE: The Corps evaluated reasonable
alternatives to ETP’s preferred crossing based on
the Corps’ limited jurisdiction over the portion of the
pipeline that crossed federally-owned Corps managed land. Final EA at 5-22. Geologic hazards are
discussed in the response to Comment A14.
C17.16 “Despite DAPL’s assertion that “state-ofthe-art” construction techniques, pipeline technologies and controls, leak detections systems would be

604a
used, and that a rigorous SPCC plan (EA, Appendix
L) would be prepared and submitted by DAPL for
review and approval by the USACE to protect the
environment and public safety, we remain unconvinced that such assertions can be made without
first conducting a more robust engineering risk
analysis for a 7,800-ft long HDD below Lake Oahe.
We are further unconvinced where the USACE and
DAPL also relied heavily on a qualitative assessment that compared relative physical features and
elements . . . without giving greater weight to construction risk considerations . . . .”
RESPONSE: Topic is addressed in the responses to Comments A9 and Bl.
C18.16 “The DAPL project cannot justify any scenario whereby long distance HDD can be considered
more safe than a much shorter HDD bore under a
river, or where a pipeline route avoids the crossing of
a significant river or lake altogether.”
RESPONSE: The risk of construction doesn’t
solely depend on the length of the pipe, but must consider many factors. A shorter crossing in unfavorable
soil condition contains more risk than a longer crossing in favorable soil condition. Moreover, the risk of
HDD installation depends on various factors, such as
geologic condition, presence of ground water, elevation differential between the entry and exit points,
contractors’ experience, equipment used, technique of
drilling, and type and diameter of the pipeline.
See also C20
C19.26 “There is no significantly impactful
HDD regulation, authority and/or guidelines in the
US compared to Canada, the nation most like the

605a
US. The lack of regulation, authority, and guidance
in the U.S. over crude oil pipelines suggests that
further policy and regulatory development by the
USACE, PHMSA (DOT) and state regulatory bodies
would bring US compliance standards to a higher
level and on par with protection and safety approaches found in other parts of the world.”
RESPONSE: A comparative analysis of HDD regulation, authority and/or guidelines in the U.S. and
Canada, including whether U.S. regulatory bodies
should emulate those in Canada is beyond the scope
of the EA.
C20.18 “[W]e caution that the application of an
HDD construction method for distances exceeding
one mile (5,280 ft) is not a standard application . . .
. many factors have to be carefully taken into consideration, including but not limited to: the diameter and wall thickness of the pipe, technology used
for directing the drilling, soil conditions and substrates, and the pipe pulling technology used. In addition, other project specific constraints such as environmental, geological, sludge (water and bentonite) handling, risk of drilling fluid escape, landslide
risk and other earth movement risk, such as tectonic
or other, should be considered before making HDD
application decisions.”
RESPONSE: As indicated in the response to Comment C18, the Corps agrees that the risk of construction doesn’t solely depend on the length of the pipe,
but must consider multiple factors. As indicated in
the response to Comment A14, the Corps considered
the pipeline’s location relative to the landslide risk
at the Lake Oahe crossing. Overall risk is addressed in the response to Comment A9. The topic

606a
of a long-distance HDD is addressed in the response to Comment C2.
C21.27 “The [DAPL EA] states, “. . . Because the
proposed pipeline would be installed at a minimum
depth 92 feet below the lakebed of Lake Oahe and
there would be greater response time inevitably, and
this could likely result in much more significant leakage/damage. While the potential risk for a WCD scenario could not be verified, such a ,spill would result
in extremely high consequences for a fresh water lake.”
RESPONSE: As addressed in response to Comment C9, the Corps recognized that a spill could be a
high consequence event even though the risk is low.
Final EA at 91.
C22.28 “Clean-up of the contaminated aquifer
and soils would not only be problematic because of
deep depth of the contamination, but the clean-up is
also unlikely to be successful at remediating the
long-term environmental damage and impacts to the
downstream fish, wildlife, plant, agricultural resources, as well as the various Native and non-Native communities dependent on the Missouri River.
Should the pipe require a major replacement of that
portion under Lake Oahe, the situation will be significantly more problematic than a pipeline
trenched on land surface or a more narrow and shallower river or stream crossing.”
RESPONSE: Remediation of a release to groundwater is described in the response to comment C9.
ETP provided the Corps with additional spill modeling, and a companion report presenting the results of
the spill model, to better understand the potential impacts of a spill to Tribes. Spill Model Report and

607a
Downstream Receptor Report. These reports incorporate tribal concerns, including impacts to drinking
water, and hunting and fishing into the analysis.
See also Cl, D6, D17, G12, G17, J9, L58, M12
C23.28 “Alarms signaling the detection of a major leak are also not fail-safe measures.”
RESPONSE: Topic is addressed in the response
to Comment B5.
C24.28 “Pipeline inspection tools may also be
problematic, and similar to leak detection alarms, are
not fail-safe measures.”
RESPONSE: The EA does not assume that any
pipeline tools or analyses are perfect or that they
can assure safety. As part of 49 CFR § 195.452,
PHMSA regulations state the guidelines and required protocols for running inspection tools, interpretation of the data and requirements for remediation of any anomaly. Furthermore, this regulation
governs pipeline integrity management in HCAs.
According to ETP, pipeline integrity management
is not just one single item (for example only running
ILI tools). It is a conglomerate of information assessment and analysis of elements of Integrity Management from inception through construction, operations
and maintenance. Integrity management is required
from inspection of production of materials - pipe, coating, shipping - to inspection of construction tasks welding, lowering-in, backfilling- to hydrostatic testing and running inline inspection tools. Integrity
management is required to be continuously implemented once the pipeline is placed in-service as “normal and prudent” operations include line patrols, leak
detection, cathodic protection surveys, alternating-

608a
current mitigation surveys and in-line inspection. ILI
tools are only one component of an integrity management program that impacts safety and integrity of
pipeline.
Recognizing that pipeline inspection tools are not
fail-safe measures, the Corps incorporated several
conditions in the easement. Easement Conditions 17,
18, 19, and 20 address pipeline coatings, Easement
Conditions 29, 30, and 31 address ILI, Easement Condition 26 addresses cathodic protection, and Easement Condition 33 addresses pipeline patrolling.
Easement Condition 27 addresses interference current surveys.
ETP uses multiple state-of-the-art ILI tools to
assess DAPL’s condition on regular intervals in addition to all the cathodic protection, patrols, etc.
ETP has internal procedures established for these
multiple activities. Additionally, the pipeline inspection protocol starts with proper material selection, delivery, and installation. According to ETP, it
used high quality pipe that has been rigorously inspected from pipe mill to backfill. This pipe has the
appropriate coatings, was verified to have been
transported properly, and has been welded, installed
and inspected properly, and tested properly.
See also C26, E12
C25.28 “With responsibility for maintaining more
than 5,000 miles of pipeline, ETP, according to their
own 2013 annual report, may not have enough cash
reserves to cover damages from a significant oil leak
or spill. Given ETP’s 2013 annual report, the costs for
the cleanup of leaks, spills and explosions will likely

609a
be passed on to local landowners and federal taxpayers.”
RESPONSE: Topic is addressed in the response
to Comment Al2.
C26.29 “[T]he proposed Lake Oahe crossing is neither the best alternative from an obvious engineering
and construction risk potential nor an alternative that
should be considered as part of the proposed project
due to potential to leak and cause irreparable environmental damage.”
RESPONSE: The Corps evaluated reasonable alternatives to ETP’s preferred crossing based on the
Corps’ limited jurisdiction over the portion of the pipeline that crossed federally-owned Corps managed
land. Final EA at 5-22. Landslide risk is addressed
in the response to Comment A14. Pipeline integrity is
addressed in the response to Comment C24. Leak detection is addressed in the response to Comment D13.
See also G18
C27.29 “[B]ig projects like DAPL should logically
consider a comprehensive comparison and evaluation
of a broader range of alternatives.”
RESPONSE: The Corps evaluated reasonable alternatives to ETP’s preferred crossing based on the
Corps’ limited jurisdiction over the portion of the pipeline that crossed federally-owned Corps managed
land. Final EA at 5-22. The Corps does not have jurisdiction over the entire extent of the pipeline.
C28.29-30 “[T]he EA also is largely reliant on Tables 2.1 and 2.2 [North Bismarck Route alternative
Evaluation]. We contend that the comparison of the
criteria listed in the tables was not done appropriately

610a
. . . . ranking was done without the attention to
weighting the value of certain selection criteria.”
RESPONSE: The Corps evaluated reasonable
alternatives to ETP’s preferred crossing based on
the Corps’ limited jurisdiction over the portion of the
pipeline that crossed federally-owned Corps managed land. Final EA at 5-22. The alternative evaluation factors are presented in Table 2-1 of the EA.
The construction cost comparison of the two alternatives is presented in Table 22. ENVY did not specifically identify an alternative methodology or particular data that was more appropriate for the evaluation than that described in Section 2.0 of the EA.
ENVY generally commented that the comparison of
the criteria listed in the EA was not done appropriately, that a more rigorous pipeline selection process
should have been performed, and mused that the
ranking was biased or arbitrary. However, ENVY
did not provide any scientific evidence or studies
specific to either the Lake Oahe or alternative Bismarck crossing that would cause the Corps to doubt
its previous methodologies and data supporting the
alternative analysis and the Corps’ reliance on
ETP’s risk analysis. Therefore, this comment does
not show that a substantial dispute exists as to the
size, nature, or effect of the major Federal action.
C29.30 “We could not find any analysis in the EA
that evaluates the ‘potential risk for a WCD scenario’
. . . . why the potential risk to national parks were considered a criteria but a similar risk and ranking was
not applied to the Lake Oahe crossing where the risk
of potential environmental from engineering design is
very high.”

611a
RESPONSE:
sponse to Bl.

HCAs are addressed in the re-

C30.41 “Both the EA and foregoing experiences
show that HDD crossing activity will face many
challenges and risks, and there are always risk of
pipeline collapse, hydraulic fracture, loss of drilling
fluids, hole collapse, etc. . . . the EA does not duly
address all risks and mitigation measures. For a
preject that have another route alternatives,
very deep crossing Gf a freshwater lake with
long distance should have been the last option.”
RESPONSE: Topic is addressed in the response
to Comment C2.
C31.47 “There is no information for the accuracy
of the LDS proposed for DAPL Pipeline . . . . If it is
assumed that the LDS system used on this project
adheres to a similar standard, it means that the
LDS will never alert for the leakage up to 5,700
barrels/day (1.0% Gf the capacity Gf DAPL). If
that amount of leakage occurs beneath the freshwater Lake Oahe which provides drinking water to the
individuals, it is inevitable that it will cause catastrophic effects for the users, and the leak may not
be visibly detected. All surveillance inspections depends on the scenario that the leakage would be visible in the environment, which is not possible in the
HDD tunnel section . . . . it should be noted that the
ways of detection of a discharge from a pipeline system is blacked out in Appendix L (Facility Response
Plan) of the DAPL EA. Thus, more detailed information is needed so as to assess the 10,000 barrel/day
oil spill as per worst case discharge given in the EA to
determine whether it is acceptable or not.”

612a
RESPONSE: Topic is addressed in the response
to Comment A6.
C32.48-49 IN» remediation is given for contaminated water table underneath Lake Oahe . . . . No explanation exists in the EA describing how that part of
the soil will be cleaned or removed at a depth of 92 ft
underneath the lake . . . . site-specific clean-up remediation techniques should be developed for contaminated soil and water table beneath the Lake Oahe.”
RESPONSE: Topic is addressed in the response
to Comment Al2 and Comment C9.
Document D: Examining the Potential
Adverse Impacts of the Dakota Pipeline
Crossings to the Water Quality at the
Cheyenne River Sioux Tribe Water Intake in
the Missouri River, Attachment A-10 of
Declaration of Rollie E. Wilson
D1.1, 6 “[L]eak detection systems are only set up
to detect spills of greater than 2 percent of their liquid
. . . . pipelines are often seeping or leaking in small
places, and there is no way to detect them. These are
the types of troubling concerns that have adverse consequences. . . . Underwater or elsewhere, small leaks
and ruptures can go (and have gone) unnoticed for
days—even weeks—before companies manage to detect the problem and shut the pipeline down . . . . that
underground seepage can quickly reach devastating
volumes.”
RESPONSE: The topic is addressed in the response to Comment B6, B7, and C8.
D2.2 “More broadly, the scientific communities
argue that the pipeline would contribute manmade

613a
climate change by building up the country’s oil infrastructure. The consensus among the environmental scientists is that the fossil fuels—including
the vast reserves in the Bakken Shale—need to be
kept in the ground to protect the world from the
worst effects of climate change.”
RESPONSE: An analysis of the merits of continued use of the reserves in the Bakken Shale is beyond
the scope of the EA. Final EA 3-4.
See also L21, M13
D3.8-9 “The EA hypothetical spill scenarios are
based on a very liberal assumption of a 1-hour release
period for the entire spill volume at each location. The
EA claims that the acute toxicity threshold for aquatic
organisms for benzene is not exceeded under any of
the hypothetical spill volume scenarios. In fact, the
most recent spill in North Dakota at a location less
than 200 miles from the Intake took several hours before it was controlled. Spills are documented to be
hours and sometimes weeks to continue before it is detected.”
RESPONSE: It is recognized that a spill could be
a high consequence event even though the risk is low.
Final EA at 91. The calculations that were used to
prepare Table 3-7 in the EA were used to determine if
the whole Lake Oahe system would receive such an in
water concentration of oil under a worst-case release
to become toxic across the entire water body. That is,
if concentrations of benzene would be high enough to
cause wide spread fish kills throughout the entire water body.
The most likely realistic spill scenario resulting
in a worst-case release that could reach Lake Oahe

614a
in a short amount of time would involve a rupture
from a location where the pipeline is located near the
surface or at one of the valve sites. The oil would
spread out as it travels overland and within the surface drainage features on the way to the lake from
the site of the rupture. This would result in oil
reaching the lake over a short time instead of all at
once. Additionally, the oil would also need time to
mix with the water column. Ignoring certain properties of physics and chemistry, ETP assumed in the
Spill Model Report that time from the initial oil
reaching the lake until the time of complete mixing
throughout the entire water body was one hour.
The DAPL is transporting light sweet crude oil
with an API gravity between 35° and 50°. Final EA
at 45. This API gravity is much greater than 10°
and the oil reaching the water would therefore be
lighter than water and would rise through and float
on water. Because oil is not very soluble in water
the concentration of oil and its constituents in the
water column would be expected to be very low.
However, for the sake of this analysis, ETP conservatively assumed that over a 1-hour time period the
entire worst-case release would mix completely and
mix completely through the entire water body. The
Corps agrees that the conservative 1-hour time period for a spill to mix completely and mix throughout
the entire water body was appropriate.
D4.9 “The EA . . . relies on natural forces for the
remedy ‘dispersion, evaporation, dissolution, sorption,
photodegradation, biodegradation, and natural attenuation ultimately would allow a return to preexisting
conditions in both soil and groundwater,’ without any
backup.”

615a
RESPONSE: Topic is discussed in the response
to Comment Al2.
D5.9 “[T]he EA has failed to consider a failure option that when a major rupture occurs in the pipeline
under Lake Oahe (for example, due to natural disaster), the soil and river bed sediments would be contaminated and become a continuous source of contamination for a long time to come, without a practical and
reasonable remedy for the situation.”
RESPONSE: It is recognized that a significant
build-up in the sediments could potentially result in
contamination of the Lake Oahe system for longer
periods of time. ETP conducted additional spill modeling using a pseudo component approach, in which
the bulk hydrocarbon was broken into several groups
and effects were determined based upon the chemical composition of the Bakken crude in its entirety.
Spill Model Report at 76-79. The Downstream Receptor Report discusses the exposure scenario from
oil stored and released from the sediments. Downstream Receptor Report at 35-48 and 51-52.
Heavy hydrocarbon fractions can submerge and
have longer-lasting effects due to their persistence
in the sediment layer. However, light hydrocarbons,
similar to those found in the Bakken light crude, are
relatively volatile do not always reach concentrations in sediments high enough to cause acute toxicity. The biological exposure model presented in the
Spill Model Report estimates the volume and area of
sediment contamination from worst-case releases.
The mass balance information for the various unmitigated simulations for the Bakken light crude predict
that very little oil (<1%) of the release volumes becomes incorporated into the bottom sediments. Total

616a
hydrocarbon concentrations on sediments were generally low, less than 0.01 g/m2. Spill Model Report at
134-163. Based on this result, it does not appear that
accumulation of hydrocarbons into consolidated sediments will lead to widespread impacts to the biological community. Even under the worst-case release
unmitigated scenarios, impacts to benthic macro-invertebrates and fish species would be of limited scale
and of temporary duration. Downstream Receptor Report at 94-95.
See also D6, D11, D12, D14, D15, D16
D6.9 “There are very serious environmental consequences of the trapped hydrocarbons in soil/sediments. Hydrocarbons would be sorbed to the sediments and eventually desorbed over time. The desorption is a very slow process, and the hydrocarbons
go through transformations with toxic constituents
such as benzene and PAHs, among other many constituents, that are continuously resealed to the Missouri River. Benzene and PAHs are cancer-causing
toxins that would contaminate the water consumed by
the Tribe at the intake.”
RESPONSE: Topics are addressed in the response to Comment C22 and D5.
D7.11 “At the moment, the chemical composition
of the Bakken oil is not available to us, however, studies of petroleum leaks to water bodies at other sites
indicate that the more toxic constituents of crude oil
can be present in concentrations above the drinking
water standards. The EA projects concentrations orders of magnitude higher than Maximum Contaminant Levels (EA, 2016).”

617a
RESPONSE: The chemical composition variability of Bakken oil is publicly available information. C.
Yan et al., Characterization of chemical fingerprints
of unconventional Bakken crude oil, Environmental
Pollution (2017) at 609-620 (study presenting “a quantitative chemical characterization of selected Bakken
crude oils . . .”); see also ToxServices, LLC,
GreenScreen for Safer Chemicals Assessment Report,
DAPL Bakken Pipeline Crude (December 2017).
Bakken crude oils “have very similar chemical composition.” Id. at 612.
Drinking water intakes located downstream from
the Lake Oahe crossing could be at risk if there was a
release that reached this body of water and traveled
downstream in the vicinity of the intake structures.
Final EA at 38. ETP’s emergency response activities
would include the cleanup procedures and remediation activities described in ETP’s FRP, SPCC Plan,
and GRP, which are also incorporated as Corps Easement Conditions 8 and 9a. Final EA, Appendices A
and L.
The potential for a spill to compromise a potable
water supply intake would be continually evaluated
as part of the response action. Alternative water supply sources would be included as part of the contingency planning. Shutting down certain intakes and
utilizing others or utilizing different drinking water
sources or bottled water will be evaluated as part of
this process. Final EA at 88-94. The Federal OnScene Incident Commander would be responsible for
assimilating and approving the response actions under the Unified Command.

618a
ETP conducted additional spill modeling using a
pseudo component approach, in which the bulk hydrocarbon was broken into several groups and effects
were determined based upon the chemical composition of the Bakken crude in its entirety. Spill Model
Report at 76-79. ETP preferred the pseudo-component approach as a practical means to answer specific
fate and transport questions. Under this approach,
chemicals in the oil mixture are grouped by physicalchemical properties, and the resulting component category behaves as if it were a single chemical with
characteristics typical of the chemical group. Therefore, the fate of any particular chemical can be estimated without introducing an inordinate number of
variables to the analysis. ETP preferred the pseudocomponent approach over the individual component
approach because individual component modeling
would not have added sufficient value relative to the
protection of drinking water intakes. The Spill Model
Report predicts little to no dissolved hydrocarbons
(DHC) to be present in the water column at the level
of the drinking water intakes; therefore, no water
quality thresholds are expected to be exceeded.
ETP prepared the companion Downstream Receptor Report to discuss the results relative to the drinking water standards. Downstream Receptor Report at
80-91.
See also D8, D9, M3
D8.11 “In 2002 and 2003 (“USGS, 2003”), the U.S.
Geological Survey (“USGS”), by agreement with the
National Park Service (“NPS”), investigated the effects of oil and gas production operations on groundwater quality at Big South Fork National River and
Recreation Area (“BISO”) . . . . A laboratory study was

619a
conducted to examine the dissolution of petroleum hydrocarbons from a fresh crude oil sample collected
from one of the [3] study sites. The effective solubility
of benzene, toluene, ethylbenzene, and total xylenes
for the crude oil sample was determined to be 1,900,
1,800, 220, and 580 micrograms per liter (micro-g/L),
respectively. These results indicate that benzene and
toluene could be present at concentrations greater
than maximum contaminant levels (5 micro-g/L for
benzene and 1,000micro-g/L for toluene for drinking
water) in ground water that comes into contact with
fresh crude oil from the study area.”
RESPONSE: The results of the referenced report
would generally be applicable at Lake Oahe. The report indicates that if released oil comes in contact with
groundwater, then the impacted groundwater will
likely exceed the maximum contaminant level (MCL)
of the primary drinking water standard for benzene
and toluene. This conclusion is likely true regardless
of the region’s hydrology and geology. However, as indicated in the response to Comment C9, there is no
evidence that drinking water aquifers are at risk of
coming into contact with oil even if there were to be a
release from the pipeline segment associated with the
Lake Oahe USACE Action Area.
The boring logs under the river crossing show that
the proposed pipeline intersects clayey sand, silty
sand, and clay. This indicates that the alluvium and
glacial deposits may be directly overlying the Pierre
Shale (an aquitard). Therefore, if a release occurs in
the pipeline segment beneath the Lake, that released
oil likely would accumulate solely in these confining
layers surrounding the pipeline, resulting in a local
area of oil contamination. Migration of the oil from a

620a
release under Lake Oahe would be retarded by clay,
clayey sand, and silty sand overlying the pipeline as
well as the low permeability sediments that have accumulated at the bottom of the lake.
An underground leak from the pipeline under or
adjacent to the river in the Lake Oahe USACE Action
Area would not likely impact the Hell Creek and Fox
Hills formations and their associated municipal or private wells. As indicated in the response to Comment
C9, an underground release at the USACE Action Areas would generally travel very slowly (0.3 feet per
year) and would not travel laterally west or southwest
away from the Missouri River/ Lake Oahe, as would
be needed to enter the Fox Hills groundwater system
or the Hell Creek formations.
ETP will continually evaluate the potential for a
spill to compromise a potable water supply intake as
part of the response action. ETP would consider alternative water supply sources as part of the contingency planning. ETP would evaluate shutting down
certain intakes, utilizing other intakes, utilizing different drinking water sources, or bottled water as part
of the contingency planning. Final EA at 88-94. The
Federal On-Scene Incident Commander would be responsible for assimilating and approving the response
actions under the Unified Command.
ETP conducted additional spill modeling using a
pseudo component approach, in which the bulk hydrocarbon was broken into several groups and effects
were determined based upon the chemical composition of the Bakken crude in its entirety. Spill Model
Report at 76-79. ETP preferred the pseudo-component approach as a practical means to answer specific
fate and transport questions. Under this approach,

621a
chemicals in the oil mixture are grouped by physicalchemical properties, and the resulting component category behaves as if it were a single chemical with
characteristics typical of the chemical group. Therefore, the fate of any particular chemical can be estimated without introducing an inordinate number of
variables to the analysis. ETP preferred the pseudocomponent approach over the individual component
approach because individual component modeling
would not have added sufficient value relative to the
protection of drinking water intakes. The Spill Model
Report predicts little to no dissolved hydrocarbons
(DHC) to be present in the water column at the level
of the drinking water intakes; therefore, no water
quality thresholds are expected to be exceeded.
ETP prepared the companion Downstream Receptor Report to discuss the results relative to the drinking water standards. Downstream Receptor Report at
80-91.
The Nezafati Report is flawed in suggesting that
benzene and toluene could be present at concentrations greater than maximum contaminant levels (5
micro-g/L for benzene and 1,000micro-g/L for toluene
for drinking water) in ground water that comes into
contact with fresh crude oil from the study area. The
Nezafati Report did not provide any scientific evidence or even studies specific to Lake Oahe that would
cause the Corps to doubt its previous methodologies
and data supporting the Corps’ conclusion to rely on
the benzene concentration limits and geologic analysis as outlined in the EA. Therefore, this comment
does not show that a substantial dispute exists as to
the size, nature, or effect of the major federal action.

622a
Topic is further addressed in response to Comment D7.
D9.11-12 “This is a key finding that has relevant and serious health consequences to the
Cheyenne River Sioux Tribe. Meaning that the
crude oil, when leaked/spilled to the Missouri
River, could eventually dissolve into toxic constituents such as benzene (a well-known cancer
causing agent designated by the U.S. EPA) and
contaminate the drinking water resources of the
Tribe. The EA projects that the concentration of Benzene due to oil spill could be as high as parts per million level that is orders of magnitude higher that the
5 parts per billion as the Maximum Contamination
Level being enforced by the U.S. EPA.”
RESPONSE: Topic is addressed in the response to
Comment D7.
D10.12 “An in-depth 2010 report from Worcester
Polytechnic Institute, which looked at the effects of
three major oil spills, found increased incidences of
cancer and digestive problems in people who had ingested the oil directly (in drinking water) or indirectly
(through eating the meat of livestock exposed to the
oil) (Jon Gay, et al, 2010). In addition, people who had
used contaminated water for bathing or laundry appeared to experience a higher incidence of skin problems, ranging from mild rashes to severe and lasting
eczema and malignant skin cancers.”
RESPONSE: The evaluation of downstream receptors is addressed in the response to Comment A3.
D11.14 “If an oil spill occurs due to either pipeline
leak or rupture, the oil will contaminate the soil/sediment at the crossings since the pipeline rests more

623a
than 100 feet below the crossings within the river bed
soil/sediments. Depending on the size of the spill and
how long the leak continues to occur, a considerable
amount of oil could leak out and, based on its pressure, it could force itself through the river soil/sediments to pass through and finally accumulate within
the river bed, impacting a sizable area under the
crossings.”
RESPONSE: Topic is addressed in the response
to Comment D5.
D12.14 “Since the pipeline is supposed to be more
than 100 feet under the crossings, it would be very difficult to pinpoint the exact extent of the oil impacted
sediments and come up with any realistic measures to
remedy the situation. Digging the sediments out of
Lake Oahe and hauling them away may not be a feasible option and most likely the contaminated sediments would be left in place, relying on natural remedies such as natural attenuation to address the oil
contamination . . . . toxic substances such as benzene
and Polycyclic Aromatic Hydrocarbons (PAHs) are expected to be resealed to the Missouri River continuously, as long as the trapped oil remains within the
sediments. This is considered a major risk. The EA
has not addressed this concern in their evaluation, adequately (EA, 2016).”
RESPONSE: Topic is addressed in the response
to Comment D5.
D13.15 “The quality of water in the Missouri River
will be adversely impacted by the toxins such as benzene and PAHs that are breakdown product of oils in
water, as the oil goes through transformation when
introduced to and persisted in the water bodies . . . .

624a
The benzene poisoning of the drinking waters of the
Tribe may not be readily detected until it is too late
with serious health consequences.”
RESPONSE: As indicated in the response to Comment A4, the Spill Model Report predicts no exceedances of drinking water standards. Nevertheless, as
noted in the response to A6, the EA acknowledged
that drinking water intakes could be at risk. The first
Tribal drinking water intake is the SRST Replacement Intake located approximately 75.4 miles downstream of the Lake Oahe pipeline crossing. Downstream drinking water intakes would likely not be affected by the modeled releases as the maximum predicted concentrations of hydrocarbons in the water
column were in the surface 0-5 meters (0 to 16.4 ft)
with decreasing concentrations within the water column as depth increases until near zero values were
predicted at depths greater than 10 m (32.8 ft). Spill
Model Report at 172-177. The depth of the SRST intake is 60-80 feet, depending on water surface elevation (RPS, 2018). Downstream Receptor Report at 86.
Leak Detection System:
It is possible to detect a leak before oil sheen is
visible on the surface. Pipeline integrity management
is not unidimensional; it draws on a conglomeration of
information assessment and analysis of elements of
Integrity Management from inception through construction through operations/maintenance. While
certain leak detection indicators for the LeakWarn
system are based on real-time changes in pressure
and oil delivery calculations, the overall inspection
program is based on an absolute measurement of the
physical condition of the pipeline system (for example,
ILI technology) as it detects any metal loss–possibly

625a
caused by external corrosion or other mechanisms.
ETP will promptly investigate, and mitigate as appropriate, any anomalies.
In addition, ETP is using a state-of-the-art pipeline monitoring tool, with real-time transient modeling based on numerous factors including pipeline
pressure, flow, and pipeline and ground temperature
data. These data are scanned from various field instruments every 6 seconds, and the model calculations
used to detect pipeline system variations are updated
every 30 seconds. ETP will be utilizing Leak Warn,
which is a leading CPM system software program
used to monitor pipelines for leaks. This system will
be modeled, configured and tuned specific to the
DAPL installation facilities including elevation profiles and pipeline maximum operating pressure
(MOP) in accordance with PHMSA requirements and
API-RP-1130 guidance (API Recommended Practice
1130 – Computational Pipeline Monitoring for Liquid
Pipelines).
This LeakWarn CPM system is capable of detecting leaks down to 1 percent or less of the pipeline flow
rate within a time span of approximately 1 hour or
less and capable of providing rupture detection within
1 to 3 minutes. Once LeakWarn detects a leak, its interface to the SCADA system will trigger an audible
alarm in the SCADA system, which will alert the pipeline controller. In the event of a slow leak (leaks below
1%), even if pressure measurements do not show a significant drop in pressure, a detectable meter imbalance will develop resulting in an alarm to the Control
Center. Meter imbalance in LeakWarn would be considered a part of the larger total imbalance.

626a
LeakWarn imbalance also includes line pack calculation. Meter imbalances and line pack calculations are
considered together to help detect whether a leak has
occurred. For example, the meter may show a shortage if the amount of oil taken out is 100 bbls lower
than amount of oil that was put in, but that difference
may be offset by a corresponding increase in pressure
(compression of the oil) within the relevant pipeline
segment.” LeakWarn utilizes multiple time intervals.
The longer the interval, the greater the ability to identify a smaller leak. While the alarm threshold may be
1%, the SCADA and LeakWarn systems are sensitive
to smaller changes in flow rate and pressure.
The initial system is modeled and thresholds are
developed for each pipeline. The model is then tuned
to the individual characteristics of the pipeline hydraulics. Testing on the LeakWarn system will comply with API RP 1130 and API RP 1175 (API Recommended Practice 1175 Pipeline Leak Detection – Program Management). The effectiveness of the leak detection systems will be evaluated through simulated
leak tests, actual leak tests, or the analysis of confirmed releases. The simulated leak tests will be performed by electronically overriding the computers to
simulate a leak condition, whereas the actual leak
tests are performed by removing product from the
pipe. The results of each of these tests, and the response to actual releases, are evaluated to optimize
the system capabilities, refine the product release tolerances, validate the response times, and further
train the control room operators. Instrument and custody grade measurement equipment have been included as part of the pipeline design, and will provide
data for the leak detection system. This data will be
used to tune the detection system during transient

627a
and steady state conditions. The leak detection may
improve over the life of the pipeline as state-of-the-art
leak detection equipment and software utilized during
operations of the pipeline will be updated per federal
standards in accordance with PHMSA requirements.
ETP implemented remote detection via SCADA
during operation of the pipeline to provide constant
remote oversight of the pipeline facilities. Final EA,
at 88-94. The SCADA system would alert Dakota Access’ OCC Operators, located in Sugarland, Texas of
rapid drops in pressure, who would then activate the
controls as necessary and initiate procedures for an
appropriate response. The OCC prioritizes and responds to all alarms in accordance with the control
room management regulations referenced in PHMSA
CFR § 195.446(e). This regulation requires that the
OCC Operator have a SCADA system alarm management plan. In general, the plan must include review
of the SCADA alarm operations to ensure alarms support safe pipeline operations, identify any required
maintenance that may affect safety at least once every
calendar month, verify correct safety-related alarm
values and descriptions at least once every calendar
year when associated field equipment are changed or
calibrated, determine effectiveness of the alarm management plan through a yearly review, and monitor
content and volume of activity at least once a calendar
year to assure controllers receive adequate information.
To combat issues related to false (or Nuisance)
alarms, Control Center Alarm Management defines
those Nuisance alarms as Bad Actors and generates a
Bad Actors report. These alarms are put on a report
on a weekly basis that is sent to the Control Center

628a
Managers, Control Center Lead Controllers, Operations Engineering and the Field for further review.
The object is for Alarm Management to reduce the
overall number of alarms the Controllers receive, allowing them to focus on the higher priority Safety Related Alarms, such as leak detection alarms. Pipeline
controllers are trained to shut down pipelines and investigate when there is any doubt regarding the
alarming of the possible presence of a release/leak.
Pinhole Leak:
Several comments discuss the possibility of a pinhole leak that is below the threshold to trigger a
SCADA alarm. The severity of such a risk should not
be exaggerated by conflating a pinhole leak that goes
without detection 92 feet below the lakebed of Lake
Oahe with the worst-case theoretical scenario of a
pipeline suspended over the top of the water (utilized
in the PHMSA model). Combining the two ignores
that a pinhole leak would be limited by the overburden and could not reach and instantaneously mix with
the water. ETP explains several other points that
show why the risk from a pinhole leak is overstated.
First, pipeline failure for the portion of the pipeline under Lake Oahe is unlikely due to the high performance external coating system that is being used
(heavy epoxy-concrete abrasion resistant layer over
fusion bonded epoxy) and cathodic protection system.
Additionally, this portion of the pipeline was constructed with a thicker wall pipe compared to segments of the pipeline in upland-classified areas.
Second, the pipeline was installed a minimum of
92 feet below the lakebed of Lake Oahe. The final selection of the depth of the HDD below Lake Oahe was

629a
determined based on the results of the geotechnical
survey of the geologic strata. These deeper units act
as a barrier to fluid flow to the surface through the
clay. As noted in the response to comment C9 above,
even if there were to be a release from the pipeline
segment underneath Lake Oahe, migration of that oil
would be retarded by clay, clayey sand, and silty sand
overlying the pipeline as well as the low permeability
sediments that have accumulated at the bottom of the
lake.
Third, the strata and weight of the overburden
will also reduce the effects of the spill. Therefore, the
worst-case pinhole scenario under the lake that some
comments describe cannot be used to extrapolate high
contaminant concentrations in the river. These comments are mixing the theoretical “pipe installed directly over the top of the water” with a pinhole leak
during operations under the river to create a continuous flow of oil from the pinhole leak into the waterbody resulting in an exceedance of the contaminant
standards.
For a small pinhole leak as described in their scenario, the pressures at the release site would be expected to be dissipated within a nominal distance from
the pipeline such that the weight of the soil overburden will act to restrict the flow of the crude oil. The
amount would be expected to vary depending on the
other factors.
As a preventative measure, the periodic use of ILI
tools to detect metal loss is performed to determine if
there are anomalies so that mitigation measures can
be implemented prior to threats to pipeline integrity
manifesting themselves and resulting in a pinhole

630a
leak. Any unanticipated release from pipeline segments closer to the surface near the valve sites may
breach the surface well away from the shoreline following the disturbed area around the pipeline as a
path of least resistance.
ENVY commented that “the EA did not adequately address how contaminants would travel up
and through naturally-occurring geological cracks in
the Hall Creek and Fox Hill formations.” However, as
noted above, the strata and weight of the overburden
will minimize migration potential for the oil to rise
through the clay to the water level. The deep clays
under Lake Oahe have a low permeability in the range
of 1x10-9 m/s for water (about 0.03 meters per year).
Because oil is much more viscous than water, the
seepage rate of oil would likely be even slower.
Even though the risk of a release of oil in the segment of pipe under Lake Oahe is low, and there are
inherent limits to oil migration through the deep soil
units below Lake Oahe, ETP conducted revised spill
modeling that assumes oil has reached the sediment/water interface (regardless of mechanism of
transport). Spill Model Report at ii. Therefore, a detailed analysis of how an inadvertent release would
travel up through the Hell Creek and Fox Hill formations is not warranted. As noted in the Table 7-7
of the Spill Model Report the concentration of dissolved hydrocarbons is predicted to be 0 μg/L at the
location and depth of all of the downstream Tribal
drinking water intakes. Spill Model Report at 175.
Furthermore, neither Mr. Nezafati nor ENVY provided any scientific evidence or studies specific to an
oil release from a pinhole leak under Lake Oahe traveling up through the Hell Creek and Fox Hill fo

631a
mations that would cause the Corps to doubt its previous methodologies and data supporting the Corps’
reliance on ETP’s risk analysis. Therefore, these comments do not show that a substantial dispute exists as
to the size, nature, or effect of the major Federal action.
See also C8, C26, E7, H2, J2, J6, J7, J12, L41
D14.20 “[O]ne other important oil leak scenario
that has not been addressed is the impact of trapped
oil within the riverbed/sediments, upon a major oil
leak/rupture incident. The EA has failed to consider
a failure scenario that when a major rupture occurs in
the pipeline under Lake Oahe, the soil/river bed sediments would be contaminated and become a continuous source of contamination for a long time to come,
without a reasonable, cost-effective, and logistically
practicable option to remedy the situation.”
RESPONSE: Topic is addressed in the response
to Comment D5.
D15.20 “Delineation of the contaminated area under the water and its cost effective remediation with
the obvious logistical barriers would be highly impractical. The EA has failed to discuss the serious health
consequences of such a continuous source of contamination to the Public (the Tribe) in the Missouri River.”
RESPONSE: Topic is addressed in the response
to Comment D5.
D16.21 “I believe that there is no adequate consideration of a potential major catastrophic oil spill/rupture failure under the crossings that could create a
continuous source of contamination to the Missouri
River, and drastically deteriorate the water quality at

632a
the Cheyenne River Sioux Tribe Water Intake with serious social, economic, and health consequences to the
Tribe.”
RESPONSE: Topic is addressed in the response
to Comment D5.
D17.20 “The EIS should evaluate more realistic
worse case scenarios resulting from potential pipeline
leaks/spills and ruptures and the potential adverse
impacts on the water quality of the Missouri River,
and specifically discuss the serious social, economic,
and health consequences to the Tribe.”
RESPONSE: Due to questions related to the
downstream effects in the event of a release, and the
potential impacts to minority and/or low-income populations, the Corps performed additional EJ analysis.
See also Final EA at 84-87, and 107.
ETP provided the Corps with additional spill modeling to better understand the potential impacts of a
worst-case scenario spill to Tribes. Spill Model Report. The companion Downstream Receptor Report
addresses potential impacts to human health, agriculture, and hunting, fishing, recreation, and cultural
practices. Downstream Receptor Report at 80-99.
See also G17, 5-6, L75, L76, L77, L78, L79, L81,
M1, M2, M3, M6, M14

633a
Document J: Cheyenne River Sioux Tribe’s
Preliminary Informational Paper Concerning
Dakota Access LLC’s Request for an Easement
to Cross Lake Oahe, North Dakota, Pursuant to
30 U.S.C. § 185, Harold Frazier Attachment A of
Declaration of Rollie E. Wilson in Support of
Cheyenne River Sioux Tribe’s Motion for
Summary Judgment, Wilson Decl. Filed
February 22, 2017
J1.9 “The EA did not address Dakota Access’s request for a right-of-way to cross Corps-owned lands
pursuant to the Mineral Leasing Act (“MLA”), 30
U.S.C. § 185.”
RESPONSE: The Corps addressed ETP’s request
for a right-of-way to cross Corps-managed federal land
under
the
Mineral
Leasing
Act.
USACE_ESMT000652.
See also J8,
J24 J2.9 “The draft EA contained no reference to
the impact of the pipeline on tribal drinking water,
tribal treaty rights, or tribal resources. The draft EA,
however, included extensive discussion of potential
negative impacts of the pipeline on the non-Indian
community of Bismarck, North Dakota. The EA described how potential harm to Bismarck’s drinking
supply was one reason why the pipeline was rerouted
away from a planned Bismarck crossing of the Missouri River to the location just north of the Standing
Rock Sioux Reservation.”
RESPONSE: The draft EA is not the final NEPA
document. Based on comments received on the draft
EA during the public comment period, the Corps prepared the final July 2016 EA. The Corps considered

634a
impacts to drinking water intakes, and potential mitigation measures. Final EA, at 38 and 42. The Corps
addressed tribal treaty rights and tribal resources.
See Memorandum, Subject: Dakota Access Pipeline
Crossing at Lake Oahe, North Dakota (October 20,
2016)
(October
20,
2016
Memorandum),
USACE_ESMT001213-001249.
Topic is further addressed in response to Comments A5 and D13.
J3.9 “EPA Region 8 states: [A] revised EA “should
disclose potential impacts to downstream water supplies from leaks and spills and include the water systems in emergency preparedness planning.”
RESPONSE: Topic is addressed in response to
Comments A4 and A12.
J4.9 “The EPA likewise noted the lack of any environmental justice analysis in the EA.”
RESPONSE: Due to questions related to the
downstream effects in the event of a release, and the
potential impacts to minority and/or low-income populations, the Corps performed additional EJ analysis.
See also Final EA at 84-87, and 107.
J5.10 “The Department of Interior additionally requested that the Corps conduct an Environmental Impact Study as it had not adequately explained its conclusion that there would be no significant impacts of
the pipeline on the environment. . . . . The Corps did
not directly address the Department of Interior’s recommendation that a full EIS should [be] issue[d][.]”
RESPONSE: The project did not have significant
impacts; therefore, an Environmental Assessment
was the appropriate level of analysis.

635a
J6.10 “Although the final EA was revised to
acknowledge the existence of the Standing Rock Sioux
Tribe and the proximity of the pipeline to their water
intakes, the final EA made no reference to downstream reserved water rights or appurtenant lands of
the Cheyenne River Sioux Tribe or any impact at all
on waters and lands in the South Dakota.”
RESPONSE: Topic is addressed in the response
to Comments A4 and D13.
J7.11 “As set forth in parts III.A-B infra, and in
light of the Corps’ trust responsibility to the Cheyenne
River Sioux Tribe described in part II.E supra, the
Corps must consider impacts on the Cheyenne River
Sioux Tribe before it grants any right-of-way to cross
Lake Oahe pursuant to 30 U.S.C. § 185.”
RESPONSE: Topic is addressed in the response
to Comments A4 and D13.
J8.11 “[U]nder 30 U.S.C. § 185(b)(1), the Corps
must take into consideration the interplay between
the proposed pipeline and the substantive statutory
provisions in the Flood Control Act, which governs
Lake Oahe. As set forth herein, the proposed pipeline
is inconsistent with the purpose of the federal reservation that comprises the Corps-owned property such
that the right-of-way should be denied.”
RESPONSE: Topic is addressed in response to
Comment J1.
J9.12 “Third, pursuant 30 U.S.C. § 185(h)(2) and
the Corps’ treaty and trust responsibility to the Tribe,
the Corps must evaluate proposed pipeline’s impact
on the environment, including impacts to fish and
wildlife, hazards to public health and safety, and the
interests of those who rely on the fish, wildlife, and

636a
biotic resources of Lake Oahe for subsistence purposes. As set forth herein, the pipeline as currently
proposed does not protect the environment or the fish
and wildlife resources that are part of the bundle of
rights the Tribe is entitled to under its treaties.”
RESPONSE: Topic is addressed in the response to
Comment C22.
J10.12 “[A]s set forth in 30 U.S.C. § 185(j), the
Corps may not grant the right-of-way until it is “satisfied that the applicant has the technical and financial capability to construct, operate, maintain, and
terminate the project for which the right-of-way permit is requested . . . . the economic viability of the applicant has not been demonstrated and is in serious
question in light of the downturn in the oil market.
Furthermore, although Dakota Access has touted the
economic benefits of the pipeline to the nation as a
whole and to the local economy, these benefits are
non-existent. The financial viability of this project
and its industry weighed against the pitiful economic
benefits to the general population make does not satisfy the requirements set forth in 30 U.S.C. § 185(j).”
RESPONSE: Corps policy required the Corps to:
determine whether the applicant has the technical and financial capabilities to comply with
the easement’s consideration, mitigation and
administrative expenses. ER 1130-2-550, at
para. 17-9b.(7)&(8). The applicant’s parent
company, Energy Transfer, has completed
more than 30 capital projects over $50 million.
Energy Transfer Capital Projects in Excess of
US$ 50 million, 2006-2014 (provided Dec, 2,
2016). Many of these projects were pipelines
of 30 inches or more in diameter. Id. The

637a
Corps finds that the parent company’s completion of those projects demonstrates that the
applicant possess the technical and financial
capabilities to comply with the easement.
USACE ESMT000655 and 658.
The Corps is satisfied that ETP has the required
technical
and
financial
capability.
USACE
ESMT000658.
J11.14 “The Tribe and its experts have not been
granted access to the technical documents, including
but not limited to spill modeling, which are necessary
to provide a full analysis of this issue.”
RESPONSE: Topic is addressed in the response
to Comment A9 and B18.
J12.20 “The Corps of Engineers has operated the
Missouri River Mainstem System since 1944 for the
authorized beneficial consumptive purposes set forth
in the law, and recognizes in its own Master Manual
its obligations to provide quality and quantity of water sufficient to meet the needs of both domestic water
supply for consumption, and the water rights exercised by Tribes on the Missouri River. Risks to tribal
water supplies currently being consumed from degradation of water quality conflict with the authorized
purposes of the Flood Control Act and the Rivers and
Harbors Act and conflict with Tribal water rights reserved under the Winters Doctrine.”
RESPONSE: Topic is addressed in the response
to Comments A4 and D13. See also October 20, 2016
Memorandum, USACE_ESMT001213-001249.

638a
J13.20 “The fatal flaw analysis conducted and the
subsequent desktop evaluation conducted inadequately assess the risks of the Lake Oahe Crossing for
several reasons. First, the rankings of risk were arbitrary.”
RESPONSE: Topic is addressed in the response to
Comment A9.
J14.21 “Second, the analysis does not accurately
or adequately asses and include engineering and construction risks, or the fact that Lake Oahe is the
fourth largest freshwater reservoir in the United
States supplying water to millions of people. . . . The
EA conducted to date places no weight on construction
risks associated with an HDD drilling of this magnitude the likes of which have never been attempted in
the world under any fresh water body.”
RESPONSE: High consequence areas are addressed in the response to Comment B1. ETP prepared risk-planning documents associated with construction and operation of DAPL as detailed in response to Comment A9. Information regarding large
diameter/ long bore HDDs is referenced in the response to Comment C2.
J15.21 “Third, the leak detection system is inadequate due to the nature of the Lake Oahe crossing and
construction method and the nature of LDS leak detection systems. . . . The LDS system described in the
EA lacks any detail sufficient to evaluate this proposed system. Id. Further, LDS systems are unable
inherently to detect and manage small leaks – they
only alert to larger leaks. Id. at 46-47. The LDS system will never alert for leakage up to 5,700 barrels/day (1 percent of the capacity of DAPL).”

639a
RESPONSE: The ability of the LDS to detect and
manage small leaks is addressed in the response to
Comments B5 and B6.
J16.21 “Because the EA does not identify where
checkpoints will be, and because of the impossibility
of installing valves under the Lake, the pipeline will
leak over 9,000 barrels of crude oil into Lake Oahe
even if a leak were immediately detected (an impossibility) and there is no ability to stop that leak. Id. at
47.”
RESPONSE: According to ETP, it is unlikely that
over 9,000 bbls of crude oil would leak into the Lake
all at once as asserted by the commenter. In order to
achieve factors of safety above 2.0, ETP specifically
targeted the deeper clay, consisting predominantly of
medium stiff to hard clay, below the medium dense to
very dense sand layers. These deeper units act as a
barrier to fluid flow to the surface through the clay.
Additionally, the strata and weight of the overburden will reduce the effects of the spill. The amount
that the backfill over the soil will restrict the volume
and area that a spill can affect depends on a number
of things including the weight of the overburden, the
permeability of soil which is dependent upon on soil
properties such as particle size and void ratio of the
formation soil, and fluid properties including density
and kinematic viscosity.
As noted in response to Comment C9, ETP performed additional spill modeling that includes a
worst-case release of
bbls.
ETP used a FBR volume of
bbls for the worstcase discharge scenario. ETP used a second volume of
bbls to represent the “majority of spills.” This

640a
volume is greater than 90 percent of actual pipeline
releases from pipelines 16-inch or greater (90PD scenario).
J17.21 “Finally, the Corps has not disclosed to the
Tribe and its experts in the Facility Response Plan
how the leak detection accuracy and response time
was calculated.”
RESPONSE: ETP released the FRP to the Tribes
and their experts under a non-disclosure agreement.
Information relating to this topic is available in the
administrative record.
J18.21 “[F]ull evaluation of the actual risk is not
possible, and the estimate that a leak would result in
a minimum spill of 10,000 barrels of oil remains unsupported by the evidence.”
RESPONSE: A worst-case release specific to Lake
Oahe was calculated following guidance in 49 CFR §
194.105. Final EA, at 91. As noted in the response to
Comment A1, the estimated potential release volumes
calculated by ETP were within the range estimated by
one of the experts representing the SRST based on
pipeline diameter, volume, pumping rates and some
realistic assumptions. ETP estimated potential release volumes that are
% larger for Lake Oahe
crossing than the 4,620 bbls for a 30” pipe with a 3minute response time that EarthFax indicated was realistic.
See also L7 J19.21
“Fourth, the response technique analysis was incomplete and inadequate for several reasons. It did
not include any remediation plan for contamination of
the water table including the two largest aquifers in
North Dakota that supply the entire region. Martin

641a
Report at 48. It did not include a remediation plan for
contaminated soils around the pipeline under Lake
Oahe Id. Third, bioremediation is not possible 92 feet
below the riverbed surface and therefore may not a viable method of remediation.”
RESPONSE: Topic is addressed in the response
to Comment C9.
J20.22 “[T]he risks associated with the hydrology
and geology of the area of construction was not adequately assessed given the engineering method of
HDD drilling. . . . Variations in subsurface conditions
Pierre formation contact is possible and can cause
sloughing of shale. Even Section 3.1.3.1 of the EA concludes sections of the HDD drill are susceptible to
landslides.”
RESPONSE: Topic is addressed in the response
to Comment A14.
J21.22 “[T]he Rovenko Report notes that wellbore
stability in the geologic conditions at this site is an increasing issue as the size of the drilling increases due
to the soil conditions and geology of this area... Nothing in the EA record provided to the Tribe indicates
the risk associated with these soil conditions, and the
construction technique was adequately included in
risk assessment. Further, there was no weight given
to this risk resulting from selection of HDD drilling
techniques in the risk assessment.”
RESPONSE: ETP identified drill hole stability as
a risk and the Corps considered it in the EA. Horizontal Directional Drill Design Services Report (“HDD
Report”) (August 2015) at 3; Final EA, Appendix D.
ETP retained experienced HDD consulting and drill-

642a
ing firms: GeoEngineers to design and Michels Directional Crossings (Michels) to perform the Lake Oahe
HDD. These two companies performed a detailed
analysis of the proposed drill across Lake Oahe. According to ETP, GeoEngineers has successfully designed hundreds of long bore HDDs and Michels has
successfully installed a total of 24 HDDs over 7,000
feet long since 2004.
ETP in general encountered soil conditions encountered in the exploration borings near the proposed HDD alignment consistent with the published
geology for the area consisting predominantly of medium stiff to hard clay with varying amounts of sand,
overlaid by medium dense to very dense sand with
varying amounts of silt, clay and gravel. HDD Report
at 3; Final EA, Appendix D. This is consistent with the
information provided in the Rovenko Report as well.
The GeoEngineers report expressed concern for hole
instability in the overlying unconsolidated sediments
at the higher elevation drill exit (west side of the
crossing).
The Directional Drill Plan of Procedure Dakota
Access Pipeline Project (Michels Directional Crossings, August 18, 2015) references numerous construction methods are referenced to address borehole stability. Final EA, Appendix B. Corps geotechnical and
engineering experts reviewed the draft HDD planning
documents relative to hole stability. In addition, GeoEngineers and Michels representatives presented
the proposed drill plan to Corps specialists. ETP mitigated the risk of hole instabilities by the installation
of a large-diameter casing through the loose to medium dense soils within exit tangent of the HDD profile to stabilize the soils. HDD Report at 7.

643a
The CRST generally commented that the risk associated with the soil conditions and the construction
technique was not adequately assessed but does not
identify a particular assessment or the particular factors, criteria, or technique to perform the adequate assessment. The CRST did not provide any scientific evidence or even studies specific to Lake Oahe that
would cause the Corps to doubt its previous methodologies and data supporting the Corps’ conclusions on
soil conditions and construction technique. Therefore,
this comment does not show that a substantial dispute
exists as to the size, nature, or effect of the major federal action.
J22.22 “[T]he EA gives no weight or consideration
to the fact that this deep riverbed crossing of over 1
mile is right over the Fox Hills and Hell Creek formations and aquifers: the two largest aquifers in the
state of North Dakota supplying water to multiple
states in the region. . . . The EA fails to assess any risk
to the underlying aquifers or assign any weight to that
risk in the risk analysis the Tribe has been provided
with. . . . such risk was not assessed in light of the
inability to detect leaks of less than 1 percent leakage
by the LDS system. A slow low grade leak could go on
for weeks on end before crude oil bubbles to the surface of the Lake and is detected by residents.”
RESPONSE: As indicated in response to Comment C9, there is no evidence that drinking water aquifers are at risk even if there were to be a release
from the pipeline segment associated with the Lake
Oahe USACE Action Area.
J23.22 “The alternatives were clearly not adequately evaluated, and the risk comparison is clearly

644a
incomplete due to its lack of consideration of construction method risks. An HDD bore of over one mile under a freshwater lake is clearly not lower risk than no
river crossing at all or a very short River crossing of
less than 300 feet. The analysis done by a third-party
contractor and paid for by Dakota Access is wholly inadequate and flawed.”
RESPONSE: The topic of alternatives and HDD
construction risk is addressed in the response to Comment C3.
As indicated in the Executive Summary of the EA,
the environmental information that supports the EA
was prepared in accordance with CEQ regulations in
Section 1506.5(a) and 1506.5(b), which allow an applicant to prepare an EA for federal actions. The Corps
independently evaluated and verified the information
and analysis in the EA and takes responsibility for the
scope and content contained herein.
J24.23 “[T]he Corps has not adequately addressed
the environmental protection issues regarding the
right-of-way. . . . With no regulations to adhere to and
no stipulations imposed upon it, Dakota Access has
failed to address and ensure that the right-of-way it
seeks will not violate applicable air and water quality
standards; damage the environment, including damage to fish and wildlife habitat; result in hazards to
public health or safety; or negatively impact the interests of individuals living the area who rely on fish,
wildlife and biotic resources of the area for subsistence purposes.”
RESPONSE: The Corps imposed 36 conditions on
the Lake Oahe Easement, No. DACW45-2-16-8059, issued under the Mineral Leasing Act. October 20, 2016

645a
Memorandum, USACE_ESMT001213-001249. Topic
is additionally addressed in response to Comment J1.
J25.27 “In considering whether Dakota Access has
the “financial capability to construct, operate, [and]
maintain” this pipeline, the Army Corps must consider its current financial weaknesses: likely loss of
huge capital infusion, debt it will soon be unable to
service and weak stock prices; and the fact that market conditions do not look favorable for a future where
Dakota Access can achieve sufficient revenue to overcome these financial problems. Dakota Access is not
financially capable and the right-of-way must be denied.”
RESPONSE: Corps policy required the Corps to:
determine whether the applicant has the technical and financial capabilities to comply with
the easement’s consideration, mitigation and
administrative expenses. ER 1130-2-550, at
para. 179b.(7)&(8). The applicant’s parent
company, Energy Transfer, has completed
more than 30 capital projects over $50 million.
Energy Transfer Capital Projects in Excess of
US$ 50 million, 2006-2014 (provided Dec, 2,
2016). Many of these projects were pipelines
of 30 inches or more in diameter. Id. The
Corps finds that the parent company’s completion of those projects demonstrates that the
applicant possess the technical and financial
capabilities to comply with the easement.
USACE_ESMT000655 and 658.
Furthermore, Under the OPA 90, the owner or operator is liable for the costs associated with the containment, cleanup, and damages resulting from a

646a
spill. ETP maintains financial responsibility for the
duration of the response actions. If the responsible
party cannot pay, funds from the Oil Spill Liability
Trust Fund are used to cover the cost of removal or
damages. The Fund is paid for through a five-cents
per barrel fee on imported and domestic oil and also
any fines or civil penalties collected from other operators.
The CRST generally commented that the Corps
must consider speculative financial scenarios. As illustrated above, the Corps considered ETP’s technical
and financial capability. CRST did not provide any
scientific evidence or even studies specific to ETP’s financial capability to construct, operate, and maintain
the DAPL that would cause the Corps to doubt its previous methodologies and data supporting the Corps’
conclusion on ETP’s technical and financial capability.
Therefore, this comment does not show that a substantial dispute exists as to the size, nature, or effect
of the major federal action.
This topic is further addressed in the response to
Comment A12 and J10.
Document 5: Declaration of Jeff Kelly Director
of Game, Fish, and Wildlife SRST, Filed
February 14, 2017
5-1.2 “During 2015, the Tribe issued 199 family
fishing permits to Tribal members. Based on my personal and professional experience, basically all of the
fishing by Tribal members takes place on Lake Oahe
and is done for subsistence purposes.”

647a
RESPONSE: ETP incorporated information from
SRST on subsistence fishing into the Spill Model Report and the Downstream Receptor Report. Downstream Receptor Report at 93-99.
5-2.3 “In 2015, the Tribe issued 475 deer tags to
Standing Rock Tribal members, and another 134 tags
to spouses or others affiliated with Tribal members.
Every animal taken under these permits was taken
for subsistence of Tribal members and their families.”
RESPONSE: ETP incorporated information from
SRST on subsistence hunting into the Spill Model Report and the Downstream Receptor Report. Downstream Receptor Report at 93-99.
5-3.3 “The Tribe has a program under which elderly or handicapped persons may request a deer for
subsistence purposes. Our Department has a list of
designated hunters to address these needs. During
2015, we issued 259 elderly and handicapped deer
tags for hunters to take deer in this manner. These
are in addition to the deer tags referred to in paragraph 8.”
RESPONSE: ETP incorporated information from
SRST on subsistence hunting into the Spill Model Report and the Downstream Receptor Report. Downstream Receptor Report at 93-99.
5-4.3-4 “Fish would be most directly impacted by
such a spill, and depending on the magnitude of the
spill, an oil spill would likely cause extensive fish
kills.”
RESPONSE: ETP prepared a Spill Model Report
and a Downstream Receptor Report to model the trajectory of a worst-case release and to better under-

648a
stand the potential impacts of such a release. Although a relatively large area could be exposed to elevated levels of hydrocarbons at some depth in the water column, concentrations would be greatest near the
surface of Lake Oahe and acute toxic mortality would
be localized. The Spill Model Report does not predict
extensive fish kills even under the worst-case scenario
as the calculated area of mortality was just a fraction
of one percent of the modeled area for species of average sensitivity. Downstream Receptor Report at 5455. Since relatively little hydrocarbons were predicted to be deposited in the sediments in Lake Oahe
(<1%) it is likely that fish species that utilize the lake
bottom would have very limited impacts.
The net result is that impacts to benthic macroinvertebrates and fish species would be of limited
scale and of temporary duration. Downstream Receptor Report at 94-98.
See also 5-5
5-5.4 “[A]n oil spill could affect animals in two
ways: from the oil spill itself and from the response
or cleanup operations.”
RESPONSE: Impacts to fish from the spill itself
are addressed in the response to Comment 5-4. Temporary impacts to wildlife could occur during spill response or cleanup activities. Most wildlife, including
the larger and more mobile animals, would disperse
from the Project Area as activities occur. Displaced
species may move to adjacent, undisturbed areas, or
reestablish in their previously occupied habitats after
cleanup activities have been completed and suitable
habitat is restored. Some smaller, less mobile wildlife

649a
species such as amphibians, reptiles, and small mammals have a greater potential to be directly impacted
during spill response or cleanup activities, but given
the limited extent of the proposed crossing, measurable impacts are not anticipated.
5-6.4 “[A]n oil spill into Lake Oahe would have
deep and adverse consequences to all living things on
the Reservation that rely on the waters of Lake Oahe
- including, but by no means limited to, the fish and
game that Tribal members rely on for subsistence purposes.”
RESPONSE: Topic is addressed in the response
to Comment D17.
Document 6: Assessment and Review, Dakota
Access Pipeline Environmental Assessment
Terrestrial and Aquatic Organisms, Dr. Gillian
Bowser, PhD Attachment A-9 of Declaration of
Rollie E. Wilson
6-1.2 “The EA fails to evaluate the risk of oil spills
and the impacts of response time in sensitive environments; such delays lead to Bioaccumulations and toxicity in benthic organisms: The ability to respond to
spills in a timely matter is overstated by the EA and
leads to potentially serious long term impacts on
aquatic biodiversity.”
RESPONSE: ETP provided additional spill modeling that considered toxicity in benthic organisms
and bioaccumulation in the food chain. Downstream
Receptor Report at 39-48. All of the modeled unmitigated worst-case scenarios showed less than 1% of the
oil is located in the sediments after the 10 day modeling period. Because of the potential for only a limited

650a
amount of oil to be deposited on the sediments, bioaccumulation of contaminants by sediment-dwelling organisms is also anticipated to be limited. Therefore,
there are no anticipated long-term impacts due to bioaccumulation in benthic organisms/long-term impact
on biodiversity.
See also 6-2, 6-5, 6-6, 6-7, L64
6-2.2 “The ability to address spills within the environment at the benthic organism level is not addressed in the EA which can potentially harm at risk
associated fisheries and wildlife.
RESPONSE: Topic addressed in the response to
Comment 6-1.”
6-3.2 “Survey approach for endangered species in
the area was insufficient to detect those species and
the surveys were conducted at seasonally inappropriate times for the organisms in question.”
RESPONSE: ETP conducted pedestrian surveys
of the workspace within the Project Area at the Lake
Oahe crossing in April 2015 to assess suitable habitat
for listed species. Final EA at 61. It is not uncommon
for planning level documents to utilize biological surveys that identify potential suitable habitat without
actually observing presence of the species or without
conducting season-specific endangered species surveys.
Given the limited scope of the Proposed Action,
minimization measures, and the implementation of
specialized construction techniques, the Corps determined that the Proposed Action would have no effect
on the black-footed ferret, gray wolf, northern longeared bat, and Dakota skipper within the Project
Area. The Corps also determined that the Proposed

651a
Action may affect, but is not likely to adversely affect
the interior least tern, whooping crane, piping plover,
rufa red knot, and pallid sturgeon.
The “may affect, but is not likely to adversely affect” determination assumed that although unlikely,
a release may occur that impacts Lake Oahe and it
may occur during a season when the interior least
tern, whooping crane, piping plover, rufa red knot
might be utilizing the area. Detailed habitat surveys
or season-specific endangered species surveys are not
required to support this determination. Likewise, the
Corps conservatively assumed that any pallid sturgeon passing through the area may be affected. However, pallid sturgeon, if present, would not likely be
persistent in the slow moving portion of Lake Oahe
downstream of the Dakota Access crossing. Pallid
sturgeon have not been recorded in recent creel surveys of similar habitat of the lower reaches of Lake
Oahe. USFWS concurred in the Corps’ effects determination for the species that may be affected, but are
not likely to be adversely affected, in a letter on May
2, 2016.
See also 6-4, 6-9, 6-8, 6-11, 6-12
6-4.2 “The recent release of the Missouri River Recovery Plans has impacts on the proposed action and
current EIS. These two actions need to be in congruency in the management of endangered species and
the identification of critical habitat.”
RESPONSE: The DAPL EA considers the environmental impacts associated with the pipeline’s
crossing at Lake Oahe. Whereas, the MRRP is addressing the operations and maintenance of the federal Missouri River Reservoir System. The Draft

652a
MRRP EIS addresses the management of endangered
species and the identification of critical habitat as
they relate to changes to the hydrology of the Missouri
River Reservoir System through operations and
maintenance.
The Corps analyzed the portion of the pipeline
that crosses Lake Oahe under Section 408 and the
Mineral Leasing Act. The portion of DAPL that
crossed underneath Lake Oahe does not impact the
hydrology of the Missouri River Reservoir System. In
the event of a release, the effect determination referenced in the response to Comment 6-3 of “may be affected, but are not likely to be adversely affected”
would be of a very limited duration over a localized
portion of the Missouri River relative to the whole system addressed in the MRRP. Additionally, the MRRP
was not intended to address projects that do not impact the operation of the reservoir system.
6-5.3 “For a truly conservative estimate of the impacts of a potential oil spill on fresh water aquatic environments, the spill scenarios should reflect the
cascade effects of any delayed responses and address factors in detection that would lead to potential delays.”
RESPONSE: Topic addressed in the response to
Comment 6-1.
6-6.3 “Response timing to oil spills needs to
be fully addressed in the EIS with discussion of
impacts on benthic environments by both the
spills and clean up approaches.”

653a
RESPONSE: ETP committed to less than a 6 hour
response time. The initial response planning and mobilization as the result of an oil spill is regulated by
PHMSA.
Nevertheless, the revised spill modeling assumes
a plume of oil traveling unmitigated for 10 days. ETP
provided a study of the impact of oil releases on benthic environments to the Corps. Downstream Receptor Report at 39-48. As noted in the response to Comment 6-1, only a limited amount of oil would be predicted to be deposited on the sediments and bioaccumulation via benthic organisms is not likely. Therefore, widespread remediation of contaminated sediments would not be anticipated.
6-7.4 “The risk of delayed response to oil spills can
lead bio-toxic accumulation on the food chain through
the prey species of both species which includes macroinvertebrates (piping plovers) and small fish species (least terns) (Sanchez & Caldwell, 2008).”
RESPONSE: Topic addressed in the response to
Comment 6-1.
6-8.4 “While the short term impacts on the pallid
sturgeon are reduced through the use of HDD technology for pipeline construction, impacts on prey species
from delayed responses to any oil spills would have
impacts on the sturgeons themselves and potential for
bioaccumulation in long-lived mature pallid sturgeons
is unknown. The only potential source for indirect impacts on pallid sturgeon associated with the HDDs
that is noted in the EA is an ‘...inadvertent release of
nontoxic bentonite mud (used for lubricating the drill
path) into the water body’ (USACE 2016 ps. 67).”

654a
RESPONSE: As noted in the response to Comment 6-3, pallid sturgeon would not likely be present
in the slow moving portion of Lake Oahe downstream
of the Dakota Access crossing. Even if any sturgeon
were to pass through the area, it is unlikely that they
would be present long enough for bioaccumulation to
have a significant impact. Dr. Bowser did not specifically identify data on bioaccumulation in long-lived
mature pallid sturgeon that the Corps should have
considered. Dr. Bowser generally commented that delayed responses to any oil spills would have impacts
on sturgeons themselves, but that the potential for bioaccumulation in sturgeons is unknown. Dr. Bowser
did not provide any scientific evidence or studies specific to sturgeon in Lake Oahe that would cause the
Corps to doubt its previous methodologies and data
supporting the Corps’ effects determination, which
was concurred in by USFWS. Therefore, this comment does not show that a substantial dispute exists
as to the size, nature, or effect of the major Federal
action.
Furthermore, according to ETP, nontoxic bentonite mud (used for lubricating the drill path) was not
inadvertently released into the water body during the
HDD.
6-9.4 “There is little documented evidence that
pallid sturgeons easily relocate when their habitat is
disturbed (Jacobson et al. 2016; MRRP, 2016). Further, the EA released by USACE suggests that. ‘...if
pallid sturgeon were present in the area where the spill
or leak occurred, they would likely relocate outside of
the contaminated area’ (USCAE 2016 section 3.4).
However recent data in the Missouri River Recovery

655a
plans and scientific models suggest that adult and juvenile pallid sturgeons use different prey bases in different habitats that also differ seasonally and responses to disturbances to those prey bases is not well
known.”
RESPONSE: Habitat and prey-based impacts are
not applicable at this location. The seasonal differences referenced by the commenter would likely only
be applicable to resident populations of pallid sturgeon. However, the slow moving portion of Lake Oahe
downstream of the Dakota Access crossing is not the
appropriate habitat for pallid sturgeon. Therefore,
the habitat and prey based impacts by the commenter
are not applicable to either an initial spill or associated restoration activities.
See also 6-3 and 6-10
6-10.5 “The impact on benthic organisms and
cyprinids are considered one of the contributing factors of the decline of the pallid sturgeon throughout its range and impacts on the
prey bases need to be considered as part of the
full EIS.”
RESPONSE- Topic addressed in the response to
Comment 6-9.
6-11.5 “While the DAPL EA determined that ‘...the
Proposed Action may affect, but is not likely to adversely affect the interior least tern [..] or piping
plover...’, the contention of individuals moving to other
areas of suitable habitat in the immediate area are curious as the available habitats are extremely limited
and loss of habitat is the leading cause of population
decline in the area (USFWS 2017). In addition, while
the DAPL EA failed to detect nesting least terns or

656a
piping plovers in the area (USACE 2016 pg 63) based
the pedestrian surveys, there are regularly recorded
observations of these species within 0.5 miles of the
proposed project through well-established citizen survey databases on birds.”
RESPONSE: Topic is addressed in the response
to Comment 6-3. The Corps considered that both the
interior least tern and the piping plover have the potential to occur within the Project Area and Connected
Action. Final EA, at 62. The EA states that suitable
habitat may exist for both the interior least terns and
piping plover at the Lake Oahe crossing depending on
precipitation and seasonal flow variations as exposed
sand/gravel bars suitable for nesting. This is consistent with the commenter’s reference to observations of these species within 0.5 miles of the proposed
project. While it may be true that loss of habitat is the
leading cause of population decline throughout the
range of these species, there will be no permanent loss
of habitat due to the proposed project. Additionally,
any impacts to habitat due to a release during operations would be temporary.
6-12.6 “Since least terns and piping plovers
have both been repeatedly observed in the areas
immediately surrounding the proposed pipeline, the full EIS needs to address nesting endangered and threatened bird species in more
detail.”
RESPONSE: As indicated in the response to Comment 6-3, the EA conservatively assumed the presence for four sensitive bird species (the interior least
tern, whooping crane, piping plover, and rufa red
knot), and that if a release would occur that it would
impact Lake Oahe, and it would occur during a season

657a
when these species would be utilizing the area. The
USFWS concurred with the Corps’ determination of
“may affect, but is not likely to adversely affect.”
6-13.6 “The results of the habitat assessment field
surveys are inadequate to determine whether rufa red
knots are using stopover habitats that are present at
the Lake Oahe crossing . . . . Documenting the occurrence of red knots and stop over habitats
needs to be completed for the project area and
correlated with citizen science observations
that suggest that the species is present.”
RESPONSE: Topic addressed in the response to
Comment 6-12.
6-14.7 “The occurrence of Dakota skippers in the
general area should be examined using appropriate
survey timing and known behavioral traits.”
RESPONSE: Dakota skipper surveys were performed during the appropriate time of the year. Adult
Dakota skippers emerge from their larval form from
mid-June to early July depending upon weather conditions. Males emerge as adults about five days earlier than females. The adult flight period at a specific
location lasts between two to four weeks with mating
and egg-laying occurring throughout the period.
In order to prepare for the species-specific surveys, a habitat screening was performed prior to the
survey so that the team was prepared to conduct the
survey during the appropriate survey window. ETP
hired a USFWS recognized expert to perform a quantitative habitat assessment protocol along the North
Dakota portions of the DAPL. It was determined that
no additional Dakota skipper surveys were required

658a
at the Lake Oahe crossing based on grassland analysis and prior records of occurrence.
The results of the Dakota skipper surveys are included within the USFWS Biological Opinion (BO) associated with other portions of the DAPL Project, outside of the EA review area, that was issued by the
USFWS on May 31, 2016.
6-15.7 “Oil and gas activities are considered a
threat mostly in the wintering grounds of the whooping crane (Gulf of Mexico area) along with loss of habitat at stopover points along the flyway which would
include wetlands and croplands.”
RESPONSE: Consistent with the comment, the
Corps considered potential threats on whooping
cranes along the Central Flyway migratory route in
the region of the Proposed Action, including the loss
of stopover habitat from conversion of natural wetlands (e.g., prairie potholes) to croplands, as well as
development activities associated with natural gas
and oil production. Final EA at 103. The Corps determined that the Proposed Action would not result in
any loss of stopover habitat for the whooping crane, or
contribute to cumulative impacts on the species.
Document E: Second Declaration of Richard B.
Kuprewicz (ECF No. 195-1), Earthjustice
E1.2 “PHMSA relies on self-reporting from pipeline companies, and such self-reported pipeline releases are seldom accurate as to cause or release volume. A review of NTSB accident reports on many major liquid pipeline releases will support my observation on this matter.”
RESPONSE: Congress authorized PHMSA to
oversee proper design, proper installation practices,

659a
operator’s actions for compliance, and record keeping.
The Corps understands the commenter’s skepticism;
however, the Corps defers to PHMSA on these issues
since they are the regulatory authority with technical
expertise on this topic.
E2.4 “I disagree that these [36 special] conditions
eliminate or even meaningfully address the concerns
that have been raised in this case, my previous report,
and my declaration . . . . Many of the 36 conditions
were already included in the Final EA, or are requirements that are already imposed by PHMSA’s regulations . . . . the easement conditions address issues that
are already mandated by regulation or the Final EA,
but provide additional specificity.”
RESPONSE: PHMSA regulations 49 CFR § 195
are designed to protect people and the environment.
According to ETP, the DAPL pipeline complied with
all 49 CFR § 195 and in many areas the DAPL design
exceeded the requirements of 49 CFR § 195.
During the December 2, 2016 technical meeting
with the Corps, the SRST and their technical experts,
and ETP, the SRST technical experts asked for a number of items that should be incorporated into the design and operation of the pipeline that were not outlined in the EA (generally treating the EA as if it was
a “design basis document”). As discussed during the
meeting, the majority of the items SRST requested
were already required by PHMSA. Nevertheless, the
Corps honored the request by the SRST technical experts and incorporated those items as conditions to
the easement.
October 20, 2016 Memorandum,
USACE ESMT001213-001249.
See also E3

660a
E3.6 “The conditions [21, 22, 23] regarding the
Mainline Valves, SCADA, and Leak Detection System
also do not address the issues raised in my October 28,
2016 report. Another illusory condition is part of Condition 31 which discusses the use of Close Interval
Surveys, but then notes that these cannot be done for
the pipeline segment under Lake Oahe.”
RESPONSE: As noted in the response to Comment E2, the incorporation of some items, whether or
not they were already PHMSA requirements, as easement conditions addressed the concerns expressed by
the SRST technical experts at the December 2, 2016
technical meeting. Additionally, although ETP cannot conduct a CIS survey on the actual HDD (since it
is under the river and physical contact is not available), the CIS survey can be done on the surrounding
segments entering and leaving the HDD bore. Although CIS survey is not required under 49 CFR § 195,
CIS on the adjacent areas will provide an extra layer
of assessment and as an easement condition exceeds
PHMSA requirements.
E4.6 “Condition 15 recites: ‘The pre-in-service hydrostatic test for mainline pipe must be to a pressure
producing a hoop stress of either: a minimum 100%
specified minimum yield strength (SMYS) or a minimum of 1.25 times maximum operating pressure
(MOP) for eight (8) continuous hours for pipeline segments using a design factor of 0.50 or less.’ (Emphasis
supplied.) Testing to a minimum of 100% of SMYS is
the better of the two standards, but ETP has the option of using the less rigorous 1.25 MOP test.”
RESPONSE: According to ETP, the standard 30”
diameter, 0.429” wall thickness, X70 API5L Grade
pipe that was used on the DAPL project has a yield

661a
strength 2002psi. A pressure above 2002psi for this
pipe could produce permanent deformation. The Lake
Oahe crossing is comprised of the standard 0.429”
wall thickness connected to a thicker walled pipeline
directly under Lake Oahe (30” diameter X70 API5L
Grade with 0.625-inch wall thickness). This thicker
pipeline, installed to increase safety, has a yield
strength of 2917psi.
If ETP ran the 100% SMYS (2917psi) hydrostatic
test for the thicker 0.625-inch walled pipeline under
the lake, it would correspond to a pressure of 2802psi
at the top of the HDD where there is 0.429-inch pipe.
At this pressure, the yield strength of 2002psi is
greatly exceeded (140% of SMYS) and the pipeline
would be at great risk of permanent deformation or
rupture - actually leading to pipeline integrity issues
rather than preventing them.
As indicated in the response to Comment A21,
ETP completed hydrostatic testing.
E5.6-7 “[T]he test level in Condition 15 is only consistent with the minimum federal pipeline safety regulations not intended to deal with certain threats such
as “cracking,” and is not the more rigorous test that
PHMSA had suggested to address certain types of
cracking threat such as transportation cracking.
PHMSA’s recommendation – the 1.5 hydrotest –
would have been a better way to address one of the
issues raised in my October 28 report. As I explained
on page 7 of that report, In-Line Inspection tools (ILI)
‘cannot identify all construction and transportation
(i.e., cracking) defects that can survive a 1.25 MOP
hydrotest.’ It is important to note that the DAPL response to my concern about possible transportation
cracking threat assessment was not appropriate, even

662a
negligent (see Attachment to USACE email dated November 29, 2016, ESMT000942, Response 1-9). In Response 1-9, DAPL addressed only stress corrosion
cracking threats, which are wholly different from the
threat of transportation cracking.”
RESPONSE:
Transportation cracking is addressed in the response to Comment B11. Hydrostatic
testing is addressed in response to Comment A21.
ETP discussed hydrostatic testing at 150% MOP with
PHMSA, but this would have required hydrostatically
testing to 2,160 psi. This pressure risked permanent
deformation of the pipeline segment and therefore the
easement condition remained at the 49 CFR § 195 requirement of 125% MOP.
E6.7-8 “PHMSA had recommended several other
conditions which were not applied here. Two of these
might have helped insure that the results of tests like
In-Line Inspections (ILI) are then used in pipeline operations and maintenance and are effective. One of
those conditions would have required a “Third Party
Independent Expert Engineering Annual Audit” . . .
The other would have required Dakota Access to provide annual reports to the Army Corps on the results
of these tests, as well as other information on leaks,
repairs to the pipeline, and on‐going damage prevention initiatives. ESMT001189 (proposed Condition
29). These two conditions, however, are not among
the 36 conditions of the easement.”
RESPONSE: As ordered by the Court, ETP selected a third-party independent expert engineering
company to review easement conditions and regulations, and to assess compliance with all such conditions as well as other integrity threats. The independ-

663a
ent third-party verification was completed and documented. ETP is required to keep all Integrity Management records for the life of the pipeline, which
must be made available to PHMSA upon request.
E7.8-9 “Neither the EA nor any of the documents
that are part of the Corps’ records in this matter provide the additional detailed information that is necessary to determine whether the route for this pipeline
around Lake Oahe lies within an area of high landslide risk . . . . remote sensing systems can only detect
significant leaks— DAPL claims that it can detect to
1%, which I believe to be wildly over-optimistic—but
even if the claimed threshold is correct, those systems
are effectively blind to leaks below that level. The
vast majority of leaks are discovered by visual observation, not remote sensing systems. While the conditions could arguably help reduce the risk of undetectable underground leaks, it certainly doesn’t eliminate
that risk or provide any tools to help detect them. Any
leak in the HDD under Lake Oahe would likely only
be discovered once the oil sheen is visible on the surface, by which time a colossal and irremediable impact
would have occurred.”
RESPONSE: The avoidance of landslide areas is
discussed in the response to Comment B4. Leak detection is addressed in the response to Comment D13.
E8.9 “[T]he 36 conditions . . . do not in my view
materially alter the risks or address the flaws in the
Corps’ analysis of spill risk and response, which continue to suffer from a number of grave flaws that render its continual disregard for spill impacts invalid.”
RESPONSE: Topic is addressed in the response
to Comment B1.

664a
E9.9 “[A] three-page “analysis” of my report presented on the letterhead of a company called Nouveau,
Inc. ESMT001005 . . . . It does not provide any of the
additional information that I identified is essential to
evaluating the risks of the pipeline route selected.
And the report offers no engineering, scientific, or
technical basis for its criticism of the issues I raised .
. . . This document meets none of the minimum criteria for a technical or scientific analysis and in my view
should be ignored.”
RESPONSE: The decision relative to the Proposed Action was made based on numerous technical
documents supplied by the applicant. Planning documents associated with the evaluation of the risk construction and operation of DAPL have been prepared
as detailed in the response to Comment A9.
E10.10 “A second document purports to respond to
the issues raised in my report. ESMT00937-00947 . .
. . For example, the document responds to a detailed
critique about the EA lacking critical information to
support its conclusion of low risk by simply stating yet
again that the ‘risk of a leak is low.”
RESPONSE: Topic is addressed in the response to
Comment B18. Risk planning documents associated
with construction and operation of DAPL are described in response to Comment A9.
E11.10-11 “[T]he document only assesses landslide risk at the HDD bore hole work area and the
stringing area. It does not provide sufficient information to permit an independent evaluation of landslide risk in the nearby area where the pipeline would
be routed where a rupture would result in impacts to

665a
federal lands and Lake Oahe . . . . The threat of a landslide for a large crude oil pipeline near a major waterbody is considerably greater than it is for either a natural gas pipeline or electric transmission line . . . .
Landslide risk can only be mitigated through proper
route selection— something that appears to have
never been looked at closely in any public document
that I am aware of.”
RESPONSE: As noted in the responses to Comments A14 and B4, the Corps considered the potential
impact of landslides.
E12.12 “Dakota Access’s response does not provide additional detail on how the ILI tools will be implemented, such as the action thresholds that would
be applied to limit operator discretion.”
RESPONSE: Topic is addressed in the response
to Comment C24.
E13.13 “Neither the EA nor Dakota Access in its
responses to any of my questions provides any of the
information that would permit an independent verification that the rapid identification mentioned in the
EA is even possible for the pipeline segment, or that
its low estimates of potential oil spill volumes or conclusions about low risk for this unusually sensitive
area are supported.”
RESPONSE: Leak detection is addressed in the
response to Comment B7. Worst-case scenario volume determination is addressed in the responses to
Comments A1 and A2. High consequence areas are
addressed in the response to Comment B1.

666a
Document F: Declaration of Richard B.
Kuprewicz (ECF No. 272-1) CONFIDENTIAL,
Earthjustice
F1.3-4 “[A] detailed review of this Report reveals
incomplete information including numerous misleading, false statements, and unsupported critical assumptions that could lead readers to make imprudent
decisions understating the risks and overstating the
effectiveness of proposed safety approaches on the
DAPL routing that could affect Lake Oahe.”
RESPONSE: Topic is addressed in the response
to Comment F20. The Corps’ assessment of risk is addressed in the response to Comment A9.
F2.4 “[T]he pipeline operator and the USACE
have failed to consider all threats that could cause
pipeline rupture. The Report seriously understates
the risks and worst case oil release that could affect
Lake Oahe.”
RESPONSE: Topic is addressed in the response
to Comment B1.
F3.4 “[O]il spill release volumes and risks associated with the DAPL segments that could affect Lake
Oahe presented in the Report are most likely considerably understated.”
RESPONSE: Information on the worst-case scenario and spill planning is provided in the response to
Comment A9.
F4.4 “The Report’s discussion of oil spill risk
makes a series of incorrect and unsupported assumptions about the volume of oil that will spill when a rupture occurs, as well as the time in which a release will

667a
be determined by the staff in a remote control room
and the pumps shutdown.”
RESPONSE: The estimated potential spill volumes used for spill planning is addressed in the response to Comment A1. The time to respond is addressed in the response to Comment B6.
F5.4-5 “[T]ransient release dynamics . . . greatly
hinders reliable and timely remote SCADA determination of a pipeline oil release . . .”
RESPONSE: Topic is addressed in the response
to Comment F7.
F6.5 “The reports provided in connection with
DAPL do not provide sufficient detail on the SCADA
system being used here.”
RESPONSE: Mr. Kuperwicz did not specifically
identify the information on the SCADA system that
was more appropriate or necessary for the evaluation.
Mr. Kuperwicz generally commented that sufficient
detail wasn’t provided but does not provide any scientific evidence or studies specific to the SCADA system
that would cause the Corps to doubt its previous
methodologies and data supporting the Corps’ reliance on ETP’s information and explanation of the mechanics of the SCADA system. Therefore, this comment does not show that a substantial dispute exists
as to the size, nature, or effect of the major Federal
action.
F7.5-6 “One incorrect assumption in the Report is
the rate at which oil will be released upon a rupture.
The Report indicates that upon a guillotine break the
pipeline will release at essentially the pumping rate
(p. 9). This rate assumption is technically flawed and
ignores the rapid transient rise in rupture release rate

668a
out the rupture of a transmission pipeline. The actual
rate at which oil will be released from the pipeline
upon rupture will be much higher than pumping
rates.”
RESPONSE: According to ETP, although the release rate in a full bore rupture could potentially increase for a very short duration, as the pressure
within the pipeline drops and the liquid expands, this
phenomenon would be short-lived (likely in the order
of seconds rather than minutes). The release rate
would decline after this initial spike and not have a
meaningful impact on the overall volume calculated
over 9 minutes. Therefore, ETP used a conservative
approach in the spill model that the pumped flow rate
was maintained over the entire 9 minutes.
See also F5, F9, F11, F13
F8.6 “The Report also assumes that releases can
be determined and pumps shutdown within 9
minutes, with an additional 3.9 minutes to completely
close block valves. The Report provides no specifics as
to how those times are possible for the Lake Oahe segment.”
RESPONSE: This topic is addressed in the responses to Comment A10 and B5.
F9.7 “The Report attempts to convey a worst case
release as a “guillotine break” with a subsequent limited explanation that fails to capture the true transient release dynamics associated with pipeline rupture.”
RESPONSE: Topic is addressed in response to
Comment F7.

669a
F10.7 “The Report limits the elevation profile to a
few miles spanning Lake Oahe (at page 14) is woefully
inappropriate for a pipeline oil spill rupture analysis
to a sensitive water body.”
RESPONSE: Consistent with the comment, ETP
performed additional spill modeling that expanded
the scope of the oil spill analysis. ETP considered the
interaction of the elevation profiles both upstream
and downstream of the crossing. Although the Spill
Model Report for Lake Oahe was limited to the portion
of pipeline within USACE’s jurisdiction, ETP evaluated the elevation profiles along the entire project
route and modeled potential theoretical worst-case releases along the entire project route in accordance
with PHMSA modeling requirements.
Furthermore, while potential releases could reach
Lake Oahe, the worst-case scenario discharge analysis in the Spill Model Report provided the most conservative rupture/greatest impact to this sensitive water body. Releases further back from the body of water
will be subject to adhesion effects from the land and
vegetation as well as pooling of some of the oil whereas
a full bore rupture and complete separation from a
pipeline suspended over or adjacent to the lake would
not similarly experience adhesion effects and pooling
to the same extent. Additionally, the other potential
scenarios, set back from the lake, would result in a delay of the oil reaching the lake and additional volume
reduction due to evaporation of the highly volatile oil
and adhesion of the oil to the ground surface.
See also F16

670a
F11.8 “The Report fails to capture the significantly higher transient flow rates associated with rupture.”
RESPONSE: Topic is addressed in response to
Comment F7.
F12.8 “The Report fails to justify and support in
my opinion the highly optimistic time to remotely determine (via SCADA) a transmission pipeline rupture
has occurred in the segment that could affect Lake
Oahe and initiate emergency shutdown and segment
isolation.”
RESPONSE: According to ETP, there are numerous pressure transmitters installed on DAPL at regular intervals, including both sides of the Lake Oahe
crossing. The effects of a pipeline rupture will cause
pressure waves to travel at the speed of sound through
the pipeline and will be detected as pressure drops
within seconds of the rupture occurring.
F13.8-9 “The Report over credits the valves that
would be used to limit the amount of oil that can be
released into Lake Oahe. The Report apparently fails
to recognize how fast crude oil with the specific gravity stated in that Report can be released out a rupture
driven by other transient forces such as decompression, as well as the force of gravity.”
RESPONSE: Topic is addressed in the response
to Comment F7.
F14.9 “Information about the areas where there is
landslide risk, should not be limited to the HDD borehole and the stringing area as was done in the EA, but
need to show landslide risk along the pipeline route.”

671a
RESPONSE: Topic is addressed in the responses
to Comments A14 and B4.
F15.9 “The Report also attempts to assign risk by
utilizing the number of HCAs (High Consequence Areas) for risk approach and fails to grasp important differences that may be associated with each specific
HCA, especially very sensitive HCAs such as Lake
Oahe.”
RESPONSE: ETP considered the HCAs in the
evaluation of the proposed alignment in compliance
with 49 C.F.R. § 195.452. ETP prepared PHMSAapproved spill models that consider potential interaction with all HCAs as defined by PHMSA. The spill
models account for the presence of HCAs and ETP designed the pipeline and developed operational parameters to reduce the risk of a release at HCAs in accordance with PHMSA requirements.
The commenter did not identify any code or industry-accepted procedure that states that the HCAs cannot be used to assess relative risk between points
along the alignment during that evaluation.
F16.10 “In the Report’s section titled Reducing
Risks (p. 11), the comments fail to acknowledge the
importance of a broader pipeline elevation profile in
liquid pipeline siting and safety as well as valve type
and placement.”
RESPONSE: Topic is addressed in the response to
Comment F10.
F17.10 “Anti-siphoning claims on pages 11, 15 of
the Report are confusing and misleading.”
RESPONSE: The Report states that the full volume of oil at an elevation higher than the rupture in

672a
the pipeline is allowed to drain out. The “soda straw”
analogy in the spill model report was presented to
help illustrate to the reader that the predicted spill
volumes are larger than would likely be seen in reality
due to certain properties of physics. Although it can
be argued to what extent the anti-siphoning effect
would reduce the spill volumes, that result would
have no bearing on the spill model analysis performed
and estimated volumes obtained as the spill model
does not include a reduction in volume for anti-siphoning. ETP’s spill response plan is designed to handle a
worst-case discharge that does not lower the volume
to account for anti-siphoning.
F18.11 “The statement in the Report that ‘the
backfill on top of the pipe restricts the area and volume the spill can affect’ can be very misleading to less
experienced or informed personnel.”
RESPONSE: The spill model places the pipe on
top of the ground. ETP addressed soil cover to demonstrate it assessed the true “worst-case release.” The
information on backfill in the spill model report was
presented to help illustrate to the reader that the predicted spill volumes are larger than would likely be
seen in reality due to certain properties of physics.
F19.11 “The reference to the California State Fire
Marshal 1993 “Hazardous Liquid Pipeline Risk Assessment,” is misused and taken out of context so as
to create a false impression as to the effectives of liquid pipeline mainline valving, especially on large diameter liquid transmission pipelines.”
RESPONSE: The California State Fire Marshal
report was referenced to point out that although the
spill model assumes the worst-case guillotine break,

673a
in reality the volumes experienced during actual pipeline incidents rarely approach the volumes predicted
in the spill modeling for full bore rupture breaks.
F20.12 “The Report (p.15) makes a false statement as to the most likely cause of liquid transmission
pipeline failures, especially ruptures . . . . third party
damage is not the leading cause of liquid transmission
pipeline ruptures. Even a cursory review of the
PHMSA public incident database files will uncover
that third party damage is not the leading cause of
liquid transmission pipeline ruptures.”
RESPONSE: The Report references a safety statistic, commonly cited in the pipeline industry that applies to all pipelines--not just liquid transmission
pipelines. The Report does not reference only liquid
transmission pipelines.
See also F1,F16
F21.12 “PHMSA has issued a safety advisory bulletin covering this grade of pipe. 100 % radiographic
assessment of girth welds may not be adequate to assure weld quality for this grade of pipe. Additional
quality assurance /quality control protocols are warranted for grade X-70 welds as girth weld integrity
threats may not be uncovered by just radiological assessment of the girth welds.”
RESPONSE: ETP is aware of the safety issues
identified by Mr. Kuprewicz. Dakota Access’s parent
company was one of the financial sponsors and technical participants in an industry project initiated to
examine the phenomenon addressed in the March 24,
2010 PHMSA Advisory Bulletin, ADB-10-03, “Pipe-

674a
line Safety: Girth Weld Quality Issues Due to Improper Transitioning, Misalignment, and Welding
Practices of Large Diameter Line Pipe.”
According to ETP, the PHMSA advisory does not
explicitly or implicitly deem 100% radiography inadequate. While PHMSA specifically mentions X70 grade
line pipe in this advisory, the advisory is not focused
on that grade, nor should it be. The issues described
are not pipe grade or strength dependent. In the advisory PHMSA also specifically mentions X60 grade
and refers to grades higher than X70. The advisory
mentions various grades because the issues noted
were identified on large diameter pipelines constructed during the 2008-2009 time period. These
higher grades of pipeline materials have been in common and widespread use for larger diameter pipelines
since at least the 1980s, so it is not surprising that any
issues related to welding that might arise will occur
on these grades, since they are what is being used.
But that does not make the issue grade-dependent,
and contrary to the apparent inference in the comment, PHMSA’s advisory does not invoke grade dependence.
In referring to the investigations of these failures,
PHMSA does not mention grade: “Post-incident metallurgical and mechanical tests and inspections of the
line pipe, fittings, bends, and other appurtenances indicated pipe with weld misalignment, improper bevels
of transitions, improper back welds, and improper
support of the pipe and appurtenances. In some cases,
pipe end conditions did not meet the design and construction requirements of the applicable standards
. . .”

675a
PHMSA then specifically notes the applicable
standards, various editions of API 5L (Specification
for Line Pipe), API 1104 (Welding of Pipelines), ASME
B31.8 (Code for Gas Transmission and Distribution
Piping Systems), ASME B31.4 (Code for Liquid Pipeline Systems), MSS-SP-44 (Standard for Steel Pipe
Line Flanges) and MSS-SP-75 (Specification for High
Test Wrought Butt-Welding Fittings). These standards together provide requirements for the design,
production and installation of relevant components,
including compositions, properties, dimensions, fabrication, joining, inspection and testing.
PHMSA provides more specifics of the findings of
these investigations, such as girth weld bevels not
properly transitioned and aligned, pipe ends not meeting diameter and out-of-roundness requirements,
welds not meeting API 1104 requirements, nondestructive testing (NDT) quality problems, and the
transition welds being in hilly terrain and high-stress
locations such as crossings, streams and slopes with
unstable soils.
According to ETP, Mr. Kuperwicz ignores the specific concerns, root causes and contributing factors
mentioned in the PHMSA advisory. These issues
were discussed at length among operators and with
PHMSA. An underlying factor, not specifically mentioned in the PHMSA advisory but broadly and thoroughly discussed among pipeline operators and
PHMSA at the time, was the volume of pipeline construction that was taking place during this period.
This high volume taxed the capabilities of both manufacturers and construction contractors. As a result,
the need for thorough vetting and qualification of material suppliers, construction contractors, including

676a
welders and equipment operators, NDE contractors
and inspectors was highlighted. Any deficiencies in
capability, experience and understanding can be manifested as the issues identified and listed by PHMSA.
It is not surprising that such issues will occur in locations where the quality demands are higher. The regulations require systematic measures, further discussed below, that are designed to avoid or mitigate
any weld quality deficiencies.
ETP employs additional quality assurance/quality
control protocols to address or avoid the issues identified in the PHMSA advisory. Processes designed to
avoid or mitigate any weld quality deficiencies include
systematic QA-QC procedure development, qualification testing of welders, inspection to enforce adherence to procedures, visual inspection of welds, 100%
nondestructive testing (NDT), Level 3 NDT auditing,
and multiple hydrostatic tests for the pull string.
ETP’s comprehensive and systematic QA/QC process
to address or avoid the issues in the PHMSA advisory
includes:








Stringent pipe specifications with specific attention to chemistry and dimensional requirements that can impact weldability.
Use of well-known, experienced, qualified and
vetted steel and pipe manufacturers, with a
continuous DAPL inspection presence in their
facilities during manufacture.
Strict adherence to dimensional requirements.
Qualification of welding procedures.
Qualification of project welders.
Utilization of demonstrably qualified welding
inspectors to assure compliance with welding
procedures, including bevel condition, weld

677a




joint alignment, fit-up and transition requirements.
Use of qualified and vetted Level 2 NDE technicians for primary weld inspection.
Use of qualified and vetted Level 3 NDE specialists for oversight.

According to ETP, by the end of 2017, DAPL had
undergone almost 80 PHMSA audits and more than
280 labor days of inspection, which are described below. None of the PHMSA-identified examples of failures occurred on DAPL or DAPL sponsor facilities.
PHMSA audits and inspections are thorough and
probing reviews into the operator’s programs, philosophy, processes and procedures, qualifications, diligence and practices. According to ETP, PHMSA has
not pursued any enforcement actions against DAPL
related to the audits and inspections.


2015 PHMSA DAPL Kickoff Inspection (Engineering Standards/Procedures)
o 1 Audit - 2 days in Dakota Access Houston Office.



2016 PHMSA DAPL Inspections – Across all
Pipeline Spreads/Terminals/Pump Stations/Fab Shops/Pipe Yards.
o 69 PHMSA Audits.
o 20 Different PHMSA Inspectors.
o 230 Total Days of PHMSA Inspections.



2017 PHMSA DAPL Inspections
o 9 PHMSA Audits.
o 54 Total Days of PHMSA Inspections.

678a
 47 Consecutive Days of PHMSA Inspections during the HDD Drill of
Lake Oahe.



Inspected the Lake Oahe
HDD ECA Lowering In Stress
Analysis Record.
3 days of this included
PHMSA + Four Representatives from Oakridge Research
National Lab (PHMSA agent
– welding SMEs). Each weld
was inspected related to the
HDD string for the Lake Oahe
and included up to the mainline valves on each side of
Lake Oahe.

 6 Days of PHMSA Inspections.


Inspected the Commissioning
from the ND Terminals
through the Lake Oahe HDD.

 1 Day PHMSA Inspection.


Final DAPL Records Inspection in the Dakota Access
Houston Office.
o Included the hydrotest
records for the Lake
Oahe HDD.

See also M18, M20, M21

679a
Document G: Declaration of Donald
Holmstrom, Earthjustice
G1.3 “[T]he Corps did not have an adequate basis
to conclude that the risk of an oil spill or leak affecting
Lake Oahe was so low as to be insignificant . . .”
RESPONSE: Topic is addressed in the responses
to Comment B1 and B16.
G2.4 “[T]he American Petroleum Institute (API)—
has taken the lead by developing voluntary standards
that go significantly beyond the regulatory requirements imposed by PHMSA . . . . ‘the PHMSA standards that are applicable to the Dakota Access Pipeline...are predominately out of date with key modern
standards not incorporated by reference.’”
RESPONSE: ETP designed and constructed the
DAPL using standards and practices that meet or exceed all regulatory requirements which include prescriptive measures with regard to external coating
systems, corrosion control systems, and inspection of
the pipeline during construction. For example, all
MLVs, and therefore all EFRD Valves, have been
sized and specified to meet the industry standard API
Specification 6D for the design, manufacturing, testing and documentation of such valves. A summary of
DAPL practices and design that exceed regulatory requirements is presented in Table G2.
See also G12, L44, L50, L51, L52, M18, M21

680a

681a

682a

683a
G3.4 “[A] proper risk analysis would focus on the
operator of the pipeline and their actual performance
including verification of the effectiveness of safeguards and the use of process safety key performance
metrics to achieve effective targeted risk reduction.
This is the focus of the more up-to-date industry
standards that are not referenced or applied in the EA
. . . . A valid risk analysis would recognize the history
of the operator.”
RESPONSE: Mr. Holmstrom refers to Sunoco’s
incident history and safety performance based on
PHMSA data for the period 2006-2016. ETP Vice
President of Crude and Liquid Pipeline Operations,
declared that
...approximately 70% of the 276 incidents [referenced in the PHMSA data] were confined to
operators’ property, which makes these incidents less likely to affect people, property, or
environment because product often stays
within engineered containment or its impact
is limited to facility boundaries. Moreover,
Sunoco’s pipeline operations and maintenance
are regularly inspected by regulators; these
inspections have increased substantially in
both frequency and intensity since 2013. Between 2013 and 2016, Sunoco had over 90 targeted, system-wide-program or site-specific
PHMSA and state inspections for existing
pipeline systems and new construction. In addition to these inspections, Sunoco frequently
conducts internal reviews of its integrity management program, operations, maintenance,
and emergency procedures. The integrity

684a
management program is the systematic application of processes, procedures, and best practices to identify threats, continually assess,
prevent, and mitigate risks on pipeline systems. Although the PHMSA requirements at
49 CFR § 195.452 apply to HCA segments,
Sunoco, through its IMP, evaluates and remediates risk in non-HCA segments as well,
therefore implementing measures above and
beyond the existing regulatory requirements.
Stamm Declaration, ECF 277-1 at 6-7 (August 17,
2017).
According to ETP, if an incident is confined to the
operators’ property, then it would not reach Lake
Oahe or any other land or water used by the Tribe.
This is because the released product often stays
within a fenced-in facility boundary protecting the
general public from the potential for incidental contact once the product is released. The DAPL valve facilities, MLV-ND-380 and MLD-ND-390, are located
in upland locations that have been graded and leveled,
and the sites are surrounded by security fencing and
camera systems to provide additional security. No engineered containment system is needed because these
above-ground valve sites are not subject to any routine maintenance activity that could result in a release. If work becomes necessary, special containment materials are first put in place. Finally, the
manner in which the valves are constructed means
there are no openings to the outside environment for
oil to be released.

685a
According to ETP, all MLV assemblies were designed in accordance with DOT 195, Subpart C, Paragraph 195.116 and Subpart D – Construction, Paragraphs 195.258 and 195.260. All MLV sites are integrated with the SCADA system to provide 24-hour
monitoring and emergency shutdown of MLV’s and
pump stations along the pipeline.
Regardless of whether product stays within engineered containment or its impact is limited to facility
boundaries, the Corps recognizes that there may still
be affects to employees, first responders, bystanders,
and commuters. The Corps also recognizes that impacts limited to facility boundaries may still result in
impacts that transcend facility boundaries and impact
nearby or adjacent communities.
Mr. Holmstrom states his preferred general
methodology but does not identify a specific alternative methodology or particular criteria or performance
metrics that the Corps should have considered. Mr.
Holmstrom generally asserts that his preferred methodology is consistent with more-up-to-date industry
standards but does not specifically identify those
standards. Mr. Holmstrom did not provide any scientific evidence or even studies specific to Lake Oahe
that would cause the Corps to doubt its previous
methodologies and data supporting the Corps’ conclusion to rely on ETP’s risk analysis. Therefore, this
comment does not show that a substantial dispute exists as to the size, nature, or effect of the major federal
action.
See also G6, G8, G19, L4, L22, L49

686a
G4.5-6 “[T]he EA gravely underestimates the risk
of leaks and spills . . . . the analysis appears to underestimate both the risk as well as the amount of a potential spill . . . . Modern major accident prevention
focuses on rigorous analysis of all potential hazards .
. . . This modern approach provided for in applicable
consensus safety standards is significantly lacking in
the Corps’ Environmental Assessment.”
RESPONSE: Topic is addressed in the response to
Comments A1 and A9.
G5.6 “The potential for surge damage needs to be
carefully evaluated for the Lake Oahe crossing . . . .
Although required by ASME B31.4, surge calculations, adequate controls and protective equipment are
not effectively addressed in the DAPL risk studies or
the EA for the Lake Oahe HCA.”
RESPONSE: The PHMSA regulations do not require a surge analysis. Nevertheless, ETP considered
the potential for surge damage in the November 3,
2015 DAPL Pipeline Surge Analysis Report. ETP implemented the measures recommended in the report
to mitigate or eliminate excessive pressure surges into
the design and construction of the pipeline and valve
system.
G6.6 “[R]easonable risk and worst-case analysis
needs to incorporate . . . . Information such as the companies’ safety performance data, verification efforts,
mechanical integrity records and incident history . . .”
RESPONSE: Topic is addressed in the response
to Comment G3.

687a
G7.7 “The stated 12.9-minute time from leak detection to the closing of the shut-off valves lacks supporting data and is not credible.”
RESPONSE: Topic is addressed in the response
to Comment B5. Discussion of the amount of time
that it takes for the motor operated isolation and/or
check valves to close is addressed in response to Comment A10.
G8.7 “[T]he EA and other DAPL risk-related documentation lacks vital information such as safety performance data and targeted risk reduction measures .
. .”
RESPONSE: Topic is addressed in the response to
Comment G3.
G9.7 “[W]inter in North Dakota can reach arctic
conditions . . . . Are the DAPL valves designed for
these conditions?”
RESPONSE: ETP provided design temperature
specifications to the steel mills, pipe and fitting manufacturers, as well as all pump, valve, and instrumentation manufacturers to ensure that both high- and
low-temperature concerns would be considered in the
manufacturing of those materials and equipment.
The valves and settings are designed to meet operating temperatures ranging from -20 degrees to +150 degrees Fahrenheit, even though the product in the
pipeline and thus the pipe itself is not anticipated to
drop below 60 degrees Fahrenheit in the coldest North
Dakota winters.
G10.7 “A proper analysis examines a variety of
credible scenarios including the worst-case discharge.

688a
The EA... barely mentions that the Lake Oahe is an
HCA (“high consequence areas”).”
RESPONSE: The worst-case scenario discharge
is addressed in response to Comment A1. High consequence areas are addressed in response to Comment
B1.
G11.8 “Bakken crude oil . . . . is more volatile than
many crudes . . . .Spill response planning therefore requires preparation for release of flammable vapors
and fires.”
RESPONSE: According to ETP, the 2012 Emergency
Response
Guidebook
(published
by
DOT/PHMSA) does not treat “Bakken” crude any different than other crude oil. This Emergency Response
Guidebook is “intended for use by first responders
during the initial phase of a transportation incident
involving dangerous goods/hazardous materials” and
is a vital resource used by first responders. The 2012
Emergency Response Guidebook does not single out
Bakken crude for its flammability characteristics.
Bakken crude fire/explosion incidents occurring in the
recent past all involved an initial ignition source, such
as a train derailment and associated sparking at the
time of release. This is typically not the case with
most pipeline releases.
Site Safety Plans are developed as part of individual response efforts and identify hazards associated
with the release and response strategies and responses are carried out in accordance with the company’s safe work practices, including work permitting.
The spill response planning emphasizes “Protection of
the public and responders” as the first priority. The
first response to any product release is to conduct air

689a
monitoring to ensure protection of the public and responders. This includes elimination of any potential
ignition sources. Continuous monitoring is conducted
to verify that Lower Effect Levels (LELs) and any potential vapors remain below safe working levels.
Should LELs or vapors be observed above safe working levels, the appropriate protections are implemented immediately, including evacuations if necessary.
See also L6, L23, L29, L46
G12.8 “[T]he three issues identified by the Court .
. . . will require a comprehensive and thoughtful analysis that collects new data, subjects it to rigorous and
independent review, and adequately explains new
conclusions.”
RESPONSE: The Corps is complying with the
Court’s remand order.
See also M2, M11
G13.9 “Given that there is no technology in place
that can identify leaks below the detection limit underground, any slow leak would not be detected until
the potential occurrence of oil being visible on the surface of Lake Oahe. By that time, a serious oil spill
incident may occur and remediation would be extremely difficult with the potential for long term environmental impacts.”
RESPONSE: As indicated in the response to Comment B6, the LeakWarn CPM system is capable of detecting leaks down to 1 percent or better of the pipeline flow rate within a time span of approximately 1
hour or less and capable of providing rupture detection within 1 to 3 minutes. In the event of a slow leak,

690a
even if pressure measurements do not show a significant drop in pressure, a detectable meter imbalance
will develop over a period of time resulting in an alarm
to the Control Center. While the alarm threshold may
be 1%, the SCADA and LeakWarn systems are sensitive to smaller changes in flow rate and pressure.
DAPL Pipeline controllers are trained to shutdown
pipelines and investigate when there is any doubt regarding the alarming of the possible presence of a release/leak. Leak detection and notification systems
are required in Easement Conditions 22 and 23.
As described in the response to Comment A12,
mitigating measures to address groundwater contamination are described in the EA. Final EA at 48.
G14.9 “A fair discussion of risks for a deep HDD
would acknowledge the shortcomings of leak detection
and the severity of potential problems, in a way that
doesn’t gloss over the significance of the decision to
route the pipeline at this site.”
RESPONSE: Topic is addressed in the response
to Comment B1. Given the engineering design and
proposed installation methodology, the risk of a leak
is low. The Corps recognized that a spill could be a
high consequence event even though the risk is low.
G15.10 “Bakken crude contains a number of
highly toxic chemical compounds and a number of notable properties that affect what could happen in an
oil spill that are not discussed in the EA.”
RESPONSE: Topic is addressed in the response
to Comment A4.
G16.10 “How different chemical constituents interact with the environment, in light of the unique

691a
characteristics of Bakken crude, is subject to a number of variables (including weather) that would need
to be discussed in considerably greater detail in order
to properly assess risk.”
RESPONSE: Topic is addressed in the response to
Comment A4 and D7.
G17.11 “Combining an adequate worst-case discharge analysis with an adequate analysis of how different chemical constituents of spilled oil would become available, with an adequate analysis of how
these constituent chemicals would affect fish and
wildlife species of concern to the Tribe is a significant
undertaking.”
RESPONSE: Comment is addressed in response
to Comment C22 and D17.
G18.11 “[I]n light of the severe oil spill risks at the
Lake Oahe location (from landslides, risks of mechanical integrity, and lack of effective leak detection), the
most effective preventative measure would be alternate routing.”
RESPONSE: Topic is addressed in the response
to Comment C26.
G19.12 “The integrity management system described in the EA lacks any reference to the operator’s
historic data for leaks, failure rates, incidents and effectiveness of cathodic protection in the long run of
HDD under Lake Oahe.”
RESPONSE: Topic is addressed in the response
to Comment G3.
G20.12 “[T]he third-party team should ensure the
conduct of a safety culture survey of the company . . .

692a
. There is no reference to safety culture surveys in the
EA.”
RESPONSE: Sunoco completed two comprehensive Employee Safety Culture Surveys over the past
10 years. One was completed in 2010 and the second
in 2016.
See also L49
G21.13 “The Tribe has an emergency management department that would be expected to respond
to an oil spill on the Reservation and it has never been
consulted about developing a plan to do so. To the best
of my knowledge, a final response plan does not even
exist for the Lake Oahe site, let alone a plan that addresses the full range of spill scenarios and unique attributes of Bakken crude, including flammability. I
am unaware even whether response equipment has
been staged at Lake Oahe (or, if its not, where such
equipment would come from in the event of an incident) . . . . I recommend that the Corps be required to
immediately initiate conversations with the Tribe
about finalizing such a plan, and staging the equipment and conducting whatever training may be necessary so that the Tribe (and others) are prepared and
the response is coordinated.”
RESPONSE: ETP coordinated with the SRST on
the location of water intakes and contacts for the spill
response plan. Kelly Morgan, SRST archeologist, provided ETP with the names and telephone numbers for
the SRST Chairman and the SRST Emergency Services coordinator on March 3, 2016.

693a
Regarding spill response planning, ETP contacted
Mr. Elliot Ward, SRST Emergency Services Coordinator in October of 2017. ETP provided the FRP and
GRP and requested a meeting to discuss the plans.
Mr. Ward indicated that although he was looking forward to meeting to discuss the FRP and the GRP and
determine how the two groups can work together to
provide for the safety of the citizens of SRST, the
meeting would have to wait until after Special Election scheduled for October 25, 2017 and a full Tribal
Council could approve Mr. Ward’s coordination activities.
An Emergency Response Planning meeting was
held in Bismarck, ND on January 11, 2018. ETP invited the Corps, SRST and CRST to participate. The
Corps and ETP participated in the January meeting,
but no SRST or CRST representatives attended. Another meeting was held in Bismarck, ND on February
8, 2018. ETP invited the Corps, SRST, and CRST to
participate. The Corps and DAPL participated in the
February meeting. Nine representatives from SRST
and one representative from CRST briefly appeared at
the beginning of the February meeting to hand deliver
letters from each of the tribes, but then left the meeting and did not attend or participate in substantive
portions of the Emergency Response Planning Meeting. A third meeting was held in Bismarck, ND on
March 7, 2018. ETP invited the Corps, SRST, and
CRST to participate. The Corps and ETP participated
in the March meeting, but no SRST or CRST representatives attended.
See also L63, L67, L68, M10, M14, M20, M22

694a
G22.13 “[W]hile the Corps imposed various conditions in the EA and in the easement, there is no mechanism that I can see to ensure that DAPL is complying
with these requirements.”
RESPONSE: The Corps has authority to enforce
compliance with the easement conditions. PHMSA
has authority to enforce compliance with integrity
management of the pipeline. Congress authorized
PHMSA to oversee proper design, proper installation
practices, operator’s actions for compliance, and record keeping.
Document H: Declaration of Ian Goodman,
Earthjustice
H1.29 “It is simplistic and incorrect to state that
pipelines are “undeniably safer” than rail. Moreover,
large diameter high pressure pipelines (such as
DAPL) are capable of releasing substantially more oil
than trains.”
RESPONSE: The difference in potential release
volumes is just one factor in comparing the safety of
oil transport methods. Final EA at 7. A recent study
states
Shipments of crude oil by rail have also grown
substantially, concurrent with the rapid rise
in oil production, particularly in the Bakken
shale formation. Limited pipeline capacity
forces over half of its production to be transported to market by rail (Shaffer, 2013). The
dramatic increase in the frequency of unit
trains carrying crude oil, combined with the
volumes of product transported by each train

695a
and the long transportation distances, have
significantly increased the risk of spills.
C.Yan et al., Characterization of chemical fingerprints
of unconventional Bakken crude oil, Environmental
Pollution (2017) at 609-610.
Due to rail safety and environmental impacts after several train derailments and explosions, PHMSA
issued a safety alert “to notify the general public,
emergency responders and shippers and carriers that
recent derailments and resulting fires indicate that
the type of crude oil being transported from the
Bakken region may be more flammable than traditional heavy crude oil.” PHMSA Safety Alert (January
2, 2014).
See also I2
H2.29-30 Key factors with particular relevance to
DAPL that affect risks for crude transport by pipelines and rail include: (1) delay in detection of accident/spill and response time; (2) landslide risk; and (3)
proximity to people, water and economic activity.”
RESPONSE: The avoidance of landslide areas is
discussed in the response to Comment B4. Leak detection is addressed in the response to Comment D13.
Document I: Declaration of Ian Goodman,
Section 4- Exhibit C, The Goodman Group
I1.23 “Given the nature of rail, a worst-case scenario from a landslide would require a combination of
circumstances that appear to be extremely unlikely.
Conversely, for pipelines, especially in the Dakotas
(e.g. DAPL and KXL), realistic worst case scenarios

696a
could include landslides. Hence, landslide risk in general (and particularly in North Dakota), is more of a
risk for pipelines (including DAPL) than for rail.”
RESPONSE: The potential impact of landslides is
addressed in the responses to Comments A14 and B4.
I2.36 “A very extensive analysis would be required
to estimate how the risk relating to this remaining
Bakken crude by rail compares with the risk relating
to DAPL. Unfortunately, reliable analysis of this type
has not been conducted and provided to assist in various decisions in regard to DAPL . . . . For the Plaintiffs’ reservations, the answer is clear: DAPL has
much higher proximity and much greater risk than
does crude by rail. For other locations, it is less clear
how the risk of DAPL compares with the risk of crude
by rail. But especially in terms of the risk of worstcase accidents and spills, there is no clear reason to
assume that DAPL is less risky than crude by rail.”
RESPONSE: Topic is addressed in the response
to Comment H1.
Document K: An Environmental Justice
Analysis of Dakota Access Pipeline Routes;
Robin Saha, Ph.D. and Paul Mohai, Ph.D.
K1.1-2 “The USACE essentially employed the
‘unit‐hazard coincidence’ method of conducting a
quantitative EJ analysis . . . . The method assumes
that only the population in the geographic unit (such
as a Census Tract) containing the hazard is impacted
or at risk of being impacted by the hazard, while populations in adjacent or nearby units are not impacted.
However, this assumption is problematic since environmental hazards are often located at their host unit

697a
boundaries where populations in adjacent and nearby
units may be at equal or greater risk of impact.”
RESPONSE: The Corps agrees the assumption
was problematic and requested ETP to prepare additional spill modeling to assess potential impacts of a
spill to populations in adjacent and nearby communities, including downstream Tribes. The results of the
additional spill modeling are presented in the Spill
Model Report and Downstream Receptor Report.
Topic is also addressed in the responses to Comments
A2 and A3.
The Corps also conducted a supplemental environmental justice (EJ) analysis to evaluate potential impacts to minority and/or low-income populations
downstream of the DAPL crossing. The supplemental
EJ analysis took into account downstream census
block groups including those located adjacent to Lake
Oahe and in the SRST reservation and downstream to
the CRST’s drinking water intake on the west shore
of Lake Oahe. The analysis also took into account census block groups in the northwestern portion of Sully
County, South Dakota on the eastern shore of Lake
Oahe. See August 2018 Memorandum for the Record.
See also K6, K9
K2.2 “Even though the Standing Rock Sioux Reservation is only a little over 0.5 mile from the pipeline
crossing, the USACE discounts any impacts of the
pipeline on the Reservation in its quantitative EJ
analysis . . . . The USACE justifies excluding the population characteristics of the Tribal land from the demographic analysis of its “Proposed Action Area” by
asserting: (1) that the pipeline crossing “maintains a
minimum distance of 0.5 miles from Tribal land” and

698a
(2) that it “is at a distance sufficient such that there
are no direct or indirect impacts to Tribal lands, member, or cultural resources” . . . . However, the ACE
failed to recognize that most of the areas of the two
Census Tracts comprising its Proposed Action Area
also lie beyond 0.5 mile. Furthermore, USACE does
not consider the impacts of an above- or below- ground
oil spill or leak at the crossing of Lake Oahe.”
RESPONSE: The supplemental EJ analysis evaluated the potential impacts associated with an accidental release during operation in addition to the construction impacts. For the construction impacts, the
analysis focused on populations located within 0.5
mile of DAPL at or adjacent to the DAPL crossing. For
potential impacts during operations, the analysis included populations within 1 mile on either side of
Lake Oahe between the DAPL crossing and CRST’s
drinking water intake downstream (a distance of
156.5 miles).
See also K6
K3.2 “Compounding the problem of USACE’s
analysis is the combining of the demographics of Sioux
County, which is entirely within the Standing Rock
Sioux Reservation, with the comparison “Baseline”
group of counties (Morton, Emmons, and Sioux). This
methodological flaw results in counting large numbers of potentially impacted American Indians as part
of the comparison population.”
RESPONSE: The supplemental EJ analysis includes a greater downstream impact area and uses
States level reference communities in addition to
counties.

699a
See also K6
K4.3 “[I]n using averages of the county demographics, ACE under-weights the most heavily
populated county (Morton), which is predominantly
white; and Sioux County, which is predominantly
non-white is given the same weight as Morton County,
although Sioux County has about one sixth of the population of Morton County.”
RESPONSE: The supplemental EJ analysis revised the geographic extent of analysis and the applicable reference communities.
K5.3 “The USACE results give the impression
that the areas most highly vulnerable to the impacts
of a spill are not disproportionately composed of American Indians and are not disproportionately composed
of people living below the poverty line.”
RESPONSE: Two census block groups (Tract
204/Block Group 3 and Tract 9665/Block Group 1) are
on and adjacent to the crossing of Lake Oahe. Neither
has a minority population exceeding 50 percent, a minority population that is meaningfully greater than
the reference population, or a poverty level greater
than 20%. Therefore, neither census block group was
identified as low-income or minority for purposes of
this analysis. Overall, there are 14 census block
groups located downstream of the crossing along the
shores of Lake Oahe that were considered in the analysis. Of those, the Corps identified five census block
groups that are considered low-income populations
and minority populations for the purposes of this analysis. These are Tract 9408/Block Group 1, Tract
9409/Block Group 1, Tract 9409/Block Group 2, Tract
9411/Block Group 2, and Tract 9417/Block Group 3.

700a
Each of these have a minority population that exceeds
50 percent and, has a poverty level greater than 20
percent. Each one is located on the western shore of
Lake Oahe.
Three other census block groups have a minority
population that is meaningfully greater than that of
the reference community, meaning the percentage of
minorities in the census block group exceeds the percentage of minorities in the reference population.
These are Tract 9417/Block Group 2, Tract 9652/Block
Group 3, and Tract 9652/Block Group 4. Tract
9417/Block Group 2 is located on the western shore,
while the other two are located on the eastern shore of
Lake Oahe. These three census block groups were
identified as minority populations for purposes of this
analysis.
K6.3 “[A]pplication of the unit-hazard coincidence
approach used by the USACE to identify the “Proposed Action Area” grossly misidentifies the area most
highly vulnerable to a release or spill . . . A pre-permit
supplementary EJ analysis was also performed for
ACE’s Alternative Route north of Bismarck . . . . [I]t
found relatively low average poverty rates in the two
alternative tracts. However, the supplementary analysis suffered from much the same methodological
flaws as the USACE EJ analysis of its Selected Route
crossing . . . . A reasonable quantitative analysis of
disparities in the distribution of risks and potential
impacts from environmental contamination needs to
take into account the likely area of impact . . . . The
moving water of the Missouri River also is not likely
be confined to within just 0.5 mile of the crossing but
will likely be carried downstream many miles.”

701a
RESPONSE Topic is addressed in the responses
to Comments K1, K2 and K3.
K7.3-4 “[R]ather than using the unit-hazard coincidence method, [Saha & Mohai] use a GIS to combine
small geographic areas, i.e., Census Blocks and Census Block Groups, in order to estimate the demographics within areas most likely to be impacted .
. . . The standard approach includes: (1) defining the
“affected environment” or “affected area”; (2) identifying one or more appropriate comparison areas, also often referred to as “reference areas” or “reference communities”; (3) determining the percentages of minority, low-income and other relevant vulnerable populations in the affected area and in the comparison
area(s); and (4) comparing the two to determine if
there is potential for disparate, adverse impacts to minorities and other population groups that would indicate an environmental justice concern.”
RESPONSE: In the supplemental EJ analysis,
the Corps used the boundary intersection method to
determine the proportion of minorities and populations below the poverty level. The boundary intersection method is one of the two distance-based methods
recommended by Saha and Mohai. The Corps applied
the boundary intersection method to census block
group data within a 1 mile buffer on each side of Lake
Oahe from the DAPL crossing to CRST’s drinking water intake.
The Corps determined that the areal apportionment method used by Saha and Mohai is more appropriate to evaluate the siting of a project and determine
potential EJ issues based on chronic long-term expo-

702a
sures to airborne particulates from a continuous emission source (e.g., evaluation of a compressor station).
The pipeline is not a continuous air emission source or
a continuous discharge (or any known discharge) into
Lake Oahe.
The Corps considered the alternative methodology
offered by Saha and Mohai, but their preferred methodology does not cause the Corps to doubt the methodology and data it relied on in performing the supplemental EJ analysis. Therefore, this comment does
not show that a substantial dispute exists as to the
size, nature, or effect of the major Federal action.
See also K9
K8.10 “Whereas the environmental justice assessment of record reported no evidence of environmental
justice concerns, we found overwhelming evidence of
disproportionately high percentages of American Indians, low-income populations, and other vulnerable
population groups in the High Vulnerability Areas for
ACE’s Selected Route Crossing.”
RESPONSE: The results of the supplemental EJ
analysis indicate that the downstream area that
would be potentially affected by an oil spill at the
DAPL crossing is not expected to experience disproportionately high or adverse impacts. However, the
comment misrepresents the policy standard established in Executive Order 12898. The policy standard
does not measure whether a disproportionate percentage of minority or low-income populations are affected
by a Federal action, but rather whether minority and
low-income populations experience disproportionately
high and adverse human health or environmental effects. Based on the supplemental EJ analysis, the

703a
Corps determined that granting Section 408 permission and conveying a right-of-way to ETP to construct
and operate a portion of the DAPL under federallyowned Corps-managed land does not result in disproportionately high and adverse human health or environmental effects on minority populations, including
Tribes, and low-income populations.
See also K9, K10
K9.10 “ACE’s faulty conclusion that no EJ concern
existed was based on the failure to properly identify
areas most at risk from the effects of an oil spill or
leak. This failure resulted from the use of relatively
large geographic units of analysis (Census Tracts) and
applying the outmoded unit hazard coincidence
method. This resulted in counting populations living
at great distances and not in great danger from the
pipeline crossings as part of the “affected population”,
while at the same time excluding many of those who
are likely to be affected, which in turn, led to invalid
and misleading findings and conclusions. Compounding this failure was the faulty assumption that areas
upstream of the pipeline water crossings would be affected as much as areas downstream.”
RESPONSE: Topic is addressed in the responses
to Comment K1, K7 and K8.
K10.11 “The findings of large racial and socioeconomic disparities associated with ACE Selected Route
indicate serious environmental justice concerns. The
dramatic differences between the demographic composition of the areas at risk for the ACE Selected
Route where the pipeline was built and currently operates and the alternate route considered underscore
the environmental injustice associated with the ACE

704a
Selected Route. It is clear from our analysis that there
are significant environmental justice concerns associated with the DAPL route that were not identified in
the NEPA environmental review process as a result of
a number of major flaws with the EJ analysis approved by the ACE. That potential disproportionate
impacts to American Indians were not adequately considered raises questions about how seriously and thoroughly EJ issues were investigated and taken into account in pipeline decision making and whether the
federal trust responsibilities were abrogated.”
RESPONSE: Topic is addressed in the response
to Comment K8.
Document L: Impacts of an Oil Spill from the
Dakota Access Pipeline on the Standing Rock
Sioux Tribe; Mike Faith, Jr. Chairman;
Standing Rock Sioux Tribe
L1.1 “The Corps of Engineers and DAPL’s current
estimates of a worst case oil release into the Missouri
River and underlying aquifer are based upon unrealistic assumptions, and the environmental impacts of
an oil spill may be far greater than disclosed in the
Final Environmental Assessment . . . . The Corps of
Engineers must implement its Reservoir Simulation
Model to determine the impacts of an oil spill under
the divergent reservoir conditions caused by the operation of Oahe Dam.”
RESPONSE: The Reservoir Simulation Model is
better suited for reservoir operations management
and not spill modeling. The Reservoir Simulation
models different conditions that would not assist in
the spill impact analysis. ETP used SIMAP to better

705a
understand the potential impacts of a worst-case scenario spill. The SIMAP model inputs provide a variety of flow and other environmental conditions to
characterize potential downstream fate and transport
scenarios. ETP used these to characterize the range
of trajectory, fates, and potential biological effects in
the event of several hypothetical large volume releases. SIMAP used these inputs to characterize the
range of trajectory, fates, and potential biological effects in the event of several hypothetical large volume
releases.
The Corps agrees that SIMAP was more appropriate than the Reservoir Simulation Model. For the
foregoing reasons, the SRST’s recommendation to use
the Reservoir Simulation Model for the Lake Oahe
crossing to determine impacts on the Standing Rock
Reservation is flawed and unreliable and thus did not
create any substantial evidence of controversial effects.
See also L14, L39, L46, L59
L2.1 “[R]eport entitled Missouri River High Consequence Area Assessment: Establishing Baseline Ecological Information and Impacts to Hunting and Fishing from the Proposed DAPL Pipeline in the Event of
an Oil Spill . . . . documents the significant impacts of
an oil spill . . . . The report finds that subsistence hunting and fishing by Tribal members shall be adversely
affected by an oil spill from DAPL. Subsistence hunting and fishing are integral to the Lakota and Dakota
way of life on the Standing Rock Reservation. Subsistence hunting and fishing, and the cultural norms
that remain intact, are jeopardized by an oil spill from
DAPL.”

706a
RESPONSE: Even under the worst-case scenarios, the Spill Model Report predicted that impacts to
downstream hunting and fishing to be limited in scale
and temporary in duration. Downstream Receptor
Report at 93-99.
See also L16, L18, L19, L20
L3.2 “The Tribe’s wildlife habitat has already
been decimated by the development of Oahe Dam and
Reservoir . . . . This includes the vibrant subsistence
hunting and fishing culture. The Corps must consider
the cumulative impact of the potential harm from an
oil spill with the loss of habitat caused by the construction and operation of Oahe Dam.”
RESPONSE: Pre-Project baseline conditions for
the Environmental Assessment include the existence
of the dam in place which was completed in 1962. No
permanent habitat loss is anticipated even under the
worst-case scenarios.
See also L20
L4.2 “From 2006 to 2017, Energy Transfer Partners and Sunoco had incurred 291 hazardous liquid
pipeline incidents . . . . However, ETP and Sunoco
prior performance was not considered in a valid risk
assessment.”
RESPONSE: Topic is addressed in the response to
Comment G3.
L5.2 “Recently constructed pipelines can have serious spills, and the leak detection systems for oil
pipelines have a poor record of effective operation.
Pipeline shutdown times provided to regulators in Facility Response Plans for worst case discharge (WCD)
calculations can be grossly inaccurate.”

707a
RESPONSE: Topic is addressed in the response
to Comments B5 and B6.
L6.2 “The DAPL and Corps of Engineers documentation fails to effectively identify the specific hazards of Bakken crude oil and leaves human health and
the environment vulnerable to harm if not addressed
. . . . Addressing the elevated hazards of Bakken crude
in the risk assessment (spill consequences) and the
dangers facing emergency responders is absolutely
necessary to protect lives and the environment. The
Corps of Engineers has failed to do so . . .”
RESPONSE: The Corps considered Bakken crude
oil hazards. Final EA, at 45-48. Additional information regarding the characteristics of Bakken Crude
and special concern for emergency responders is provided in the response to Comment G11. ETP performed additional spill modeling and assessed downstream risks to human health from a release of
Bakken Crude into the waterways. Downstream Receptor Report at 80-91.
See also L24, L29, L59
L7.2-3 “DAPL’s worst case discharge (WCD) calculations lack any documented methodology or supporting data. DAPL’s informal WCD calculations take
a “best case” approach and grossly underestimate the
likely volume of Bakken crude oil released . . . .
DAPL’s approach severely underestimates the potential WCD, leaving out important considerations from
both the regulatory requirements and good practice
safety guidelines. The DAPL WCD calculation 9-minute shutdown time limited to pump shutdown time
is incomplete and grossly underestimates the WCD.”

708a
RESPONSE: Topic is addressed in the responses
to Comments A1 and J18. The amount of time that it
takes for the motor operated isolation and/or check
valves to close is addressed in response to Comment
A10. The ability of ETP to identify a release of oil in
a timely manner is addressed in the response to Comment B5. The time to respond to a release is addressed in the response to Comment B6.
L8.3 “The WCD fails to consider other alternatives
such as a smaller leak below the detection limit.”
RESPONSE: Topic is addressed in the responses
to Comments B6 and B7.
L9.3 “The DAPL and Corps of Engineers documentation lacks a detailed technical spill plan or a realistic WCD calculation - both are essential for effective emergency response planning. DAPL does not address the adverse weather impact on the WCD for the
shutdown of the pipeline. Issues include harsh ND
winter conditions, deep snow, extreme cold and availability and operation of the shutdown valves in extreme environments.”
RESPONSE: Realistic spill volumes are addressed in the response to Comment A1. ETP has the
response equipment and contracted personnel necessary to respond safely and quickly to emergency situations. Final EA at 90. Company-owned and contracted response equipment to efficiently respond to a
worst-case scenario at the Missouri River crossing at
Lake Oahe are outlined in the Project-specific GRP.
ETP’s emergency response planning documents are
coordinated with the Corps as required in Corps Easement Conditions 8, 9a, and 10. Adverse weather impacts to spill response is addressed in the response to

709a
Comments A1, A7, A8, and A9. As noted in the response to Comment A10, ETP provided design temperature specifications to the steel mills, pipe and fitting manufacturers, as well as all pump, valve, and
instrumentation manufacturers to ensure that both
high- and low-temperature concerns would be considered in the manufacturing of those materials and
equipment. The valves and settings are designed to
meet operating temperatures ranging from -20 degrees to + 150 degrees Fahrenheit, even though the
product in the pipeline and thus the pipe itself is not
anticipated to drop below 60 degrees Fahrenheit, even
in the coldest North Dakota winters.
See also L38
L10.3 “The DAPL and Corps of Engineers documentation lacks transparency and is poorly documented regarding the route selection methodology
used to conduct spatial analysis in the evaluation of
potential pipeline routes. Justification for the particular DAPL datasets used and a clear understanding
of ranking/weighting methodology is similarly lacking. A truly robust “least cost” analysis needs to be
conducted that properly weights the risks and benefits of the relevant engineering, environmental, and
social costs and constraints of various pipeline routes
alternatives. Non-pipeline oil transport alternatives
(e.g., trucks and trains) must also be evaluated
equally.”
RESPONSE: The Corps considered reasonable alternatives to the crossing based on the Corps’ limited
jurisdiction over the portion of the pipeline that
crossed federally-owned Corps managed land. Final

710a
EA at 5-23. SRST did not specifically identify an alternative methodology that was more appropriate for
the evaluation. SRST generally commented that a
least cost analysis needs to be conducted but does not
identify a particular analysis or the particular factors,
criteria, or technique to perform the analysis. SRST
did not provide any scientific evidence that would
cause the Corps to doubt its previous methodologies
and data supporting the Corps’ analysis of alternatives. Therefore, this comment does not show that a
substantial dispute exists as to the size, nature, or effect of the major Federal action.
L11.3 “The Standing Rock Sioux Tribe has incurred a plethora of tangible and intangible costs
stemming from DAPL . . . . A proper accounting of the
actual cost borne by the Tribe is required under Executive Order 12898 on Environmental Justice.”
RESPONSE: This is not required under NEPA or
Executive Order 12898.
L12.5 “[T]he information needed to evaluate the
potential impacts of an oil spill on the Tribe’s hunting
and fishing rights has not been disclosed. An EIS is
needed in order to fully disclose the maximum spill
estimate and a range of spill scenarios, under varying
riverine conditions, to determine the potential impacts on fish and wildlife and subsistence hunting and
fishing on the Standing Rock Reservation.”
RESPONSE: ETP provided the Corps with additional spill modeling to better understand the potential impacts of a worst-case scenario spill to Tribes.
Spill Model Report. The companion Downstream Receptor Report addresses potential impacts to human
health, agriculture, and hunting, fishing, recreation,

711a
and cultural practices. Downstream Receptor Report
at 80-99.
L13.5 “[T]he maximum spill estimate is based on
optimistic and unverified assumptions. A much
larger oil spill may occur than that estimated by Energy Transfer Partners.”
RESPONSE: Topic is addressed in the response
to Comment A1.
L14.5-6 “In order to reasonably estimate the impacts of a potential oil spill from DAPL on fish and
wildlife on the Standing Rock Reservation, the Corps
of Engineers should implement its Reservoir Simulation Model to identify the movement of oil downstream under varying reservoir and hydrological conditions . . . . Without the information ascertained from
reservoir modelling, it is not possible for the Corps of
Engineers to take the hard look required by the National Environmental Policy Act and Judge’s
Boasberg’s Order Granting Partial Summary Judgment in Standing Rock Sioux Tribe v. U.S. Corps of
Engineers of Engineers.”
RESPONSE: Topic is addressed in the response
to Comment L1.
L15.7-8 “The Tribe and its consultants found that
the Missouri River reach that would be impacted by
an oil spill includes unique and sensitive habitat, with
diverse submergent communities, fisheries, and
aquatic and shoreline flora. The particularly sensitive
habitats in depositional areas - such as the mouth of
the Cannon Ball River immediately downstream from
the DAPL Lake Oahe crossing- contain strata utilized
as fish spawning beds . . . . Shoreline plants and

712a
grasses - including culturally-significant plants to the
Lakota - are abundant, particularly in bays, inlets,
and marshes, where oil naturally settles. Mammals
and big game feed in these areas, especially near the
abundant woody draws above the Missouri River . . . .
The report found significant impacts of an oil spill on
wetlands, macroinvertebrates, shellfish, fish, birds
and waterfowl, as well as on mammals and big game
on the Standing Rock Reservation. This includes impacts on bald eagles, the Tribe’s buffalo herd along the
Missouri River, and culturally-significant and medicinal plants . . . . ‘The Cannonball River and Porcupine
Creek appear to be major tributaries that could realize the greatest impacts in the event of a spill. ...The
most sensitive depositional areas in the event of a spill
are found within the first 15 miles of the approximately 30 miles of river survey.’”
RESPONSE: The Corps reviewed the information
provided by the Tribe and its consultants. This information has been referenced and incorporated into the
Downstream Receptor Report.
See also L17, L74
L16.12 “In evaluating the environmental impact
of DAPL, the Corps of Engineers must give full consideration to the extreme importance of subsistence
hunting and fishing at Standing Rock. The Corps ignored this in the Final Environmental Assessment on
DAPL; however, the Corps has acknowledged this in
other studies and accordingly prepared an EIS. ‘Opportunities for fishing, hunting and trapping can be
essential for Tribal members.’ The Corps of Engineers
must similarly prepare an EIS for DAPL.”

713a
RESPONSE: Topic is addressed in the response to
Comment L2 and the Downstream Receptor Report.
L17.13
“The
MISSOURI
RIVER
HIGH
CONSEQUENCE AREA ASSESSMENT is the most
up-to-date and comprehensive survey of the aquatic
and terrestrial habitat and fish and wildlife surveys
in the area affected by an oil spill from the Dakota Access Pipeline. The report found that an oil spill from
the Dakota Access Pipeline would undoubtedly adversely affect subsistence hunting and fishing on the
Standing Rock Indian Reservation. The Corps of Engineers must incorporate these authoritative findings
in the remand study and vacate the Finding of No Significant Impact (FONSl) by DAPL. An environmental
impact statement (EIS) is necessary.”
RESPONSE: Topic is addressed in the response
to Comment L15.
L18.17-18 “The risk of a spill threatens sensitive
ecological habitat, as well as fish, wildlife, birds and
water, all considered to be relatives of the Lakota and
Dakota people of the Standing Rock Reservation.
Subsistence hunting and fishing is integral to the way
of life on the Standing Rock Reservation - a way of life
that is jeopardized by the potential of an oil spill from
the Dakota Access Pipeline.”
RESPONSE: Topic is addressed in the responses
to Comment L2.
L19.18 “The Standing Rock Sioux Tribe’s Hunting
and Fishing Rights are Treaty Rights and Must be Respected by the Corps of Engineers[.]”
RESPONSE: Topic is addressed in the response
to Comment L2.

714a
L20.23 “In order to comply with Judge Boasberg’s
directive on remand, the Corps of Engineers must
evaluate the adverse environmental impact of an oil
spill from DAPL on Standing Rock’s hunting and fishing rights, in combination with the impact of the construction and operation of Oahe Dam on wildlife habitat at Standing Rock. The current cumulative impacts analysis in the Final EA excluded this information, and it must be supplemented in accordance
with the remand instructions.”
RESPONSE: The Corps is complying with the
court order. The topic is addressed in the responses
to Comments L2 and L3.
L21.27-28 “Other contemporary developments,
such as climate change, also impact the Missouri
River habitat at Standing Rock and must be included
in a cumulative impacts analysis on remand.”
RESPONSE: Topic is addressed in response to
Comment D2.
L22.30 “From 2006 to 2017, Sunoco had incurred
291 hazardous liquid pipeline incidents - more than
any other pipeline operator for that period in the
PHMSA operator database. Those incidents resulted
in $56,590,698 in property damage.
The 2016
Sunoco/ETP spill highlights many of the technical
health, safety and environmental concerns raised by
the Standing Rock Sioux Tribe and its experts to the
Corps of Engineers in the NEPA process and Litigation related to the Dakota Access Pipeline (DAPL)[.]”
RESPONSE: Topic is addressed in the response
to Comments G3.

715a
L23.30 “[H]ighly controversial issues [were] not
adequately considered for DAPL - Spill Risk, Worst
Case Discharge, Leak Detection, Bakken Crude Hazards, and Emergency Response. These issues were
raised by the Tribe and our experts during the NEPA
process and litigation and need to be given a “hard
look” by the Corps of Engineers during remand.”
RESPONSE: The Corps will comply with the
Court’s order on remand.
L24.30 “The DAPL and Corps of Engineers documentation fails to effectively identify the specific hazards of Bakken crude oil and leaves human health and
the environment vulnerable to harm if not addressed.”
RESPONSE: Topic is addressed in the response to
Comment L6.
L25.31 In December 2014, the North Dakota Industrial Commission (NDIC) issued an Oil Conditioning Order to reduce the RVP of Bakken crude produced in the state. In 2014, PHMSA issued an alert
as well warning that crude oil from the Bakken region
“may be more flammable than traditional heavy crude
oil.”
RESPONSE: According to ETP, the 2014 NDIC
Oil Conditioning Order applies to producers and production facilities. One specific notification requirement applies to transload rail facilities operators. The
DAPL is a mid-stream pipeline facility and therefore
is not subject to the 2014 NDIC Oil Conditioning Order.
https://www.dmr.nd.gov/oilgas/Approvedor25417.pdf. Likewise, the PHMSA alert applied to
train derailments.

716a
L26.34 “DAPL and the Corps of Engineers significantly underestimate the impacts to drinking water
from a WCD of Bakken crude oil. The Corps of Engineers concluded in the Final EA that four (4) gallons
was the most likely leak scenario for the DAPL pipeline crossing and unsurprisingly such a leak would not
exceed the MCL. However, a 4-gallon leak scenario is
extremely unlikely for the 30-inch pipeline 90 to 108
feet under Lake Oahe.”
RESPONSE: Worst-case scenario releases and
spill model volumes are addressed in the responses to
Comments A1 and A2. As noted in the response to
Comment C9, ETP performed additional spill modeling that includes much greater volumes in order to estimate downstream impacts. ETP used a volume of
bbl to represent the “majority of spills.” This volume is greater than 90 percent of actual pipelines releases from pipelines 16-inch or greater (90PD scenario). ETP used a FBR volume of
bbl for the
worst-case scenario. Downstream risks to human
health from a release of Bakken Crude into the waterways are addressed in the Downstream Receptor Report. Downstream Receptor Report at 80-91.
See also L27, L30
L27.35 “The other three spill release scenarios
outlined in the Final EA are hypothetical spills of 100,
1000 and 10,000 bbls . . . . These spill scenarios are
more realistic for a long slow leak as we have seen
from the 2016 Sunoco/ETP Permian Express II 8600
bbls spill from a pinhole leak. Bakken crude oil toxic
VOCs such as benzene are water soluble and can move
quickly downstream . . . . A Lake Oahe spill using the

717a
three other more realistic scenarios can result in a significant impact on human health. Neither the Corps
of Engineers nor DAPL have analyzed these more realistic spill scenarios for benzene concentrations.
There is no analysis of downstream impacts of these
scenarios on agricultural and drinking water intakes.”
RESPONSE: As indicated in the response to Comment L26, ETP utilized a
bbls. The risks to downstream receptors from an unmitigated release of
Bakken Crude of this magnitude into the waterways
are addressed in the Downstream Receptor Report.
Downstream Receptor Report at 80-91.
See also L28, L30
L28.35 “A WCD release would likely have serious
consequences on human health and the environment
for many miles downstream . . . . In addition to benzene, there are health concerns with many of the components of the Bakken crude oil, including acute and
chronic non-cancer risks. It is necessary to assess the
risks posed by Bakken crude oil exposures, including
short-term exposures to high levels, and prolonged exposures to low levels. It is important to include an
assessment of both cancer and non-cancer health
harms. The impacts on vulnerable populations, including pregnant women, reproductive-aged men and
women, infants, children and elders should receive
special consideration. It is also important to consider
the highest exposed populations, such as those with
exposure through drinking water, cooking water,
washing water, contaminated foods and direct contact. This is the reality of the risk facing our Tribal
members from DAPL.”

718a
RESPONSE: Topic is addressed in the response to
Comment L27.
L29.37 “The Final EA does not include an [Safety
Data Sheet] or a reference to Bakken crude extreme
flammability . . . . The Final EA and response plans
do not list PAHs in the warnings of physical and
chemical characteristics. The Final EA discussion of
Bakken crude on the environment is limited the impacts of benzene - toxic impacts of other VOCs and
PAHs are not addressed . . . . The specific hazards of
the Bakken crude oil that could be released is central
to understanding the spill impacts but the Corps of
Engineers and DAPL documentation is silent. Addressing the elevated hazards of Bakken crude in the
risk assessment (spill consequences) and the dangers
facing emergency responders is absolutely necessary
to protect lives and harm to the environment. Neither
the ERAP nor the FRP have any information in the
plan text on Bakken crude specific hazards. The
Corps of Engineers’ Final EA similarly lacks any discussion on the specific elevated hazards and safety
precautions for Bakken crude. The classification
warnings in the attached ConocoPhillips SDS are specific to Bakken crude oil but were ignored in the plan
and other operative documents. The technical information provided in this report section and generally
referenced by the Tribe prior to the remand should
lead to the implementation of critical controls and precautions that are lacking in the DAPL plans and Final
EA.”
RESPONSE: Topic is addressed in the responses
to Comment L6 and Comment G11.

719a
L30.38 “Worst case discharge (WCD) calculations
are a vital component of any environmental assessment but DAPL’s methodology and calculations are
seriously flawed . . . . DAPL’s WCD calculations lack
any documented methodology or supporting data. As
different DAPL WCD-related documents leave out key
elements and/or provide different and contradictory
shutdown and response times, their offered results
lack clarity and credibility. DAPL’s approach severely
underestimates the potential Lake Oahe WCD, leaving out key considerations from both the regulatory
requirements and good practice safety guidelines.”
RESPONSE: ETP developed the Project-specific
worst-case scenarios for the FRP. ETP developed the
worst-case release in the FRP pursuant to 49 CFR §
194.105. PHMSA reviewed and approved the FRP on
February 23, 2017.
ETP described the FBR volumes utilized for the
spill modeling in the Spill Model Report. The FBR
spill model volume is also addressed in the responses
to Comments A1, L26 and L27. The amount of time
that it takes for the motor operated isolation and/or
check valves to close is addressed in response to Comment A10.
See also L34
L31.38-39 “In April 2016, DAPL’s only WCD calculation for Lake Oahe was documented in correspondence with the Corps of Engineers. DAPL presented a 9-minute shutdown time merely stating ‘the
pump stations are designed to shut down in 9minutes.’ This communication took place in a 4-5-16
email and was not included in any formal report or
project plan. The calculation lacked any time to detect

720a
the WCD and associated variables, (such as interpret
or verify data; check for false alarms, inaccurate pipeline SCADA indications, or transient effects; impacts
of decision-making under the stress of a possible
emergency shutdown; personnel discussions or trouble-shooting; etc.) or the time for shutdown of the
emergency flow restriction devices (EFRDs) which are
pipeline remotely operated valves on either side of
Lake Oahe . . . . ETP’s calculation did not evaluate the
possibility of human error or equipment malfunction key considerations for any worst case scenario. The
DAPL calculation multiplied only the pump shutdown
time by the maximum flow rate and added the drain
down volume. DAPL concluded the WCD for Lake
Oahe to be
bbls (
bbls for pump shutdown
plus
bbls drain down volume). The evaluation of
DAPL’s WCD calculations received concurrence by the
Corps of Engineers who closed the issue on 4-7-16.”
RESPONSE: The Corps extensively reviewed the
initial spill planning document for Lake Oahe. Lake
Oahe Crossing Report. ETP conducted additional
spill modeling as described in the Spill Model Report.
Other risk planning documents associated with construction and operation of DAPL have been prepared
as detailed in the response to Comment A9. The potential for incorrect operation, equipment failure, and
human error are addressed in the response to Comments A9 and B5.
See also L32, L33, L36
L32.39 “In a different DAPL document dated 8-515 entitled North Dakota Lake Oahe Spill Model Discussion, a different shutdown time was presented.

721a
The model input parameters list a detection and shutdown time of 12.9 minutes - stating ‘the mainline
pumps are shutdown within 9 minutes of detection,
and the adjacent block valves are completely closed
within an additional 3.9 minutes.’ While the table
used the wording that included “time to detect,” like
the April 2016 WCD email no actual detection time
was provided or utilized. The document was created
in 2015 and contained no WCD calculations. It is evident from the spill model document above that DAPL
was aware that detection time and time to shut down
the EFRD was relevant to calculating the WCD. The
Lake Oahe spill model discussion document was issued for review but never approved or issued for use.”
RESPONSE: According to ETP, the typical time of
detection for a WCD rupture is less than 1 minute
through SCADA and LeakWarn systems, which trigger the alarms and initiate the shutdown procedure.
The reference to the mainline pumps being shutdown
within 9 minutes of detection is not just limited to
pump shutdown time as it already includes 1 minute
for time of detection.
As indicated in the response to Comment L31, the
Corps reviewed the Lake Oahe Crossing Report numerous times resulting in numerous revisions by the
applicant. DAPL’s 12.9 minute (total) is based on the
sum of the time to detect a break on the line and shutdown pumps (9 minutes) and the time to close the
valves (3.9 minutes for standard valves). These times
have been consistently presented and utilized in the
calculations of the FBR volume at Lake Oahe.
See also L36

722a
L33.40 “Leak detection time is intended to be part
of the WCD calculation formula. The formula in the
20l6 PHMSA presentation lists an equation with response time in addition to shutdown time. In fact, the
2016 PHMSA presentation states ‘response times and
shutdown times less than 10 minutes raises red flags!’
(emphasis added in red by PHMSA). The DAPL 2016
calculation was less than 10 minutes and should have
raised red flags with the Corps of Engineers, but did
not. The DAPL WCD approach and outcome have a
number of serious issues that lead to a gross underestimation of the realistic maximum spill . . .”
RESPONSE: The total of 12.9 minutes for response and shutdown is greater than (not less than)
the response and shutdown time of 10 minutes indicated by the PHMSA staff member in the presentation
referenced.
See also L36
L34.40-41 “The DAPL Lake Oahe crossing lacks a
description of the methodology as required by PHMSA
and a formal documented and supported worst case
discharge (WCD) analysis in any project report or
plan. The WCD calculations and methodology for
Lake Oahe are not available to emergency responders
in any Facility Response Plan or the Lake Oahe Geographic Response Plan.”
RESPONSE: ETP submitted risk planning documents associated with construction and operation of
DAPL for the Corps’ review as detailed in response to
Comment A9. PHMSA’s review and approval of the
FRP is addressed in the response to Comment L30.
The Lake Oahe worst-case scenario from the FRP is
utilized in the Spill Model Report, the results of which

723a
informed the updated GRP. As the spill response
planning is designed to address the modeled worst
conditions/fastest travel times, the inclusion of additional/more detailed information from the Spill Model
Report or the FRP into the GRP is not required.
Emergency response activities would include the
cleanup procedures and remediation activities described in DAPL’s FRP and GRP, and required in
Corps Easement Conditions 8 and 9a. This topic is
also addressed in the response to Comment A6.
See also L61
L35.41 “DAPL stated without explanation in their
Facility Response Plan that the ‘maximum historic
discharge is not applicable for WCD covered by this
plan.’ The Corps of Engineers asked DAPL why they
did not use historic discharge in their WCD calculations but received no explanation. Nowhere does
DAPL explain why historic shutdown discharges from
other Sunoco/ETP pipeline incidents are not discussed
or relevant to the Lake Oahe WCD calculation. This
is particularly important given the 12-day shutdown
time for the 2016 Sunoco/ETP Permian Express II serious spill discussed above. How did Sunoco/ETP improve their corporate safety system leak detection capabilities to ensure a 12-day response time would not
be repeated? Leak detection estimates to be realistic
or scientific need to be based upon actual historic performance data. API Recommended Practice 1173,
Pipeline Safety Management Systems, emphasizes
the key role such data plays in its continuous assessment and improvement approach called ‘Plan-DoCheck-Act.’”

724a
RESPONSE: ETP calculated the worst-case scenario based on a rupture of the pipeline and then applying some conservative assumptions. Rather than
using data from a different pipeline, ETP calculated
the worst-case scenario is based on the specific parameters associated with this pipeline being installed at
this particular location. ETP contends that multiplying the release volume from a full bore rupture by
some historic time it took to detect a smaller leak is
not an accurate predictor of the worst-case discharge.
L36.41 “Different DAPL documents provided different shutdown and response times (4 minutes, 9minutes, 12.9 minutes) creating confusion and undermining the credibility of DAPL’s WCD calculations.”
RESPONSE: Topic is addressed in the responses
to Comments L32 and L33.
L37.41 “The DAPL WCD calculation 9-minute
shutdown time limited to pump shutdown time
is incomplete and grossly underestimates the
WCD. As PHMSA stated this should have raised
red flags and led to greater scrutiny and review.
The DAPL WCD calculation fails to include necessary elements such as detection time (from
the initiation of the leak to detection) and EFRD
shutdown time.”
RESPONSE: Topic is addressed in the responses
to Comments L32 and L33.
L38.41-42 “DAPL does not address the adverse
weather impact on the WCD for the shutdown of the
pipeline. Issues include harsh ND winter conditions,
deep snow, ice cover limitations on oil spill sighting,

725a
extreme cold and the availability and operation of the
EFRD shutdown valves in extreme environments.”
RESPONSE: Topic is addressed in the response
to Comment L9.
L39.42 “The record indicates that neither the
Corps of Engineers nor ETP has utilized ResSim or
HecRas to determine impacts on the Standing Rock
Reservation. The failure to properly determine these
impacts under different hydrological conditions increases the risk to the Tribe and demonstrates that
ETP is unprepared to address an oil spill under different hydrological conditions at Lake Oahe.”
RESPONSE: The Reservoir Simulation Model is
better suited for reservoir operations management
and not spill modeling. The River Analysis System
model allows the user to perform one-dimensional
steady flow, one and two-dimensional unsteady flow
calculations, sediment transport/mobile bed computations, and water temperature/water quality monitoring. The Reservoir Simulation and River Analysis
System model different conditions that would not assist in the spill impact analysis. ETP used SIMAP to
better understand the potential impacts of a worstcase scenario spill. The SIMAP model inputs provide
a variety of flow and other environmental conditions
to characterize potential downstream fate and
transport scenarios. SIMAP used these inputs to
characterize the three-dimensional range of trajectory, fates, and potential biological effects in the event
of several hypothetical large volume releases.
The Corps agrees that SIMAP was more appropriate than the Reservoir Simulation and River Analysis
System models. For the foregoing reasons, the SRST’s

726a
recommendation to use the Reservoir Simulation or
HecRas models for the Lake Oahe crossing to determine impacts on the Standing Rock Reservation is
flawed and unreliable and thus did not create any substantial evidence of controversial effects.
L40.42 “The WCD and risk assessment fails to
consider other credible alternative scenarios such as a
smaller leak below the detection limit.”
RESPONSE: Topic is addressed in the response to
Comment B6.
L41.42 “DAPL has asserted an extremely low 1%
leak detection limit. The Corps must verify that detection limit claim with performance and testing data.
Using that stated detection limit of 1% with maximum
flow, leaks under 6000 bbls a day could not be detected
. . . . Given the requirement of no more than 21 days
between visual observation overflights, 126,000 bbls
potentially can be released before a spill is spotted visually.”
RESPONSE: Topic is addressed in response to
Comment D13.
L42.42 “WCD estimates that lack actual realistic data such as DAPL’s run contrary to
known, well-regarded studies of actual industry
performance and grossly underestimate WCD.”
RESPONSE: Topic is addressed in response to
Comment A1.
L43.43 “The Lake Oahe site lacks external leak
detection that has advantages over SCADA and CPM
and can be used in addition to software systems.”

727a
RESPONSE: ETP has an ongoing maintenance,
inspection, and integrity testing program to monitor
the safety of the DAPL pipeline system.
See also M27
L44.44 “DAPL fails to apply good industry standards and practices to demonstrate a high degree of reliability and availability of the SCADA operator actions and shutdown valve functioning - all necessary
to minimize crude oil spills and provide a credible
WCD estimate . . . . DAPL also fails to consider the
automation of the Lake Oahe EFRD that could improve equipment availability over a remotely activated valve that relies upon the fallibility of human
performance.”
RESPONSE: A summary of Dakota Access Pipeline practices and design that exceed regulatory requirements is presented in Table G2.
L45.44 “DAPL’s informal WCD calculations take
a “best case” approach and grossly underestimate the
likely volume of Bakken crude oil released . . . . [N]ote
the Final EA’s analysis of benzene concentration in
one hypothetical spill scenario is based upon ‘the release of benzene over a one hour period.’”
RESPONSE: The one hour reference in the EA is
the hypothetical time for all of the oil assumed in the
various scenarios to drain out of the pipe and completely enter the water body. The assumed timeframe
of “complete drain of pipe” was combined with additional conservative assumptions to calculate theoretical concentrations of benzene in river water. The theoretical timeframe used for “complete drain of pipe”

728a
cannot be substituted with time for detection and
shutdown.
L46.44-45 With the specific elevated hazards of
Bakken crude oil not identified and the WCD grossly
underestimated, key components of the DAPL risk assessment are seriously flawed from the onset. Much
of the DAPL and Corps of Engineers’ analysis adopts
a “check-the-box” approach to risk assessment, focusing on generic pipeline risks and mitigations. This
outdated approach minimizes risk and fails to apply
company integrity management data and system
safety performance metrics to the risk assessment.
More rigorous modern industry safety standards developed in response to the ongoing occurrence of serious pipeline incidents are not applied. These technical and scientific shortcomings have been raised in
expert declarations and the Tribes EIS scoping comments in the litigation and NEPA process.”
RESPONSE: The Corps considered Bakken crude
oil hazards. Final EA at 45-48. Additional information regarding the characteristics of Bakken Crude
and special concern for emergency responders is provided in the response to Comment G11.
Potential spill volumes used for spill planning are
addressed in the response to Comment A1. Spill impacts and risk evaluation process are addressed in response to Comments A4 and A9. ETP performed additional spill modeling and assessed downstream
risks to human health from a release of Bakken Crude
into the waterways. Downstream Receptor Report at
80-91.
L47.45 “Risk is typically described as the probability of failure and the magnitude of consequence . . .

729a
. DAPL and the Corps’ documentation uniformly assign low risk to stated pipeline threats, they
acknowledge the consequences are high . . . Assertions
of low pipeline spill risk based upon generic pipeline
frequency statistics by DAPL is misplaced. Risk assessment must evaluate real risk including available
performance data and project specific hazards. Major
hazardous material incidents - large spills and toxic
releases, fires, and explosions, etc. - are described in
industry safety guidelines as low frequency, high consequence events. Even though these major incidents
are infrequent, because of the potential for catastrophic consequences, risk evaluation and treatment
for these events must receive high priority.”
RESPONSE: While the potential risk for a worstcase scenario is low, such a spill would result in high
consequences. Final EA at 91. Topic is addressed in
the response to Comments A9 and B1. ETP performed
additional spill modeling and assessed downstream
risks to human health from a release of Bakken Crude
into the waterways. Downstream Receptor Report at
80-91. As indicated in response to Comment C9, there
is no evidence that drinking water aquifers are at risk
even if there were to be a release from the pipeline
segment associated with the Lake Oahe USACE Action Area.
L48.45-46 “Citing low frequency to downgrade
risk when all major incidents have that characteristic
misses important opportunities for implementing
needed risk reduction measures for high risk projects.
Moreover, threats examined by the risk assessment
need to be much broader than the typical index model
focusing almost exclusively on a handful of integrity

730a
management issues . . . . A recent PHMSA study concluded there were “serious documented issues with index scoring models” that may lead to “undermining”
spill prevention. API RP 1173 however emphasizes
the importance of a broader review that was not done
for the Dakota Access Pipeline . . .”
RESPONSE: Topic is addressed in the responses
to Comment A9, B1, and B16. The third party engineers who conducted the risk analysis for ETP considered the specific items recommended by Accufacts
during their preparation of the risk analysis of the
Lake Oahe crossing.
See also L49, L53, L54
L49.46 “The more modern approach to major accident prevention would have the operator assess all
threats and take all necessary measures to prevent a
major accident where a catastrophic potential is present. More importantly, relying on generic industry
statistics is also misplaced where - as with
Sunoco/ETP - there is ample data available related to
its own incident performance.”
RESPONSE: Topic is addressed in the responses
to Comments L48, G3, and G20.
L50.48 “DAPL and the Corps of Engineers have
failed to apply recognized industry safety good practice to the DAPL design, construction and operation.
The Final EA asserts that: ‘To prevent pipeline failures resulting in inadvertent releases, Dakota Access
would construct and maintain the pipeline to meet or
exceed industry and governmental requirements and
standards.’ However, DAPL failed to cite or apply

731a
key recent more rigorous relevant industry
standards . . .”
RESPONSE: A summary of DAPL practices and
design that exceed regulatory requirements is presented in Table G2.
L51.49 “Implementing the minimal compliance of
PHMSA regulations alone creates unacceptable risk
to DAPL pipeline operations . . . . The finding that current pipeline regulations are inadequate has been
identified in numerous recent government reports,
recommendations, studies and Congressional action.”
RESPONSE: As noted in the response to Comment G2, DAPL was designed and constructed using
standards and practices that meet or exceed all U.S.
regulatory requirements. A summary of DAPL practices and design that exceed applicable regulatory requirements is presented in Table G2.
L52.49 “As a result, major oil companies have recognized the need to move beyond minimal compliance
and have developed more rigorous pipeline standards
such as API RP 1173, Pipeline Safety Management
System Requirements to manage risk and prevent
spills and releases. This key standard is not referenced in DAPL or Corps of Engineers’ documents.”
RESPONSE: Topic is addressed in the response
to Comment G2.
L53.50-51 “The Muhlbauer analysis claimed to be
utilized by DAPL is very detailed and requires all relevant information to be included. There are many
subcategories for different risk elements that don’t appear in the DAPL documentation to be captured, explained or the assumptions and rational provided.

732a
Some of the scoring requires a safety factor which is
not provided by DAPL. The Muhlbauer scoring published in 2004 appears dated and does not capture the
use of performance data, recent key elements of API
standards and good major accident prevention practices such as human factors and safety instrumented
systems. Lack of more rigorous standards leads to erroneous assumptions in the DAPL analysis - for example lack of mechanical integrity data such as failure
rates and other key indicators.”
RESPONSE: Topic is addressed in response to
Comment L48.
L54.51 “Good practice risk assessments also include a robust discussion of previous incidents and
corrective actions . . . . none of these factors have been
taken into account.”
RESPONSE: Topic is addressed in response to
Comment L48.
L55.51 “The DAPL and Corps of Engineers documentation lacks an actual detailed technical spill
model. Only examining a complete “guillotine” pipeline rupture on the surface of Lake Oahe is not a factual scenario. A leak 92-feet under Lake Oahe needs
to be modeled as it presents additional elevated hazards and challenges such as delayed leak detection
and unanticipated release location(s). A smaller leak
below a reasonable detection limit and its impact on
the water intakes and sensitive receptors also needs
to be modeled and included in the risk assessment
given the difficulties of detection. Water soluble
Bakken crude oil VOCs such as benzene can more easily flow in groundwater. Any discussion of such a leak

733a
and plume modeling requires a sophisticated technical analysis that doesn’t appear in any project documentation.”
RESPONSE: Topic is addressed in the response to
Comment C9.
L56.54-56 “The DAPL planning documents also
fail to effectively assess the serious threat of landslides and the appropriate mitigation . . . . Future
landslides and reactivation of old landslides pose a serious risk of rupturing the pipeline . . . . DAPL and the
Corps of Engineers must more effectively evaluate the
potential for a massive landslide not only on the federal easement crossing Lake Oahe, but also whether
such landslide risks can occur on nearby, off federal
easement lands, where a pipeline release from possible landslide could result in oil reaching Lake Oahe.”
RESPONSE: Topic is addressed in the response
to Comment A14.
L57.56 “The DAPL risk assessment has not effectively addressed the issue of pipeline coating damage
from HDD construction and the difficult challenges of
monitoring cathodic protection to prevent external
corrosion in an HDD crossing.”
RESPONSE: Topic is addressed in the response
to Comment B13, B17, and C13.
L58.56-57 “The Corps of Engineers and DAPL documentation include no examples of similar HDD applications involving crude oil as a product fluid in a
large diameter pipe (30” pipe in a 48” open borehole
assembly) over a long well bore (7500’) under a fresh
water lake . . . . These risks were not addressed by the
Corps of Engineers and DAPL and if left unaddressed

734a
elevate the risk of external corrosion to the Lake Oahe
HDD pipeline.”
RESPONSE: Topic is addressed in the response
to Comment C2.
L59.57 “The identification of the specific hazards
of Bakken crude, a realistic worst case discharge calculation and a technical spill model for Lake Oahe are
all essential for emergency response planning, but are
seriously flawed or lacking completely in the DAPL
and Corps of Engineers documentation. These deficiencies weaken oil spill response and place emergency responders in harm’s way. In failing to provide
the specific hazards of Bakken crude, DAPL’s Facility
Response Plan does not effectively identify the necessary methods, equipment, personal protective equipment, and precautions necessary to respond to a
Bakken crude release.”
RESPONSE: Topic is addressed in the responses
to Comments L1 and L6.
L60.57 “DAPL and the Corps of Engineers have
failed to effectively consult with the Tribe and provide
vital information.”
RESPONSE: The Corps consulted appropriately
with the Tribe.
See also L68, M5
L61.58-59 “The WCD and spill modeling deficiencies have the following negative impacts on DAPL
emergency planning and response:
1. The project lacks a formal technical spill model
which prevents identification of potential spill

735a
impacts on sensitive environmental areas, locations sensitive to aquatic organisms and wildlife, areas with tribal cultural significance.
2. The lack of a realistic WCD calculation leads to
an underestimation of the resources needed to
respond to a WCD Lake Oahe spill and the impacts from the accurate crude oil volume and
concentration to specific areas.
3. DAPL uses a spill modeling scenario of a guillotine rupture on the surface of Lake Oahe that
is not factual. This flaw underestimates the potential hazards from a release 92-feet or more
under Lake Oahe. A guillotine rupture in the
actual pipeline location under the lake bed presents a much more complex response scenario.
The geotechnical/hydrogeological movement of
the Bakken crude in the formations under the
lake bed, the potential for movement in the
groundwater, likely release locations and timing of crude entering the lake environment all
could lead to delayed leak detection, ineffective
emergency response activities and greater spill
impacts.
4. The DAPL Geographic Area Response Plan
states that “based on the current Spill Model,
the first oil from an unabated release of this volume would take an estimated
to
travel downstream before reaching Intake 1,”
an agricultural water intake. The 2015 Lake
Oahe Spill Model Discussion document asserted that the total travel time for responders
and equipment to arrive on site was 6 hours.
Less than 45 minutes is an insufficient safety

736a
margin to protect water intakes. Moreover, the
lessons learned from recent Bakken spills indicate that timely response is critical as the oil
will spread quickly. Given realistic larger WCD
volumes and the rapid spread of Bakken crude
the time to reach sensitive receptors would
likely be much shorter than the DAPL estimates.
5. The most recent geographic response plan
(GRP) for Lake Oahe lacks WCD or spill modeling results for use by emergency responders.
The GRP is merely a tactical document addressing necessary equipment and the deployment of booms, boats, etc. and does not justify
or correlate the response planning with a WCD
or spill model. This leaves responders vulnerable to more serious hazards and increases the
likelihood that Lake Oahe resources will be insufficient.”
RESPONSE:
1. As indicated in response to Comments A2 and
A3, ETP performed additional technical spill
modeling and incorporated the results into a
Downstream Receptor Report, which addresses
impacts to ecological receptors as well as impacts to hunting, fishing, recreation, Tribal culture and human health.
2. Topic is addressed in the response to Comment
A1.
3. Topic is addressed in the response to Comment
C9.

737a
4. ETP committed to emergency response within
6 hours as indicated in the GRP. During a
training exercise in October 2017, the first responders from the company arrived on site
downstream from the Lake Oahe crossing in
and contract responders arrived on site in
. Therefore,
responders are anticipated to be on-site prior to
a worst-case release reaching the first downstream intake. The agricultural intake referenced is approximately 11.3 miles downstream
of the crossing. As indicated in the Spill Model
Report, the estimated travel time for a FBR
within Lake Oahe to reach the first drinking
water intake (#5 South Central Regional Water
District) is
or over
. As indicated in the response to Comment A4, no exceedances of drinking water standards are predicted for any downstream drinking water intakes even under the unmitigated worst-case
scenarios.
5. As indicated in the response to Comment L34,
the worst-case release for Lake Oahe from the
PHMSA-approved FRP is already utilized in
the GRP.
Overall, the comment does not specifically identify any additional information that would improve
the GRP that the Corps and ETP did not already consider.
L62.60 “[T]he DAPL Facility Response Plan lacks
any listing or reference to the inclusion of tribal representatives in the Unified Command.”

738a
RESPONSE: The GRP states that the Unified
Command will consist of the Federal On-Scene Coordinator, State On-Scene Coordinator, and the Responsible Party. The GRP also states that additional
stakeholders may be included in the Unified Command based on incident complexity. In consultation
with the Federal On-Scene Coordinator and State OnScene Coordinator, a representative from potentially
affected Tribes may be included in the Unified Command.
See also N11 L63.60 “DAPL and the Corps of Engineers stated in the Final EA that they would follow
the requirements in API RP 1174. It must be emphasized here that DAPL has fulfilled none of those provisions thus undermining tribal response planning
and threatening its first responders despite the fact
that the response zone is within the boundary of the
Standing Rock Sioux Tribe. In particular, DAPL has
failed to share the critical information listed above including realistic anticipated volume release, spill
model or an unredacted facility response plan.”
RESPONSE: Topic is addressed in response to
Comment G21.
L64.60 “The spill response and remediation for
the realistic WCD 92-108 feet under the Oahe lakebed
in not addressed in the Corps of Engineers and DAPL
documentation. The impact from such a release at
such depths on the timeliness of spill response, downstream impacts, extreme difficulties of spill cleanup,
repair of the pipeline, and the likelihood of a persistent toxic contamination of the soil, groundwater, and
lake are not addressed. Also, not addressed by the
Corps of Engineers and DAPL is the fact that typically

739a
most crude oil from spills is not recovered. Nor do
they examine on-going impacts from the likely lingering toxic contamination.”
RESPONSE: A potential leak beneath Lake Oahe
is addressed in the response to Comment C9. The impact of delayed response/lingering toxicity is addressed in the response to Comment 6-1.
L65.61-62 “The DAPL geographic response plan
...does not provide sufficient precautions to conduct
LEL [lower explosive limit] testing or eliminate
sources of ignition in the area of the spill. Needed special precautions on avoiding the use of powered watercraft or other sources of ignition to conduct LEL testing on water or land where extremely flammable hydrocarbons vapors are likely to be present is missing.”
RESPONSE: The GRP addresses the use of “four
gas” monitors, which would test for LEL. The specific
operation of the instrumentation to monitor the atmosphere for the safety of emergency responders is
defined in the owner’s manual for the specific instrumentation being utilized, and the action levels would
be defined within the governing health and safety procedures of the response team on site. According to
ETP, the LEL is the lowest concentration (percentage)
of a gas or vapor in air capable of producing a flash of
fire in presence of an ignition source (arc, flame, heat).
Concentrations lower than LEL are “too lean” to burn.
The LEL is calculated by the instruments utilized by
the responders and they are not “typed in” at the response scene based on what they believe the product
spilled to be.

740a
According to ETP, as a general rule,

. However, this health and safety procedure is defined in the
health and safety protocol documents and not in the
Lake Oahe-specific GRP.
Local authorities have authority to shut down
roads or waterways due to the presence of potentially
flammable materials. ETP will coordinate with local
authorities to shut down roads or waterways and prevent the use of ignition sources (e.g. powered watercraft) should vapor concentrations dictate.
L66.62 “Guidance recommends the possible use of
vapor suppressing foam as necessary and to ensure
adequate foam supplies are available. The geographic
response plan lacks foam totes staged near the Lake
Oahe location.”
RESPONSE: According to ETP, vapor suppressing foams, or Aqueous Film Forming Foams (AFFFs),
are not typically utilized for open water response activities such as those expected for a spill on the land
near, or the local surface waters around, Lake Oahe.
AFFFs are typically used by responders to suppress
volatile hydrocarbon vapors in contained areas (e.g.
man-made structures) or other areas where natural
air movement and adequate vapor dispersion is limited. Typical scenarios may include, but are not limited to, hydrocarbon releases within an enclosed structure or within containment structures void of adequate air dispersion. A spill within the rolling terrain
near, or within the open surface waters of Lake Oahe,
would be considered well ventilated and exposed to

741a
wind currents, which naturally disperse hydrocarbon
vapors.
Furthermore, there are reasons to avoid use of
AFFFs when not warranted by the location of a spill.
According to ETP, most AFFFs consist of fluorocarbon
and hydrocarbon surfactants blended with various
solvents, preservatives, and stabilizers. These surfactants, or emulsifying ingredients, enable the AFFF to
mix with hydrocarbon fuels. One result, though, is an
increase oil in dispersion rates and reduced oil recovery rates. For a typical AFFF, precautions should also
be taken to prevent foam concentrate from entering
ground water, surface water, or storm drains. Based
on the open areas and persistent wind currents
around Lake Oahe, the emulsifying properties of vapor suppressing foam, and the precaution to prevent
foam concentrations from entering surface water,
ETP does not recommend the use of vapor suppressing
foams on a hydrocarbon release in the vicinity of Lake
Oahe.
L67.62 “EPCRA [Emergency Planning and Community Right-To-Know Act] requirements, EPA guidance and the recent Executive Order 13650 (largely in
response to the West Fertilizer incident) address communication, coordination and data sharing requirements between the feds, state agencies (SERCs),
LEPCs and includes Tribal Emergency Response
Committees (TERCs) and Tribal Emergency Planning
Committees (TEPCs). Although pipelines are exempt
from some provisions of EPCRA, they are covered related to emergency response and planning. The DAPL
and Corps of Engineers documents do not effectively
address these important authorities and obligations,
which currently leave the Tribe extremely vulnerable

742a
to increased impacts from DAPL spills. There is an
overall lack of effective monitoring, notification, coordination of response and protection of people and the
environment.”
RESPONSE: ETP met with the Emergency Response Coordinators from each of the counties crossed
by the entire pipeline (over 1,100 miles beginning
near Stanley, North Dakota, and ending at Patoka, Illinois. Coordination with the Tribes is addressed in
response to Comment G21.
L68.62 “The Tribe has not been adequately consulted and provided information that would aid in its
emergency response planning activities through its
TEPC. The Tribe lacks sufficient information related
to unredacted spill modeling, response plans (including a realistic WCD), and the most recent risk analysis that were required to be developed by DAPL as
noted in the Final EA.”
RESPONSE: Topic is addressed in response to
Comments G21 and L60.
L69.65 “ETP and the Corps of Engineers have
failed to provide sufficient information to allow the
Tribe, as well as the public, to understand why alternative routes, including routes north of Bismarck,
were deemed infeasible. The Corps of Engineers must
re-evaluate potential routes north of Bismarck and
other viable non-pipeline transportation modes . . . .
Given the significant potential impacts of the pipeline
on treaty hunting and fishing rights, inadequate spill
risk assessment, and a deficient environmental justice
assessment, the Corps of Engineers cannot comply
with Judge Boasberg’s remand directive except
through a more comprehensive route analysis. As

743a
such, the only appropriate path is to also prepare an
environmental impact statement (EIS) which would
more fully discloses analysis methods, impacts, and
risk.”
RESPONSE: The Corps is complying with the
Court’s remand order.
L70.65-70 “A robust geo-processing suitability
model is necessary to determine the best route for a
pipeline, or any linear transportation facility . . . . The
Final EA also states that 60 data sets were used and
that the “ranking system” was based on “a scale of
1,000,” an unclear and unsubstantiated ranking system (Table 2). The criteria that was utilized to assign
weights to the various features in the GIS analysis
was not explained. The publicly-accessible North Dakota GIS Hub Data Portal and is an open source data
platform with over 500 datasets provided by 13 North
Dakota state agencies, yet ETP/DAPL only incorporated 60 data sets without justification for selecting
these datasets and excluding others . . . . The Final EA
stated, ‘the company carefully considered possible
route alternatives in the EA.’ However, the Final EA
fails to disclose anything about the methodology as to
how this analysis was done, much less the basis on
which the conclusions were reached. Under NEPA, it
is not up to the applicant to choose the route “with the
least impact”; rather, it is the federal agency’s responsibility. What the project proponent considers as having the “least impact” is subjective and should never
be determinative of an agency action . . . . Table 2-2 of
the Final EA relies heavily on the comparative construction costs to Energy Transfer Partners, but fails
miserably at quantifying the social and environmental costs to the Tribe in the event of a spill.”

744a
RESPONSE: The Corps evaluated reasonable alternatives to ETP’s preferred crossing based on the
Corps’ limited jurisdiction over the portion of the pipeline that crossed federally-owned Corps managed
land. Final EA at 5-22. SRST preferred a geo-processing suitability model but did not specifically identify any flaws in the data or methodology used in the
Corps’ alternatives analysis evaluation. SRST generally commented that it did not favor the process ETP
followed in examining and ranking datasets but SRST
did not provide any scientific evidence or the results
of a geo-processing suitability model for the Corps to
consider and that would cause the Corps to doubt its
previous methodologies and data supporting the
Corps’ conclusion on the alternatives analysis. Therefore, this comment does not show that a substantial
dispute exists as to the size, nature, or effect of the
major Federal action.
L71.71 “Landslide factors were not attributed risk
values in the route selection analysis and omitted as
dataset to better evaluate risks and constraints (See
Table IV-1). This is a serious error in the route selection analysis. This is made more serious as the discussion regarding the risk of landslides is further
downplayed in the Final EA. That discussion largely
focuses on the potential landslide impacts from workspaces, while failing to address potential short- and
long term risks of landslide that would result in a catastrophic spill . . . . The Corps of Engineers must incorporate landslide risks in additional route selection
modeling and analysis as they have failed to fully appreciate how significant landslide risks would impact
the Tribe’s treaty-protected hunting and fishing
rights and has a high potential for disproportionately

745a
impacting the Tribe and its sole water source. Because these are potentially significant impacts, the
Corps of Engineers must prepare of an EIS.”
RESPONSE: Topic is addressed in response to
Comment A14.
L72.72 “Without adequate discussion of both the
rail and trucking alternatives, DAPL and the Corps
have provided insufficient baseline information to adequately understand the current use of trucks and rail
to transport Bakken Oil.”
RESPONSE: The Corps considered truck and rail
alternatives. Final EA at 5-7. Topic is addressed in
response to comment H1. L73.72 “DAPL and the
Corps of Engineers have not disclosed sufficient information relating to the north of Bismarck route . . . .
[T]he reasons for rejecting the route north of Bismarck apply equally to a pipeline crossing just upstream from the Standing Rock Reservation.”
RESPONSE: The Corps evaluated reasonable alternatives to ETP’s preferred crossing based on the
Corps’ limited jurisdiction over the portion of the pipeline that crossed federally-owned Corps managed
land. Final EA at 5-22. See also October 20, 2016
Memorandum,
USACE ESMT001213-001249.
L74.72 “We remind the Corps of Engineers that
they have not equally weighted and given serious consideration to the elements of the Tribe’s MISSOURI
RIVER HIGH
CONSEQUENCE AREA ASSESSMENT.”

746a
RESPONSE: Topic is addressed in the response
to Comment L15.
L75.73 The Corps of Engineers concluded that the
route crossing Lake Oahe is the more preferable alternative, as compared to the route north of Bismarck.
The conclusion was reached, in large part, based on
the comparative lower overall costs that ETP/DAPL
estimated ($232,556,008 v. $255,122,888) for Lake
Oahe and North of Bismarck crossings. The Corps of
Engineers failed to adequately evaluate the route alternatives by omitting the potential catastrophic risks
and high costs that could result from operational failures due to an accident, leak or spill . . . . Ultimately,
the impacts of spills and leaks on the Tribe’s communities have not been properly addressed for environmental justice issues. While Dakota Access Pipeline
and the Corps of Engineers have relied heavily on a
comparison of construction costs between the existing
route and the route north of Bismarck to justify their
route selection, they have failed to adequately quantify and evaluate the social costs of the pipeline’s proximity to Standing Rock Indian Reservation.”
RESPONSE: Environmental justice is addressed
in response to Comment D17. The Corps evaluated
reasonable alternatives to ETP’s preferred crossing
based on the Corps’ limited jurisdiction over the portion of the pipeline that crossed federally-owned
Corps managed land. Final EA at 5-22. See also October 20, 2016 Memorandum, USACE_ESMT001213001249.
L76.74 “The Corps of Engineers must fully examine the short-term and long-term impacts of an oil
spill on the Standing Rock Reservation. There must

747a
be express recognition that our Reservation suffers
the disproportionate adverse effects of a potential oil
spill from the Dakota Access Pipeline.”
RESPONSE: Environmental justice is addressed
in response to Comment D17. The Corps considered
the potential impacts of a worst-case scenario spill to
the Tribes based on the updated Spill Model Report
and the companion Downstream Receptor Report.
L77.75-76 “In order to implement environmental
justice considerations in a meaningful way, both the
benefits and costs of an activity must be taken into
account, and attempts must be made to understand
what costs exists, what their magnitudes are, and
whom they impact. In the case of DAPL, clear and
obvious costs have been simply ignored and others
have been grossly understated . . . . In the case of
DAPL, substantial costs associated with operating the
pipeline have not been quantified and are currently
unknown.”
RESPONSE: Environmental justice is addressed
in response to Comment D17.
L78.83 “Many costs to the Tribe from DAPL have
been overlooked and not properly quantified . . . . More
specifically, the Tribe has been treated unfairly because many known costs to the Tribe have not been
taken into account and, as a result, the deadweight
loss associated with DAPL is being born by the Tribe.”
RESPONSE: Environmental justice is addressed
in response to Comment D17.
L79.84 “The Corps of Engineers’ conclusion that,
‘The pipeline route expressly and intentionally does
not cross the Standing Rock Sioux Reservation and is

748a
not considered an Environmental Justice issue,’ is inconsistent with the microeconomic theory outline
above and, from a common-sense perspective nonsensical.”
RESPONSE: Topic is addressed in response to
Comments D17 and L80. See also Final EA at 80-83
and 106. The Corps considered SRST’s microeconomics analysis. To further address this concern, ETP
prepared the Downstream Receptor Report to address
impacts to commercial fishing and tourism. Downstream Receptor Report at 49 and 97. Although SRST
doesn’t agree with the scope or conclusion of the analysis with regard to economic impacts, this comment
does not show that a substantial dispute exists as to
the size, nature, or effect of the major Federal action
because the SRST’s microeconomic analysis does not
show flaws in the methods or data the Corps actually
relied on here.
L80.85 “The construction of the pipeline has adversely affected revenues generated by the Prairie
Knights Casino (PKC), which are used in no small
part for the provision of social services on the reservation . . . . The construction of the pipeline has resulted
in diversion of management costs. These costs can include the time that Tribe personnel has spent dealing
with any activity associated with the construction of
DAPL that otherwise would not have been necessary
. . . . The construction of the pipeline has deepened
hostilities against the Tribe among the general population in North Dakota. ETP has been promoting
DAPL publically in North Dakota. One implication of
this PR campaign is that it paints opponents, including the Tribe, in a negative light. The negative perceptions of the Tribe painted by ETP expose decades

749a
of hostility between residents of North Dakota and
Tribal members . . . . The construction of the pipeline
has resulted in the willful destruction of the Tribe’s
historical sites, none of which have been quantified . .
. . The current operation of the pipeline has had and
continues to have a negative impact on the Prairie
Knights Casino . . . . The current operation of the pipeline has had and continues to divert the management
activities of Tribal staff from their everyday efforts.
RESPONSE: ETP did not propose to close the road
for construction as a component of the portion of the
project for which it sought Corps approval. Local law
enforcement officials closed the road due to protests.
No known historic properties were adversely affected
by the construction of DAPL within the Lake Oahe
USACE Action Area.
See also L79
L81.86 “The Final EA by the Corps of Engineers
inexplicably completely ignores any economic implications associated with a spill . . . . to date, a zero-dollar
value has been placed on this potential destruction
which, to put it mildly, is incorrect.”
RESPONSE: Environmental justice is addressed
in response to Comment D17.
Document M: Impacts of an Oil Spill from the
Dakota Access Pipeline on the Standing Rock
Sioux Tribe; Appendix C: SRST’s Notice of
Intent Comments on the Dakota Access
Pipeline to the Army Corps of Engineers
M1. APP. C. 3 “The Final EA did not separately
evaluate or provide any information related to the
Tribe’s treaty rights. As discussed below, the Tribe

750a
has treaty rights within Lake Oahe and depends on
fish, wildlife and plants in and around the lake for
subsistence. An analysis of the Tribe’s treaty rights
must be done in coordination with the Tribe. Moreover, given the high risks related to the proposed Lake
Oahe crossing for this crude oil pipeline and potential
adverse impacts to the Tribe’s treaty and religious
freedom rights, it is necessary to evaluate and analyze
reasonable alternatives to the proposed crossing.”
RESPONSE: The Corps evaluated reasonable alternatives to ETP’s preferred crossing based on the
Corps’ limited jurisdiction over the portion of the pipeline that crossed federally-owned Corps managed
land. Final EA at 5-22. The Corps considered the
Tribe’s treaty rights. October 20, 2016 Memorandum,
USACE_ESMT001213-001249. Hunting and fishing
is addressed in the Downstream Receptor Report.
Consultation/coordination is addressed in the response to Comment L60. Environmental Justice is
addressed in the response to Comment D17.
See also M7, M8, M9 M2. APP. C 4 “The Tribe also
has special expertise with respect to its rights, cultural beliefs and tribal member reliance on the waters
and resources of the lake, and can provide information
related to its Reservation that is not generally publicly available, but is needed to adequately assess impacts and issues like environmental justice.”
RESPONSE: The Corps requested information
from the Tribes, including information on subsistence
hunting and fishing and cultural practices. Corps letter to SRST at 2 (August 25, 2017).

751a
M3. APP C. 4-5 “The Final EA does not discuss the
impacts that spills will have on the Tribe’s communities. Nor does it properly address environmental justice issues. The EIS must discuss the proximity of the
Tribe’s Reservation and the existence of the tribal
population that relies on the resources of Lake Oahe.”
RESPONSE: The Corps recognized that drinking
water intakes located downstream from the Lake
Oahe crossing could be at risk if there was a release
that reached this body of water and traveled downstream in the vicinity of the intake structures. Final
EA at 38. Further analysis and discussion is provided
in the Downstream Receptor Report and in the responses to Comments D7 and D17.
M4. APP C 5 “The EIS must fully examine the
short and long terms impacts that spills or releases of
oil can have on tribal communities and there must be
express recognition that these communities are
greatly impacted by environmental justice issues.
The environmental justice analysis must take into account the disproportionate adverse effects of a proposed pipeline crossing immediately upriver from the
Reservation in terms of both quantitative as well as
qualitative effects - as required by the CEQ guidance
on environmental justice.”
RESPONSE: Topic is addressed in the response
to Comment M3.
M5. APP C 9: “The EIS must also analyze and
evaluate any impacts to the Tribe’s cultural sites and
religious beliefs in coordination and collaboration
with the Tribe . . . . The EIS must acknowledge that

752a
the Tribe has water rights to the Missouri River, including Lake Oahe, and discuss the proposed project’s
impacts to tribal water resources.”
RESPONSE: Topic is addressed in the response
to L60 and within the Downstream Receptor Report.
M6 APP C 10 “The Final EA incorrectly states
that ‘the majority of reservation residents depend on
wells water supply.’ Final EA at 38. This is incorrect,
and the consequences of the error are significant.
Based on this fundamental factual error, the Final EA
then incorrectly dismisses the risk of oil spill to the
Tribe and the people who live on the Reservation. The
Tribe relies on waters of Lake Oahe for irrigating over
3,000 acres of land, and the nearest intake for this
purpose is just seven miles downriver from the proposed Lake Oahe crossing. The waters of Lake Oahe
also provide habitat for fish, wildlife, and plants important to the diet and cultural and religious practices
of the Tribe. The EIS must recognize that Lake Oahe
is fundamental to the health and welfare of the Tribe,
fully analyze the Tribe’s Water rights and discuss the
potential for the proposed Lake Oahe crossing to negatively impact those rights . . . . The EIS must
acknowledge the importance of the Lake Oahe and
discuss the proposed project’s impacts to the Tribe’s
cultural and religious beliefs.”
RESPONSE: The information regarding reservation resident’s well use came from the Standing Rock
Sioux Tribe website at the time of the preparation of
the EA in 2016. Final EA at 38. [Standing Rock Sioux
Tribe. 2016. Environmental Profile. Originally available at: http://standingrock.org/environmental-pro-

753a
file/],
now
available
at:
https://web.archive.org/web/20160315010925/http://standingrock.org/environmental-profile/ (last visited August 27, 2018). The current website states: “The MR
& I Water Distribution System supplies water lines to
the districts to bring clean water to all enrolled members. Most enrolled members in the rural districts
still
use
well
water.”
https://www.standingrock.org/content/environmental-profile (last visited August 27, 2018). The risks associated with the
Project are addressed in the response to Comment A9
and the potential impacts to Tribal communities are
addressed in the response to Comment D17. The
Corps considered potential impacts to water resources
used by the Tribe. Downstream Receptor Report at
80-99.
M7 APP C 13-14 “[T]he EIS must recognize that
the current controversy over the proposed easement
has brought to light the need for further legal analysis
and examination of the impacts that the proposed
route would have on the Tribe, including the need to
analyze reasonable alternatives.”
RESPONSE: Topic is address in the response to
Comment M1.
M8 APP C 14-15 “[T]he Final EA provided insufficient information relating to the north of Bismarck
route . . . . although the reasons for rejecting the north
of Bismarck route have equal application to a pipeline
crossing just upstream from the Reservation, there is
no discussion or comparison of the risks associated
with the Bismarck route versus the risks associated
with the significant horizontal directional drilling
(“HDD”) drilling that will occur at Lake Oahe. In

754a
short, the north of Bismarck route is summarily rejected with little justification, especially given the
presence of similar facts and potential for higher risks
associated with the Lake Oahe route. The EIS should
re-examine and fully evaluate the feasibility of the
north of Bismarck route.”
RESPONSE: The alternative route crossing location is addressed in responses to Comments C3 and
M1.
M9 APP C 15 “The Final EA/FONSI did not meet
the requirements of NEPA, and was flawed because it
contained inadequate information, as recognized by
the Army in their memorandum of December 4, 2016.
The Final EA should not be used as a baseline for the
EIS due to its deficiencies and the need for an analysis
of viable route alternatives for the proposed project.”
RESPONSE: The Corps is not in the process of
preparing an EIS. The Corps is complying with the
court’s remand order.
M10. APP C 16 “[T]he EIS should also identify
and analyze the risk of pipeline oil spills, the causes
of such spills, the elements necessary to reduce the
risk of spills (including pipeline design and operation),
the measures that are needed to properly maintain,
monitor and inspect the pipeline, as well as measures
to ensure proper and effective response systems in the
event of a spill. Specific project requirements (especially crossing techniques) should be analyzed and the
best available technical engineering implemented for
the protection of related surface and ground water,
tributaries/upstream segments, flood plains, and
other sensitive water resources.”

755a
RESPONSE: As indicated in the response to Comment A9, the Corps reviewed risk planning documents
associated with construction and operation of DAPL
that addressed the risks of pipeline failure. Easement
Conditions 17, 18, 19, and 20 address pipeline coatings; Easement Conditions 29, 30, and 31address inline inspection; Easement Condition 26 addresses cathodic protection; and Easement Condition 33 addresses pipeline patrolling. Easement Condition 27
addresses interference current surveys. ETP’s FRP
and GRP describe emergency response activities, including cleanup procedures and remediation activities. Coordination with the Tribes relative to the GRP
is discussed in G21. The GRP is a living document
and ETP will continually update the plan upon the receipt of new relevant information.
See also M22
M11 APP C 17 “Consultation [with USFWS] must
include consideration of new information the Tribe
has obtained regarding the spill and safety risks from
HDD and pipeline operation for route alternatives
crossing the Missouri River.”
RESPONSE: The Corps has reviewed all of the
information submitted electronically, verbally, and in
writing to date. The information received does not reveal new effects of the action that may affect listed
species or critical habitat in a manner or to an extent
not previously considered. Therefore, reinitiation of
consultation under the Endangered Species Act is not
required.

756a
M12 APP C 18 “The USACE should also conduct
consultation with the Tribe’s Tribal Historic Preservation Officer (“THPO”) regarding historic and medicinal plants and their location.”
RESPONSE: Topic is addressed in response to
Comment C22.
M13 APP C 19 “Given the substantial volume of
crude proposed to be transported in the pipeline, the
EIS should . . . . evaluate the proposed project’s cumulative impact on climate change.”
RESPONSE: Topic is addressed in response to
Comment D2.
M14. APP C 20 “The EIS should discuss and evaluate impacts to the health, safety, and wellbeing of
the Tribe and tribal communities that would be impacted by the project - not simply the area where the
pipeline would be constructed, but also those living
downstream of the pipeline’s crossing of the Missouri
River . . . . Additionally, the Final EA failed to
acknowledge the lack of emergency responders and infrastructure in the Lake Oahe area to adequately address safety hazards from any pipeline spills and
leaks given the remoteness of the communities, and
lack of emergency response and safety personnel in
the area. The Final EA said nothing about any of
these issues and they must be evaluated and addressed in the EIS.”
RESPONSE: The risks associated with the Project are addressed in the response to Comment A10
and the potential impacts to downstream tribal communities are addressed in the response to Comment
D17. The Corps considered potential impacts to water

757a
resources used by Tribes. Downstream Receptor Report at 80-99. ETP contracted for the response equipment and contracted personnel to respond to emergency situations. Final EA at 90. Company-owned
and contracted response equipment to respond to a
worst-case scenario at the Missouri River crossing at
Lake Oahe are outlined in the Project-specific GRP as
well as response actions to be taken in the event of a
release. ETP coordinated the emergency response
planning documents with the Corps per Easement
Conditions 8, 9a, and 10. Coordination with the
Tribes relative to the GRP is discussed in G21. The
GRP is a living document and ETP will continually
update the plan upon the receipt of new relevant information.
M15 APP C 21-22 “The EIS must specifically discuss the physical attributes of Bakken oil and the human health and environmental impacts and risks associated with Bakken oil . . . . [T]he EIS must contain
a robust discussion of the physical attributes of
Bakken oil and analyze the risks associated with
Bakken oil spills . . .”
RESPONSE: The Corps considered the physical
attributes of Bakken oil Final EA at 45-49. Additional
analysis and discussion of potential impacts is provided in the Spill Model Report and the Downstream
Receptor Report.
M16 APP C 22 “[T]he Army Corps also evaluate
the potential for massive landslide not only on the federal easement crossing Lake Oahe, but also whether
such landslide risks can occur on nearby, off federal
easement lands, where a pipeline release from possible landslide could result in oil reaching Lake Oahe.”

758a
RESPONSE: Topic is addressed in the response
to Comment A14.
M17 APP C 23 “Such slower moving land creep
risks can still result in pipeline failure . . . . [I]f not
adequately addressed, land creep can still result in oil
release, either a lower rate leak or a high rate release
rupture.”
RESPONSE: Topic is addressed in the response to
Comment A14.
M18 APP C 24 “QA/QC is not a federal requirement of standards for pipeline construction for monitoring or reporting. The EIS must address this limitation as it relates to risks associated with the pipeline construction, operation and maintenance.”
RESPONSE: QA/QC is addressed in the response
to Comment F21. As noted in the response to Comment G2, ETP designed and constructed DAPL using
standards and practices that meet or exceed all regulatory requirements. A summary of DAPL practices
and design that exceed regulatory requirements is
presented in Table G2.
M19 APP C 24-25 “The Final EA also incorrectly
assumes no risks to plant, flora and fauna because the
project utilizes an HDD pipe under Lake Oahe. See
Final EA at 117-125; Table 8-2. As a result, the Final
EA does not address the potential impacts to aquatic
and land wildlife, plants, flora and fauna . . . . The EIS
must fully identify all risks and impacts to the surrounding environment as a result of spills or leaks, not
just water contamination.”

759a
RESPONSE: Topic is addressed in Section 2.0 of
the Downstream Receptor Report. Downstream Receptor Report at 10-80.
M20 APP C 25-26 “[T]he Final EA totally lacks a
critical discussion of post construction inspection and
mitigation of problems resulting from the construction
. . . . The EIS must include an exhaustive study of
these post construction risks, identification of damage
to the pipeline external wall, girth welds and internal
pipe wall from over-pulling, scraping and other various factors. A detailed mitigation or remediation plan
that avoids any acceptable leak volumes from the
HDD pipeline section should specifically be addressed
in the EIS.”
RESPONSE: As described in response to Comment F21, processes designed to avoid or mitigate any
weld quality deficiencies include systematic QA-QC
procedure development, qualification testing of welders, inspection to enforce adherence to procedures, visual inspection of welds, 100% nondestructive testing
(NDT), Level 3 NDT auditing, and multiple hydrostatic tests for the pull string. Damage to external
pipe and coatings is addressed in the response to Comment C13. Potential pull-force damage is addressed
in the response to Comment C15. The EA describes
the design and operation measures ETP will implement to protect downstream intake users. Final EA
at 42; 88-94. ETP prepared a FRP that complies with
the applicable requirements of the OPA 90, and has
been prepared in accordance with the NCP and the
Mid-Missouri SACP. Final EA, Appendix L. ETP’s
emergency response activities would include the
cleanup procedures and remediation activities described in the FRP and the site-specific Lake Oahe

760a
GRP. ETP provided the GRP to the Corps, SRST, and
CRST for review. Coordination with the Tribes relative to the GRP is discussed in G21. ETP incorporated
comments from the Corps, SRST, and CRST into revised versions of the GRP. The GRP is a living document and ETP will continually update the plan upon
the receipt of new relevant information.
See also M31
M21 APP C 27-30 “The EIS should recognize that
the Pipeline and Hazardous Materials Safety Administration (“PHMSA”) standards are dated and significant oil spill incidents are increasing . . . . The Final
EA failed to apply standards that are key to the Lake
Oahe crossing . . . . It is especially important that upto-date consensus technical standards and rigorous
review of the risks of oil spill be conducted for the proposed Lake Oahe crossing . . . . The purpose of NEPA,
and the need for an EIS, is to provide specific detailed
information about which standard will be met and
how those will be met by this specific proposed project.
The Final EA did not do this. The Final EA fails to
cite or apply more rigorous modern safety and environmental standards applicable to pipelines that need
to be addressed in the EIS.”
RESPONSE: As noted in the response to Comment G2, ETP designed and constructed DAPL using
standards and practices that meet or exceed all U.S.
regulatory requirements. A summary of DAPL practices and design that exceed applicable regulatory requirements is presented in Table G2. QA/QC is addressed in the response to Comment F21.

761a
M22 APP C 31 “The Final EA’s prevention and
mitigation descriptions are also vague and lack adequate information on issues considered. For example,
the Final EA fails to adequately examine control systems, equipment operability, adequacy of procedures,
training, drills and accountabilities, adequacy of leak
detection and incident response time and capability to
organize an incident command system - as required by
API RP 1173.”
RESPONSE: The identification and analysis of
the risk of pipeline oil spills, the elements necessary
to reduce the risk of spills (including pipeline design
and operation), the measures to maintain, monitor
and inspect the pipeline are discussed in the response
Comment M10.
As indicated in the response to Comment B5, ETP
installed the LeakWarn system in accordance with
PHMSA requirements and API-RP-1130 guidance
(API Recommended Practice 1130 – Computational
Pipeline Monitoring for Liquid Pipelines).
ETP developed the FRP pursuant to 49 CFR § 194.
PHMSA reviewed and approved the FRP on February
23, 2017. The incident response time and incident
command system specific to the Lake Oahe crossing
are outlined in the GRP. Coordination with the Tribes
relative to the GRP is discussed in G21. The GRP is a
living document and ETP will continually update the
plan upon the receipt of new relevant information
M23 APP C 32 “The Final EA lacks any analysis
of the adequacy of the prevention and mitigation
measures to control the risk of an oil spill.”

762a
RESPONSE: The risk associated with the pipeline is addressed in response to Comment A9. Mitigation is addressed in the response to Comment A12.
M24 APP C 33 “The Final EA lacks any data related to safety assurance. While the Final EA vaguely
asserts prevention activities and states certain risks
will be “mitigated” it fails to provide performance data
to buttress its claims.”
RESPONSE: Topic is addressed in the response
to Comment A12.
M25 APP E 3 “The existing system relies upon the
use of a computation model based on pipeline process
measurements (most likely flow and line pressure)
that is not available 100% of the time. To verify that
the LDS is operating as required, provisions for functional testing is required to release validate/calibrate
the model to measured leaks under normal operations.”
RESPONSE: ETP evaluates the effectiveness of
the leak detection systems through simulated leak
tests, actual leak tests, or the analysis of confirmed
releases. According to ETP, there have been no confirmed releases since operation began in June 2017.
ETP performed the simulated leak tests by electronically overriding the computers to simulate a leak condition, whereas the actual leak tests were performed
by removing product from the pipe. ETP evaluates
the results of each of these tests, and the response to
actual releases (if applicable), to optimize the system
capabilities, refine the product release tolerances, validate the response times, and further train the control
room operators. Instrument and custody grade measurement equipment have been included as part of the

763a
pipeline design, and provide data for the leak detection system. ETP uses this data to tune the detection
system during transient and steady state conditions.
Additional information is provided in the responses to
Comments B5 and B6.
M26 APP E 4 “Carry out functional testing of the
LDS and model calibration under normal flow conditions by removing measured amounts of crude oil from
the pipeline. Carry out and document the LDS calibration in cooperation with a US Govt. approved I3P
agency. If faults are detected, propose modifications
to improve the LDS performance.”
RESPONSE: Topic is addressed in the response
to Comment M25.
M27 APP E 4 “The installation of an integrated
[Oil Monitoring System] OMS made up of instrumented monitoring wells along the HCA pipeline
route to allow direct observation of oil accumulations
due to leaks under the detectable limit. Manual observation and verification is required to ensure action
is taken to reduce the leak ‘release time.’”
RESPONSE: Topic is addressed in the response
to Comment L43.
M28 APP E 5 “Although communications availability may be improved by the use of dual-redundant,
non-safety certified communications channels, the
ability to verify the safety system information is not
provided.”
RESPONSE: ETP installed motor operated isolation and/or check valves on both sides of the Missouri
River, which can be actuated to close as soon as a leak
is detected. ETP based the closure times on the EFRD

764a
valves on the DAPL Pipeline Surge Analysis Report
and are a function of the size of the valves and the
electrical requirements, and electrical availability.
Additional information is provided in the response to
Comment A10. The operation of the valves system including automatic valve shutdown is addressed in
Easement Condition 21.
M29 APP E 6 “[I]mplement dedicated, hardwired,
safety certified signals from the LDS sensors (LDS
and OMS), to a local safety certified logic solver and
to the ESD final elements . . . . Implement fully automated, cause and effects based logic, within a certified
safety logic solver to replace the manual human intervention required in the existing design.”
RESPONSE: SCADA and LeakWarn systems provide constant oversight of the pipeline facilities.
These systems alert Dakota Access’ Operational Control Center (OCC) of operational changes. The OCC
prioritizes and responds to all alarms in accordance
with the control room management regulations referenced in PHMSA 49 CFR § 195.446 (e).

M30 APP E 7 “The ability of the final elements
(pump interlocks and Emergency Isolation Valves) to
provide the level of risk reduction required to reduce
the WCD volume of crude oil was not demonstrated.
There was no documentation of a review of the pump

765a
controller design, maintenance, and operating procedures that verified that it was suited for use as a SIS
final element. In a similar way, there was no documentation of the design, functional testing, and
maintenance procedures for the EIV’s (valves, actuators, and local controls) that they are suited to provide
the positive isolation required during a pipeline leak
emergency.”
RESPONSE: Topic is addressed in the response
to Comment M28.
Document M: Impacts of an Oil Spill from
the Dakota Access Pipeline on the Standing
Rock Sioux Tribe; Appendix F: Preliminary Report: Landslides in the Vicinity of the
Dakota Access Pipeline Crossing of the Missouri
River Near the Standing Rock Indian Reservation
M31 APP F 2 “Because of the possibility of landslides and subsequent leaks of the DAPL at the crossing of the Missouri River upstream from the Standing
Rock Indian Reservation, the geology of the area
should be investigated carefully and the potential for
a leak should be assessed. In addition, an oil spill response plan should be formulated clearly.”
RESPONSE: As indicated in the response Comment A14, the risk of landslides is low. Oil spill response planning is addressed in the response to Comment M20.

766a
Document N: Preliminary Evaluation of
Dakota Access Pipeline Emergency Response
Plans; Richard B. White, P.E., PLLC
N1.1-2 “Table 2-3 of the FRP and (to some degree)
Table 2.1 of the GRP list various Federal, State, and
Tribal authorities that should be contacted in the
event of an applicable spill.
However, OST is not included on either list . . . .
the Mni Wiconi water treatment plant intake is located approximately 205 miles downstream from the
DAPL Lake Oahe crossing. Notwithstanding this distance, the potential long-term impacts to the quality
of water at this intake due to an oil spill into the Missouri River or Lake Oahe should not be ignored . . . .
OST should be added to the lists contained in Tables
2-3 of the FRP and 2.1 of the GRP, with appropriate
contact individuals.”
RESPONSE: ETP committed to including representatives from the OST, CRST, SRST and YST in Table 2-3 of the FRP and Table 2.1 of the GRP.
N2.2 “Table 2-3 of the FRP lists several tribes that
should be contacted in the event of ‘any spill that
poses an impact to’ one of the designated reservations
or to ‘properties under the stewardship of’ one of the
designated tribes. Neither OST nor the Cheyenne
River Sioux Tribe was included on this list . . . . OST
and the Cheyenne River Sioux Tribe should be included on Table 2-3 of the FRP to ensure that all potential stakeholders are notified early in the spill response effort. Furthermore, additional discussion
should be provided in the FRP regarding ‘properties
under the stewardship’ of tribes that may be impacted
by an oil spill, even if those tribes and their areas of

767a
stewardship or concern are considered to be remote
from a spill source.”
RESPONSE: Topic is addressed in the response to
Comment N1.
N3.3 “Although the travel distances from Bismarck, ND are noted on maps provided in Appendices
A through C of the GRP, it is recommended that those
figures and Table 4.6 of the GRP, as a minimum, include a listing of the travel time for each response contractor to reach the DAPL Lake Oahe crossing since
most of the listed contractors are more remote than
Bismarck from the crossing.”
RESPONSE: PHMSA requires a 6-hr response
time and DAPL has demonstrated response times of
for both company and
contractor resources. As indicated in Mr. White’s
comment, estimated response times are included in
the GRP in the appendices.
N4.3 “[T]he GRP should explicitly acknowledge
the travel times for all of the listed contractors and
the potential flow velocity of the river.”
RESPONSE: Hydrodynamics for Lake Oahe were
calculated based upon different river flow conditions
using discharge data from a US Geological Service
and USACE gaging stations and the Corps monthly
reservoir statistics from 1967-2017 (USACE, 2017) using the RPS WQMAP model system, which contains
the BFHYDRO hydrodynamic model. As discussed in
the Spill Model Report, each of the four release scenarios consisted of 290 individual model runs including 97 individual trajectories modeled under spring-

768a
time high river flow conditions (RPS 2018). ETP utilized this information to update the GRP. The spill
response planning is designed to address the modeled
worst case scenario/fastest flow conditions.
N5.3-4 “Page 23 of the FRP and page 14 of the
GRP indicate that
of containment boom and
of sorbent boom will be maintained at Cannon Ball Ranch near the DAPL Lake Oahe crossing
for use in the event of an oil spill . . . . it is likely that
feet of containment and sorbent boom will be
considerably inadequate to control an oil spill into the
Missouri River and Lake Oahe.”
RESPONSE: ETP has the response equipment
and contracted personnel necessary to respond to
emergency situations. Final EA, at 90. ETP identified appropriate response tactics and resources based
on results from OILMAPLand and SIMAP modeling.
As indicated in the FRP,

ETP
secured additional response resources by means of
contract with local, regional and national Oil Spill Removal Organizations (OSRO). Each listed OSRO has
their own response equipment with a minimum of
1,000 feet of containment.”
N6.4 “Appendix A of the GRP indicates that a
planning quantity of
of containment boom
will be required to respond to an oil spill into the Missouri River at the Lake Oahe crossing. The GRP does

769a
not provide an indication of the planned quantity of
sorbent boom that will be required to control a spill at
the crossing.”
RESPONSE: Sorbent boom totals do not need to
equal containment boom totals as sorbent booms are
not utilized as a primary containment device on open
water. ETP has sufficient company-owned and contracted response equipment to respond to a worst case
release at the Missouri River crossing, as outlined in
the GRP. The release modeling indicates that plume
migrations are highly dependent upon current and
wind conditions and likely will not have a uniform
leading edge or cover the river from bank to bank.
Furthermore, containment booms are deployed to
pool, deflect, or guide released oil to smaller areas in
waterways where it can be effectively recovered using
skimmers, vacuum trucks, or sorbent materials.
N7.4-5 “[U]nless the response contractors are required by contract to maintain large quantities of
boom for use only on a DAPL spill into the Missouri
River or Lake Oahe, it may be essentially impossible
to meet boom requirements in a timely manner to control an oil spill from DAPL into these water bodies.
The FRP and the GRP should address this deficiency
either by substantially increasing the quantity of
owner/operator boom near the Lake Oahe crossing or
by frequently certifying the quantity of boom that contracted oil spill response organizations are required to
maintain on their premises for the sole use of DAPL
spill projects at the Lake Oahe crossing.”
RESPONSE: Topic is addressed in the responses
to Comments N5 and N6.

770a
N8.5 “Table 4-1 of the FRP and Table 4.1 of the
GRP provide checklists of typical response actions
taken during an oil spill . . . . As sovereign nations, all
tribes in the region, including OST, should be added
to this list.”
RESPONSE: This topic is addressed in the response to Comment N1.
N9.5 “Table 4.4 of the GRP provides a list of drinking water intakes downstream from the DAPL Lake
Oahe crossing. The Mni Wiconi intake is not included
on that list, but should be.”
RESPONSE: The intakes associated with the
OST and CRST are not anticipated to be affected by
even a worst-case unmitigated release from the
DAPL. The SIMAP modeling shows that, even without mitigation, the maximum predicted concentrations of hydrocarbons in the water column for a hypothetical worst-case release were within 5 m of the surface, associated with floating oil and entrained oil
droplets. Hydrocarbon concentrations were predicted
to be highest at upstream locations nearer the DAPL
crossing.
The SIMAP modeling shows that lower concentrations were predicted further downstream as more
time had passed for oil to reach these locations, which
resulted in further evaporation, dissolution, dispersion, and degradation of the oil within the environment. Concentrations within the water column decrease rapidly as depth increases (5-10m), until near
zero values were predicted at depths greater than
10m. Therefore, even the replacement water intake
for the SRST (approximately 75 miles downstream of
the DAPL crossing at a depth of 60-80 feet) was not

771a
predicted to be affected by the modeled hypothetical
releases. The CRST intake, approximately 156 miles
downstream of the DAPL crossing, would be less
likely to be impacted than the SRST replacement intake.
The Mni Wiconi intake is not likely to be impacted
based on the fact that it is another 50 miles downstream of the CRST intake (205 miles downstream of
the DAPL crossing) and its location downstream from
the Lake Oahe dam. The minimum water depth recorded for Lake Oahe for the entire period of record was
1570.2 feet M.S.L. The discharge pipes for the dam
are at an elevation of 1425 feet M.S.L - 46m (142.5
feet) below the lowest ever water depth. Thus, any
released hydrocarbons that reach the dam would need
to mix within the water column to at least that depth,
even though near zero values of hydrocarbons are predicted at depths greater than 10m.
See also N10, N17
N10.5 “Sections 4.5.2 and 4.5.3 of the GRP indicate that ‘Multiple requests for the identification and
location of Tribal significant environmental receptors
[and archaeological and significant Tribal receptors]
were made to the [US Army Corps of Engineers,]
Standing Rock Sioux Tribe, and Cheyenne River
Sioux Tribe, but no information was provided’ . . . .
OST was not included in the original request for information but should have been.”
RESPONSE: ETP complied with the Court order
to coordinate with the Corps, SRST, and CRST to finalize the Lake Oahe GRP.

772a
See also N19 N11.5 “As sovereign nations, the affected Tribal On-Scene Coordinators should be included as part of the Unified Command structure [in
Section 4.5 of the FRP and Section 4.7 of the GRP].”
RESPONSE: This topic is addressed in the response to Comment L62.
N12.5 “[I]t is recommended that several potential
scenarios be presented in the GRP describing appropriate responses to spills that reach the Missouri
River and Lake Oahe under both open water and ice
conditions. Field training exercises should also focus
on not only worst-case spill quantities but also worstcase field conditions.”
RESPONSE: ETP is prepared to respond to spills
under various conditions as required by Easement
Condition 34. The GRP includes response and mitigation measures for various scenarios (spill in slow moving water, spill in large river, spill to lake, spill on ice,
spill under ice, etc.). The DAPL response team conducts drills/exercises in accordance with the National
Preparedness for Response Exercise Program (PREP).
Drills/exercises are designed utilizing various scenarios, field conditions, and exercise injects (unannounced specific written exercise situations). DAPL
personnel and response contractors train and exercise
on various scenarios, including broken ice.
See also N14 N13.5-6 “In order to increase the
likelihood of successfully installing moorings, typical
installation methods and diagrams should be presented in the FRP and GRP, along with a discussion
of when each installation method is applicable.”

773a
RESPONSE: In the unlikely event of a release,
mooring locations and installation methods will be determined based on oil migration and current site conditions, and in consultation with responding agencies
and stakeholders.
N14.6 “An equally likely scenario will be a spill
that occurs during periods when ice is forming (but
not yet strong enough to support access) and/or when
ice is breaking up. These conditions create unique
safety and remediation concerns (e.g., ice buildup that
puts additional stress on booms, difficulties with boom
and mooring installation, difficulties with site access,
etc.). Therefore, this condition should be addressed in
the FRP and GRP as well as in training exercises.”
RESPONSE: As indicated in the response to Comment N12, ETP is prepared to respond to a spill that
may occur when broken ice is present.
N15.6 “Worst case discharge volumes are redacted
from the FRP . . . . Without access to the calculations
or details regarding the system, it is impossible to assess whether the calculations or the reductions are appropriate when assessing spills into the Missouri
River or Lake Oahe. These calculations should be critically reviewed by an independent agency or individual who has access to the redacted figures.”
RESPONSE: ETP developed the FRP pursuant to
49 CFR § 194. Section 194.105 discusses the requirement for worst-case discharges. ETP calculated a
worst-case discharge as set forth in Section 194.105
and included it in the FRP. PHMSA reviewed and approved the FRP on February 23, 2017. Additionally,
the full bore rupture volumes utilized for the spill
modeling is described in the Spill Model Report.

774a
N16.6 “Table 7.3 of the GRP provides a list of organizations that will have access to the GRP as it is
updated. OST is not included on that list but should
be.”
RESPONSE: ETP committed to adding OST to
the Emergency Contact List as noted in the response
to Comment N1.
N17.6 “[W]ater intakes and environmentally sensitive areas should be noted on the maps much further
than 5 mile downstream from potential spill sites.
Furthermore, given the critical nature of drinking water intakes, all such intakes should be specifically
shown or noted on the Missouri River sensitivity maps
at least as far downstream as the Mni Wiconi intake,
located about 4 miles downstream from the Lake
Oahe dam.”
RESPONSE: Appendix E of the GRP, Lake Oahe
Sensitive Receptors, contains maps that extend more
than 26 miles downstream of the pipeline crossing.
Inclusion of the Mni Wiconi intake is addressed in the
response to Comment N9.
N18.6 “[A]ll affected tribes should be explicitly
given permission in the GRP to independently observe
the sampling team (and preferably accompany the
team and independently collect samples) if this plan
is implemented. This will allow the tribes to independently determine the reliability of the resulting
data.”
RESPONSE: The Unified Command has the authority to determine which representatives would be
allowed on-site during sampling.

775a
N19.6-7 “‘Species with traditional value may be
pre-identified as part of environmental assessments
(Traditional Ecological Knowledge) or may be identified at the time of the incident and detailed on the [Resources at Risk] form. If not pre-identified it is important to engage tribal communities to identify species with traditional value and, where applicable, incorporate them into the wildlife response.’ It is my understanding that OST has not been requested to provide that information but that request should be made
to OST.”
RESPONSE: Topic is addressed in the response
to Comment N10.

776a
____________________
APPENDIX G
____________________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
STANDING ROCK SIOUX
TRIBE, et al.,
Plaintiffs,
v.

Civil Action No.
16-1534 (JEB)

U.S. ARMY CORPS OF
ENGINEERS, et al.,
Defendants.
MEMORANDUM OPINION
The Court returns once more to the segment of the
Dakota Access Pipeline running under the Missouri
River and to its effects on the Indian Tribes living
nearby. In February 2017, Defendant U.S. Army
Corps of Engineers concluded that granting an easement for the crossing would yield no significant environmental impact, thus exempting the agency from
having to prepare an Environmental Impact Statement under the requirements of the National Environmental Policy Act. In these consolidated cases,
several Tribes whose reservations lie near Lake Oahe
challenge that decision.
In one of its many prior Opinions in this case, the
Court held that the agency’s decision “not to issue an
EIS largely complied with NEPA.” Standing Rock
Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing
Rock III), 255 F. Supp. 3d 101, 147 (D.D.C. 2017). “Yet

777a
there [we]re substantial exceptions” to such compliance, one of which being the agency’s failure to address expert comments noting that the pipeline suffered from serious flaws that could result in extensive
environmental harm in the event of a spill. Id. The
Court thus ordered the Corps to consider these issues
on remand. Id. at 160. That remand is now complete,
and the Tribes, not surprisingly, strongly disagree
with the Corps’ most recent conclusions.
In analyzing those conclusions, this Court has received significant guidance from a recent case decided
by the D.C. Circuit, National Parks Conservation Association v. Semonite, 916 F.3d 1075, 1082 (D.C. Cir.
2019). The appeals court there clarified the inquiry to
be conducted by a district court when determining
whether an agency has adequately dealt with expert
criticisms such as these. Applying Semonite, this
Court ultimately concludes that too many questions
remain unanswered. Unrebutted expert critiques regarding leak-detection systems, operator safety records, adverse conditions, and worst-case discharge
mean that the easement approval remains “highly
controversial” under NEPA. As the Court thus cannot
find that the Corps has adequately discharged its duties under that statute, it will remand the matter to
the agency to prepare an Environmental Impact
Statement.
I.

Background

In order to reacquaint the reader with the landscape against which this dispute unfolds, the Court
will first briefly set out the statutory framework of
NEPA. It will then separately discuss the factual

778a
background, the procedural history, and the recent remand and resulting claims.
A. Statutory and Regulatory Scheme
The National Environmental Policy Act requires
agencies to “consider every significant aspect of the
environmental impact of a proposed action,” Baltimore Gas & Elec. Co. v. NRDC, 462 U.S. 87, 97 (1983)
(quoting Vt. Yankee Nuclear Power Corp v. NRDC,
435 U.S. 519, 553 (1978)), so as to “inform the public
that it has indeed considered environmental concerns
in its decisionmaking process.” Id. (citing Weinberger
v. Catholic Action of Haw., 454 U.S. 139, 143 (1981)).
In order to achieve these goals, NEPA imposes on
agencies certain procedural requirements, Citizens
Against Burlington, Inc. v. Busey, 938 F.2d 190, 19394 (D.C. Cir. 1991), but it “does not mandate particular consequences.” Id. at 194.
First, an agency must draft an Environmental Assessment, see 40 C.F.R. § 1501.4(b), that “[b]riefly
provide[s] sufficient evidence and analysis for determining whether to prepare an environmental impact
statement [EIS] or a finding of no significant impact
[FONSI].” Id. § 1508.9(a). “If any ‘significant’ environmental impacts might result from the proposed
agency action[,] then an EIS must be prepared before
agency action is taken.” Grand Canyon Trust v. FAA,
290 F.3d 339, 340 (D.C. Cir. 2002) (quoting Sierra
Club v. Peterson, 717 F.2d 1409, 1415 (D.C. Cir.
1983)); see also 42 U.S.C. § 4332(2)(C) (requiring a
statement of the environmental impact of any proposed action “significantly affecting the quality of the
human environment”). If, on the other hand, the
agency determines that no EIS is required, it must

779a
prepare either a FONSI or a Mitigated FONSI, depending on whether the lack of significant impact results from an agency’s commitment to mitigation
measures. See 40 C.F.R. §§ 1501.4(e), 1508.13; Council on Environmental Quality, Appropriate Use of Mitigation and Monitoring and Clarifying the Appropriate Use of Mitigated Findings of No Significant Impact 2, 7 (2011), https://ceq.doe.gov/docs/ceq-regulations
-and-guidance/Mitigation_and_Monitoring_Guidance
_14Jan2011.pdf.
In order to determine whether its actions may result in “significant” environmental impacts—and
therefore whether it must prepare an EIS—an agency
must examine both the “context” and the “intensity”
of the action. See 40 C.F.R. § 1508.27. When looking
at intensity, an agency must consider ten factors, id.
§ 1508.27(b), and “[i]mplicating any one of the[se] factors may be sufficient to require development of an
EIS.” Semonite, 916 F.3d at 1082 (citing Grand Canyon Trust, 290 F.3d at 347). Relevant here is the
fourth of these factors—viz., “[t]he degree to which the
effects on the quality of the human environment are
likely to be highly controversial.”
40 C.F.R.
§ 1508.27(b)(4). This factor will be discussed at length
below. See infra Section III.A.1.
Although not in the above-described list of ten factors, two other issues require the Corps’ attention under its NEPA obligations. First, in this Circuit, NEPA
creates, through the Administrative Procedure Act, a
right of action deriving from Executive Order 12,898.
This order requires federal agencies to “make achieving environmental justice part of their mission”—”[t]o
the greatest extent practicable and permitted by
law”—”by identifying and addressing, as appropriate,

780a
disproportionately high and adverse human health or
environmental effects of [their] programs, policies,
and activities on minority populations and low-income
populations.” 59 Fed. Reg. 7629 (Feb. 11, 1994), § 1101; see Cmtys. Against Runway Expansion, Inc. v.
FAA, 355 F.3d 678, 688-89 (D.C. Cir. 2004) (recognizing right to environmental-justice review under
NEPA and APA). Indian tribes are one of the populations that must be considered. See Council on Envtl.
Quality, Environmental Justice: Guidance Under the
National Environmental Policy Act 9 (1997),
https://ceq.doe.govidocs/ceq-regulations-and-guidance
/regs/ej/justice.pdf.
Second, the parties agreed during the first round
of summary-judgment briefing that NEPA additionally requires an agency to determine how a project will
affect a tribe’s treaty rights, in this case those arising
from the Fort Laramie Treaty of 1851. Standing Rock
III, 255 F. Supp. 3d at 130-31 (citing Fort Laramie
Treaty of 1851, art. 5, 11 Stat. 749, 1851 WL 7655).
As relevant at this stage, the Corps is required to consider how the pipeline would affect the Tribes’ hunting and fishing resources. Id. at 130-32; see 11 Stat.
749, art. 5 (reserving to Tribes “the privilege of hunting” and “fishing” on treaty lands).
B. Factual History
As the issues present in the current round of briefing are fairly cabined, the Court will provide only an
abbreviated version of the factual history laid out in
its prior Opinions in this case. See, e.g., Standing
Rock III, 255 F. Supp. 3d at 114-16.
The Dakota Access Pipeline, designed to carry
crude oil from North Dakota to Illinois, crosses several

781a
waterways along its 1,200-mile path. Id. at 114 (citing
Standing Rock Sioux Tribe v. U.S. Army Corps of
Eng’rs (Standing Rock I), 205 F. Supp. 3d 4, 7 (D.D.C.
2016)). One of these is Lake Oahe, an artificial reservoir in the Missouri created by construction of a dam
in 1958. Id. (citing Standing Rock I, 205 F. Supp. 3d
at 13). The “lake” begins near Bismarck, North Dakota, and extends about 231 miles south, ending at the
Oahe Dam in South Dakota. See ECF No. 172-1 (Final EA) at 35. In creating Lake Oahe, Congress effected a taking of 56,000 acres from Standing Rock’s
Reservation and 104,420 acres from the trust lands of
the Cheyenne River Sioux Tribe. Standing Rock III,
255 F. Supp. 3d at 114 (citing Act of Sept. 2, 1958, Pub.
L. No. 85-915, 72 Stat. 1762). The Tribes now rely on
the waters of Lake Oahe in myriad ways, including for
drinking, agriculture, industry, and sacred religious
and medicinal practices. Id.; see, e.g., ECF No. 289-3
(Declaration of Faith Spotted Eagle), ¶¶ 5-22.
As the first step in determining whether it would
permit Dakota Access to construct a portion of DAPL
under Lake Oahe, the Corps published a Draft EA,
finding that it would not need to prepare the more involved EIS. Standing Rock III, 255 F. Supp. 3d at 11516; ECF No. 6-19 (Draft EA) at 1. The Tribes and the
Department of the Interior commented, both urging
the Corps to go further and prepare an EIS. Standing
Rock III, 255 F. Supp. 3d at 115-16. The EPA also
commented, suggesting that the Corps must at least
prepare a Mitigated FONSI. Id. at 116. In July 2016,
the Corps published its Final EA—again finding that
no EIS was required—and a Mitigated FONSI. See
ECF Nos. 172-1 (Final EA), 172-2 (Mitigated FONSI).

782a
Both the Draft and the Final EA were prepared by Dakota Access with input from the Corps, as is permitted
by NEPA regulations under certain circumstances.
Standing Rock III, 255 F. Supp. 3d at 116 (citing 40
C.F.R. § 1506.5(a)-(b)).
C. Procedural History
Shortly after the Corps published the Final EA,
the Standing Rock Sioux Tribe filed suit against the
agency in this Court, principally claiming that its decisions violated the National Historic Preservation
Act and NEPA. See Complaint, ¶¶ 128-93. Dakota
Access moved successfully to intervene as a defendant, see ECF No. 7; Minute Order of Aug. 8, 2016
(granting intervention), and the Cheyenne River
Sioux Tribe so moved as a plaintiff. See ECF No. 11;
Minute Order of Aug. 19, 2016 (granting intervention). On September 9, 2016, the Court denied Plaintiffs’ Motion to enjoin construction of the pipeline,
finding that the Tribes were unlikely to prevail on
their NHPA claims that the construction process desecrated sacred lands adjoining Lake Oahe. Standing
Rock I, 205 F. Supp. 3d at 37. As political protests in
the pipeline’s vicinity grew, the Departments of Justice, the Interior, and the Army that same day jointly
announced that DAPL construction would be suspended pending the Corps’ reconsideration of its statutory obligations. See ECF No. 42-1 at 1-2. Reversing
course, the Corps subsequently published notice of its
intent to prepare an EIS as to Dakota Access’s request
for an easement to cross Lake Oahe. See 82 Fed. Reg.
5,543 (Jan. 18, 2017).

783a
Following the change of administration in January 2017 and a presidential memorandum encouraging acceleration of the DAPL project, see 82 Fed. Reg.
8,661 (Jan. 24, 2017), the Corps again reconsidered its
decision and ultimately decided to terminate its intent
to prepare an EIS. See 82 Fed. Reg. 11,021 (Feb. 17,
2017). After notifying Congress on February 7, 2017,
see ECF No. 172-10, the agency then issued the easement to Dakota Access on February 8, 2017. See ECF
No. 172-11. The Court thereafter rejected a second
preliminary-injunction motion, this time brought by
Cheyenne River on Religious Freedom Restoration
Act grounds, finding obstacles in both the doctrine of
laches and the Tribe’s low likelihood of success on the
merits. Standing Rock Sioux Tribe v. U.S. Army
Corps of Eng’rs (Standing Rock II), 239 F. Supp. 3d
77, 100 (D.D.C. 2017). Around this time, the case was
consolidated with two others against the Corps, such
that the Oglala Sioux Tribe and Yankton Sioux Tribe
were added as Plaintiffs in this matter. See Minute
Order of Mar. 16, 2017. All four Tribes currently remain in the suit.
Finally sending their ace pitcher out to the mound
in Game 3—after previously pushing weaker counts
under the NHPA and RFRA—Standing Rock and
Cheyenne River next sought summary judgment under NEPA, arguing that the Corps was required to
prepare an EIS, and Defendants similarly crossmoved. In June 2017, the Court largely upheld the
Corps’ decision, including on the ground that it had
fulfilled any consultation duties toward the Tribes.
Standing Rock III, 255 F. Supp. 3d at 147. Yet, it
nonetheless found “substantial exceptions” warranting remand. Id. As to Standing Rock, there were

784a
three such deficiencies in the Corps’ work. The agency
had inadequately considered, in accordance with its
obligations under NEPA: (1) whether the project’s effects were likely to be “highly controversial,” id. at
127-29 (citing 40 C.F.R. § 1508.27(b)(4)); (2) the impact of a hypothetical oil spill on the Tribe’s fishing
and hunting rights, id. at 132-34; and (3) the environmental-justice effects of the project. Id. at 136-40.
The Court consequently remanded the matter to the
agency to address these issues. Id. at 160. It also reserved decision on two of Cheyenne River’s arguments
pending the results of the remand, id. at 150, 153, but
the Tribe does not now re-assert those positions. See
ECF No. 436 (Cheyenne River Second MSJ).
Oglala’s and Yankton’s claims, meanwhile, were
in earlier stages. Yankton and Defendants crossmoved for summary judgment the following year, and
the Court found in favor of the Corps. Standing Rock
Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing
Rock V), 301 F. Supp. 3d 50, 75 (D.D.C. 2018). Both
Yankton and Oglala later preserved issues they intended to pursue following a remand. See ECF Nos.
385 (Oglala); 386 (Yankton).
D. Remand and Results
While the Court remanded to the agency a few of
Standing Rock’s and Cheyenne River’s claims, it did
not at that point determine whether the easement for
the pipeline would be vacated during the remand.
Standing Rock III, 255 F. Supp. 3d at 147-48. In October 2017, it found that “[i]n light of the ‘serious possibility’ that the Corps w[ould] be able to substantiate
its prior conclusions,” vacatur was not appropriate.
Standing Rock Sioux Tribe v. U.S. Army Corps of

785a
Eng’rs (Standing Rock IV), 282 F. Supp. 3d 91, 109
(D.D.C. 2017) (quoting Nat’l Parks Conservation
Ass’n v. Jewell, 62 F. Supp. 3d 7, 20 (D.D.C. 2014)).
The Corps completed its remand analysis in February 2019, see ECF No. 398 (Notice of Service of Remand Analysis), and the parties filed a joint appendix
containing that record the following month. See ECF
No. 406 (Remand Analysis Record). The Corps’ work
on remand will be discussed in more detail below. See
infra Section III.
All parties have now again moved for summary
judgment—for the first time, in the case of Oglala. In
their briefs, the Tribes raised not only the remanded
issues but several others. All Tribes jointly argue that
the Corps has failed to remedy its three NEPA violations on remand. In addition, Standing Rock, Cheyenne River, and Yankton attempt to resurrect their
NHPA claims, which the Court rejected in earlier
Opinions. See Standing Rock I, 205 F. Supp. 3d at 10;
Standing Rock V, 301 F. Supp. 3d at 64. Yankton also
raised a preserved non-NHPA consultation claim (as
to the Corps’ actions before the remand), and Oglala
argued its preserved claims under the Mni Waconi
Act. All Tribes further contend that the Corps violated its consultation duties toward them during remand. The Court heard oral argument via teleconference on March 18, 2020, and it is now prepared to rule
on the Motions.
II. Legal Standard
Upon a party’s motion, Federal Rule of Civil Procedure 56(a) requires the Court to “grant summary
judgment if the movant shows that there is no genuine

786a
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” A fact is material if it would change the outcome of the litigation,
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986); Holcomb v. Powell, 433 F.3d 889, 895 (D.C.
Cir. 2006), and a dispute is genuine if the evidence is
such that a reasonable jury could return a verdict for
the non-moving party. Scott v. Harris, 550 U.S. 372,
380 (2007); Holcomb, 433 F.3d at 895. In the event of
conflicting evidence on a material issue, the Court is
to construe the conflicting evidence in the light most
favorable to the non-moving party. Sample v. Bureau
of Prisons, 466 F.3d 1086, 1087 (D.C. Cir. 2006). “Factual assertions in the moving party’s affidavits or declarations may be accepted as true unless the opposing
party submits its own affidavits[,] . . . declarations[,]
or documentary evidence to the contrary.” Defs. of
Wildlife v. U.S. Border Patrol, 623 F. Supp. 2d 83, 87
(D.D.C. 2009) (citing Neal v. Kelly, 963 F.2d 453, 456
(D.C. Cir. 1992)).
The above-described standard, however, does not
apply to the Tribes’ NEPA claims, which will be analyzed under the Administrative Procedure Act’s judicial-review standard. Sierra Club v. FERC, 867 F.3d
1357, 1367 (D.C. Cir. 2017) (“[B]ecause NEPA does
not create a private right of action, we can entertain
NEPA-based challenges only under the [APA] and its
deferential standard of review.”). That standard, set
out below, applies in place of the typical summaryjudgment standard of Rule 56: “[W]hen a party seeks
review of agency action under the APA, . . . the district
judge sits as an appellate tribunal.” Rempfer v. Sharfstein, 583 F.3d 860, 865 (D.C. Cir. 2009) (quoting Am.
Bioscience, Inc. v. Thompson, 269 F.3d 1077, 1083

787a
(D.C. Cir. 2001)). In other words, “[t]he entire case on
review is a question of law.” Id. (quoting Marshall
Cty. Health Care Auth. v. Shalala, 988 F.2d 1221,
1226 (D.C. Cir. 1993)).
The Administrative Procedure Act “sets forth the
full extent of judicial authority to review executive
agency action for procedural correctness.” FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 513 (2009). It
requires courts to “hold unlawful and set aside agency
action, findings, and conclusions” that are “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2)(A). Agency
action is arbitrary and capricious if, for example, the
agency “entirely failed to consider an important aspect of the problem, offered an explanation for its decision that runs counter to the evidence before the
agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency
expertise.” Motor Vehicle Mfrs. Ass’n v. State Farm
Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983).
“‘The scope of review [in an APA case] is narrow
and a court is not to substitute its judgment for that
of the agency,’ provided the agency has ‘examine[d]
the data and articulate[d] a satisfactory explanation
for its action including a rational connection between
the facts found and the choice made.’” Airmotive
Eng’g Corp. v. FAA, 882 F.3d 1157, 1159 (D.C. Cir.
2018) (second and third alterations in original) (quoting State Farm, 463 U.S. at 43). While the Court “may
not supply a reasoned basis for the agency’s action
that the agency itself has not given, [it] will uphold a
decision of less than ideal clarity if the agency’s path
may reasonably be discerned.” Bowman Transp., Inc.
v. Ark.-Best Freight Sys., Inc., 419 U.S. 281, 286

788a
(1974) (citation omitted) (citing SEC v. Chenery Corp.,
332 U.S. 194, 196 (1947); then citing Colo. Interstate
Gas Co. v. FPC, 324 U.S. 581, 595 (1945)). It is only
these “certain minimal standards of rationality” to
which a reviewing court holds an agency. Nat’l Envtl.
Dev. Ass’n’s Clean Air Project v. EPA, 686 F.3d 803,
810 (D.C. Cir. 2012) (quoting Ethyl Corp. v. EPA, 541
F.2d 1, 36-37 (D.C. Cir. 1976) (en banc)).
III. Analysis
We now arrive at the crux of the matter: has the
Corps remedied the three NEPA shortcomings that
necessitated remand? And what of the other claims
raised by the Tribes? The Court will focus on NEPA
and then briefly address the remaining claims
brought under two other statutes.
A. NEPA
As noted above, while the Court “[found] that the
Corps’ decision on July 25, 2016, and February 3,
2017, not to issue an EIS largely complied with
NEPA,” it also concluded that there were three “substantial exceptions”—that is, the Corps had violated
NEPA in three ways. Standing Rock III, 255 F. Supp.
at 147. To wit, it found wanting the Corps’ analysis
of: (1) whether the project’s effects were likely to be
highly controversial, id. at 129; (2) the impact of an oil
spill on the Tribe’s fishing and hunting rights under
the Treaty of 1851, id. at 134; and (3) “whether,” under
a required environmental-justice analysis, “Standing
Rock would be disproportionately harmed by a spill.”
Id. at 140.

789a
The Court will begin its analysis by discussing relevant aspects of the standard of review of agency action under NEPA. It will then proceed to consider how
the Corps fares under that standard. It will finish by
explaining how its findings on the “highly controversial” factor obviate a need for discussion of the other
two remand issues as well as some other claims raised
by the Tribes.
1. NEPA Standard
NEPA requires an agency to prepare an Environmental Impact Statement “[i]f any ‘significant’ environmental impacts might result from the proposed
agency action.” Grand Canyon Trust, 290 F.3d at 340
(quoting Peterson, 717 F.2d at 1415). A court’s “role
in reviewing an agency’s decision not to prepare an
EIS is a limited one, designed primarily to ensure that
no arguably significant consequences have been ignored.” Myersville Citizens for a Rural Cmty., Inc. v.
FERC, 783 F.3d 1301, 1322 (D.C. Cir. 2015) (emphasis
added) (internal quotation marks omitted) (quoting
TOMAC v. Norton, 433 F.3d 852, 860 (D.C. Cir.
2006)). It “must review whether the agency: (1) has
accurately identified the relevant environmental concern, (2) has taken a hard look at the problem in preparing its EA, (3) is able to make a convincing case for
its finding of no significant impact, and (4) has shown
that even if there is an impact of true significance, an
EIS is unnecessary because changes or safeguards in
the project sufficiently reduce the impact to a minimum.”
Michigan Gambling Opposition v.
Kempthorne, 525 F.3d 23, 29 (D.C. Cir. 2008) (quoting
TOMAC, 433 F.3d at 861). While NEPA does not direct agencies “to take one type of action or another,” it
does require courts to hold them accountable to its

790a
procedural requirements. Busey, 938 F.2d at 193-94.
The decision not to prepare an EIS is part of the latter
category—that is, courts may find that an agency was
arbitrary and capricious not to prepare an EIS and order it to do so. See, e.g., Semonite, 916 F.3d at 1088.
As noted above, an agency considering whether a
project will have a “significant” effect on the environment—and thus whether it must prepare an EIS, see
Peterson, 717 F.2d at 1415; 42 U.S.C. § 4332(2)(C)—
must analyze both the proposed action’s “context” and
its “intensity.” 40 C.F.R. § 1508.27. “[I]n evaluating
intensity,” the agency must consider ten factors, id.
§ 1508.27(b), only one of which is relevant here. “Implicating any one of these factors may be sufficient to
require development of an EIS.” Semonite, 916 F.3d
at 1082. For example, in Grand Canyon Trust, the
D.C. Circuit found that, having decided that the FAA
had not sufficiently considered one of the factors, it
need not “reach[]” the plaintiff’s claim that the agency
had also failed to adequately analyze another of the
ten. See 290 F.3d at 347.
The § 1508.27(b) factor at issue here is “[t]he degree to which [the project’s] effects on the quality of
the human environment are likely to be highly controversial.” 40 C.F.R. § 1508.27(b)(4). Effects are “controversial” where “substantial dispute exists as to the
size, nature, or effect of the major federal action rather than to the existence of opposition to a use.”
Town of Cave Creek v. FAA, 325 F.3d 320, 331 (D.C.
Cir. 2003) (emphasis added) (quoting Found. for N.
Am. Wild Sheep v. USDA, 681 F.2d 1172, 1182 (9th
Cir. 1982)). While “what constitutes the type of ‘controversy’ that requires a full EIS is not entirely clear,”
Nat’l Parks Conservation Ass’n v. United States, 177

791a
F. Supp. 3d 1, 33 (D.D.C. 2016) (quoting Nat’l Wildlife
Fed’n v. Norton, 332 F. Supp. 2d 170, 184 (D.D.C.
2004)), “something more is required besides the fact
that some people may be highly agitated and be willing to go to court over the matter.” Id. (quoting Fund
for Animals v. Frizzell, 530 F.2d 982, 988 n.15 (D.C.
Cir. 1975)). In other words, the significant public protests near Lake Oahe do not transform the pipeline’s
approval into a highly controversial action within the
meaning of 40 C.F.R. § 1508.27(b)(4).
This “something more” is often “scientific or other
evidence that reveals flaws in the methods or data relied upon by the agency in reaching its conclusions.”
WildEarth Guardians v. Zinke, 368 F. Supp. 3d 41, 81
(D.D.C. 2019) (quoting Nat’l Parks Conservation
Ass’n, 177 F. Supp. 3d at 33). In its first summaryjudgment Opinion, the Court found that “[t]he expert
reports submitted to the Corps after the Final EA was
published but before the Corps again decided in February 2017 that an EIS was not required . . . present
such scientific critiques.” Standing Rock III, 255 F.
Supp. 3d at 129 (emphases omitted); see also id. (listing, as examples, seven methodological critiques
made in the Tribes’ expert reports). The agency’s failure to sufficiently respond to these critiques was one
of the issues necessitating remand. Id.
While the remand in this case was ongoing, the
D.C. Circuit issued a significant opinion clarifying a
court’s role in reviewing an agency’s finding that a
project was not “highly controversial.” In Semonite,
the Corps examined the construction of power lines
that would run through historic Jamestown and determined that it did not need to prepare an EIS. See
916 F.3d at 1078-80. Many commenters, including the

792a
National Park Service, the Advisory Council on Historic Preservation, the Virginia Department of Historic Resources, and “many non-governmental organizations,” raised concerns about various aspects of the
project. Id. at 1080. Some of these commenters “identified what they viewed as serious flaws in the Corps’s
methodologies.” Id. In response, the Corps “twice directed [the power company building the lines] to revise its photo simulations,” but “[c]ommenters remained unsatisfied.” Id. The D.C. Circuit found that,
contrary to the Corps’ position, the agency action was
likely to be “highly controversial”—and thus the project must be halted while the Corps prepared an EIS—
because there was “consistent and strenuous opposition, often in the form of concrete objections to the
Corps’s analytical process and findings, from agencies
entrusted with preserving historic resources and organizations with subject-matter expertise.” Id. at
1086.
Crucially, the Semonite court explicitly rejected
the agency’s argument that it had fulfilled its duty under NEPA by “acknowledg[ing] and try[ing] to address
concerns raised during the NEPA process by, for example, instructing [the equivalent of DAPL here] to
revise its analyses to address the shortcomings identified by commenters.” Id. at 1085. That argument,
the D.C. Circuit stated, “misse[d] the point.” Id. “The
question is not whether the Corps attempted to resolve the controversy, but whether it succeeded.
Given that many critical comments, including from
[agencies and non-governmental organizations], postdated [those] revisions, the Corps obviously failed.”
Id. at 1085-86 (emphases added).

793a
The Corps argues that Semonite does not control—and thus that “considering” responses “is all
that is required,” Oral Arg. Tr. at 44:5-6—because in
that case both private organizations and federal agencies with subject-matter expertise raised concerns
with the agency’s proposed plans. See ECF No. 458
(Corps Opp. to Standing Rock) at 29-30. Whereas “in
Semonite, you had the neutral expert agency” objecting to the Corps’ plans, it contends, “[Y]ou have the
opposite here.” Oral Arg. Tr. at 6:25-7:6. By “the opposite,” the agency means that in this case, the Pipeline and Hazardous Materials Safety Administration
(PHMSA) “did not object to the worst case discharge
methodology or underlying assumptions.” Corps Opp.
to Standing Rock at 30.
The Court does not believe that these points distinguish the clear instruction of Semonite. First, the
D.C. Circuit in that case did not rest its holding exclusively on the existence of federal-agency criticisms, ignoring those raised by private organizations. See,
e.g., 916 F.3d at 1085 (describing the “considered responses” of “highly specialized governmental agencies
and organizations”). Second, both the Department of
the Interior and the EPA, under the previous administration, did express concerns with the agency’s analysis here. Interior, for example, found that the Corps’
Draft EA “did not adequately justify or otherwise support its conclusion that there would be no significant
impacts upon the surrounding environment and community.” USACE_DAPL 5750. EPA recommended,
among other things, that the Corps analyze more
closely the leak-detection system it had selected, including its “ability . . . to identify small volume leaks.”
USACE_DAPL 5746. In fact, as the Corps itself

794a
noted, EPA’s own estimate for a spill from a pipeline
of DAPL’s size in that region was many times the size
of the Corps’. See USACE_DAPL 72184, 72252 (citing
U.S. Nat’l Response Team, Mid-Missouri River SubArea Contingency Plan 9 (2015)). The agencies’ position changed after a new administration took office
and President Trump urged the Corps to “review and
approve [DAPL] in an expedited manner.” 82 Fed.
Reg. 8661. This is certainly their prerogative, see
State Farm, 463 U.S. at 59 (Rehnquist, J., concurring
in part and dissenting in part) (“A change in administration brought about by the people casting their
votes is a perfectly reasonable basis for an executive
agency’s reappraisal of the costs and benefits of its
programs and regulations.”), but the existence of the
prior comments undercuts the Corps’ emphasis on the
lack of federal-agency critique in this case.
Third and finally, the Corps’ position treats the
Tribes and their experts as more akin to the “non-governmental organizations” in Semonite, 916 F.3d at
1080, than governmental entities. As the Government well knows, however, “Indian tribes are ‘domestic dependent nations’ that exercise inherent sovereign authority over their members and territories.”
Okla. Tax Comm’n v. Citizen Band Potawatomi Tribe
of Okla., 498 U.S. 505, 509 (1991) (quoting Cherokee
Nation v. Georgia, 30 U.S. (5 Pet.) 1, 10 (1831)). Here,
these sovereign nations prepared expert comments
with the help of not only third-party consultants but
also their own relevant governmental departments.
See, e.g., RAR 7453 (report submitted by Standing
Rock in collaboration with, among others, its Department of Water Resources, Department of Game and
Fish, Tribal Emergency Management Commission,

795a
Department of Environmental Regulation, and a fivemember “Technical Consulting Team”). In sum, the
Court does not find a reason to deviate from Semonite
here.
In addition to the nature of the Court’s review, the
parties also disagree as to its scope. Dakota Access
maintains that, in determining whether the Corps has
fulfilled its NEPA obligations, the Court should consider only the critiques raised between July 2016 and
February 2017—that is, those that generated the unresolved scientific controversy prompting the Court’s
remand. See ECF No. 456 (Dakota Access Consolidated Opp.) at 14; Oral Arg. Tr. at 46:8-11 (arguing
that Court should consider “the results of [the] new
modeling” but not Plaintiffs’ responses to them). The
Tribes, on the other hand, believe that the Court
should also review their comments submitted during
the remand and the Corps’ responses to those.
Once again, Semonite lights the way. Arguably,
under that precedent, the Court could find the “highly
controversial” factor met merely from the existence of
“consistent and strenuous opposition” in the form of
experts’ “concrete objections to the Corps’s analytical
process and findings” that “post-dated” the Corps’ revision efforts. Semonite, 916 F.3d at 1085-86. But
this case stands in a more developed procedural posture than Semonite: here the agency has had an additional chance to respond to these renewed criticisms
during the remand. See RAR 103 (confirming Corps
considered in its remand analysis “the letters, written
comments, and expert reports” as well as “all information verbally communicated at the meetings with
the Tribes” during remand); id. at 104 tbl.III-1 (listing
documents considered and responded to, including

796a
those received after the easement and during remand). As a result, and particularly since both Defendants argued the sufficiency of those responses in
their briefs, see, e.g., Dakota Access Consolidated
Opp. at 25-27; ECF No. 446 (Corps Opp. to Standing
Rock) at 28, the Court finds it prudent to analyze the
substance of expert comments made both before and
during the remand to determine whether they “succeed” in resolving the points of scientific controversy
that continue to be raised by experts.
2. Points of Controversy
Having thus delineated the nature and scope of its
review, the Court may now engage in the business of
reviewing. Given the volume of expert comments submitted both before the granting of the easement and
during the remand, it finds that the best approach is
to group these criticisms by subject matter. For each
topic, the Court will discuss the concerns raised by the
Tribes’ experts, the responses offered by the Corps,
and whether the latter succeed in resolving the scientific controversy. Plaintiffs’ experts will be introduced
as they appear in the below comments. The Corps also
relied on reports prepared for Dakota Access by a
third-party consulting expert. See, e.g., RAR 8743
(noting that Spill Model Analysis was done by private
consulting group RPS for ETP); Final EA at 126-27
(including, in “List of Preparers and Reviewers,” three
“Environmental Specialists” from a private environmental consulting company). Citations to Bates numbers beginning with USACE_ESMT, USACE_DAPL,
USFWS_DAPL, and OAHE indicate references to the
pre-remand administrative record, including the expert comments contained therein. Citations to Bates
numbers beginning with RAR refer to the remand-

797a
analysis record, again including expert comments
raised during that time.
While there are many topics to choose from, the
Court finds that examining four will be sufficient to
demonstrate the amount of unresolved scientific controversy that remains. As will be explained, even this
non-extensive selection suffices to show the necessity
of an EIS.
a. Leak-Detection System
The Court begins by discussing concerns raised
about DAPL’s leak-detection system—one of the areas
of unaddressed scientific controversy noted in the first
summary-judgment Opinion. Standing Rock III, 255
F. Supp. 3d at 129 (quoting USACE_ESMT 1081). Experts for both Standing Rock and Cheyenne River expressed their skepticism as to the effectiveness of this
system both before and during the remand.
First, they asserted that there was serious reason
to doubt the efficacy of the system. As the above-mentioned report submitted by Standing Rock noted, “A
2012 PHMSA comprehensive leak detection study
found one type of leak detection system[, called
SCADA,] . . . detected hazardous liquid leaks 28 percent of the time,” and another, called CPM, “had a detection rate of 20 percent.” RAR 7505. Another expert
for Standing Rock had also presented this data in October 2016, adding that “[t]his low success rate” was
“consistent with Accufacts’ many liquid pipeline failure investigations spanning more than 40 years, especially more recent investigations.” ECF No. 117-15
(Accufacts Report of October 2016) at 4-5. DAPL, it
should be noted, uses a CPM leak-detection system.
See RAR 173-74.

798a
The Corps’ response to the first of these comments
was to merely refer to its response to a different comment that did not specifically address the PHMSA
data. See RAR 257 (directing reader to RAR 143-44);
RAR 143-44 (addressing worst-case discharge generally and not PHMSA data from 2012). Its response to
the second—which raised the same PHMSA data—addressed only Accufacts’s assertion that the PHMSA
data was consistent with its 40 years of experience investigating pipeline failures: “ETP asserts that a comparison to data from 40 years ago, and from older pipelines installed prior to modern pipeline standards,
overstates the risk of this modern pipeline.” RAR 173.
It then went on to describe some features of DAPL’s
“state-of-the-art pipeline monitoring tools” and practices. See RAR 173-74.
These responses plainly do not succeed in resolving the serious concerns raised. Most critically, the
Corps failed entirely to respond to the 2012 PHMSA
study that indicated an 80% failure rate in the type of
leak-detection system employed by DAPL. Instead, it
focused on the expert’s comment that its own experience corroborated the PHMSA data. The agency mischaracterized this comment as drawing only on “data
from 40 years ago, and from older pipelines installed
prior to modern pipeline standards,” RAR 173, when
the expert had specifically stated that its experience
was drawn from a 40-year period and “especially more
recent investigations.” Accufacts Report at 5. Accufacts made no indication that its experience was only
with “pipelines installed prior to modern pipeline
standards.” The Corps’ statement that the expert’s

799a
comment “overstates” the risk of a leak-detection failure, therefore, holds no water (or oil, as the case may
be).
Second, experts noted that the apparent likelihood that DAPL’s leak-detection system would not
perform the detections for which it was designed was
only part of the problem. In addition, the system was
not even designed to detect leaks that constituted 1%
or less of the pipe’s flow rate. See RAR 7683. At the
current pipeline flow rate of about 600,000 barrels per
day, this means that “6,000 bbs/day”—that is, about
25,200 gallons—”could be released continuously, over
a long period of time, without detection.” Id. Oglala’s
expert, a civil and environmental engineer working
for an engineering consultancy group, made similar
points in a December 2016 report. See RAR 1250. The
Corps did not respond to these comments, see RAR
155-59, 274, but in responses to other related topics,
it stated that “[a]ccording to ETP,” the leak-detection
system in place for DAPL “is capable of detecting
leaks down to 1 percent or better of the pipeline flow
rate.” RAR 127. “In the event of a slow leak,” it continued, “even if pressure measurements do not show a
significant drop in pressure, a detectable meter imbalance will develop over a period of time resulting in an
alarm to the Control Center.” Id. “While the alarm
threshold may be 1%,” DAPL’s leak-detection system
is “sensitive to smaller changes in flow rate and pressure.” Id.
The Court similarly cannot find that the agency
adequately disposed of the experts’ concerns here.
Even while stating that the system was “sensitive to
smaller changes in flow rate and pressure,” the Corps
confirmed that the threshold for a leak-detection

800a
alarm was 1%. See RAR 127. Its further response
that a less-than-1% leak would eventually be detected
over an unspecified “period of time” after building up
enough to cause a meter imbalance, id., was less than
reassuring given that the amount of undetected leaking oil could be as much as 6,000 barrels per day. See
RAR 7683. Indeed, one of the experts noted that
Sunoco had experienced a spill of 8,600 barrels on one
of its pipelines when it had not recognized a leak even
when there was an “imbalance indication[]” because
that imbalance did not exceed “established normal operating tolerances.” RAR 7491 (quoting PHMSA report of the incident). At oral argument, moreover,
when asked why the spill modeling did not include
such a slow-leak scenario, the Corps stated that “there
was no particular reason that they didn’t look at a
slow leak.” Oral Arg. Tr. at 12:8-9.
Third, Accufacts commented that a “complete risk
analysis require[s], inter alia, consideration of . . . location and type of ‘critical leak detection monitoring
devices by milepost.’”
RAR 7491 (quoting
USACE_ESMT 1081); see also USACE_ESMT 107879 (same expert finding “key variables” such as “time
to remotely recognize and react to a possible release”
were not considered by Corps). The agency responded
that the third-party engineering company that had
performed the risk analysis had, according to representations made to the Corps by ETP, considered
“[i]nformation on critical leak detection monitoring
devices associated with the [leak-detection system]
consisting of pressure transmitters and ultra-sonic
flow meters by milepost location.” RAR 129.
This response does not quite succeed in resolving
the issues raised. Stating that it had considered the

801a
information was a good start, but, while the Corps did
indicate the type of monitoring devices that were
used, it did not mention their locations, and, most critically, it did not point to any analysis that did in fact
take these two details into consideration. Were this
the only point of expert contention, it might be a closer
call, but the Corps’ responses to the first two groups
of expert comments show that the scientific controversy surrounding DAPL’s leak-detection system was
not resolved.
b. Operator Safety Record
The next topic is the safety record of DAPL’s operator, referred to interchangeably by the parties as
ETP and Sunoco (the two completed a merger during
this litigation). The thrust of these comments was
that any analysis of the risk or magnitude of a spill for
a certain pipeline should take into account the performance history of its operator. Donald Holmstrom, an
“attorney, investigator, and process safety practitioner with many decades of experience in the oil industry and U.S. government,” ECF No. 272-4 (Declaration of Donald Holmstrom), ¶ 1, commented, “A
valid risk analysis would recognize the history of the
operator, but that didn’t happen here.” Id., ¶ 9.
Standing Rock’s remand report made a similar comment. See RAR 7503 (“Nowhere d[id] DAPL explain
why historic shutdown discharges from other
Sunoco/ETP pipeline incidents are not discussed or
relevant. . . . Leak detection estimates to be realistic
or scientific need to be based on actual historic performance data.”). In this case, the operator’s history did
not inspire confidence: “PHMSA data shows Sunoco
has experienced 276 incidents resulting in over $53
million in property damage from 2006-2016,” which

802a
one expert described as “one of the lower performing
safety records of any operator in the industry for spills
and releases.” Holmstrom Decl., ¶ 9.
The Corps focused its responses on defending the
operator’s performance record itself rather than on
justifying its decision to not incorporate that record
into its analysis. It did not directly reply to the comment that it had not explained “why historic shutdown discharges from other Sunoco/ETP pipeline incidents are not discussed or relevant.” RAR 7503; see
RAR 255. And in response to the comment that “[a]
valid risk analysis would recognize the history of the
operator,” Holmstrom Decl., ¶ 9, it gave a verbatim
repetition of its answer to the comment that “PHMSA
data shows Sunoco has experienced 276 incidents resulting in over $53 million in property damage from
2006-2016.” Id.; compare RAR 235-36, with RAR 13637. That response, which addressed only the safety
record (and not the failure to consider it), noted that
70% of the 276 incidents were confined to operators’
property, and “if an incident is confined to the operators’ property, then it would not reach Lake Oahe or
any other land or water used by the Tribe.” RAR 137.
It also noted that Sunoco had increased inspections of
its pipelines in recent years, see RAR 235, and stated
that the commenter(s) “d[id] not identify a specific alternative methodology or particular criteria or performance metrics that the Corps should have considered”
or studies “that would cause the Corps to doubt its
previous methodologies and data supporting [its] conclusion to rely on ETP’s risk analysis.” Id.
This response does not resolve the issues raised by
the Tribes’ experts. Two central concerns went unaddressed: (1) the 30% of spills—about 80 of them—

803a
that were not limited to operator property; and (2) the
criticism that the spill analysis should have incorporated the operator’s record. Indeed, the 70% of spills
that occurred on operator property may still be relevant to the latter point—for example, by showing how
an operator’s practices might affect the risk of a spill,
length of detection time, and speed of response. Finally, the Corps’ form language about lack of “specific
alternative methodology” and studies “that would
cause the Corps to doubt its previous methodologies”—which appears, without alteration or explanation, in many of its responses, see, e.g., RAR 116, 119,
125, 130, 132—is a non sequitur and does nothing to
resolve the specific issues raised by the Tribes’ experts.
c.

Winter Conditions

Another concern captured in expert comments
was the Corps’ failure to consider the impact of harsh
North Dakota winters on response efforts in the event
of a spill. First, as Oglala’s expert noted, “[S]ubfreezing temperatures during winter months will affect
emergency response conditions during cleanup of a
spill,” creating “significant difficulties that are not
present during other periods,” such as that “workers
require more breaks and move slower due to the bundling of clothing,” “daylight hours are shorter,” and
“slip-trip-fall risk increases significantly.” Earthfax
Report at 7. The Final EA, then, “should have quantified the effect of these factors on response time and
the subsequent impacts to human health and the environment.” Id.

804a
The same expert pointed out, moreover, that the
EA’s statement that “ice itself often serves as a natural barrier to the spread of oil” by “naturally contain[ing]” pockets of oil, see Final EA at 39 (USACE
DAPL 71263), was an “oversimplification of oil recovery operations beneath ice.” Earthfax Report at 7. In
the first place, the report stated, ice makes it “difficult
to determine where the largest pockets of oil may occur.” Id. Beyond that, “[t]he trapped oil may move,”
and “[i]ce will naturally break both on the river and
on the reservoir, shifting recovery locations and increasing safety hazards.” Id. Because of the abovedescribed complications of emergency response during
the winter, moreover, “the time required to recover
the oil will be increased,” in turn “increas[ing] the extent to which the oil dissolves into the water.” Id. at
8. The expert noted that the study cited by the Corps
for the proposition that ice may benefit spill response
also indicated the ways in which winter may simultaneously hinder it. Id. Ultimately, the expert concluded, “[T]he EA should have presented a more serious, quantitative evaluation of the winter spill scenario” to ensure that the above-described factors
“were properly evaluated.” Id. Standing Rock and its
experts made a similar point that will be discussed in
the following section. See infra Section III.A.2.d.iii.
In its response to Oglala’s expert, the Corps
“agree[d]” that “the recovery of oil under ice is difficult.” RAR 150. The agency stated that it had considered winter conditions in the EA, pointing to parts of
the Final EA that the Oglala expert had criticized. Id.
(citing Final EA at 39). It also stated that it had “mandated full-scale winter/ice exercises at . . . Lake Oahe

805a
as a condition to the easement,” and that such exercises were “tentatively scheduled” for February 2019.
Id. Finally, it noted that “the Spill Model Report includes an assessment of the winter spill scenario of oil
movement under the ice at Lake Oahe.” Id. (citing
RAR 8875). That report “predicts that ice cover retards the movement of oil downstream by trapping the
hydrocarbons in the vicinity of the release location.”
RAR 151. Thus, “ETP anticipates that the difficult
winter conditions will be counterbalanced by the
slower movement of the oil beneath the ice.” Id.
The Court finds the Corps’ response insufficient to
resolve the points raised by Oglala’s expert. To start,
the agency’s reference to the Spill Model Report does
not necessarily support ETP’s prediction. The report
in fact found that, in simulations presuming 100% ice
coverage, “[t]he ice effectively capped the oil, prevented evaporation, and resulted in enhanced dissolution, all of which led to the maximum mass of oil in
the water column.” RAR 8875. This is in line with the
expert’s prediction, see Earthfax Report at 8 (winter
response complications will “increase the extent to
which the oil dissolves into the water”), and does not
support ETP’s conclusion that slow winter flow rates
and the entrapment of oil pockets within the ice would
counteract the response difficulties presented by winter conditions. The Corps’ reference, moreover, to the
parts of the EA that formed the basis of the expert’s
criticism does not “resolve” the scientific controversy.
Semonite, 916 F. Supp. 3d at 1085-86. And practicing
a winter response, while prudent and perhaps a good
avenue for producing data as to how exactly winter
conditions would delay response efforts, does not get
to the point of addressing the concern that the spill

806a
model does not currently take that kind of data into
account.
d. Worst-Case Discharge
The largest area of scientific controversy, particularly during remand, was the worst-case-discharge estimate for DAPL used in the spill-impact analysis. As
relevant here, the “worst case discharge” is
[t]he pipeline’s maximum release time in
hours, plus the maximum shutdown response time in hours (based on historic discharge data or in the absence of such historic
data, the operator’s best estimate), multiplied by the maximum flow rate expressed in
barrels per hour (based on the maximum
daily capacity of the pipeline), plus the largest line drainage volume after shutdown of
the line section(s) in the response zone expressed in barrels (cubic meters).
40 C.F.R. § 194.105(b)(1). In other words,
WCD = ((maximum release time + maximum
shutdown response time) x maximum flow
rate) + largest line drainage volume
The idea, then, is to calculate the maximum amount
of oil that could possibly leak from the pipeline before
a spill is detected and stopped. The regulations further provide that the “[w]orst case discharge means
the largest foreseeable discharge of oil . . . in adverse
weather conditions.” 49 C.F.R. § 194.5.
One final introductory note. Defendants argue
that the PHMSA regulations cited above, which require calculation of a worst-case discharge, see 40
C.F.R. § 194.105(a), are not mandatory under NEPA

807a
and thus that the Corps need not have complied with
them under that statute. See Corps Opp. to Standing
Rock at 12 (citing Robertson v. Methow Valley Citizens Council, 490 U.S. 332 (1989)). But even if it was
not required to do so, the agency did perform such calculations using 40 C.F.R. § 194.105(b)(1), which
formed the basis for other conclusions about the effects of a spill. See id. at 12-13 (“[T]he Corps based
some of its analysis on an extremely pessimistic
“worst case discharge” figure derived from a Spill
Model Report prepared pursuant to PHMSA regulations.”). Expert critiques raising serious doubts about
the Corps’ application of 40 C.F.R. § 194.105(b)(1) cannot be resolved by the fact that the agency may not
have been required to use this particular method in
the first place. Such a rule would immunize vast
swaths of the Corps’ analysis from judicial or expert
review. Cf., e.g., Sierra Club v. Sigler, 695 F.2d 957,
966 (5th Cir. 1983) (“The purpose of judicial review
under NEPA is to ensure the procedural integrity of
the agency’s consideration of environmental factors in
the EIS and in its decision to issue permits. If the
agency follows a particular procedure, it is only logical
to review the agency’s adherence to that procedure,
not to some altogether different one that was not
used.”). Indeed, the Corps seemed to concede this at
oral argument. See Oral Arg. Tr. at 8:25-9:4 (“The
Court: . . . But since you did [a WCD analysis] here,
shouldn’t that analysis be subject to expert criticism?”
Mr. Schifman: “Yes. It is absolutely, just as any analysis that the Corps or any agency does is subject to
expert criticism in the appropriate comment period or
whatever the case may be. So, it was subject to that
criticism, the Corps evaluated the criticism in great

808a
depth . . . .”). The Court, therefore, will consider expert critiques of the agency’s calculation of the WCD
as valid as any other critique.
Both before the easement was issued and during
remand, experts raised myriad concerns with the
WCD used by the Corps to evaluate impacts of a potential DAPL spill. While there were many axes on
which the WCD was challenged, the Court will discuss
only three, finding them sufficient to illustrate the unresolved scientific criticisms posed by the Tribes’ experts.
i.

Leak-Detection Time

In addition to the concerns raised about whether
the leak-detection system would function as claimed
and that it was not designed to detect spills of less
than 1%, see supra Section III.A.2.a, experts also
voiced strong criticisms of how quickly the Corps
claimed the system would catch a spill in its WCD
analysis. Standing Rock’s remand report commented
that, while “[1]eak detection time is intended to be
part of the WCD calculation formula,” RAR 7502, “no
actual detection time was provided or utilized.” RAR
7501. (Recall that inclusion of detection time was also
one of the areas for improvement suggested by EPA in
its comment on the Draft EA. See USACE_DAPL
5746 (“recommend[ing] that the NEPA analysis describe . . . the time that would be required for detection and shutoff of the pipeline”).) Instead, “[t]he
DAPL calculation multiplied only the pump shutdown
time by the maximum flow rate and added the drain
down volume.” RAR 7501. And far from being instantaneous, several experts noted, the worst-case leakdetection time was likely to be quite long. See, e.g.,

809a
RAR 1347 (commenting that spills have been documented to continue undetected for “hours and sometimes weeks”); RAR 7689 (recommending that the
WCD “release time assumption” be increased to 8
hours to “reflect[] the actual (proven in use) performance of the Leak Detection System and the track
record of the pipeline operator to identify pipeline
leaks in remote locations such as the Lake Oahe pipeline crossing”); Accufacts Report at 8 (“There appears
to be considerable optimism in the EA in assuming a
quick recognition and response by control room personnel.”).
The Corps countered that, after “review[ing] the
Lake Oahe Crossing Report numerous times resulting
in numerous revisions by the applicant,” it had determined that the estimated total time for leak detection,
pump shutdown, and valve closure used in the WCD
was “12.9 minute[s].” RAR 254. This was “based on
the sum of the time to detect a break on the line and
shutdown pumps (9 minutes) and the time to close the
valves (3.9 minutes for standard valves).” Id. The
agency stated that the 9-minute portion, to which it
had previously referred only as the amount of time required to shut down mainline pumps, was in fact “not
limited to pump shutdown time as it already includes
1 minute for time of detection.” Id. The 1-minute figure was used because, “[a]ccording to ETP, the typical
time of detection for a WCD rupture is less than 1 minute.” Id.; see also RAR 126 (“According to ETP, the
LeakWarn CPM system is . . . capable of providing
rupture detection within 1 to 3 minutes.”); RAR 127
(same).
The Corps’ response does not resolve the issues
raised by the experts’ comments on many levels. To

810a
start, the Court finds it difficult to make sense of the
agency’s statement that its previous “reference to the
mainline pumps being shutdown within 9 minutes of
detection is not just limited to pump shutdown time
as it already includes 1 minute for time of detection.”
RAR 254 (emphasis added). The “reference” is in the
spill-model analysis prepared for Dakota Access by a
third-party private consultant. See RAR 14959-87.
There, the consultant explains that the numbers “utilized in the DAPL computer model” allow 12.9
minutes for “Detection and Shutdown*.” RAR 14967.
Below that, the asterisk is explained: “*The mainline
pumps are shutdown within 9 minutes of detection
and the adjacent block valves are completely closed
within an additional 3.9 minutes.” Id. Given that the
latter sentence is meant to explain the reference to
“Detection and Shutdown,” the Corps’ statement that
the 9 minutes include 1 minutes for detection appears
unsupported. The clear meaning of “within 9 minutes
of detection” is “9 minutes after detection.” At best,
the Corps’ statement that the 9 minutes included time
for detection requires more explanation.
But even if the Court accepted, arguendo, that the
WCD did allow one minute for detection of the rupture, this does not resolve the serious concerns noted
by experts about the propriety of using that number
to calculate the WCD. Most obviously, what DAPL’s
leak-detection system is “capable of,” RAR 126, 127, or
what its “typical” performance would be, see RAR 254,
are not necessarily the same as the figure that should
be used in calculating its “maximum release time.” 40
C.F.R. § 194.105(b)(1). The Corps itself betrays that
one minute is not the longest time it could take for a
full-bore rupture to be detected, since it admits that

811a
DAPL’s leak-detection system is “capable of providing
rupture detection within 1 to 3 minutes.” RAR 126,
127. The difference between one and three minutes is
not insignificant when speaking of a full-bore rupture:
the current maximum flow rate of the pipeline (only
half of its full capacity) is 600,000 barrels a day, which
translates to over 416 barrels per minute.
But the difference between the one-minute number used in the WCD and the actual maximum detection time may be much larger. In response to the
many experts who commented that hours, rather than
minutes, were more accurate figures for the WCD, the
Corps merely repeated that ETP had assured it that
DAPL’s system was capable of detecting a full-bore
rupture one to three minutes after it occurred. See
RAR 127, 205, 254. Of course, the fact that the system
is capable of detecting a leak in this time does not
mean that it will do so, only that it may. And in neither case does the one-to-three-minute timeframe
purport to be the maximum release time the WCD regulation requires and which the experts posited could
well be hundreds of times longer than ETP’s number.
ii. Shutdown Time
Once a leak is detected, the pipeline’s pumps must
be shut down in order to stop the flow of oil. In addition, valves help to “reduce the total volume of oil that
could be released in the event of a spill,” RAR 120, by
blocking already-pumped oil before it reaches the
point of a leak or rupture. DAPL has two such valves
near Lake Oahe; failure of these valves would cause
the discharge amount to skyrocket. See RAR 121.
Recall that the WCD regulations require calculation of “the maximum shutdown response time in

812a
hours (based on historic discharge data or in the absence of such historic data, the operator’s best estimate).” 40 C.F.R. § 194.105(b)(1). As noted above, the
Corps used a total time of 12.9 minutes for shutdown—9 minutes for the pumps and 3.9 minutes for
the valves. See RAR 254, 14967. (As discussed, the
9-minute figure may also include 1 minute for leak detection, thus leaving 8 minutes for pump shutdown.
See supra Section III.A.2.d.i.)
Holmstrom contended that the 12.9 (or possibly
11.9) minutes “from leak detection to the closing of the
shut-off valves lacks supporting data and is not credible.” Holmstrom Decl., ¶ 14. This number, he pointed
out, was “based on a ‘best case’ scenario in which all
systems function precisely as intended,” including
that “the correct decision and response is immediately
initiated, and all equipment such as controls, sensors,
pumps and valves function as intended.” Id., ¶ 11.
Such assumptions have no place in a worst-case scenario, experts said, since in reality “[m]ajor spill incidents typically occur with multiple system causes,
when people, or equipment, or systems do not function
exactly as they are expected to.” Id. By failing to consider such eventualities, which is the modern standard for major accident prevention, the model had not,
in fact, given a worst-case discharge analysis. Id.
The Corps responded to this criticism by stating
that the valves at Lake Oahe “have a closure time of
no greater than three (3) minutes.” RAR 155 (quoting
Final EA at 90); see RAR 236-37 (referring to RAR
155-59). The other parts of Holmstrom’s comment—
i.e., those identifying why assuming a perfect valveclosure time was unrealistic for a WCD—were omitted
from the Corps’ response to the relevant paragraph of

813a
his declaration. See RAR 236. In its limited answer,
moreover, the agency largely focused on the fact that
its WCD figure was lower than an earlier, non-WCD
spill-volume estimate made by Oglala’s expert. See
RAR 143-44; see also RAR 236 (referring to RAR 14344,151-55). It further explained that, “during the design process, ETP evaluated the potential for incorrect
operation and/or equipment failure at the . . . pump
stations[ and] mainline valves,” resulting in a design
that is “established to safeguard against incorrect operation using alarms and shutdowns to operate the
pipeline within the guidelines of [the PHMSA pipeline
regulations].” RAR 151.
The Corps’ responses are, again, inadequate. The
agency’s statement that it takes no more than three
minutes for the valve-closure process to occur, see
RAR 155 (quoting Final EA at 90), does not respond to
the fact that human or machine error might result in
the valves’ not beginning the closure process at all
(even after a leak has been detected). See Holmstrom
Decl., ¶ 11; see also Oral Arg. Tr. at 10:4-5 (“It does
assume the valves close as they are, you know, able to
do.”); id. at 10:25-11:2 (“[T]here’s no portion of the remand analysis that directly says here’s what happened [if] the valves never closed.”).
The Corps’ myopic preoccupation with the Earthfax estimate, moreover, which pervades its responses
to expert comments about flaws in the WCD, see RAR
143-44; see also RAR 155, 175, 213, 225, 226, 236, 237,
247, 248, 249, 251, 253, 257, 258, 261 (referring reader
to RAR 143-44 for discussion of WCD), is not the coup
de grace the agency believes it to be. The spill-volume
estimate provided by Earthfax, which responded to

814a
the July 2016 EA, was not intended as a WCD estimate, see Earthfax Report at 3, since the Tribes had
not yet been provided with the amount or supporting
calculations of the Corps’ WCD. See Final EA at 91
(USACE DAPL 71315) (stating only that it had determined “a largest possible release volume” “[b]ased on
a worst case discharge (WCD) scenario specific to . . .
Lake Oahe”). Even had Earthfax’s estimate been a
WCD estimate, the fact that it was lower than that
calculated by ETP and the Corps would not resolve the
many comments raising concrete disagreements
about factual assumptions underlying the numbers
used for the DAPL WCD.
Finally, that human error was considered in the
design of the pumps and/or valves does not mean that
it was considered in a worst-case-discharge analysis,
nor does the Corps so contend. The Court does not
understand the Corps to be claiming that the design
of the pipeline precludes all opportunities for human
error between detection of a leak and triggering of
valve closure such that it need never be considered
when determining a worst-case discharge. Indeed,
such a statement would recall assurances like “God
himself could not sink this ship” (RMS Titanic), or
“You’re confused, RBMK reactor cores don’t explode”
(Chernobyl). The Corps’ response, then, does not address the heart of the issue raised by experts—
namely, that the numbers used in the WCD assume,
contrary to the idea of a worst-case discharge, that
“correct decision and response is immediately initiated, and all equipment such as controls, sensors,
pumps and valves function as intended.” Holmstrom
Decl., ¶ 11.

815a
iii. Adverse Conditions
A third criticism of the worst-case-discharge calculation was that it did not comply with the portion of
the WCD regulation that defines a WCD as “the largest foreseeable discharge of oil . . . in adverse weather
conditions.” 49 C.F.R. § 194.5 (emphasis added); see
RAR 7503 (quoting same). Standing Rock’s remand
report expressed concern that “DAPL d[id] not address the adverse weather impact on the WCD for the
shutdown of the pipeline.” RAR 7503-04. In so doing,
the report continued, it ignored important complicating factors like “harsh ND winter conditions, deep
snow, ice cover limitations on oil spill sighting, extreme cold and availability and operation of the . . .
shutdown valves in extreme environments.” RAR
7504. The Corps did not respond to the first comment,
see RAR 253-54, and in response to the second, it referred to the WCD response that, as noted above, focuses on a non-WCD estimate provided by Earthfax.
See RAR 256 (referring to RAR 247-48, which in turn
refers to RAR 143-44). It also provided information on
equipment and personnel that are in place to respond
to emergency situations and stated that “ETP provided design temperature specifications to . . . manufacturers to ensure that both high- and low-temperature concerns would be considered in the manufacturing of those materials and equipment.” RAR 248.
As noted above, the Corps’ reference to its catchall WCD discussion that focuses largely on an Earthfax estimate does not move the needle. The fact that
DAPL manufacturers incorporated low-temperature
considerations into their designs runs into the same
problem as discussed in the previous section: assurances that a product was designed to prevent certain

816a
problems does not answer the question of what the
worst-case discharge would be if those problems occurred. Again, the Court cannot find that these rebuttals do away with the controversy created by expert
comments.
*

*

*

As shown at great length in the preceding analysis, the Corps has not “succeeded” in “resolv[ing] the
controversy” created by “consistent and strenuous opposition, often in the form of concrete objections to the
Corps’ analytical process and findings,” by “organizations with subject-matter expertise.” Semonite, 916
F.3d at 1086. As in Semonite, “[t]his demonstrates
the ‘something more’ needed to show that the ‘effects
on the quality of the human environment are likely to
be highly controversial.” Id. (quoting 40 C.F.R.
§ 1508.27(b)(4)). The Corps has thus violated NEPA
by determining that an EIS was unnecessary even
though one of the EIS-triggering factors was met.
The Court acknowledges that in projects of this
scope, it is not difficult for an opponent to find fault
with many conclusions made by an operator and relied
on by the agency. But here, there is considerably more
than a few isolated comments raising insubstantial
concerns. The many commenters in this case pointed
to serious gaps in crucial parts of the Corps’ analysis—to name a few, that the pipeline’s leak-detection
system was unlikely to work, that it was not designed
to catch slow spills, that the operator’s serious history
of incidents had not been taken into account, and that
the worst-case scenario used by the Corps was potentially only a fraction of what a realistic figure would
be—and the Corps was not able to fill any of them.

817a
The Court will therefore remand to the agency for
it to complete such EIS. See id. at 1082 (“Implicating
any one of the factors may be sufficient to require development of an EIS.”) (citing Grand Canyon Trust,
290 F.3d at 347); Grand Canyon Trust, 290 F.3d at
340 (“If any ‘significant’ environmental impacts might
result from the proposed agency action[,] then an EIS
must be prepared before agency action is taken.”)
(quoting Peterson, 717 F.2d at 1415).
3. Effect on Other Claims
Having directed the Corps to prepare an EIS because the pipeline’s “effects on the quality of the human environment are likely to be highly controversial,” 40 C.F.R. § 1508.27(b)(4), the Court need not discuss the other two NEPA issues on which it remanded,
see Standing Rock III, 255 F. Supp. 3d at 132-34, 13640, given that the remedy for them would be the same.
See Semonite, 916 F.3d at 1088 (remanding for preparation of EIS without discussing all grounds for appeal because, as here, “[i]n preparing its EIS, the
Corps [would] have to revisit” those issues in any case)
(citing American Iron & Steel Inst. v. EPA, 115 F.3d
979, 1008 (D.C. Cir. 1997)).
This holding also obviates examination of three
groups of consultation claims: (1) Yankton’s preserved
claim that the Corps violated its consultation duties
prior to granting the easement, see ECF No. 435-1
(Yankton Second MSJ) at 19-21; (2) Oglala’s similar,
also-preserved claim that the Corps did not consult
with it under the Mni Waconi Act prior to issuing the
EA and Mitigated FONSI; and (3) all Tribes’ claims
that the Corps violated its consultation duties during
remand. Id. at 22-24; ECF No. 433-2 (Standing Rock

818a
Second MSJ) at 39-45; ECF No. 434 (Oglala MSJ) at
16-17; ECF No. 436-1 (Cheyenne River Second MSJ)
at 18-22. This is because the Court has already found
the decisions on which they claim the Corps failed to
consult—that is, the EA, the Mitigated FONSI, and
the Remand Analysis—to be invalid. In other words,
a favorable holding by the Court on those other issues
would not change the result in this case or offer the
Tribes any greater relief than their success on the
“highly controversial” issue already has.
B. NHPA
Three of the Tribes also “ask[] the Court to revisit”
its prior holding that their claims under the National
Historic Preservation Act were moot. See Standing
Rock Second MSJ at 46-47; see also Yankton Second
MSJ at 19 (adopting this portion of Standing Rock’s
brief); Cheyenne River Second MSJ at 17-18 (same).
The Court so found because the construction of the
pipeline under and around Lake Oahe had been completed, thus inflicting all damage that could have been
enjoined by a successful NHPA claim. Standing Rock
V, 301 F. Supp. 3d at 61-64 (finding no “means by
which the Court can still grant Plaintiffs ‘meaningful
relief”) (quoting Sierra Club v. U.S. Army Corps of
Eng’rs, 803 F.3d 31, 44 (D.C. Cir. 2015)). The Tribes
now contend that, even if the claim is moot, it falls into
“an exception to the mootness doctrine for a controversy that is “capable of repetition, yet evading review.” Kingdomware Techs. v. United States, 136 S.
Ct. 1969, 1976 (2016) (quoting Spencer v. Kemna, 523
U.S. 1, 17 (1998)). The exception on which the Tribes
rely “applies ‘only in exceptional situations’ where (1)
‘the challenged action [is] in its duration too short to
be fully litigated prior to cessation of or expiration,’

819a
and (2) ‘there [is] a reasonable expectation that the
same complaining party [will] be subject to the same
action again.” Id. (alterations in original) (quoting
Spencer, 523 U.S. at 17). The parties here dispute
both parts of this test.
The Court need only address the second element
to find that this case does not qualify for the exception.
The Tribes argue that “the legal questions presented”
are “all but certain to arise again.” Standing Rock
Second MSJ at 47. Standing Rock’s Historic Preservation Office, it states, “receives over 250 requests to
consult with federal agencies annually, and participates in around 50,” including “other crude oil pipelines proposed in the Tribe’s ancestral homelands that
will need Corps permits.” Id. Because of this, the
Tribe states that “[i]t is possible, if not probable, that
such permitting would trigger the same dispute over
the scope of § 106 review [under the NHPA] that happened here.” Id.
The Tribes misconstrue the scope of the exception.
“The ‘wrong’ that is, or is not, ‘capable of repetition’
must be defined in terms of the precise controversy it
spawns.” PETA v. Gittens, 396 F.3d 416, 422 (D.C.
Cir. 2005). Here, that would not include all consultations with all agencies, as the Tribes suggest. Even
narrowing the scope to the other pipelines mentioned
by Standing Rock, the Tribe provides no evidence for
its bare assertion that the same NHPA issue may
arise in a hypothetical litigation over those pipelines.
Without any supporting facts, the Court cannot call
such a remote and unsubstantiated possibility a “reasonable expectation” that the same harm will befall
the Tribe again.

820a
In any event, even if the Tribes’ NHPA claims
were not moot, they would fail on the merits for the
reasons stated in the Court’s first Opinion in this case.
See Standing Rock I, 205 F. Supp. 3d at 8-10 (finding
Standing Rock unlikely to succeed on merits of its
NHPA claim). The Tribes attempt to resurrect only
one of the three NHPA issues considered in that Opinion—viz., whether the Corps used too narrow a scope
when evaluating whether DAPL would have an adverse effect on an identified historic property by “alleging], directly or indirectly, any of the characteristics of a historic property that qualify it for inclusion
in the National Register” under NHPA regulations.
Standing Rock I, 205 F. Supp. 3d at 10 (quoting 36
C.F.R. § 800.5(a)(1)). The Court found the scope to be
appropriate, rejecting the Tribes’ “sweeping claim
that the Corps was obligated in permitting this narrow activity—i.e., certain construction activities in
U.S. waterways—to consider the impact on potential
cultural resources from the construction of the entire
pipeline.” Id. at 30. Guided by highly relevant and
binding precedent, the Court refused to find “that a
federal agency with limited jurisdiction over specific
activities related to a pipeline is required to consider
all the effects of the entire pipeline to be the indirectly
or directly foreseeable effects of the narrower permitted activity.” Id. at 31; see also id. (citing Sierra Club
v. U.S. Army Corps of Eng’rs, 803 F.3d 31,34-35 (D.C.
Cir. 2015)).
The Court now affirms this holding at the summary-judgment stage, finding that the Tribes’ arguments lack merit for the same reasons stated in that
Opinion. See id. at 30-32. Even if correct that the

821a
controversy is not moot, Plaintiffs would not prevail
on this count.
C. Mni Waconi Act
Last up is the claim brought by Oglala under the
Mni Waconi Act of 1988, Pub. L. No. 100-516,102 Stat.
2566. (Mni wiconi means “water is life” in Lakota.)
The Act declares that “the United States has a trust
responsibility to ensure that adequate and safe water
supplies are available to meet the economic, environmental, water supply, and public health needs of the
Pine Ridge Indian Reservation,” id. § 2(a)(4), which is
home to the Oglala Sioux Tribe. It directs the Secretary of the Interior to, among other things, “plan, design, construct, operate, maintain, and replace a municipal, rural, and industrial water system, to be
known as the Oglala Sioux Rural Water Supply System.” Id. § 3(a). The Act further provides that “[t]itle
to the [OSRWSS] shall be held in trust for the Oglala
Sioux Tribe by the United States.” Id. § 3(e) . After
the passage of the Act, the Corps duly created the
OSRWSS as part of the Mni Waconi Project. The
OSRWSS has its water intake 205 miles down the
Missouri River from where DAPL now crosses Lake
Oahe. See RAR 92; USACE_ESMT 1358-59.
Oglala argues that the Act imposes a continuing
fiduciary duty on the Corps to “provid[e] clean drinking water to residents of the Reservation and ensur[e]
that the OSRWSS is maintained and preserved for
that purpose and others,” Oglala MSJ at 14, and that
by failing to consider the effects of the pipeline’s Lake
Oahe crossing on the Mni Waconi Project, the United
States (through the agency) has breached that duty.
The Corps rejoins that Oglala overstates the scope of

822a
the trust duty, that any duty was not breached by the
approval of a project so far upstream from the
OSRWSS, and that any breach of duty was remediated during the remand. The Court will first consider
the nature of the duty owed to Oglala before taking up
whether there has been a violation of such duty.
As the Court has had occasion to note previously
in this case, “The trust obligations of the United
States to the Indian tribes are established and governed by statute rather than the common law.”
Standing Rock III, 255 F. Supp. 3d at 143 (alteration
omitted) (quoting United States v. Jicarilla Apache
Nation, 564 U.S. 162, 165 (2011)). In order to bring a
breach-of-trust claim, therefore, Oglala “must identify
a substantive source of law that establishes specific
fiduciary or other duties, and allege that the Government has failed faithfully to perform those duties.”
United States v. Navajo Nation, 537 U.S. 488, 506
(2003). It is not enough that a statute places land in
trust for the benefit of a tribe—it must also impose a
“correlative duty of management” over the trust corpus in order to give rise to a cause of action. El Paso
Natural Gas Co. v. United States, 750 F.3d 863, 897
(D.C. Cir. 2014).
The parties agree that the Mni Waconi Act does
impose a trust duty on the United States, see ECF No.
450 (Corps Opp. to Oglala MSJ) at 7, but they disagree
as to the scope of that duty. Whereas the Tribe believes that the Act’s direction to “maintain . . . a municipal, rural, and industrial water system,” § 3(a)
(emphasis added), requires the Corps to continue to
provide “adequate and safe water supplies” for the
reservation, id. § 2(a)(4), the agency argues that this

823a
duty is “cabined by limited Congressional appropriations” as set out in the Act. See Corps Opp. to Oglala
at 7 (citing Mni Waconi Act § 10(a)—(b)). Rather than
creating a “perpetual trust obligation,” the Corps argues, the Act limits any duty to the activities for which
it provides funding. Id. at 8; see also id. at 7 (citing
Cobell v. Salazar, 573 F.3d 808, 811 (D.C. Cir. 2009);
then citing Mni Waconi Act § 6(b)).
The Court need not determine the precise contours of the United States’ trust duty toward Ogalala
with respect to the OSRWSS because, regardless of
scope, the Corps has not breached that duty by granting an easement under Lake Oahe for DAPL. The
Tribe does not dispute that, at present, the OSRWSS
does constitute an “adequate and safe water suppl[y].”
Mni Waconi Act § 2(a)(4). The possibility of a future
spill, which this Court has accepted is low, see Standing Rock III, 255 F. Supp. 3d at 127, does not render
the drinking water inadequate and the Government’s
duty breached. This is particularly true since the
OSRWSS takes its water from a point 205 miles downstream from where DAPL passes under Lake Oahe.
See RAR 92; USACE_ESMT 1358-59.
The Tribe rejoins that the Corps owed it a fiduciary duty to consider the impacts of the Lake Oahe
crossing on the Mni Waconi Project. See Oglala MSJ
at 13 (citing Nw. Sea Farms Inc. v. U.S. Army Corps
of Eng’rs, 931 F. Supp. 1515, 1520 (W.D. Wash 1996);
then citing Muckleshoot Indian Tribe v. Hall, 698 F.
Supp. 1504, 1523 (W.D. Wash 1988)). But the cases it
cites, which in any case are not binding on this Court,
discuss treaty rights, not statutory rights, and only
the latter are at issue here. Even if there were a duty

824a
to consider the project’s effects on the OSRWSS, moreover, the Court agrees with the Corps that, at the very
least, it has done so during the remand. See, e.g., RAR
94 (finding the OSRWSS unlikely to be affected because of the predicted “near zero” concentration of hydrocarbons in water many miles upstream of the
OSRWSS intake), 95 tbl.II-6 (listing predicted hydrocarbon concentrations at increasing points downstream of the DAPL crossing). The Court, accordingly, finds that the Corps has adequately performed
any fiduciary duty imposed by the Mni Waconi Act.
D. Remedy
The Corps must prepare an EIS, but what is the
status of the easement—and, ultimately, the oil—in
the meantime? As it has done before in this case, the
Court will order the parties to brief the issue of
whether the easement should be vacated during the
remand. See Standing Rock III, 255 F. Supp. 3d at
147-48. Certainly, “vacating a rule or action promulgated in violation of NEPA is the standard remedy.”
Humane Soc’y of U.S. v. Johanns, 520 F. Supp. 2d 8,
37 (D.D.C. 2007) (citing Am. Bioscience, Inc. v.
Thompson, 269 F. 3d 1077, 1084 (D.C. Cir. 2001)). Because “[s]uch a move” would “carry serious consequences that a court should not lightly impose,”
Standing Rock III, 255 F. Supp. 3d at 147, the Court
will ask the parties for dedicated briefing on the subject, which neither side addressed with much conviction in this round of briefing. As before, “[t]his is not
surprising—absent knowledge of whether or to what
extent the Court would remand, the parties were unable to fully address the Allied-Signal factors in their
summary-judgment briefs.” Id. (citing Allied-Signal,
Inc. v. U.S. Nuclear Regulatory Comm’n, 988 F.2d

825a
146, 150-51 (D.C. Cir. 1993)). The Court will therefore
allow the parties to argue the issue of vacatur with the
benefit of knowing the basis for remand set out above.
IV. Conclusion
For the foregoing reasons, the Court will grant in
part and deny in part the Tribes’ Motions for Summary Judgment and grant in part and deny in part
the Corps’ corresponding Cross-Motion for Summary
Judgment. A contemporaneous Order so stating will
issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: March 25, 2020

826a
____________________
APPENDIX H
____________________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
STANDING ROCK SIOUX
TRIBE, et al.,
Plaintiffs,
and
CHEYENNE RIVER SIOUX
TRIBE, et al.,
Plaintiff-Intervenors,
v.

Civil Action No.
16-1534 (JEB)

U.S. ARMY CORPS OF
ENGINEERS,
Defendant,
and
DAKOTA ACCESS, LLC,
Defendant-Intervenor.
MEMORANDUM OPINION
Lake Oahe is a large reservoir lying behind a dam
on the Missouri River and stretching between North
and South Dakota. Fearing severe environmental
consequences, American Indian Tribes on nearby reservations have sought for several years to invalidate
federal permits allowing the Dakota Access Pipeline
to carry oil under the lake. Today they finally achieve
that goal—at least for the time being.

827a
Following multiple twists and turns in this longrunning litigation, this Court recently found that Defendant U.S. Army Corps of Engineers had violated
the National Environmental Policy Act when it
granted an easement to Defendant-Intervenor Dakota
Access, LLC to construct and operate a segment of
that crude-oil pipeline running beneath the lake. This
was because the Corps had failed to produce an Environmental Impact Statement despite conditions that
triggered such a requirement. The Court consequently remanded the case to the agency to prepare
such an EIS, but it asked for separate briefing on the
appropriate interim remedy. In other words, the
Court asked the parties whether the easement should
be vacated and the pipeline emptied during the remand process. Although mindful of the disruption
such a shutdown will cause, the Court now concludes
that the answer is yes. Clear precedent favoring vacatur during such a remand coupled with the seriousness of the Corps’ deficiencies outweighs the negative
effects of halting the oil flow for the thirteen months
that the Corps believes the creation of an EIS will
take.
I.

Background

The Court recounts here only the background information necessary to set the stage for the remedy
analysis. For the full history of this case, the interested reader can refer to the Court’s ten prior Opinions in this matter. See, e.g., Standing Rock Sioux
Tribe v. U.S. Army Corps. of Eng’rs (Standing Rock
III), 255 F. Supp. 3d 101, 114-16 (D.D.C. 2017); see
also ECF Nos. 39, 158, 206, 239, 284, 304, 392, 418,
496. The Court begins with the relevant statute and
then describes the procedural history of the litigation.

828a
A. Statutory Scheme
The National Environmental Policy Act requires
agencies to “consider every significant aspect of the
environmental impact of a proposed action,” Balt. Gas
& Elec. Co. v. NRDC, 462 U.S. 87, 97 (1983) (quoting
Vt. Yankee Nuclear Power Corp v. NRDC, 435 U.S.
519, 553 (1978)), so as to “inform the public that it has
indeed considered environmental concerns in its decisionmaking process.” Id. (citing Weinberger v. Catholic Action of Haw., 454 U.S. 139, 143 (1981)). In order
to achieve these goals, NEPA imposes on agencies certain procedural requirements, Citizens Against Burlington, Inc. v. Busey, 938 F.2d 190, 193-94 (D.C. Cir.
1991), but it “does not mandate particular consequences.” Id. at 194.
First, an agency must draft an Environmental Assessment, see 40 C.F.R. § 1501.4(b), that “[b]riefly
provide[s] sufficient evidence and analysis for determining whether to prepare an environmental impact
statement [EIS] or a finding of no significant impact
[FONSI].” Id. § 1508.9(a). “If any ‘significant’ environmental impacts might result from the proposed
agency action[,] then an EIS must be prepared before
agency action is taken.” Grand Canyon Trust v. FAA,
290 F.3d 339, 340 (D.C. Cir. 2002) (quoting Sierra
Club v. Peterson, 717 F.2d 1409, 1415 (D.C. Cir.
1983)); see also 42 U.S.C. § 4332(2)(C) (requiring
statement of environmental impact of any proposed
action “significantly affecting the quality of the human environment”). If, on the other hand, the agency
determines that no EIS is required, it must prepare
either a FONSI or a Mitigated FONSI, depending on
whether the lack of significant impact results from an
agency’s commitment to mitigation measures. See 40

829a
C.F.R. §§ 1501.4(e), 1508.13; Council on Environmental Quality, Appropriate Use of Mitigation and Monitoring and Clarifying the Appropriate Use of Mitigated Findings of No Significant Impact 2, 7 (2011),
https://ceq.doe.gov/docs/ceq-regulations-and-guidance
/Mitigation_and_Monitoring_Guidance_14Jan2011.pdf.
In order to determine whether its actions may result in “significant” environmental impacts—and
therefore whether it must prepare an EIS—an agency
must examine both the “context” and the “intensity”
of the action. See 40 C.F.R. § 1508.27. [I]n evaluating
intensity,” the agency must consider ten factors, id.
§ 1508.27(b), only one of which is relevant here. “Implicating any one of the[se] factors may be sufficient
to require development of an EIS.” Nat’l Parks Conservation Ass’n v. Semonite, 916 F.3d 1075, 1082
(D.C. Cir. 2019) (citing Grand Canyon Trust, 290 F.3d
at 347). The decision here turned on the fourth of
these factors—”[t]he degree to which the effects on the
quality of the human environment are likely to be
highly controversial.” 40 C.F.R. § 1508.27(b)(4).
Effects are “controversial” where “substantial dispute exists as to the size, nature, or effect of the major
federal action rather than to the existence of opposition to a use.” Town of Cave Creek v. FAA, 325 F.3d
320, 331 (D.C. Cir. 2003) (emphasis omitted) (quoting
Found. for N. Am. Wild Sheep v. USDA, 681 F.2d
1172, 1182 (9th Cir. 1982)). While “what constitutes
the type of ‘controversy’ that requires a full EIS is not
entirely clear,” Nat’l Parks Conservation Ass’n v.
United States, 177 F. Supp. 3d 1, 33 (D.D.C. 2016)
(quoting Nat’l Wildlife Fed’n v. Norton, 332 F. Supp.
2d 170, 184 (D.D.C. 2004)), “something more is required besides the fact that some people may be highly

830a
agitated and be willing to go to court over the matter.”
Id. (quoting Fund for Animals v. Frizzell, 530 F.2d
982, 988 n.15 (D.C. Cir. 1975)).
B. Procedural History
This case involves efforts by several American Indian Tribes to enjoin Defendant United States Army
Corps of Engineers from permitting Defendant-Intervenor Dakota Access, LLC to constructe and operate a
segment of its oil pipeline under Lake Oahe, which
lies on the Missouri River. In 2016, Plaintiff Standing
Rock Sioux Tribe filed its Complaint in this Court, followed shortly by Plaintiff-Intervenor Cheyenne River
Sioux Tribe and later by Plaintiffs Oglala and Yankton Sioux Tribes, the latter two in cases that have now
been consolidated into the present one. Standing
Rock Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing Rock VI), No. 16-1534, 2020 WL 1441923, at *3
(D.D.C. Mar. 25, 2020). Early on, both Standing Rock
and Cheyenne River were unsuccessful in seeking preliminary injunctions under the National Historic
Preservation Act and the Religious Freedom Restoration Act. Standing Rock Sioux Tribe v. U.S. Army
Corps of Eng’rs (Standing Rock II), 239 F. Supp. 3d
77, 100 (D.D.C. 2017); Standing Rock Sioux Tribe v.
U.S. Army Corps of Eng’rs (Standing Rock I), 205 F.
Supp. 3d 4, 37 (D.D.C. 2016). In between these two
Opinions, the Corps “announced that DAPL construction would be suspended pending the Corps’ reconsideration of its statutory obligations” under NEPA.
Standing Rock VI, 2020 WL 1441923, at *3. A few
months later, however, following the change of administration in January 2017 and a presidential memorandum urging acceleration of the project, the Corps
again reconsidered and decided to move forward. Id.

831a
It granted the sought permit, construction was completed, and oil commenced flowing through the Dakota Access Pipeline. Standing Rock III, 255 F. Supp.
3d at 120.
Undeterred, later in 2017, Standing Rock and
Cheyenne River switched focus and “sought summary
judgment under [the National Environmental Policy
Act], arguing that the Corps was required to prepare
an [Environmental Impact Statement], and Defendants similarly cross-moved.” Standing Rock VI, 2020
WL 1441923, at *4. The Court found that the Corps’
decision “not to issue an EIS largely complied with
NEPA,” but three “substantial exceptions” to that
compliance necessitated a remand. Standing Rock III,
255 F. Supp. 3d at 147. Specifically, the Court “found
wanting the Corps’ analysis of: (1) whether the project’s effects were likely to be highly controversial;
(2) the impact of an oil spill on the Tribe’s fishing and
hunting rights under the Treaty of 1851; and
(3) ’whether,’ under a required environmental-justice
analysis, ‘Standing Rock would be disproportionately
harmed by a spill.” Standing Rock VI, 2020 WL
1441923, at *5 (citations omitted) (quoting Standing
Rock III, 255 F. Supp. 3d at 140). This raised the significant question of whether the permit should be vacated—and the oil flow arrested—during the remand.
In a subsequent Opinion, the Court declined to so order, finding that there was a “serious possibility’ that
the Corps w[ould] be able to substantiate its prior conclusions.” Standing Rock Sioux Tribe v. U.S. Army
Corps of Eng’rs (Standing Rock IV), 282 F. Supp. 3d
91,109 (D.D.C. 2017).

832a
During the remand, which stretched on for well
over a year, the D.C. Circuit “issued a significant opinion clarifying a court’s role in reviewing an agency’s
finding that a project was not ‘highly controversial.”
Standing Rock VI, 2020 WL 1441923, at *7. In Semonite, that court held that it was not sufficient for
an agency to simply “acknowledge and try to address
concerns raised during the NEPA process.” 916 F.3d
at 1085 (emphasis added). “The question is not
whether the Corps attempted to resolve the controversy, but whether it succeeded.” Id. at 1085-86. Because the Corps in that case had failed to resolve the
scientific controversy raised by expert and agency
comments, the Semonite court found that it had been
wrong to choose not to prepare an EIS and remanded
for such action. Id. at 1087-88.
After the remand in this case was completed, the
parties again cross-moved for summary judgment.
Realizing that Semonite guided both “the nature and
scope of [this Court’s] review,” Standing Rock VI, 2020
WL 1441923, at *8; see id. at *6-8 (detailing reasons
for following Semonite), the Court conducted a detailed analysis of some of the many expert critiques of
the environmental effects of the proposed project. Id.
at *8-16 (discussing leak-detection system, operator
safety record, winter conditions, and worst-case discharge). Ultimately, “even this non-extensive selection suffice[d] to show the necessity of an EIS.” Id. at
*9. The Court found that “the Corps ha[d] not ‘succeeded’ in ‘resolv[ing] the controversy’ created by ‘consistent and strenuous opposition, often in the form of
concrete objections to the Corps’ analytical process
and findings,’ by ‘organizations with subject-matter
expertise.’” Id. at *16 (second alteration in original)

833a
(quoting Semonite, 916 F.3d at 1086). As in Semonite,
“[t]his demonstrate[d] the ‘something more’ needed to
show that the ‘effects on the quality of the human environment are likely to be highly controversial.” Id.
(first alteration in original) (quoting Semonite, 916
F.3d at 1086). “The Corps ha[d] thus violated NEPA
by determining that an EIS was unnecessary even
though one of the EIS-triggering factors was met.” Id.
While there were two remaining NEPA topics—
other than the “highly controversial” factor—that had
formed the basis for the Court’s first remand, it found
no need to reach them, since the remedy for any finding in the Tribes’ favor would be the same—viz., an
EIS—and such EIS would require consideration of
them in any case. Id. After disposing of a handful of
other, non-NEPA issues, id. at *16-19, the Court again
“remand[ed] to the agency for it to complete such EIS.”
Id. at *16 (citing Semonite, 916 F.3d at 1082; then citing Grand Canyon Trust, 290 F.3d at 340). It asked
for separate briefing, however, on “the status of the
easement—and, ultimately, the oil—in the meantime.” Id. at *19. Unsurprisingly, the Tribes have argued for vacatur of the permits, Defendants have opposed, and each side is joined by an army of amici. See
ECF Nos. 504, 514-19, 521, 532-33, 537. With the benefit of this bountiful briefing, the Court is now prepared to rule as to vacatur.
II. Legal Standard
“The ordinary practice is to vacate unlawful
agency action.” United Steel v. Mine Safety & Health
Admin., 925 F.3d 1279, 1287 (D.C. Cir. 2019) (citing 5
U.S.C. § 706(2)); accord FCC v. NextWave Personal
Comms. Inc., 537 U.S. 293, 300 (2003) (“In all cases

834a
agency action must be set aside if the action . . . failed
to meet statutory, procedural, or constitutional requirements.”) (quoting Citizens to Preserve Overton
Park, Inc. v. Volpe, 401 U.S. 402, 413-14 (1971)). Vacatur is also the “standard remedy” in this Circuit for
an “action promulgated in violation of NEPA.” Humane Soc’y of U.S. v. Johanns, 520 F. Supp. 2d 8, 37
(D.D.C. 2007) (citing Am. Bioscience, Inc. v. Thompson, 269 F.3d 1077, 1084 (D.C. Cir. 2001)); see Reed v.
Salazar, 744 F. Supp. 2d 98, 118-20 (D.D.C. 2010)
(finding NEPA violation and ordering vacatur); Sierra
Club v. Van Antwerp, 719 F. Supp. 2d 77, 78-80
(D.D.C. 2010) (finding NEPA violation and ordering
remand with partial vacatur); Greater Yellowstone
Coal. v. Kempthorne, 577 F. Supp. 2d 183, 204-05, 210
(D.D.C. 2008) (finding NEPA violation and ordering
vacatur); see also Pub. Emps. for Envtl. Responsibility
v. U.S. Fish & Wildlife Serv., 189 F. Supp. 3d 1, 2
(D.D.C. 2016) (surveying “cases in this district” and
noting “the primacy of vacatur to remedy NEPA violations”).
Although vacatur may be the “presumptively appropriate remedy,” Sierra Club, 719 F. Supp. 2d at 78,
it is not the only option. Instead, as equity requires,
the reviewing court has discretion to leave the agency
action in place. See, e.g., Advocates for Highway &
Auto Safety v. Fed. Motor Carrier Safety Admin., 429
F.3d 1136, 1151 (D.C. Cir. 2005) (declining to vacate
vehicle-safety rule found arbitrary and capricious under APA); Int’l Union, United Mine Workers of Am. v.
Fed. Mine Safety & Health Admin., 920 F.2d 960, 96667 (D.C. Cir. 1990) (same for mine-safety rule). Indeed, that is precisely what this Court did last time
around. See Standing Rock IV, 282 F. Supp. 3d at 109.

835a
In Allied-Signal v. United States Nuclear Regulatory Commission, 988 F.2d 146 (D.C. Cir. 1993), the
court laid out the operative test for whether to vacate
a deficient agency action during remand. First, a
court must consider “the seriousness of the order’s deficiencies (and thus the extent of doubt whether the
agency chose correctly).” Id. at 150 (quoting Int’l Union, 920 F.2d at 967). Second, it analyzes “the disruptive consequences of an interim change that may itself
be changed.” Id. at 150-51 (quoting Int’l Union, 920
F.2d at 967). “Because vacatur is the default remedy,
. . . defendants bear the burden to prove that vacatur
is unnecessary.” Nat’l. Parks Conservation Ass’n v.
Semonite, 422 F. Supp. 3d 92, 99 (D.D.C. 2019).
III. Analysis
The Court analyzes each prong of the Allied-Signal test separately, keeping in mind that “[t]here is no
rule requiring either the proponent or opponent of vacatur to prevail on both factors.” Shands Jacksonville
Med. Ctr. v. Burwell, 139 F. Supp. 3d 240, 270 (D.D.C.
2015). It ultimately concludes that shutting down the
pipeline is warranted.
A. Seriousness of Deficiencies
Unlike the Court’s last Opinion on remedy in this
case, the first Allied-Signal prong is quite straightforward here. The Court’s task in considering this first
factor is to determine whether there is “a significant
possibility that the [agency] may find an adequate explanation for its actions” on remand. Williston Basin
Interstate Pipeline Co. v. FERC, 519 F.3d 497, 504
(D.C. Cir. 2008) (citing Allied-Signal, 988 F.2d at 15051); accord Nat’l Parks Conservation Ass’n v. Jewell,
62 F. Supp. 3d 7, 20 (D.D.C. 2014) (“[R]emand without

836a
vacatur is appropriate where ‘there is at least a serious possibility that the [agency] will be able to substantiate its decision on remand.”) (second alteration
in original) (quoting Allied-Signal, 988 F.2d at 151).
In its prior remedy Opinion, this Court went through
the three topics to be covered on remand in significant
detail, see Standing Rock IV, 282 F. Supp. 3d at 97103, finding in each case that the Corps was likely to
be able to “substantiate its prior decision to issue an
EA.” Id. at 100 (fishing and hunting rights); see also
id. at 99 (highly controversial); id. at 102 (environmental justice).
Now, however, that decision has been weighed, it
has been measured, and it has been found wanting.
The Court’s March 2020 Opinion examined the first of
the three remand topics—namely, whether the effects
were highly controversial—and found definitively
that, notwithstanding the Court’s earlier optimism,
the Corps had not been able to substantiate its decision to publish only an EA and not an EIS:
As shown at great length in the preceding
analysis, the Corps has not “succeeded” in
“resolv[ing] the controversy” created by “consistent and strenuous opposition, often in the
form of concrete objections to the Corps’ analytical process and findings,” by “organizations with subject-matter expertise.” As in
Semonite, “[t]his demonstrates the ‘something more’ needed to show that the ‘effects
on the quality of the human environment are
likely to be highly controversial.’” The Corps
has thus violated NEPA by determining that
an EIS was unnecessary even though one of
the EIS-triggering factors was met.

837a
Standing Rock VI, 2020 WL 1441923, at *16 (alterations in original) (citations omitted) (quoting Semonite, 916 F.3d at 1086). There is no longer any question
of the Corps being able to justify its choice.
In such a circumstance, Circuit precedent overwhelmingly dictates that vacatur is appropriate. That
court routinely vacates agency action when remanding for preparation of an EIS, and often without discussion. See, e.g., Sierra Club v. FERC, 867 F.3d
1357, 1379 (D.C. Cir. 2017) (vacating agency approval
of interstate natural-gas pipelines); Am. Wild Horse
Preservation Campaign v. Perdue, 873 F.3d 914, 932
(D.C. Cir. 2017) (vacating Forest Service decision to
eliminate 23,000 acres of wild horse territory); see
also Sierra Club v. U.S. Army Corps of Eng’rs, 803
F.3d 31, 43 (D.C. Cir. 2015) (“If the NEPA analysis
were legally inadequate, ‘we could order that the
[pipeline] be closed or impose restrictions on its use,’
at least on federally authorized segments, ‘until [the
agencies] complied with NEPA.’”) (alterations in original) (quoting Airport Neighbors All., Inc. v. United
States, 90 F.3d 426, 429 (10th Cir. 1996)). When vacatur is discussed, the seriousness of a failure to produce an EIS under NEPA is emphasized. See, e.g.,
Oglala Sioux Tribe v. U.S. Nuclear Regulatory
Comm’n, 896 F.3d 520, 536 (D.C. Cir. 2018) (“The seriousness of the NEPA deficiency is particularly clear
here because the point of NEPA is to require an adequate EIS before a project goes forward . . . .”).
In fact, to the Court’s and the parties’ knowledge,
only twice has a court (once the Circuit, once the district court here) not vacated agency action that violated NEPA because of a missing or defective EIS. Defendants attempt to hang their hat on these cases, but

838a
to no avail. In both, the second prong of the AlliedSignal test, but not the first, weighed in favor of remand without vacatur, leading those courts to find
that the scales tipped toward the agency. See id.; Semonite, 422 F. Supp. 3d at 99-100 (“[T]he seriousness
of the defect is significant. If the first Allied-Signal
factor were the only consideration, the standard remedy [of vacatur] would likely apply.”); id. at 103 (“For
all of these reasons, the second Allied-Signal factor
forces the Court to conclude that vacating the permit
would be inappropriate.”). That second factor will be
analyzed presently, see infra Section III.B, and the
Court will revisit these two cases at that time. As to
this first prong, however, both decisions strongly support the Court’s conclusion here.
Defendants and Defendant-Intervenor next argue
that, instead of focusing on the Corps’ decision not to
prepare an EIS, the Court should be analyzing
whether “the Corps will likely substantiate its substantive easement decision.” ECF No. 507 (Corps
Remedy Brief) at 7 (emphasis added); see ECF No.
509-1 (DA Remedy Brief) at 14 (“The Corps’ key premises for granting the easement . . . remain intact, and
they strongly suggest that the Corps will be able to
reach the same top-line conclusion on remand.”).
They maintain that focusing on the EIS decision
“would render the first part of th[e Allied-Signal] test
surplusage,” since it suggests that any agency action
that is invalid for failure to produce an EIS will always flunk this first prong of the vacatur test. See
ECF No. 536 (Corps Remedy Reply) at 5; see ECF No.
541 (DA Remedy Reply) at 9 (arguing that focusing on
the EIS “alter[s] that prong such that it could never
apply in NEPA cases like this”). Instead, they would

839a
have the Court evaluate their ability in an EIS to remedy the specific areas of concern stated in its prior
Opinion. They thus spill considerable ink rehashing
the merits of the Court’s prior Opinions. See, e.g., DA
Remedy Br. at 19-31 (arguing in great detail why
Corps will be able to “easily address the four discrete
issues that this Court found ‘highly controversial,’ id.
at 19); Corps Remedy Br. at 10-14 (arguing that pipeline’s Mineral Leasing Act easement is valid for the
reasons argued in first round of summary judgment).
To the extent that Defendants complain that the
“seriousness” of an agency’s failure to produce an EIS
under NEPA is a foregone conclusion, they are taking
issue with the caselaw in this Circuit, as just explained. See also Dep’t of Transp. v. Pub. Citizen, 541
U.S. 752,757 (2004) (describing EIS as being gait the
heart of NEPA”). But the magnitude of those shortcomings is even clearer here, where the Court had the
benefit of a second round of summary-judgment briefing to determine that the defects in the EA were, in
fact, too serious to be ignored. See generally Standing
Rock VI, 2020 WL 1441923. The Court determined in
March of this year that these infirmities were so significant as to merit the preparation of an Environmental Impact Statement, id. at *16, and, as just explained, an EIS failure under NEPA is considered a
very serious deficiency in this Circuit. The Court’s focus on the EIS, rather than on the entire easement
decision, is in fact supported by one of the aforementioned two cases on which Defendants rely. See Semonite, 422 F. Supp. 3d at 99 (“Looking at the first
Allied-Signal factor, the Court does not assess the deficiency of the ultimate decision itself—the choice to

840a
issue the permit—but rather the deficiency of the determination that an EIS was not warranted.”) (emphasis added).
Defendants’ argument, moreover, betrays what
appears to be a misunderstanding of their obligations
going forward. The time for justifying the Environmental Assessment has passed—the Court has ordered an Environmental Impact Statement, and another limited remand analysis will not fit the bill.
Contra DA Remedy Br. at 14 (arguing that task on remand is to address only “four areas of criticism pertaining to one remand topic”). Indeed, the Court explicitly did not reach the other two remand topics because “the remedy for them would be the same,” and
“[i]n preparing its EIS, the Corps [would] have to revisit’ those issues in any case.” Standing Rock VI,
2020 WL 1441923, at *16 (alterations in original)
(quoting Semonite, 916 F.3d at 1088). Contra Corps
Remedy Br. at 10 (“[T]he Court found no fault with
the Corps’ consideration of environmental justice or of
the impacts to the Tribes’ treaty hunting and fishing
rights . . . .”).
An EIS, it is important to remember, is a separate
regulatory beast, with its own requirements. See, e.g,
Taxpayers of Mich. Against Casinos v. Norton, 433
F.3d 852, 857 (D.C. Cir. 2006) (describing EIS as “detailed” and “comprehensive”). The fact that the Corps
has submitted a detailed EA does not minimize its obligations when preparing that EIS. See Anderson v.
Evans, 371 F.3d 475, 494 (9th Cir. 2004) (“No matter
how thorough, an EA can never substitute for preparation of an EIS, if the proposed action could significantly affect the environment.”). Compare 40 C.F.R.
§ 1501.4 (laying out considerations for “whether to

841a
prepare an environmental impact statement”), with
40 C.F.R. §§ 1502.1-1502.24 (laying out requirements
for environmental impact statement). Contra DA
Remedy Br. at 10 (arguing that Corps can “continue
to rely largely, if not exclusively, on its prior analysis”). The Corps must perform a full and complete EIS
for the entire project, potentially subject to the full
scope of judicial review normally applied to environmental impact statements. See, e.g., 40 C.F.R.
§ 1502.14 (comparison of environmental impacts of alternatives to proposed agency project “is the heart of
the environmental impact statement”); Sierra Club,
867 F.3d at 1371-72 (discussing agency’s duty in preparing EIS to consider indirect environmental effects
of pipeline operations).
In sum, the first Allied-Signal factor weighs entirely in favor of vacatur. The Court has had ample
opportunity to consider the serious deficiencies in the
Corps’ decision not to prepare an EIS, see Standing
Rock VI, 2020 WL 1441923, at *8-16, and it finds no
“possibility that the [agency] may find an adequate explanation for its actions.” Williston Basin Interstate
Pipeline, 519 F.3d at 504; see Allied-Signal, 988 F.2d
at 151.
B. Disruptive Consequences
The second Allied-Signal factor is less straightforward here than the first. At issue are “the disruptive
consequences of vacating,” 988 F.2d at 151, particularly those that threaten to “set back’ the Act’s objective[s].” Am. Bankers Ass’n v. Nat’l Credit Union Admin., 934 F.3d 649, 674 (D.C. Cir. 2019); accord Envtl.
Def. Fund, Inc. v. EPA, 898 F.2d 183, 190 (D.C. Cir.

842a
1990) (remanding without vacatur when no party requested to vacate and doing so would defeat “the enhanced protection of the environmental values covered by the [Clean Air Act]”). Courts may choose “not
[to] vacate regulations when doing so would risk significant harm to the public health or the environment.” Wisconsin v. EPA, 938 F.3d 303, 336 (D.C. Cir.
2019) (citing Allied-Signal, 988 F.2d at 150-51).
1.

Economic Disruption

Dakota Access’s central and strongest argument
as to the second Allied-Signal prong is that shutting
down the pipeline would cause it, and the industries
that rely on it, significant economic harm, including
substantial job losses. See, e.g., DA Remedy Br. at 32
(stating that shutdown would “pose an existential
threat to DAPL” due to “massive” revenue loss). It
submits declarations stating that DAPL could lose as
much as $643 million in the second half of 2020 and
$1.4 billion in 2021 if shut down pursuant to the
Court’s order. See ECF No. 509-9 (Declaration of
Glenn Emery), ¶ 10. “All of these financial losses
would be absorbed by the owners of Dakota Access,”
particularly Energy Transfer Partners, the current
parent company of DAPL after a merger with Sunoco.
See DA Remedy Br. at 33; Standing Rock VI, 2020 WL
1441923, at *10.
In addition, both Dakota Access and many amici
argue, shutting the pipeline down would have serious
repercussions for the entire North Dakota oil industry. “There is no viable pipeline alternative for transporting the 570,000 barrels of Bakken crude that
DAPL is capable of carrying each day,” Dakota Access
states, and railroads do not have the capacity “to fill

843a
the breach.” DA Remedy Br. at 35-36; see ECF No.
504 (Amicus Brief of State of North Dakota) at 11 (“An
increase in crude by rail volumes sufficient to offset
current pipeline deliveries by DAPL would take an
unknown amount of time to assemble the required
tank cars, engines, and crews, and to ensure market
destinations would be prepared for a surge in rail volume.”). Several states also argue that their grain
farmers would be harmed by having to pay a premium
for railroad cars once oil, which is more valuable by
volume, enters that market and drives up prices. See
ECF No. 514 (Amicus Brief of IN, MT, AL, AR, IA, KS,
KY, LA, NE, OH, SD, TX, UT, and WV) at 9-10.
“[Many North Dakota oil producers,” meanwhile, with
no way to get their oil to market, “would have no
choice but to respond by ‘shutting in’ some of their
wells and ceasing production entirely,” with consequent effects on the workers at those wells. See DA
Remedy Brief at 35 (citing ECF No. 509-11 (Declaration of Jeff D. Makholm), ¶ 17; then citing Emery
Decl., ¶¶ 14, 18). Specifically, Dakota Access estimates, “producers would have to shut-in between
3,460 and 5,400 wells, stranding up to 34.5% of North
Dakota crude production.” Id. at 36; see also, e.g.,
North Dakota Br. at 8 (estimating that “[e]ach of those
wells represents 1.6 full time jobs”) (citing ECF No.
504-2 (Declaration of Lynn Helms), ¶ 10). This would
also have a reverberating effect on the state of North
Dakota, whose economy derives a large part of its revenue from oil and gas taxes, largely from the Williston
Basin, which includes the Bakken fields that supply
DAPL. See North Dakota Br. at 2-3; DA Remedy Br.
at 4; see also North Dakota Br. at 2 (explaining that

844a
“despite the small overall size of North Dakota’s economy, [it] is a large producer of oil and natural gas”).
The Tribes and other amici respond that these
projected consequences are “wildly exaggerated” because, following “a precipitous collapse in oil prices,
demand, and production” caused in part by the
COVID-19 pandemic, “production in North Dakota
has [already] plummeted.” ECF No. 527 (Tribes Remedy Brief) at 21-22; see also ECF No. 531 (Amicus
Brief of Members of Congress) at 9 (“Since [the Court’s
last remedy Opinion in this case in] 2017, the price
and demand for oil has plummeted due to factors well
beyond the operation of this pipeline.”); ECF No. 519
(Amicus Brief of North Dakota Petroleum Council) at
8 (“In recent weeks, of course, the coronavirus pandemic has turned the nation’s economy and the oil industry upside down.”). They point out that North Dakota estimates that “as many as 5,000 wells may now
be shut-in” because of “the current economic situation,” North Dakota Br. at 3 n.4, noting that this is
more than the number of wells Dakota Access claimed
would be affected by a DAPL shutdown. See Tribes
Remedy Br. at 22-23; see also id. at 23 (citing news
articles reporting that North Dakota well shut-ins
have now increased to 7,000). Other briefs allude to
the pandemic, admitting some effect on the oil market
but maintaining more optimism than realism. See,
e.g., N.D. Petroleum Council Br. at 8 (“In recent
weeks, of course, the coronavirus pandemic has
turned the nation’s economy and the oil industry upside down. Nevertheless, NDPC continues to hope
and expect that our country’s economy and the industry will recover in coming months.”); North Dakota Br.

845a
at 12 (“[T]he potential impacts of the COVID-19 pandemic are impossible to quantify due to rapidly changing oil prices, employment numbers, and capital investment plans . . . .”). The Tribes further claim that
this drop in production may mean that there will be
“little or no increase in rail transportation.” Tribes
Remedy Br. at 25 (citing ECF No. 527-2 (Declaration
of Marie Fagan), ¶ 5). And to the extent that a DAPL
shutdown causes crude-oil demand to drop even further or its transportation to switch to railroads, the
Tribes argue that with “some participants in the
North Dakota oil market [facing] increased costs,”
“other participants,” such as railroads and other oilproducing states, would “benefit from the shift.”
Tribes Remedy Br. at 26 (citing ECF No. 272-2 (Third
Declaration of Richard Krupewicz), ¶ 30; then citing
Fagan Decl., ¶ 7). Defendant-Intervenors, for their
part, dismiss the Tribes’ take on the pandemic, calling
their analysis of the continuing effects of a pandemicdepressed oil market “bearish” and “erroneous[].”
DAPL Remedy Rep. at 17-18.
The Court need not pick apart the various positions in these disputes, for it is clear that at least some
immediate harm to the North Dakota oil industry
should be expected from a DAPL shutdown, even if its
effects are tempered by a decreased demand for oil.
See DA Remedy Rep. at 18 (averring that “demand for
[the pipeline]’s services has remained strong”). Indeed, the Court does not take lightly the serious effects that a DAPL shutdown could have for many
states, companies, and workers. Losing jobs and revenue, particularly in a highly uncertain economic environment, is no small burden. Ultimately, however,
these effects do not tip the scales decisively in favor of

846a
remanding without vacatur. This is so for several reasons.
First, “the Corps anticipates the [EIS] process” for
DAPL “will take approximately thirteen months,”
Corps Remedy Br. at 5, whereas in general “the mean
time from initiation to completion of an EIS is 3.6
years” across all federal agencies, and the Corps’ own
average time is even longer. See Tribes Remedy Br.
at 16 n.4 (citing Council on Envtl. Quality, Environmental Impact Statement Timelines (2010-2017), at 1,
8,
https://www.whitehouse.gov/wp-content/uploads
/2017/11/CEQ-EIS-Timelines-Report.pdf). This expedited process, if it proceeds on track, would cabin the
economic disruption of a shutdown. See Standing
Rock IV, 282 F. Supp. 3d at 108 (“[T]he Corps’ assertions regarding the timing of the remand process are
also relevant to analyzing the disruption in this
case.”). Without vacatur, conversely, the Corps and
Dakota Access would have little incentive to finish the
EIS in a timely matter.
Second, while economic disruption is a proper consideration for the second Allied-Signal prong, it may
not necessarily be “determinative.” Standing Rock IV,
282 F. Supp. 3d at 104; see also Am. Water Works
Ass’n v. EPA, 40 F.3d 1266, 1273 (D.C. Cir. 1994) (considering “disrupti[on] to the [affected] industries” in
vacatur analysis). Courts more often cite “harm to the
public health or the environment,” Wisconsin, 938
F.3d at 336 (citing Allied-Signal, 988 F.2d at 150-51),
and those that “set back’ the Act’s objective[s].” Am.
Bankers Ass’n, 934 F.3d at 674. The Court will discuss environmental disruption shortly. See infra Section III.B.2,.

847a
Third, accepting Dakota Access’s arguments
wholesale would subvert the structure of NEPA, the
“objective[s]” of which are an important touchstone
when considering disruption. Am. Bankers Ass’n, 934
F.3d at 674. NEPA’s “requirement that a detailed environmental impact statement be made for a ‘proposed’ action makes clear that agencies must take the
required hard look before taking that action.” Oglala
Sioux Tribe, 896 F.3d at 532; see also Robertson v.
Methow Valley Citizens Council, 490 U.S. 332, 349
(1989) (“The statutory requirement that a federal
agency contemplating a major action prepare such an
environmental impact statement serves NEPA’s ‘action-forcing’ purpose . . . .”) (citing Baltimore Gas &
Elec. Co. v. NRDC, 462 U.S. 87, 97 (1983); then citing
Weinberger v. Catholic Action of Haw., 454 U.S. 139,
143 (1981)). When it comes to NEPA, it is better to
ask for permission than forgiveness: if you can build
first and consider environmental consequences later,
NEPA’s action-forcing purpose loses its bite.
Dakota Access attempts the same workaround of
this principle as was offered last time, and the Court
again finds it unavailing. In 2017, Defendants “argue[d] that vacatur here would ‘have greater disruptive consequences than in the typical NEPA case’ because the pipeline has already been completed.”
Standing Rock IV, 282 F. Supp. 3d at 107 (citing ECF
No. 258 at 12); see DA Remedy Br. at 33-34 (“[H]owever one might have quantified what the ‘economic
disruption’ risk was back then, the potential economic
risk now is quantifiable and catastrophic. And after
almost three years of operations and several court rulings, it has been reasonable for Dakota Access, the
state of North Dakota, and all the other interested

848a
third parties to assume that the ‘risk’ of a shutdown
would decrease significantly over time.”) The Court’s
response to these arguments is the same now as then:
[D]enying vacatur on the basis of alleged economic harm risks creating undesirable incentives for future agency actions. If projections
of financial distress are sufficient to prevent
vacatur, the Court fears that agencies and
third parties may choose to devote as many
resources as early as possible to a challenged
project—and then claim disruption in light of
such investments. Such a strategy is contrary to the purpose of NEPA, which seeks to
ensure that the government “looks before it
leaps.”
Standing Rock IV, 282 F. Supp. 3d at 106 (quoting
ECF No. 269-1).
Fourth and finally, such “economic myopia,” id. at
105, causes Dakota Access to “address the ‘potentially
disruptive effects of vacatur as if they occur in a vacuum,’ thus giving short shrift to the ‘potentially disruptive effects that could flow from remand without
vacatur.” Id. at 105 (quoting Friends of Capital Crescent Trail v. Fed. Transit Admin., 218 F. Supp. 3d 53,
60 (D.D.C. 2016)). As before, “there is no doubt that
allowing oil to flow through the pipeline during remand risks the potentially disruptive effect about
which the Tribes are most concerned—a spill under
Lake Oahe.” Id. Indeed, even while “[t]he likelihood
of any such rupture may be low,” id., the impact of
such a spill has been one of the Court’s central concerns throughout the case. See Standing Rock III, 255
F. Supp. 3d at 139 (“As to the effects from a spill (as

849a
distinct from the risk of a spill occurring), the EA’s
discussion is minimal . . . Standing Rock IV, 282 F.
Supp. 3d at 105 (“[T]he possible effects of an oil spill
on the Tribes’ treaty rights and communities were at
the center of this Court’s prior Opinion.”). Indeed,
while the most recent Opinion in this case did not
have cause to reach the topic of the impact of a spill
on tribal hunting and fishing rights, it did spend much
time discussing the possibility that, in the unlikely
event of a spill, systems may not be in place to prevent
that spill from becoming disastrous. See, e.g., Standing Rock VI, 2020 WL 1441923, at *10 (discussing unaddressed possibility that DAPL’s leak-detection system was incapable of detecting leaks of less than 1%
of its flow rate, meaning that “6,000 barrels per day”
could leak without triggering an alarm); id. at *11
(noting that 30% of spills on pipelines operated by
DAPL’s operator occurred outside of operator property); id. at *11-12 (recounting expert concerns that
wintertime spill would be difficult to contain and had
not been sufficiently prepared for in EA). Even assuming the risk of a spill remains small, “pausing the
operation of the pipeline would mitigate even this
small risk.” Standing Rock IV, 282 F. Supp. 3d at 105.
One final word here so that the Court may make
good on its earlier promise to address the two cases
offered by Defendant-Intervenor as examples of
courts’ declining to vacate when faced with an EIS
failure. Recall that both cases based their decision not
on the first Allied-Signal factor, which they found supported vacatur, but on the second. See Oglala Sioux
Tribe, 896 F.3d at 538; Semonite, 422 F. Supp. 3d at
99-100, 103. In Oglala Sioux Tribe, the D.C. Circuit
held that this second factor disfavored vacatur simply

850a
because a “South Dakota permitting requirement independently bar[red] it from moving forward with
construction on the site until the [agency] complete[d]
its compliance with NEPA.” 896 F.3d at 538. In Semonite, however, there was significant disruption anticipated from vacatur: the district court was concerned by “the risk that hundreds of thousands of people will be left with an unreliable power source if the
permit is vacated.” 422 F. Supp. 3d at 103. It would
be “unjust,” that court reasoned, “to force all of those
people to bear the brunt of the harm when they are
not responsible for its cause.” Id. at 102. Such is not
the case here: the disruption Dakota Access focuses on
is to its own interests and those of the industry, both
of whom relied on the continued operation of the pipeline in the face of ongoing litigation as well as changes
in the administration’s stance on the environmental
propriety of the pipeline. The parties do not raise any
possibility that hundreds of thousands of ordinary citizens will be deprived of a reliable source of oil if
DAPL is shut down, and, in fact, as already discussed,
oil wells are currently being closed given a low demand having nothing to do with the pipeline.
The other reason that the district court in Semonite considered the disruption too weighty to ignore
was that the removal of the agency project in question—which “would [have] involve[d] dismantling seventeen steel lattice towers and removing 37.8 miles of
conductor, 8.4 miles of fiber optic shield wire, 32 solar
panels and solar lighting systems, and all associated
hardware” would have posed a “risk of massive waste”
should the Corps ultimately “reissue the permit after
conducting an EIS.” 422 F. Supp. 3d at 103. The
Corps admittedly does raise a similar removal issue

851a
here, pointing out that the dismantling of the pipeline
under Lake Oahe would lead to “waste of time, energy,
and resources, as well as environmental impacts such
as ground disturbance and increased emissions from
heavy construction machinery.” Corps Remedy Br. at
17. But the Court is not ordering that such step be
taken, and any decision to remove is entirely within
the Corps’ control. As the agency explains, once the
Court vacates the easement, the pipeline is considered
an “encroachment” on federal lands and can be dealt
with in one of four ways at the Corps’ discretion. See
id. at 6. Removal is indeed one of those options, but
so is “outgrant or consent (for easements).” Id. (quoting one of the Corps’ engineering regulations). Removal is therefore not the remedy being considered by
the Court today, and it may not be the remedy chosen
by the Corps in the future. Accord Standing Rock IV,
282 F. Supp. 3d at 107 (“Plaintiffs are not asking for
the pipeline itself, or for any existing infrastructure,
to be dismantled.”).
2.

Environmental Disruption

Dakota Access here attempts to resurrect an unsuccessful argument from the last round of remedy
briefing. It argues that if DAPL is inoperative, the
crude oil must be transported by rail, and rail
transport has worse environmental consequences
than any potential pipeline spill. In 2017, however,
the Court “reject[ed] th[e] argument” that “alternative
modes of transport required by vacatur, if any, will
necessarily increase the risk of an oil spill.” Id. at 107.
Not much has changed this time around. DAPL
once again frames the shift to rail transportation in

852a
speculative terms. Compare id. (“Defendants[] assert[] that vacatur ‘could result in at least some portion’ of the oil being moved via train . . . .”), with Corps
Remedy Br. at 21 (“The Corps cannot state definitively that a particular percentage of the oil currently
being transported by pipeline would be switched to
rail in the event the Pipeline’s easement is withdrawn.”). Even assuming that some more oil will be
transported by rail than would have been without a
shutdown, the only new evidence the Corps and DAPL
point to is a recent study by the Pipeline and Hazardous Materials Safety Administration comparing
modes of oil transport, which ultimately concluded
that “[e]ach mode has its own unique safety risks, and
more factors or different methodologies need to be considered to comprehensively answer the question of
which mode is the safest.” ECF No. 507-2 (PHMSA
Report) at 9; see id. (“Significant knowledge gaps exist
for the exposure, vulnerability, and consequences of
crude oil transportation.”). The report did find that,
subject to these warnings, pipelines appear to have
lower spill occurrences and amounts than rail
transport. Id. While this is certainly an improvement
on the dearth of information provided in the last
round of remedy briefing, the report’s self-stated limitations do not get Defendants and Defendant-Intervenor much farther than before.
The Court cannot forget, moreover, its responsibility to consider the potential environmental disruption of not vacating the easement, which it has discussed at length in prior Opinions and recapped
above. See supra Section III.B.1. On balance, the inconclusive evidence of environmental harm from an
unknown number of barrels being transferred to rail

853a
transportation does not move the needle toward remand without vacatur.
*

*

*

Putting this all together, the Court finds that vacatur is the only appropriate remedy here. The first
Allied-Signal prong weighs strongly in its favor, even
if the second is a much closer call. The Court does not
reach its decision with blithe disregard for the lives it
will affect. It readily acknowledges that, even with
the currently low demand for oil, shutting down the
pipeline will cause significant disruption to DAPL, the
North Dakota oil industry, and potentially other
states. Yet, given the seriousness of the Corps’ NEPA
error, the impossibility of a simple fix, the fact that
Dakota Access did assume much of its economic risk
knowingly, and the potential harm each day the pipeline operates, the Court is forced to conclude that the
flow of oil must cease. Not wishing to micromanage
the shutdown, it will not prescribe the method by
which DAPL must achieve this. The Court will nonetheless require the oil to stop flowing and the pipeline
to be emptied within 30 days from the date of this
Opinion and accompanying Order. This time period
was proposed by the Tribes and should provide sufficient time for the pipeline to be shut down in a safe
and efficient manner, which is undoubtedly in everyone’s interest.
IV. Conclusion
For the foregoing reasons, the Court will vacate
the Corps’ decision to grant Dakota Access an easement under the Mineral Leasing Act and order that
the Dakota Access Pipeline be shut down within 30

854a
days. A separate Order consistent with this Opinion
shall issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: July 6, 2020

855a
____________________
APPENDIX I
____________________
United States Court of Appeals
for the District of Columbia Circuit
No. 20-5197

September Term, 2019
1:16-cv-01534-JEB
Filed on: August 5, 2020

STANDING ROCK SIOUX TRIBE, ET AL.
Appellees
v.
UNITED STATES ARMY CORPS OF ENGINEERS,
Appellee
DAKOTA ACCESS LLC,
Appellant

____________

Consolidated with 20-5201
BEFORE: Henderson, Tatel, and Griffith, Circuit
Judges
ORDER
Upon consideration of the emergency motions for
stay pending appeal, the opposition thereto, and the
replies; the motions for leave to participate as amicus,
the oppositions thereto, and the filings by amici and
movant-amici in support of a stay; and the administrative stay entered on July 14, 2020, it is
ORDERED that the administrative stay entered
on July 14, 2020 be dissolved. It is

856a
FURTHER ORDERED that, to the extent the
district court issued an injunction by ordering Dakota
Access LLC to shut down the Dakota Access Pipeline
and empty it of oil by August 5, 2020, the injunction
be stayed. The district court did not make the findings
necessary for injunctive relief. See Monsanto Co. v.
Geertson Seed Farms, 561 U.S. 139, 158 (2010) (explaining that, before issuing an injunction in a National Environmental Policy Act case, “a court must
determine that an injunction should issue under the
traditional four-factor test”). It is
FURTHER ORDERED that appellants’ motion
for stay of the district court’s order vacating the Mineral Leasing Act easement authorizing the Dakota Access Pipeline to cross the Missouri River at Lake Oahe
be denied. At this juncture, appellants have failed to
make a strong showing of likely success on their
claims that the district court erred in directing the
Corps to prepare an environmental impact statement,
see Nat’l Parks Conservation Ass’n v. Semonite, 916
F.3d 1075, 1087 (D.C. Cir.), amended on rehearing,
925 F.3d 500 (D.C. Cir. 2019), or that the district court
abused its discretion in refusing to remand without
vacatur pending the statement’s completion, see Allied-Signal, Inc. v. U.S. Nuclear Regulatory Comm’n,
988 F.2d 146 (D.C. Cir. 1993). It is
*

*

*

857a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Scott H. Atchue
Deputy Clerk

858a
____________________
APPENDIX J
____________________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
STANDING ROCK SIOUX
TRIBE, et al.,
Plaintiffs,
and
CHEYENNE RIVER SIOUX
TRIBE, et al.,
Plaintiff-Intervenors,
v.

Civil Action No.
16-1534 (JEB)

U.S. ARMY CORPS OF
ENGINEERS,
Defendant,
and
DAKOTA ACCESS, LLC,
Defendant-Intervenor.
MEMORANDUM OPINION
Just like the Dakota Access Pipeline, which meanders over hill and dale before carrying its crude oil
underneath Lake Oahe—a large reservoir on the Missouri River between North and South Dakota—the
current litigation has wound its way through myriad
twists and turns. Last year, in a hard-earned victory
for the American Indian Tribe Plaintiffs whose reservations lie nearby, this Court found that Defendant

859a
U.S. Army Corps of Engineers had violated federal
law by failing to produce an Environmental Impact
Statement before granting Defendant-Intervenor Dakota Access, LLP an easement to run the pipeline under Lake Oahe. The Court subsequently vacated that
easement and ordered the pipeline emptied of oil until
the Corps could complete the federally mandated EIS.
Wasting no time, both Dakota Access and the Government promptly appealed to the D.C. Circuit. In a
partial win for the Tribes, the Court of Appeals affirmed the two central elements of this Court’s rulings—specifically, that the Corps should have prepared an EIS and that the easement was properly vacated in the interim. The Circuit thus confirmed that
the pipeline was, in legal speak, an unlawful encroachment on federal land.
It was there, however, that the Tribes ran out of
luck. Prior to the cessation of any oil flow, the Circuit
stayed and eventually reversed the aspect of this
Court’s order shutting down the pipeline, reasoning
that it had not made the necessary findings for what
was essentially injunctive relief. In other words, although vacatur of the easement rendered the pipeline
an encroachment on federal property, vacatur could
not itself bring about the stoppage of oil. For that to
occur, the Court of Appeals clarified, this Court
needed to conduct an additional, distinct inquiry, a
component of which requires the Tribes to demonstrate that—among other things—they will likely suffer irreparable harm in the absence of an order closing
the pipeline.
As a result, for all of the headlines and controversy that this litigation has spawned, its tangible

860a
consequences for the pipeline itself have been few.
Even though this Court vacated the easement for
DAPL to cross beneath Lake Oahe, and even though
the D.C. Circuit affirmed such vacatur, the pipeline
has maintained operations as if none of these developments had occurred. Those seeking an explanation for
the persistence of this surprising state of affairs over
the past ten-odd months need look no further than the
Defendant in this case: the Corps.
Ever since this Court’s vacatur order in July 2020,
and across two presidential administrations, the
Corps has conspicuously declined to adopt a conclusive position regarding the pipeline’s continued operation, despite repeated prodding from this Court and
the Court of Appeals to do so. On the one hand, the
agency has refrained from exercising its enforcement
powers to halt Dakota Access’s use of the pipeline, notwithstanding its status as an unlawful encroachment.
At the same time, however, neither has the Corps affirmatively authorized the pipeline’s occupation of the
area underneath Lake Oahe per the process contemplated in its internal procedures. Its chosen course
has instead been—and continues to be—one of inaction. Such indecision, it is important to note, does not
stem from a lack of time. Nor from a lack of attention.
Whatever the reason, the practical consequences of
the Corps’ stasis on this question of heightened political controversy are manifest: the continued flow of oil
through a pipeline that lacks the necessary federal authorization to cross a key waterway of agricultural, industrial, and religious importance to several Indian
Tribes.

861a
Those Tribes thus find themselves forced to return
to this Court to seek what they have so far been unable to obtain from the Government: an order halting
pipeline operations until the Corps completes its new
EIS. Before the Court may grant them such relief,
however, binding caselaw requires that the Tribes
make an evidentiary showing far beyond anything the
Corps needs to itself shut down DAPL. As previously
mentioned, they must demonstrate a likelihood of irreparable injury from the action they seek to enjoin—
to wit, the pipeline’s operation. For the reasons articulated in this Opinion, Plaintiffs have not cleared that
daunting hurdle.
The Court acknowledges the Tribes’ plight, as well
as their understandable frustration with a political
process in which they all too often seem to come up
just short. If they are to win their desired relief, however, it must come from that process, as judges may
travel only as far as the law takes them and no further. Here, the law is clear, and it instructs that the
Court deny Plaintiffs’ request for an injunction.
I.

Background

The Court has recounted the factual and procedural history underlying this litigation on numerous
occasions since it commenced in the summer of 2016.
Eleven Opinions later, the Court need relate only information necessary to set the stage for the present
Motion; it refers readers hungry for more to its prior
writings. See, e.g., Standing Rock Sioux Tribe v. U.S.
Army Corps of Eng’rs (Standing Rock III), 255 F.
Supp. 3d 101, 114-16 (D.D.C. 2017); Standing Rock
Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing
Rock VII), 471 F. Supp. 3d 71, 77-78 (D.D.C. 2020).

862a
A. Pre-Vacatur
This case began as an effort by several Tribes to
halt the construction—and eventually the operation—
of DAPL. The pipeline carries crude oil from North
Dakota to Illinois along a 1,200-mile path, a small segment of which runs deep beneath Lake Oahe. Standing Rock Sioux Tribe v. U.S. Army Corps of Eng’rs
(Standing Rock VI), 440 F. Supp. 3d 1, 9 (D.D.C.
2020). An artificial reservoir created in 1958 following a congressional taking of land from the Standing
Rock Sioux Tribe and the Cheyenne River Sioux Tribe,
the “lake” supplies the Tribes with drinking water and
supports myriad other critical functions. Id. at 9-10.
Given that no permit is generally required for oil
pipelines traversing private land, the legal dispute
here has largely fixated on that relatively small segment buried under Lake Oahe. After an initial pair of
failed bids to enjoin the pipeline’s construction and operation under two federal statutes irrelevant to the
present Motion, the Tribes finally pinned their hopes
on the National Environmental Policy Act. Id. at 1011. Under NEPA, agencies must “consider every significant aspect of the environmental impact of a proposed action,” Balt. Gas & Elec. Co. v. NRDC, 462 U.S.
87, 97 (1983) (quoting Vt. Yankee Nuclear Power
Corp. v. NRDC, 435 U.S. 519, 553 (1978)), so as to “inform the public that it has indeed considered environmental concerns in its decisionmaking process.” Id.
(citing Weinberger v. Catholic Action of Haw., 454
U.S. 139, 143 (1981)). Agencies must draft an Environmental Assessment, see 40 C.F.R. § 1501.4(b), that
“[b]riefly provide[s] sufficient evidence and analysis
for determining whether to prepare an environmental
impact statement [EIS] or a finding of no significant

863a
impact [FONSI].” Id. § 1508.9(a). “If any ‘significant
environmental impacts might result from the proposed agency action[,] then an EIS must be prepared
before agency action is taken.” Grand Canyon Trust
v. FAA, 290 F.3d 339, 340 (D.C. Cir. 2002) (quoting
Sierra Club v. Peterson, 717 F.2d 1409, 1415 (D.C.
Cir. 1983)); see also 42 U.S.C. § 4332(2)(C). In order
to determine whether an action may have “significant” environmental impacts, an agency must consider—among other criteria—”[t]he degree to which
the effects on the quality of the human environment
are likely to be highly controversial.” 40 C.F.R.
§ 1508.27(b)(4).
In its EA, the Corps concluded that no EIS was
necessary before issuing Dakota Access a couple of
necessary authorizations—a permit for DAPL’s placement at Lake Oahe under the Rivers and Harbors Act,
33 U.S.C. § 408, and an easement to cross beneath the
lake under the Mineral Leasing Act, 30 U.S.C. § 185—
on July 25, 2016, and February 8, 2017, respectively.
Standing Rock VI, 440 F. Supp. 3d at 10; Standing
Rock III, 255 F. Supp. 3d at 114, 116; ECF No. 183-9
(Section 408 Decision Package) at ECF pp. 3-4, 6-7;
ECF No. 172-11 (Easement). The Tribes argued that
the Corps’ failure to require an EIS before granting
those approvals violated NEPA. Standing Rock VI,
440 F. Supp. 3d at 11. Following a 2017 decision in
which this Court remanded the matter to the agency
for additional evaluation, see Standing Rock III, 255
F. Supp. 3d at 112, the Court in March 2020 finally
agreed that the Corps should have prepared an EIS
before conferring the easement. Standing Rock VI,
440 F. Supp. 3d at 8, 17 (finding “unresolved scientific
controversy” that confirmed “necessity of an EIS”). It

864a
thus granted summary judgment to Plaintiffs and remanded for the agency to complete one. Id. at 26.
Such NEPA violation established, the question
then became what to do about the easement during
the time necessary to prepare an EIS. This Court provided the answer on July 6, 2020, when it vacated
such easement and ordered that the pipeline be emptied of oil during the remand process. Standing Rock
VII, 471 F. Supp. 3d at 88; see also id. at 79 (noting
that vacatur is “the ‘standard remedy’ in this Circuit
for an ‘action promulgated in violation of NEPA’)
(quoting Humane Soc’y of U.S. v. Johanns, 520 F.
Supp. 2d 8, 37 (D.D.C. 2007)). Although it acknowledged that “at least some immediate harm to the
North Dakota oil industry should be expected from a
DAPL shutdown,” the Court determined that the “seriousness of the Corps’ NEPA error, the impossibility
of a simple fix, the fact that Dakota Access did assume
much of its economic risk knowingly, and the potential
harm each day the pipeline operates” collectively outweighed such negative economic effects. Id. at 84, 88.
The legal effect of vacating the easement was to render the pipeline an “encroachment” on federal land.
Id. at 87; see also ECF No. 562-4 (8/17/20 Ltr. from
Corps to Dakota Access) at ECF p. 2 (explaining that,
following Court’s remedy order, “the portion of the
pipeline subject to the vacated easement is no longer
considered by the Corps as an active easement, and
its status has been changed to an encroachment on the
Corps-managed federal land at Lake Oahe”). As for
vacatur’s practical effect, the Court “require[d] the oil
to stop flowing and the pipeline to be emptied within
30 days.” Standing Rock VII, 471 F. Supp. 3d at 88.

865a
B. Post-Vacatur
Displeased with that outcome, Dakota Access and
the Corps promptly noticed their appeals. See ECF
Nos. 548, 557. Their recourse to the court upstairs
soon bore fruit—at least in part. On August 5, 2020,
a D.C. Circuit motions panel denied Defendants’ bid
to stay this Court’s decisions that the Corps erred in
not preparing an EIS and that the MLA easement
should be vacated pending the statement’s completion. Standing Rock Sioux Tribe v. U.S. Army Corps
of Eng’rs (Standing Rock VIII), 2020 WL 4548123, at
*1 (D.C. Cir. Aug. 5, 2020). The panel, however,
placed on hold the aspect of this Court’s order shutting
down the pipeline and emptying it of oil, reasoning
that the Court “did not make the findings necessary
for” such injunctive relief in NEPA cases. Id. (citing
Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139,
158 (2010)). The Circuit also noted, “We expect [Government] appellants to clarify their positions before
the district court as to whether the Corps intends to
allow the continued operation of the pipeline notwithstanding vacatur of the easement and for the district
court to consider additional relief if necessary.” Id.
Such “clari[t]y,” id., did not obtain. As merits
briefing continued in the Court of Appeals, the parties
returned to this Court where the Corps, in light of the
Circuit’s having stayed the stoppage of oil flow, took
its first stab at “detailing the options it is considering
on vacatur.” 8/10/20 Min. Order. Acknowledging that
the pipeline now constituted an encroachment, the
agency explained that its “general policy is to require
removal of encroachments and restoration of the
premises.” ECF No. 562 (8/31/20 Status Rep.) at 3 (internal quotation marks and citation omitted). That

866a
outcome was not inevitable, though, as another option
available to the Corps—called an “outgrant”—would
authorize Dakota Access to use the government-controlled property as it did prior to vacatur, thus effectively issuing it another easement. Id. at 4-5. As the
agency admitted, however, that process was subject to
the strictures of NEPA, the very statute under which
this Court had ordered the preparation of an EIS before any such easement could be granted. Id. at 5-6;
Standing Rock VI, 440 F. Supp. 3d at 8.
The Corps additionally maintained—without citing any authority—that it was under no obligation “to
take any particular action to cure an encroachment
within a specified time period” or even “to ultimately
cure the encroachment at all.” 8/31/20 Status Rep. at
4. It estimated that it would make an “initial decision” as to a potential enforcement action against the
pipeline by early October 2020, though it emphasized
that it retained the “enforcement discretion to adapt
its enforcement recommendations based on new information” at any time. Id. at 9. In the meantime, the
agency would engage in multi-level “coordination . . .
to ascertain whether the Pipeline’s unauthorized use
presents risk to the Corps’ project and to find the best
way . . . to resolve the situation of unauthorized use of
the property interest.” Id. at 6; see also ECF No. 564
(9/8/20 Joint Status Rep.) at 2 (Corps reiterating that
it “is proceeding with its encroachment review process”). It also expressed its desire to discuss “potential
additional safety measures” with both Dakota Access
and the Tribes. See 8/31/20 Status Rep. at 7-9.
Having thus received minimal concrete assistance
from the Corps, the Court acceded to the Tribes’ re-

867a
quest for a briefing schedule on the propriety of an injunction to halt the flow of oil (as contemplated by the
D.C. Circuit’s August stay order). See ECF No. 567
(9/11/20 Order) at 1-2; 9/17/20 Min. Order (setting
briefing schedule). The Court noted its expectation
that such briefing would focus on the issue of irreparable harm, one of the four requirements for permanent injunctive relief. See 9/11/20 Order at 2. The
Tribes soon filed the present Motion, see ECF No. 569
(Pl. Mot.), which the Corps and Dakota Access opposed. See ECF Nos. 573 (Corps Opp.), 577 (DA Opp.).
October, meanwhile, came and went without any word
from the Corps regarding its promised “initial decision” as to a potential enforcement action. See 8/31/20
Status Rep. at 9.
On January 26, 2021—shortly after the districtcourt briefing on Plaintiffs’ injunctive-relief request
became ripe, see ECF No. 586 (Pl. Reply)—the D.C.
Circuit issued its merits-panel opinion in the pending
appeal of this Court’s summary-judgment and vacatur
orders. In a detailed and comprehensive ruling, that
court followed the roadmap previewed by the motions
panel and affirmed this Court’s top-line conclusions
that: 1) the Corps’ decision not to prepare an EIS violated NEPA, and 2) the easement should be vacated
pending such statement’s completion. Standing Rock
Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing
Rock IX), 985 F.3d 1032, 1039 (D.C. Cir. 2021). The
Circuit subsequently denied Dakota Access’s request
for en banc review of these holdings on April 23, 2021,
and the court’s mandate issued shortly thereafter.
See Order, No. 20-5197 (D.C. Cir. Apr. 23, 2021); Mandate (D.C. Cir. May 19, 2021).

868a
The Circuit also reversed this Court’s order shutting down the pipeline. Standing Rock IX, 985 F.3d at
1053-54. This time, the Court of Appeals elaborated
on why vacatur of the easement was not itself sufficient to bring about a stoppage of oil flow. Unlike a
challenge to an agency-issued construction or operating permit, vacatur of which would “naturally impl[y]
an end” to such construction or operation, the present
litigation involves an easement merely “authorizing
the pipeline to cross federal lands.” Id. at 1054. “With
or without oil flowing,” accordingly, “the pipeline will
remain an encroachment, leaving the precise consequences of vacatur uncertain.” Id. That posture, the
Circuit emphasized, rendered this case “quite unusual”; it could not identify a single other instance “in
which the sole issue before a court was whether an
easement already in use (rather than a construction
or operating permit) must be vacated on NEPA
grounds.” Id. At any rate, the panel made clear that
this Court “could not order the pipeline to be shut
down without . . . making the findings necessary for
injunctive relief’ under the traditional four-factor test.
Id. (citing Monsanto, 561 U.S. at 158).
The Circuit closed in the same fashion as its August 2020 stay order: with an overt prod of the Corps.
While noting that “how and on what terms the Corps
will enforce its property rights is, absent a properly
issued injunction, a matter for the Corps to consider
in the first instance,” the Court of Appeals emphasized that it “would expect [the agency] to decide
promptly. To do otherwise would be to issue a de facto
outgrant without engaging in the NEPA analysis that
the Corps concedes such an action requires.” Id.

869a
With the Circuit’s opinion and attendant guidance
in hand, this Court promptly scheduled a status hearing for the purpose of discussing its impact on Plaintiffs’ bid for injunctive relief, as well as “how the Corps
expects to proceed given the vacating of the easement.” 1/27/21 Min. Order. Two days before that
hearing, the Corps—fresh off a change of administration in January 2021—sought a two-month continuance for the purpose of “brief[ing] new officials regarding this case.” ECF No. 587 at 1. No party opposed
the request, which the Court granted. Id. at 2; 2/9/21
Min. Order.
When the long-awaited hearing finally arrived on
April 9, 2021, however, the Corps—despite the instruction from both the Court of Appeals and this
Court, as well as its own continuance request—had
surprisingly little to say about the pipeline’s encroachment status. Indeed, far from issuing the contemplated “prompt[]” determination as to how it would
“enforce its property rights,” Standing Rock IX, 985
F.3d at 1054, the Corps’ decision appeared to be that
it would make no decision at all. According to Government counsel, “[T]he Corps is in a [sic] essentially continuous process of evaluating the status of the encroachment and what steps are best to take.” ECF No.
602 (4/9/21 Tr.) at 10:23-25. While the agency would
“continue[] monitor[ing]” the pipeline and could “take
an enforcement action at any time,” it had “no . . . enforcement action to announce” at present nor any
“timeline” for such potential action moving forward.
Id. at 8:5-6, 8:12-14, 9:3-5, 11:7-8. At one point, the
Corps seemed to acknowledge the possibility that it
might not even decide how to enforce its property
rights prior to completion of the judicially mandated

870a
EIS (currently estimated for March 2022). Id. at 8:1920; ECF No. 601 (5/3/21 Status Rep.) at 1. In light of
that report, both Plaintiffs and the Government
agreed that the proper course was for the Court to resolve the fully briefed injunction motion. See 4/9/21
Tr. at 13:10-12, 15:9-14.
Following receipt of short supplemental filings
from both Dakota Access and the Tribes, see ECF Nos.
593 (Dakota Access Surreply), 597 (Pl. Surreply
Resp.), the Court ordered the Corps to clarify its position on whether an injunction should issue. See
4/26/21 Min. Order. The agency’s response was less
than decisive. While the Corps appeared to tepidly
reiterate its prior opposition to the Tribes’ injunctiverelief bid, its submission also contained some hedging:
As to whether an injunction should issue, the
EIS process in which the Corps is currently
engaged examines many factors including
some that may be relevant to the permanent
injunction standard. It is possible that in the
EIS process the Corps would find new information, but to date the Corps is not aware of
information that would cause it to evaluate
the injunction factors differently than in its
previous filing.
5/3/21 Status Rep. at 2 (citing Corps Opp.). With this
long procedural history in tow, the Court is finally prepared to rule on the Tribes’ request for an injunction.
II. Analysis
The Court begins with an overview of the permanent-injunction factors, devoting particular attention
to the requirement that a plaintiff suffer irreparable

871a
injury. It then applies that requirement to the circumstances of this case. Because the Court concludes
that Plaintiffs have not established irreparable harm,
it has no need to address the other factors or Defendants’ additional arguments for why injunctive relief is
improper.
Before diving in, the Court briefly disposes of a
threshold argument made by the Tribes—specifically,
that it should “clarify that pipeline operations must be
suspended pursuant to its vacatur order even without
an injunction.” Pl. Mot. at 3 (emphasis added). This
misses the mark. The D.C. Circuit held precisely to
the contrary in its January 2021 opinion reversing
this Court’s shutdown order. See Standing Rock IX,
985 F.3d at 1054 (“[W]e nonetheless conclude that [the
district court] could not order the pipeline to be shut
down without, as required by Monsanto, making the
findings necessary for injunctive relief.”); id. at 105354 (explaining why vacatur of easement was itself insufficient to stop oil flow). That ruling postdated
Plaintiffs’ briefing on the present Motion. Because it
is now clear that the Tribes’ shutdown request “seeks
more than mere vacatur,” the Court must find the permanent-injunction criteria fulfilled before issuing
such relief. Ctr. for Biological Diversity v. Ross, 480
F. Supp. 3d 236, 250 (D.D.C. 2020).
A. Irreparable Harm
A permanent injunction “is a drastic and extraordinary remedy.” Monsanto, 561 U.S. at 165. It
“should not be granted as a matter of course,” id., and
it “does not follow from success on the merits.” Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 32 (2008).

872a
Rather, it “should issue only if the traditional four-factor test is satisfied.” Monsanto, 561 U.S. at 157. In
order to pass that test, a plaintiff must convince the
Court:
(1) that it has suffered an irreparable injury;
(2) that remedies available at law, such as
monetary damages, are inadequate to compensate for that injury; (3) that, considering
the balance of hardships between the plaintiff and defendant, a remedy in equity is warranted; and (4) that the public interest would
not be disserved by a permanent injunction.
Id. at 156-57 (quoting eBay Inc. v. MercExchange,
LLC, 547 U.S. 388, 391 (2006)) (applying four factors
when plaintiff sought permanent injunction to remedy
NEPA violation). While the irreparable-harm requirement is recited in the past tense, it is clear that
future harm may qualify. Id. at 162 (determining that
respondents did not adequately show “that they will
suffer irreparable injury” if agency were “allowed to
proceed”).
The Supreme Court “has repeatedly held that the
basis for injunctive relief in the federal courts has always been irreparable injury and the inadequacy of
legal remedies.” Weinberger v. Romero-Barcelo, 456
U.S. 305, 312 (1982); see also Chaplaincy of Full Gospel Churches v. England, 454 F.3d 290, 297 (D.C. Cir.
2006) (same). “A movant’s failure to show any irreparable harm is therefore grounds for refusing to issue”
injunctive relief. Chaplaincy of Full Gospel Churches,
454 F.3d at 297; see also CityFed Fin. Corp. v. Off. of
Thrift Supervision, 58 F.3d 738, 747 (D.C. Cir. 1995)

873a
(“Because [plaintiff] has made no showing of irreparable injury here, that alone is sufficient for us to conclude that the district court did not abuse its discretion by rejecting [plaintiff’s] request.”); Sierra Club v.
U.S. Army Corps of Eng’rs, 990 F. Supp. 2d 9, 38
(D.D.C. 2013) (“Plaintiffs must demonstrate that they
will suffer irreparable harm absent an injunction in
order to be eligible for injunctive relief.”). “Indeed, if
a court concludes that a movant has not demonstrated
irreparable harm, it need not even consider the remaining factors.” Dallas Safari Club v. Bernhardt,
453 F. Supp. 3d 391, 398 (D.D.C. 2020) (citing CityFed
Fin. Corp., 58 F.3d at 747); see also Colo. Wild Horse
v. Jewell, 130 F. Supp. 3d 205, 218 (D.D.C. 2015).
The D.C. Circuit “has set a high standard for irreparable injury.”
Chaplaincy of Full Gospel
Churches, 454 F.3d at 297. “[T]he injury must be both
certain and great; it must be actual and not theoretical.” Id. (quoting Wis. Gas Co. v. FERC, 758 F.2d 669,
674 (D.C. Cir. 1985)). Of critical importance is a
demonstration that the “injury complained of is of
such imminence that there is a clear and present need
for equitable relief to prevent irreparable harm.” Id.
(quoting Wis. Gas., 758 F.2d at 674) (cleaned up); see
also Wis. Gas, 758 F.2d at 674 (“Injunctive relief will
not be granted against something merely feared as liable to occur at some indefinite time . . . .”) (citation
and internal quotation marks omitted). Notwithstanding some Circuit language using a “certainty”
standard, all agree here that a plaintiff seeking permanent injunctive relief must at least “demonstrate
that irreparable injury is likely in the absence of an
injunction.” Winter, 555 U.S. at 22; see Pl. Reply at

874a
13; DA Opp. at 9-10; Corps Opp. at 5-6; see also Winter, 555 U.S. at 32-33 (noting that analysis of preliminary-injunction requirements applies to permanent
injunctions); Monsanto, 561 U.S. at 162; Ctr. for Biological Diversity, 480 F. Supp. 3d at 251 (acknowledging lack of clarity regarding whether future irreparable harm must be “certain” or merely “likely” to occur).
A mere “possibility” of future harm is insufficient.
Winter, 555 U.S. at 21-22; see also 11A Charles Alan
Wright & Arthur R. Miller, Fed. Prac. and Proc.
§ 2942 (3d ed.) (“There must be more than a mere possibility or fear that the injury will occur.”).
A plaintiff attempting to establish irreparable
harm thus faces a “considerable burden,” Save Jobs
USA v. U.S. Dep’t of Homeland Sec., 105 F. Supp. 3d
108,112 (D.D.C. 2015) (citation omitted), and a “very
high bar.” Coal. for Common Sense in Gov’t Procurement v. United States, 576 F. Supp. 2d 162,168
(D.D.C. 2008). In order to clear it, the movant must
“substantiate [its] claim that irreparable injury is
‘likely’ to occur.” Wis. Gas, 758 F.2d at 674. “Bare
allegations” to that effect “are of no value”; a court,
rather, requires affirmative “proof’ of likelihood and
imminence. Id. Additionally, “the movant must show
that the alleged harm will directly result from the action which [it] seeks to enjoin.” Id.
B. Application
The Tribes posit three different kinds of injuries,
each of which they claim independently qualifies as
imminent irreparable harm and entitles them to permanent injunctive relief. The Court will spend most
of its time on the first of these before disposing of the
last two with greater dispatch.

875a
1.

Threat Of Damaging Oil Spill

Plaintiffs’ principal claim of irreparable injury derives from the threat of an oil spill underneath Lake
Oahe. See Pl. Mot. at 9-14; Pl. Reply at 13-16. That
reservoir, as previously mentioned, provides the
Tribes with water for drinking, industry, and sacred
practices. In order for them to realize any harm from
a pipeline leak, however, a series of contingent events
must occur: 1) a spill under Lake Oahe; 2) of sufficiently large size; 3) the oil from which rises 92 feet
from the pipeline to the bottom of the lake; and
4) which cannot be sufficiently mitigated or contained
either before or upon entering the lake. See DA Opp.
at 11. Simply itemizing that causal chain suggests the
fundamental problem with Plaintiffs’ irreparableharm argument: they have not established, as they
must, that any of the chain’s individual components—
let alone the feared end result—is “likely,” as opposed
to merely “possibl[e].” Winter, 555 U.S. at 22. Without such showing, of course, they cannot demonstrate
the probability of a damaging DAPL spill at Lake
Oahe sufficient to warrant injunctive relief.
Start with the threat of a spill itself. Throughout
this long-running litigation, the Court has repeatedly
determined that such risk is low. See Standing Rock
Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing
Rock IV), 282 F. Supp. 3d 91, 101, 105 (D.D.C. 2017)
(referencing “low” likelihood and “minimal risk” of oil
spill under Lake Oahe); Standing Rock VI, 440 F.
Supp. 3d at 29 (similar); Standing Rock VII, 471 F.
Supp. 3d at 85 (similar). Indeed, in 2017, this Court
rebuffed Standing Rock’s challenge to the Corps’ assessment that the risk of a spill under Lake Oahe is
“very low,” “unlikely,” or “negligible,” finding that the

876a
agency had taken a “hard look” at the issue and sufficiently “support[ed] its conclusion that such a risk was
low.” Standing Rock III, 255 F. Supp. 3d at 125-27,
149; see also ECF No. 172-1 (Final EA) at 48, 87, 92
(“[T]he risk of an inadvertent release in, or reaching,
Lake Oahe . . . is extremely low.”). Even Plaintiffs
seem to acknowledge that a spill at Lake Oahe is of
“lower probability.” Pl. Mot. at 11.
The Court need not rehash all the evidence giving
rise to those prior determinations. See, e.g., Standing
Rock III, 255 F. Supp. 3d at 125-27; DA Opp. at 14-15.
It bears noting, though, that reportable-incident data
from the Pipeline and Hazardous Materials Safety
Administration (PHMSA) reflect but a single, 1.7-barrel leak between 2010 and 2020 on any crude-oil pipeline installed using horizontal directional drilling
technology, the very method in place at DAPL’s Lake
Oahe crossing. See ECF No. 593-4 (Supplemental
Declaration of John F. Godfrey), ¶ 16. Dakota Access
deployed HDD in order to bury the pipeline far beneath the bottom of Lake Oahe, thus mitigating—
among other things—the risk of damage from outside
forces. See ECF No. 543-2 (Second Declaration of
John F. Godfrey), ¶ 40; ECF No. 520-1 (Declaration of
Michael C. Aubele), ¶ 8. In addition, Dakota Access
reports that no spills have occurred at Lake Oahe or
anywhere else along DAPL’s nearly 1,200-mile mainline since the pipeline commenced operations nearly
four years ago. See Godfrey Suppl. Decl., ¶ 3e; ECF
No. 585-6 (Fifth Declaration of Todd Stamm), ¶ 4. The
Tribes do not dispute that record, instead pointing to
several spills on a different pipeline operated by Energy Transfer (DAPL’s owner), along with a few minor
incidents at Dakota Access facilities (as opposed to the

877a
mainline), the spilled oil from which was all remediated. See Pl. Mot. at 14 (citing ECF No. 527-5 (Third
Declaration of Donald Holmstrom), ¶¶ 14,18); Godfrey 2d Decl., ¶ 6; DA Opp. at 14. An early declaration
from one of Plaintiffs’ own experts, moreover, indicates that a DAPL mainline spill is even less probable
today than during its (incident-free) start-up phase,
as “pipelines are mostly likely to leak or fail when they
are brand new.” ECF No. 272-2 (Third Declaration of
Richard B. Kuprewicz), ¶¶ 9-10; see also Godfrey 2d
Decl., ¶ 20. These historical data, when combined
with the numerous safety measures in place at Lake
Oahe, see ECF No. 562-5 (8/20/20 Ltr. from Dakota
Access Counsel to Plaintiffs’ Counsel) at 2 (listing
some), suggest that the chance of a spill at the crossing is especially unlikely.
The Tribes face similar challenges when it comes
to the remaining links in the aforementioned causal
chain. With respect to the size of any pipeline leak
under Lake Oahe—should one occur—their present
briefing never rebuts Dakota Access’s evidence that,
in light of historical spill data and DAPL’s leak-detection and shutdown systems, the probability of any
large spill is relatively low. See DA Opp. at 15-16.
Nor do they acknowledge additional safety features
recently added at Lake Oahe, including backup power
for remotely actuating local shutoff valves in the event
of a primary-power failure. See Stamm 5th Decl., ¶ 7.
While Plaintiffs gesture at Dakota Access’s “plans” to
increase the pipeline’s throughput, see Pl. Mot. at 18,
they have not explained precisely how any such occurrence would measurably augment the likelihood of a
large spill, nor offered any information suggesting
that a significant increase in oil flow is imminent.

878a
Even if a large leak did occur underneath the lake,
moreover, the oil would have to rise more than 90
feet—roughly the length of an NBA basketball court—
through a collection of low-permeability deposits, sediments, and clay before reaching the lakebed. See
Aubele Decl., ¶ 15. That is no easy journey. Indeed,
according to the Corps’ remand analysis, the deep, underground HDD installation “virtually eliminates the
ability of a spill to interact with the surface water.”
ECF No. 407-1 (Remand Analysis Record) at 58 (alteration omitted); see also Aubele Decl., ¶ 15 (similar);
ECF No. 520-3 (Declaration of Todd Stamm), ¶ 41.
Plaintiffs, once again, never acknowledge these physical barriers. Finally, the Tribes do not here account
for Dakota Access’s PHMSA-approved response plans,
which are aimed at promptly mitigating and remediating any large hypothetical spill that might reach the
lake. See Stamm Decl., ¶¶ 19-23; Aubele Decl., ¶ 22;
cf. Manzanita Band of Kumeyaay Nation v. Wolf, 496
F. Supp. 3d 257, 264-65 (D.D.C. 2020) (finding plaintiff’s irreparable-harm argument “undermined by . . .
measures in place” to “mitigate” any such harm, including surveys, re-surveys, consultation, and additional protocol).
Whether framed in terms of likelihood or imminence, Plaintiffs have not made a successful showing
of irreparable harm based on the threat of an oil spill
at Lake Oahe. Not only do they fail to engage with
Dakota Access’s evidence that a large, damaging, irremediable spill is unlikely, they never actually point to
evidence suggesting that such an incident is likely.
That will not do. The “burden is on the Tribe[s] to indicate why” the flow of oil “must be enjoined to prevent
an injury likely to occur to [them].” Standing Rock

879a
Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing
Rock I), 205 F. Supp. 3d 4, 36 (D.D.C. 2016); see also
Wis. Gas, 758 F.2d at 674 (explaining that movant
must “substantiate the claim that irreparable harm is
‘likely’ to occur” with affirmative “proof,” not just
“[b]are allegations of what is likely to occur”). Without
such substantiation, each successive link in Plaintiffs’
chain of events—along with the ultimate outcome
they fear—appears far too “hypothetical” to support
an award of injunctive relief. Wis. Gas, 758 F.2d at
675; see also Cuomo v. U.S. Nuclear Regulatory
Comm’n, 772 F.2d 972, 976 (D.C. Cir. 1985) (deeming
likelihood of irreparable harm “too small” where
plaintiffs “only vaguely sketch[ed] the contours of
th[e] asserted harm”); Bill Barrett Corp. v. U.S. Dep’t
of Interior, 601 F. Supp. 2d 331, 335-36 (D.D.C. 2009)
(no irreparable harm where “the weight of the evidence is, at best, inconclusive as to whether” injury “is
likely to occur”).
It so happens that another court in this district
has encountered a similar argument from plaintiffs in
comparable circumstances—to wit, that operation of a
particular pipeline “risks a devastating oil spill that
would be damaging to nearby communities” and that
such “harm is sufficient to warrant an injunction.” Sierra Club, 990 F. Supp. 2d at 41. There, as here, the
movants insisted that a potential spill “poses an unacceptable risk” to water supplies. Id. at 41 n.18; see,
e.g., Pl. Mot. at 11 (quoting ECF No. 527-8 (Declaration of Patrick S. Flanders), ¶¶ 9, 20 (same exact language)). Judge Ketanji Brown Jackson, however,
found such assertions insufficient to establish irreparable harm because the plaintiffs “have not shown
that a damaging oil spill is likely to occur.” Sierra

880a
Club, 990 F. Supp. 2d at 41. In other words, because
“the harms that an oil spill might potentially someday
cause . . . are not certain,” they could not “satisfy the
‘irreparable harm’ standard.” Id.; see also Sierra Club
v. U.S. Army Corps of Eng’rs, 482 F. Supp. 3d 543, 559
(W.D. Tex. 2020) (rejecting irreparable-harm argument based on “a series of assumptions” that “tends
toward speculation”—namely, “that a similar drilling
accident is likely to happen again at a water crossing,
that drilling fluid will be released, that drilling fluid
will cause harm, and that the harm will be irreparable”); City of Austin v. Kinder Morgan Tex. Pipeline,
LLC, 447 F. Supp. 3d 558, 570-71 (W.D. Tex. 2020)
(rejecting irreparable-harm argument where “the conditions required for that harm to occur are neither imminent nor reasonably certain” and where plaintiffs’
posited “causal chain becomes increasingly attenuated by surmise and speculation”). The same is true
in this case.
Rather than actively disputing the low likelihood
of a damaging spill and offering evidence to the contrary, the Tribes’ briefing gestures back to this Court’s
summary-judgment ruling, which determined that expert commenters had identified “serious gaps in crucial parts of the Corps’ analysis” regarding the effectiveness of the pipeline’s leak-detection system, its operator’s less-than-sterling safety record, and the
agency’s worst-case-discharge calculation. See Pl.
Mot. at 10 (quoting Standing Rock VI, 440 F. Supp. 3d
at 26). That tack, however, confuses the evidentiary
showing required at summary judgment with the distinct and lofty burden they encounter here. While the
existence of “unresolved scientific controversy” and

881a
“unanswered” questions in the Corps’ published materials could win the Tribes a remand for preparation
of an EIS under NEPA on the ground that such issues
made the easement approval “highly controversial,”
Standing Rock VI, 440 F. Supp. 3d at 8, 17, it does
little to establish a likelihood that the Tribes will suffer imminent, irremediable harm at Lake Oahe from
the pipeline’s continued operation. Put differently,
Plaintiffs cannot simply fall back on their evidentiary
proffer at summary judgment and this Court’s concomitant conclusions, as that stage involved a different legal inquiry than does the present.
So, too, with their invocation of last year’s vacatur
proceedings. For instance, the Tribes contend that the
Court “has already considered all th[e] evidence” of
low spill risk cited by Dakota Access “and nonetheless
found that shutting down the pipeline was warranted
under a vacatur standard.” Pl. Reply at 15. This
Court’s vacatur Opinion, however, did not have cause
to explore the likelihood of a damaging pipeline spill
in any capacity; it instead turned on “the serious deficiencies in the Corps’ decision not to prepare an EIS”
and “the disruptive consequences” that might follow a
shutdown order. See Standing Rock VII, 471 F. Supp.
3d at 82 (citing Allied-Signal v. U.S. Nuclear Regulatory Comm’n, 988 F.2d 146, 150-51 (D.C. Cir. 1993)).
Notwithstanding that ruling, the Court of Appeals has
since made clear that this Court may only order an oil
stoppage upon finding that (among other things) the
Tribes will likely experience irreparable harm absent
such relief. The prior vacatur holding has little relevance to that question.
Nor can Plaintiffs argue that, regardless of the
“precise extent” of the risk of a spill, they “have made

882a
the requisite showing that DAPL has cut corners on
safety, thereby exacerbating the risks of a dangerous
enterprise, which supports injunctive relief.” Pl. Reply at 15. The mere fact that an injunction would
cause a “reduction in risk” is insufficient “to establish
that irreparable harm is likely in the absence of an
injunction.” Ctr. for Biological Diversity, 480 F. Supp.
3d at 251. It is precisely that latter showing that they
have not made out. Similarly, they cannot point to the
Corps’ NEPA violation as somehow discharging or
lowering the “very high bar” they must clear in proving a likelihood of irreparable injury. Coal. for Common Sense, 576 F. Supp. 2d at 168; see Brady Campaign to Prevent Gun Violence v. Salazar, 612 F.
Supp. 2d 1, 24 (D.D.C. 2009) (“[A] procedural violation
of NEPA is not itself sufficient to establish irreparable
injury . . . .”). To the extent that the agency’s incomplete environmental evaluation deprived the Tribes of
certain information that might aid their case, see Pl.
Mot. at 13, “[b]y definition,” such “uncertainty falls
short of the type of actual and imminent threat
needed to show irreparable injury.” Cal. Ass’n of Pvt.
Postsecondary Schs. v. DeVos, 344 F. Supp. 3d 158,
172 (D.D.C. 2018) (citing Wis. Gas, 758 F.2d at 674).
The absence of information regarding potential environmental harm is a far cry from affirmative evidence
of irreparable injury. Contrary to the Tribes’ formulation, the question is not whether “the Corps . . . can[]
assure that [an irremediable spill] will not occur,” Pl.
Mot. at 14 (emphasis added), but rather whether they
can establish a likelihood of such harm. Indeed, no
lesser authority than the Supreme Court has expressly rejected the argument that there is a “thumb
on the scales” favoring injunctive relief—or a shifting

883a
of the burden of proof therefor—when an agency runs
afoul of NEPA. Monsanto, 561 U.S. at 157.
At times, the Tribes adopt a different approach.
Seemingly acknowledging that damage from a large
oil spill at Lake Oahe is of “lower probability,” they
maintain that an injunction is nonetheless warranted
because any such spill would be “devastating” and
have “catastrophic consequences.” Pl. Mot. at 9-11.
This Court, Plaintiffs volunteer, should take it upon
itself to “exercise [its] equitable discretion to balance
the probability and the consequences of harm on the
facts of’ the case before it. Id. at 11. Such invitation
notwithstanding, the Court must take the law as it
finds it. And the law requires that irreparable injury
be “likely in the absence of an injunction,” Winter, 555
U.S. at 22, and “of such imminence that there is a
clear and present need for equitable relief to prevent”
it. Chaplaincy of Full Gospel Churches, 454 F.3d at
297 (quoting Wis. Gas., 758 F.2d at 674) (cleaned up).
The D.C. Circuit has provided no exception to these
longstanding principles for harms that are of remote
possibility but of great potential effect. Indeed, in an
earlier stage of the present litigation, the Court spoke
to this very issue:
Although the potential injury may be significant, the Tribe must show that it is probable
to occur in the absence of the preliminary injunction it now seeks. . . . This is the burden
the law imposes for this form of relief. The
Court must faithfully and fairly apply that
standard in all cases, regardless of how high
the stakes or how worthy the cause.

884a
Standing Rock I, 205 F. Supp. 3d at 33-34 (citing Winter, 555 U.S. at 22). So too here. See Sierra Club, 990
F. Supp. 2d at 41 & n.18 (notwithstanding plaintiff’s
argument that pipeline operation “risks a devastating
oil spill that would be damaging to nearby communities” and “threaten [their] survival,” no irreparable
harm because plaintiffs “have not shown that a damaging oil spill is likely to occur”) (citation omitted);
Nat. Res. Def. Council v. Kempthorne, 525 F. Supp. 2d
115, 126 (D.D.C. 2007) (deeming irreparable harm not
“likely” given its remote chance of occurring, even
though alleged potential harm was severe).
None of Plaintiffs’ cited cases from this district
finding a likelihood of irreparable harm remotely suggests otherwise. See, e.g., Nat’l Ass’n of the Deaf v.
Trump, 486 F. Supp. 3d 45, 58 (D.D.C. 2020) (“little
debate” that irreparable harm established where
plaintiffs were denied access to critical health information in midst of COVID-19 pandemic, thus hampering their ability to protect themselves against virus
that had already infected millions); Brady, 612 F.
Supp. 2d at 25 (finding likelihood of irreparable harm
given “almost universal view” that agency action “will
have some environmental impacts,” even if “extent” of
such harm was “not fully known”); Ctr. for Biological
Diversity, 480 F. Supp. 3d at 251-52 (deploying “probabilistic reasoning” to determine that irreparable injury was “likely” in absence of injunction). Nor does
their non-binding, out-of-circuit precedent move the
ball. See, e.g., Michigan v. U.S. Army Corps of Eng’rs,
667 F.3d 765, 785-86, 789 (7th Cir. 2011) (irreparable
harm would “likely . . . come to pass” where invasive
carp were already “knocking on the door” to Great

885a
Lakes, where carp had demonstrated ability to “dominate” ecosystems, and where threat “may be increasing with each day that passes”); Greater Yellowstone
Coalition v. Flowers, 321 F.3d 1250, 1258 (10th Cir.
2003) (pre-Winter case requiring only “significant
risk” of irreparable harm); Van De Sande v. Van De
Sande, 431 F.3d 567, 568-70 (7th Cir. 2005) (Hague
Convention case unrelated to irreparable harm). At
bottom, the Tribes have not put forth a single case involving an improbable and remote future harm—let
alone of the degree present here—that somehow satisfied the irreparable-injury requirement on account
of its great potential magnitude.
To be sure, the concept of irreparable harm “does
not readily lend itself to definition.” Wis. Gas, 758
F.2d at 674. The Court does not gainsay that the extent or severity of a potential future harm may factor
into the irreparable-injury calculus. Neither does it
hold that a plaintiff cannot establish irreparable harm
absent a “specific finding that the threatened harm
was more likely than not.” Pl. Reply at 14. Indeed, it
readily acknowledges that courts have found the requirement satisfied without undertaking a “statistical
analysis to calculate the precise likelihood” of future
injury. See Pl. Mot. at 12. The Court does not purport
to know the precise probability of a damaging, irremediable oil spill at Lake Oahe. What it does know, however, is that the law requires the Tribes to make a
“clear showing” that such harm is at least “likely” in
the absence of an injunction. Winter, 555 U.S. at 22;
see also Monsanto, 561 U.S. at 162 (requiring “present
or imminent risk of likely irreparable harm”). While
the concept of “likelihood” may blur around the edges

886a
in certain hypothetical applications, the above discussion renders abundantly plain that—at least at present—Plaintiffs have not come close to discharging
this burden. All they have shown, rather, is a mere
“possibility” of injury—and a fairly minimal one at
that. This cannot get them over the hump. No matter
the stakes and no matter the cause, courts may not
grant the “extraordinary remedy” of an injunction
“based only on a possibility of irreparable harm.”
Winter, 555 U.S. at 22.
2.

Other Claimed Harms

Apart from the risk of a damaging oil spill, the
Tribes assert two other harms that require somewhat
less discussion. They maintain that they are irreparably injured by “the ongoing trauma of the government’s refusal to comply with the law,” as well as the
“undermining [of] the Tribes’ sovereign governmental
role to protect their members and respond to potential
disasters.” Pl. Mot. at 1, 14-18. Neither tack finds the
wind.
The problem with both is simple: they depend on
the same remote threat of a pipeline spill that the
Court has just found insufficient to constitute irreparable injury. Consider the first. According to Plaintiffs, they are irreparably injured from “the impacts of
living under the existential threat of a pipeline [oil
spill]” in the form of “anxiety, trauma, and stress.” Id.
at 15. In the words of the Cheyenne River Sioux
Tribe’s historic preservation officer, such emotional
harms stem from the “looming threat of seepage, leak,
and rupture,” which “inflicts ceaseless anxiety upon
us that will not end until the pipeline is removed.” Id.
(quoting ECF No. 527-10 (Declaration of Steve

887a
Vance),¶17); see also id. (arguing that Tribes’ “sense
of safety is compromised by the operation of the pipeline”); id. at 16 (referencing “stress of living under an
existential catastrophe”). The Court does not doubt
the sincerity of these feelings. As Judge Jackson explained in Sierra Club, however, the fact that “some
of the people who live in areas near the pipeline . . .
are sincerely worried about the harm that an oil spill
might cause” does not constitute irreparable harm absent a showing that “a damaging oil spill is likely to
occur.” 990 F. Supp. 2d at 41; see also Wis. Gas, 758
F.2d at 674 (“Injunctive relief will not be granted
against something merely feared as liable to occur at
some indefinite time.”) (citation and internal quotation marks omitted). As no damaging, irremediable
spill at Lake Oahe is likely to occur here, the Tribes
cannot establish irreparable injury simply by raising
their fear of a hypothetical future spill. Were it otherwise, the irreparable-harm bar would not be much
of a bar at all.
Plaintiffs’ reliance on Fund for Animals v. Norton,
281 F. Supp. 2d 209 (D.D.C. 2003), is misplaced for the
same reason. There, the plaintiffs made a showing of
irreparable injury based in part on emotional distress
from their contemplation of the government’s impending killing of hundreds of swans. Id. at 221-22. As
multiple courts have subsequently explained, however, when the risk of the feared harm from the
agency action in question is “low,” plaintiffs cannot
claim irreparable injury from any “emotional distress”
surrounding the prospect of that speculative harm.
See Colo. Wild Horse, 130 F. Supp. 3d at 220 (distinguishing Fund for Animals); see also Friends of Animals v. U.S. Bureau of Land Mgmt., 232 F. Supp. 3d

888a
53, 66 (D.D.C. 2017) (“Plaintiff’s observation or contemplation of the possible—though unlikely—physical harm that [animals] may suffer [from agency action] does not rise to the level of a ‘certain and great’
irreparable injury.”) (quoting Wis. Gas, 758 F.2d at
674); Manzanita Band, 496 F. Supp. 3d at 267 (“The
[Tribe] only cite[s] . . . concerns and fears about the
Projects’ effect on the sacred sites, not any evidence
that injuries are likely to occur. While sincere, [these]
sentiments do not meet the required showing for a
preliminary injunction.”) (citation omitted). That
principle controls here: the Tribes’ anxiety and
trauma regarding a hypothetical damaging spill at
Lake Oahe do not constitute irreparable harm where
they have not demonstrated a likelihood of any such
spill.
Plaintiffs adopt a slightly different approach in
their Reply brief, more directly emphasizing a related,
but ultimately distinct, type of emotional injury. Specifically, they claim that “allowing the pipeline to continue operating despite a serious NEPA violation is
part of a pattern” of “historic trauma” experienced by
“every Tribal member,” one deriving from the government’s “continued refusal to respect the rights of the
Tribes throughout the nation’s history” and its “prioritizing non-Indians” at the expense of Tribal members. See Pl. Reply at 17 (cleaned up) (quoting ECF
No. 569-5 (Fourth Declaration of John Eagle, Sr.),
¶ 13). The Court does not deny that shameful past.
On the contrary, it fully acknowledges and appreciates the “tragic history of the Great Sioux Nation’s repeated dispossessions at the hands of a hungry and
expanding early America,” along with the persistent
“threat that new injury will compound old.” Standing

889a
Rock I, 205 F. Supp. 3d at 33. Plaintiffs’ argument
based on ongoing, compounding historical trauma,
however, does not qualify as irreparable harm within
the context of this case.
The Tribes, critically, never explain how their asserted trauma—at least as it pertains to the pipeline—exists independent of the threat of an oil spill.
In other words, the issue is not the mere existence of
a buried pipe or the flow of oil within it. The culprits,
rather, are the risk of a spill that inevitably accompanies the pipeline’s operation and Plaintiffs’ belief that
the Government has forced them to bear that risk for
the benefit of non-Tribal interests. See Pl. Reply at 17
(referencing “compounding impact of prioritizing nonIndians who privatize benefits but socialize risks on
the backs of the Tribes”); Eagle 4th Decl., ¶ 13 (discussing, in context of “historic trauma,” pain caused
by fact that pipeline “gets to keep operating, exposing
us to risk and stress of catastrophe”). Once more,
then, this variant of the Tribes’ earlier trauma-based
arguments cannot be meaningfully disentangled from
the remote threat of an oil spill at Lake Oahe that does
not independently constitute irreparable harm. Nor
do Plaintiffs explain how shutting down the pipeline
would remedy these “longstanding,” deep-rooted feelings stemming from the “continued refusal to respect
the rights of the Tribes throughout the nation’s history.” Pl. Reply at 17; see Standing Rock I, 205 F.
Supp. 3d at 34 (finding no irreparable harm where
harm was “destined to ensue whether or not the Court
grants the injunction the Tribe desires”); Wis. Gas,
758 F.2d at 674 (explaining that party seeking injunction “must show that the alleged harm will directly

890a
result from the action which [it] seeks to enjoin”) (emphasis added).
Plaintiffs’ second claimed harm founders for similar reasons as the first. According to the Tribes, “[T]he
Corps’ NEPA violations have undermined [their] sovereign governmental role to protect their citizens, respond to disasters, and mitigate harm.” Pl. Mot. at
16-17. It soon becomes clear, however, that these governance-based harms are once again derivative of the
same speculative spill-risk harms handled above. See
Pl. Reply at 18 (“[A]ny mistake by the Corps or DAPL
immediately would become the Tribe’s problem, impact its core functions, and threaten the citizens
whom the Tribe is responsible for.”); id. (arguing that
“a spill would immediately and indisputably interfere
with the Tribe’s sovereignty over its land”); Pl. Mot. at
18 (referencing potential spill hindering ability of
Tribe to protect “sacred and ceremonial sites that
would be at risk”); id. (discussing challenges in “spill
response planning” and guarding against “risks and
impacts” of potential spill). To the extent the Tribes
assert injury arising from the process of “planning for”
a potential pipeline leak and the “scarce resources”
they devote thereto, see Pl. Reply at 18, moreover,
such “present costs and burdens” stemming from a
course undertaken to guard against a “speculative
threat” cannot form the basis for irreparable harm.
See Clapper v. Amnesty Int’l USA, 568 U.S. 398, 416
(2013) (rejecting similar argument in Article III injury-in-fact context). Finally, DAPL itself does not implicate any “loss of sovereignty over Tribal land,” Pl.
Mot. at 17, as the Lake Oahe segment traverses only
federal property. Standing Rock III, 255 F. Supp. 3d
at 114.

891a
*

*

*

As the Tribes have not carried their burden to
demonstrate a likelihood of irreparable injury absent
an injunction, the Court must deny them the relief
they seek. It does not reach that conclusion lightly.
Fully aware of the unshakable indignities visited
upon the Tribes across generations, the Court, as it
has throughout this litigation, scrutinizes the record
with care. It likewise acknowledges the quandary in
which Plaintiffs find themselves and the undeniable
frustration that comes with it—namely, having
achieved (and successfully defended on appeal) the vacatur of a key pipeline easement, they must now turn
around and make an even steeper showing to obtain
the injunctive relief necessary to stop the flow of oil.
As the preceding discussion demonstrates, establishing the harm necessary to earn this relief in circumstances such as the present is a tall task indeed. Yet,
where the Court of Appeals has required that the
Tribes put forth a particular showing before securing
any order shutting down the pipeline, this Court must
hold them to that showing, no matter how lofty the
bar.
The Court closes this analysis where it began:
with the Corps. Plaintiffs, no doubt, will wish that the
Court’s Opinion today had come out differently.
Simply by ruling, however, the Court has at least
given them something the Corps has not: a decision.
Notwithstanding repeated instruction from this Court
and the D.C. Circuit to “decide promptly” and “in the
first instance” how it “will enforce its property rights”
vis-a-vis the pipeline’s encroaching on federal land at
Lake Oahe, the Corps has not yet issued any determination on the matter at all—more than ten months

892a
since the invalidation of the underlying easement.
Standing Rock IX, 985 F.3d at 1054. Much like the
Circuit, this Court presently “ha[s] no occasion to consider” whether, by way of such inaction, the Corps has
effectively granted “a de facto outgrant without engaging in the NEPA analysis that the Corps concedes
such an action requires.” Id. For now, it suffices to
note that by ducking the controversy surrounding the
Oahe crossing, the Corps actively tolerates DAPL’s
continued operation underneath a key federal waterway that it lacks the necessary authorization to traverse. That, of course, is a political decision outside
this Court’s area of inquiry. Whether the Corps formally acknowledges such decision or not, this is the
outcome it now owns.
C. Section 408 Permit
One final issue merits mention. Although the majority of the Tribes’ opening brief concerns their bid for
injunctive relief, a single paragraph requests something entirely different—to wit, “clarification” from
the Court that its vacatur order from last July was not
limited to the Mineral Leasing Act easement but also
included the permit issued under Section 408 of the
Rivers and Harbors Act. See Pl. Mot. at 6-7. As a
reminder, Dakota Access was required to—and in
July 2016 did—obtain such permit, which authorized
it to lay the pipeline underneath Lake Oahe. See
Standing Rock III, 255 F. Supp. 3d at 114,116; 33
U.S.C. § 408(a) (making it unlawful to alter or make
use of certain public works absent determination that
occupation will not impair their usefulness or be injurious to public interest); Section 408 Decision Package
at ECF pp. 3-4,6-7. While the Court last year vacated
the MLA easement pending the Corps’ completion of

893a
an EIS, it said nothing in either its summary-judgment or vacatur Opinion about the status of the separate Section 408 permit (which the Tribes now maintain “indisputably relied on the invalidated environmental assessment” and thus cannot stand). See Pl.
Mot. at 6-7.
It quickly becomes clear why Plaintiffs request
this additional “clarification.” According to them,
“[V]acatur of the § 408 regulatory authorization would
mean the pipeline could not continue operations,”
thus excusing them from the need to satisfy the traditional injunction criteria before obtaining such relief.
Id. at 7. Nowhere across their briefing, however, do
they begin to explain why vacatur of the Section 408
permit would yield that result. Indeed, the opposite
appears true. As the Government clarifies, “[T]here is
no federal permit required to operate a crude oil pipeline,” nor does the Corps regulate such operation. See
Corps Opp. at 4; see also Federal Appellant’s Reply
Brief at 15 & n.3 (D.C. Cir. Sept. 30,2020) (explaining
that Dakota Access “do[es] not need a permit or license from the Corps to operate [DAPL] because the
Corps does not regulate the operation of oil pipelines”
and contrasting natural-gas pipelines, operation of
which is regulated by federal agency); DA Opp. at 24
(noting that “oil pipelines need no federal license to
operate”). The Section 408 permit, rather—much like
the MLA easement—simply denotes the Corps’ approval of Dakota Access’s plans to site the pipeline on
federal property, thereby altering the prior federal design. See Section 408 Decision Package at ECF pp. 34,6-7. It follows that any potential vacatur of such
permit—again like the easement—could not by itself
bring about a shutdown in pipeline operations. See

894a
Standing Rock IX, 985 F.3d at 1054 (holding that
mere vacatur of DAPL’s federal authorization to cross
government property could not itself stop flow of oil
absent independent findings necessary for injunctive
relief).
As the Tribes have offered no grounds for concluding that vacatur of the Section 408 permit would put
them in a different place from where they are now—
i.e., in need of an injunction to close the pipeline—the
Court declines to entertain their alternative bid to expand its prior order. That course seems all the more
prudent in the absence of more dedicated briefing exploring precisely how this Court’s summary-judgment
and vacatur Opinions bear on Plaintiffs’ request.
III. Conclusion
For the aforementioned reasons, the Court will
deny Plaintiffs’ Motion for Clarification and a Permanent Injunction. A separate Order so stating will issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: May 21, 2021

895a
____________________
APPENDIX K
____________________
United States Court of Appeals
for the District of Columbia Circuit
No. 20-5197

September Term, 2020
1:16-cv-01534-JEB
Filed on: April 23, 2021

STANDING ROCK SIOUX TRIBE, ET AL.
Appellees
v.
UNITED STATES ARMY CORPS OF ENGINEERS,
Appellee
DAKOTA ACCESS LLC,
Appellant

____________

Consolidated with 20-5201
BEFORE: Srinivasan, Chief Judge; Henderson, Rogers, Tatel, Millett, Pillard*, Wilkins, Katsas*, Rao,
and Walker, Circuit Judges; and Sentelle, Senior Circuit Judge
ORDER
Upon consideration of Dakota Access, LLC’s petition for rehearing en banc, and the absence of a request by any member of the court for a vote, it is
ORDERED that the petition be denied.

896a
PER CURIAM
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Kathryn D. Lovett
Deputy Clerk
* Circuit Judges Pillard and Katsas did not participate in this matter.

897a
____________________
APPENDIX L
____________________
STATUTORY PROVISIONS AND
REGULATIONS INVOLVED
Administrative Procedure Act
5 U.S.C. § 702. Right of review
A person suffering legal wrong because of agency
action, or adversely affected or aggrieved by agency
action within the meaning of a relevant statute, is entitled to judicial review thereof. An action in a court
of the United States seeking relief other than money
damages and stating a claim that an agency or an officer or employee thereof acted or failed to act in an
official capacity or under color of legal authority shall
not be dismissed nor relief therein be denied on the
ground that it is against the United States or that the
United States is an indispensable party. The United
States may be named as a defendant in any such action, and a judgment or decree may be entered against
the United States: Provided, That any mandatory or
injunctive decree shall specify the Federal officer or
officers (by name or by title), and their successors in
office, personally responsible for compliance. Nothing
herein (1) affects other limitations on judicial review
or the power or duty of the court to dismiss any action
or deny relief on any other appropriate legal or equitable ground; or (2) confers authority to grant relief if
any other statute that grants consent to suit expressly
or impliedly forbids the relief which is sought.
*

*

*

898a
5 U.S.C. § 706. Scope of review
To the extent necessary to decision and when presented, the reviewing court shall decide all relevant
questions of law, interpret constitutional and statutory provisions, and determine the meaning or applicability of the terms of an agency action. The reviewing court shall—
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of statutory right;
(D) without observance of procedure required
by law;
(E) unsupported by substantial evidence in a
case subject to sections 556 and 557 of this title
or otherwise reviewed on the record of an agency
hearing provided by statute; or
(F) unwarranted by the facts to the extent that
the facts are subject to trial de novo by the reviewing court.
In making the foregoing determinations, the court
shall review the whole record or those parts of it cited
by a party, and due account shall be taken of the rule
of prejudicial error.

899a
*

*

*

Mineral Leasing Act
30 U.S.C. § 185. Rights-of-way for pipelines
through Federal lands
(a) Grant of authority
Rights-of-way through any Federal lands may be
granted by the Secretary of the Interior or appropriate
agency head for pipeline purposes for the transportation of oil, natural gas, synthetic liquid or gaseous
fuels, or any refined product produced therefrom to
any applicant possessing the qualifications provided
in section 181 of this title in accordance with the provisions of this section.
(b) Definitions
(1) For the purposes of this section ‘‘Federal
lands’’ means all lands owned by the United States except lands in the National Park System, lands held in
trust for an Indian or Indian tribe, and lands on the
Outer Continental Shelf. A right-of-way through a
Federal reservation shall not be granted if the Secretary or agency head determines that it would be inconsistent with the purposes of the reservation.
(2) ‘‘Secretary’’ means the Secretary of the Interior.
(3) ‘‘Agency head’’ means the head of any Federal
department or independent Federal office or agency,
other than the Secretary of the Interior, which has jurisdiction over Federal lands.
*

*

*

900a
(f) Regulatory authority
Rights-of-way or permits granted or renewed pursuant to this section shall be subject to regulations
promulgated in accord with the provisions of this section and shall be subject to such terms and conditions
as the Secretary or agency head may prescribe regarding extent, duration, survey, location, construction,
operation, maintenance, use, and termination.
*

*

*

(h) Environmental protection
(1) Nothing in this section shall be construed to
amend, repeal, modify, or change in any way the requirements of section 102(2)(C) [42 U.S.C. 4332(2)(C)]
or any other provision of the National Environmental
Policy Act of 1969 [42 U.S.C. 4321 et seq.].
(2) The Secretary or agency head, prior to granting a right-of-way or permit pursuant to this section
for a new project which may have a significant impact
on the environment, shall require the applicant to
submit a plan of construction, operation, and rehabilitation for such right-of-way or permit which shall
comply with this section. The Secretary or agency
head shall issue regulations or impose stipulations
which shall include, but shall not be limited to: (A) requirements for restoration, revegetation, and curtailment of erosion of the surface of the land; (B) requirements to insure that activities in connection with the
right-of-way or permit will not violate applicable air
and water quality standards nor related facility siting
standards established by or pursuant to law; (C) requirements designed to control or prevent (i) damage
to the environment (including damage to fish and

901a
wildlife habitat), (ii) damage to public or private property, and (iii) hazards to public health and safety; and
(D) requirements to protect the interests of individuals living in the general area of the right-of-way or
permit who rely on the fish, wildlife, and biotic resources of the area for subsistence purposes. Such
regulations shall be applicable to every right-of-way
or permit granted pursuant to this section, and may
be made applicable by the Secretary or agency head to
existing rights-of-way or permits, or rights-of-way or
permits to be renewed pursuant to this section.
*

*

*

National Environmental Policy Act of 1969
42 U.S.C. § 4332. Cooperation of agencies; reports; availability of information; recommendations; international and national coordination
of efforts
The Congress authorizes and directs that, to the
fullest extent possible:
*

*

*

(2) all agencies of the Federal Government shall—
*

*

*

(C) include in every recommendation or report on proposals for legislation and other major
Federal actions significantly affecting the quality of
the human environment, a detailed statement by
the responsible official on—
(i) the environmental impact of the proposed action,

902a
(ii) any adverse environmental effects which
cannot be avoided should the proposal be implemented,
(iii) alternatives to the proposed action,
(iv) the relationship between local shortterm
uses of man’s environment and the maintenance
and enhancement of long-term productivity, and
(v) any irreversible and irretrievable commitments of resources which would be involved
in the proposed action should it be implemented.
Prior to making any detailed statement, the responsible Federal official shall consult with and obtain
the comments of any Federal agency which has jurisdiction by law or special expertise with respect to
any environmental impact involved. Copies of such
statement and the comments and views of the appropriate Federal, State, and local agencies, which
are authorized to develop and enforce environmental standards, shall be made available to the President, the Council on Environmental Quality and to
the public as provided by section 552 of title 5, and
shall accompany the proposal through the existing
agency review processes;
*

*

*

903a
Council on Environmental Quality’s
National Environmental Policy Act
Implementing Regulations
33 C.F.R. pt. 325, App. B (2019)—NEPA Implementation Procures for the Regulatory Program
*

*

*

7. EA/FONSI Document. (See 40 CFR 1508.9
and 1508.13 for definitions)—a. Environmental Assessment (EA) and Findings of No Significant Impact
(FONSI). The EA should normally be combined with
other required documents (EA/404(b)(1)/SOF/FONSI).
‘‘EA’’ as used throughout this Appendix normally refers to this combined document. The district engineer
should complete an EA as soon as practicable after all
relevant information is available (i.e., after the comment period for the public notice of the permit application has expired) and when the EA is a separate document it must be completed prior to completion of the
statement of finding (SOF). When the EA confirms
that the impact of the applicant’s proposal is not significant and there are no ‘‘unresolved conflicts concerning alternative uses of available resources * * *’’
(section 102(2)(E) of NEPA), and the proposed activity
is a ‘‘water dependent’’ activity as defined in 40 CFR
230.10(a)(3), the EA need not include a discussion on
alternatives. In all other cases where are unresolved
conflicts concerning alternative uses of available resources, the EA shall include a discussion of the reasonable alternatives which are to be considered by the
ultimate decision-maker. The decision options available to the Corps, which embrace all of the applicant’s

904a
alternatives, are issue the permit, issue with modifications or deny the permit. Modifications are limited
to those project modifications within the scope of established permit conditioning policy (See 33 CFR
325.4). The decision option to deny the permit results
in the ‘‘no action’’ alternative (i.e., no activity requiring a Corps permit). The combined document normally should not exceed 15 pages and shall conclude
with a FONSI (See 40 CFR 1508.13) or a determination that an EIS is required. The district engineer
may delegate the signing of the NEPA document.
Should the EA demonstrate that an EIS is necessary,
the district engineer shall follow the procedures outlined in paragraph 8 of this Appendix. In those cases
where it is obvious an EIS is required, an EA is not
required. However, the district engineer should document his reasons for requiring an EIS.
b. Scope of Analysis. (1) In some situations, a
permit applicant may propose to conduct a specific activity requiring a Department of the Army (DA) permit (e.g., construction of a pier in a navigable water of
the United States) which is merely one component of
a larger project (e.g., construction of an oil refinery on
an upland area). The district engineer should establish the scope of the NEPA document (e.g., the EA or
EIS) to address the impacts of the specific activity requiring a DA permit and those portions of the entire
project over which the district engineer has sufficient
control and responsibility to warrant Federal review.
(2) The district engineer is considered to have
control and responsibility for portions of the project
beyond the limits of Corps jurisdiction where the Federal involvement is sufficient to turn an essentially
private action into a Federal action. These are cases

905a
where the environmental consequences of the larger
project are essentially products of the Corps permit
action.
Typical factors to be considered in determining
whether sufficient ‘‘control and responsibility’’ exists
include:
(i) Whether or not the regulated activity comprises ‘‘merely a link’’ in a corridor type project (e.g., a
transportation or utility transmission project).
(ii) Whether there are aspects of the upland facility in the immediate vicinity of the regulated activity
which affect the location and configuration of the regulated activity.
(iii) The extent to which the entire project will be
within Corps jurisdiction.
(iv) The extent of cumulative Federal control and
responsibility.
A. Federal control and responsibility will include
the portions of the project beyond the limits of Corps
jurisdiction where the cumulative Federal involvement of the Corps and other Federal agencies is sufficient to grant legal control over such additional portions of the project. These are cases where the environmental consequences of the additional portions of
the projects are essentially products of Federal financing, assistance, direction, regulation, or approval (not
including funding assistance solely in the form of general revenue sharing funds, with no Federal agency
control over the subsequent use of such funds, and not
including judicial or administrative civil or criminal
enforcement actions).

906a
B. In determining whether sufficient cumulative
Federal involvement exists to expand the scope of
Federal action the district engineer should consider
whether other Federal agencies are required to take
Federal action under the Fish and Wildlife Coordination Act (16 U.S.C. 661 et seq.), the National Historic
Preservation Act of 1966 (16 U.S.C. 470 et seq.), the
Endangered Species Act of 1973 (16 U.S.C. 1531 et
seq.), Executive Order 11990, Protection of Wetlands,
(42 U.S.C. 4321 91977), and other environmental review laws and executive orders.
C. The district engineer should also refer to paragraphs 8(b) and 8(c) of this appendix for guidance on
determining whether it should be the lead or a cooperating agency in these situations.
These factors will be added to or modified through
guidance as additional field experience develops.
(3) Examples: If a non-Federal oil refinery, electric generating plant, or industrial facility is proposed
to be built on an upland site and the only DA permit
requirement relates to a connecting pipeline, supply
loading terminal or fill road, that pipeline, terminal or
fill road permit, in and of itself, normally would not
constitute sufficient overall Federal involvement with
the project to justify expanding the scope of a Corps
NEPA document to cover upland portions of the facility beyond the structures in the immediate vicinity of
the regulated activity that would effect the location
and configuration of the regulated activity.
Similarly, if an applicant seeks a DA permit to fill
waters or wetlands on which other construction or
work is proposed, the control and responsibility of the
Corps, as well as its overall Federal involvement

907a
would extend to the portions of the project to be located on the permitted fill. However, the NEPA review would be extended to the entire project, including portions outside waters of the United States, only
if sufficient Federal control and responsibility over the
entire project is determined to exist; that is, if the regulated activities, and those activities involving regulation, funding, etc. by other Federal agencies, comprise a substantial portion of the overall project. In
any case, once the scope of analysis has been defined,
the NEPA analysis for that action should include direct, indirect and cumulative impacts on all Federal
interests within the purview of the NEPA statute.
The district engineer should, whenever practicable,
incorporate by reference and rely upon the reviews of
other Federal and State agencies.
For those regulated activities that comprise
merely a link in a transportation or utility transmission project, the scope of analysis should address the
Federal action, i.e., the specific activity requiring a DA
permit and any other portion of the project that is
within the control or responsibility of the Corps of Engineers (or other Federal agencies).
For example, a 50-mile electrical transmission cable crossing a 11∕4 mile wide river that is a navigable
water of the United States requires a DA permit. Neither the origin and destination of the cable nor its
route to and from the navigable water, except as the
route applies to the location and configuration of the
crossing, are within the control or responsibility of the
Corps of Engineers. Those matters would not be included in the scope of analysis which, in this case,
would address the impacts of the specific cable crossing.

908a
Conversely, for those activities that require a DA
permit for a major portion of a transportation or utility transmission project, so that the Corps permit
bears upon the origin and destination as well as the
route of the project outside the Corps regulatory
boundaries, the scope of analysis should include those
portions of the project outside the boundaries of the
Corps section 10/404 regulatory jurisdiction. To use
the same example, if 30 miles of the 50-mile transmission line crossed wetlands or other ‘‘waters of the
United States,’’ the scope of analysis should reflect impacts of the whole 50-mile transmission line.
For those activities that require a DA permit for a
major portion of a shoreside facility, the scope of analysis should extend to upland portions of the facility.
For example, a shipping terminal normally requires
dredging, wharves, bulkheads, berthing areas and
disposal of dredged material in order to function. Permits for such activities are normally considered sufficient Federal control and responsibility to warrant extending the scope of analysis to include the upland
portions of the facility.
In all cases, the scope of analysis used for analyzing both impacts and alternatives should be the same
scope of analysis used for analyzing the benefits of a
proposal.
*

*

*

40 C.F.R. § 1501.4 (2019). Whether to prepare an
environmental impact statement.
In determining whether to prepare an environmental impact statement the Federal agency shall:

909a
(a) Determine under its procedures supplementing these regulations (described in § 1507.3) whether
the proposal is one which:
(1) Normally requires an environmental impact
statement, or
(2) Normally does not require either an environmental impact statement or an environmental assessment (categorical exclusion).
(b) If the proposed action is not covered by paragraph (a) of this section, prepare an environmental assessment (§ 1508.9). The agency shall involve environmental agencies, applicants, and the public, to the
extent practicable, in preparing assessments required
by § 1508.9(a)(1).
(c) Based on the environmental assessment make
its determination whether to prepare an environmental impact statement.
(d) Commence the scoping process (§ 1501.7), if
the agency will prepare an environmental impact
statement.
(e) Prepare a finding of no significant impact
(§1508.13), if the agency determines on the basis of
the environmental assessment not to prepare a statement.
(1) The agency shall make the finding of no significant impact available to the affected public as
specified in § 1506.6.
(2) In certain limited circumstances, which the
agency may cover in its procedures under §1507.3, the
agency shall make the finding of no significant impart

910a
available for public review (including State and areawide clearinghouses) for 30 days before the agency
makes its final determination whether to prepare an
environmental impact statement and before the action may begin. The circumstances are:
(i) The proposed action is, or is closely similar to,
one which normally requires the preparation of an environmental impact statement under the procedures
adopted by the agency pursuant to § 1507.3, or
(ii) The nature of the proposed action is one without precedent.
*

*

*

40 C.F.R. § 1508.27 (2019). Significantly.
Significantly as used in NEPA requires considerations of both context and intensity:
(a) Context. This means that the significance of
an action must be analyzed in several contexts such
as society as a whole (human, national), the affected
region, the affected interests, and the locality. Significance varies with the setting of the proposed action.
For instance, in the case of a site-specific action, significance would usually depend upon the effects in the
locale rather than in the world as a whole. Both shortand long-term effects are relevant.
(b) Intensity. This refers to the severity of impact.
Responsible officials must bear in mind that more
than one agency may make decisions about partial aspects of a major action. The following should be considered in evaluating intensity:

911a
(1) Impacts that may be both beneficial and adverse. A significant effect may exist even if the Federal agency believes that on balance the effect will be
beneficial.
(2) The degree to which the proposed action affects public health or safety.
(3) Unique characteristics of the geographic area
such as proximity to historic or cultural resources,
park lands, prime farmlands, wetlands, wild and scenic rivers, or ecologically critical areas.
(4) The degree to which the effects on the quality
of the human environment are likely to be highly controversial.
(5) The degree to which the possible effects on the
human environment are highly uncertain or involve
unique or unknown risks.
(6) The degree to which the action may establish
a precedent for future actions with significant effects
or represents a decision in principle about a future
consideration.
(7) Whether the action is related to other actions
with individually insignificant but cumulatively significant impacts. Significance exists if it is reasonable
to anticipate a cumulatively significant impact on the
environment. Significance cannot be avoided by terming an action temporary or by breaking it down into
small component parts.
(8) The degree to which the action may adversely
affect districts, sites, highways, structures, or objects
listed in or eligible for listing in the National Register
of Historic Places or may cause loss or destruction of
significant scientific, cultural, or historical resources.

912a
(9) The degree to which the action may adversely
affect an endangered or threatened species or its habitat that has been determined to be critical under the
Endangered Species Act of 1973.
(10)Whether the action threatens a violation of
Federal, State, or local law or requirements imposed
for the protection of the environment.

